<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2020</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




   COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2020

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              FIRST SESSION

                    ___________________________________

               SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE,
                          AND RELATED AGENCIES

                   JOSE E. SERRANO, New York, Chairman

  MATT CARTWRIGHT, Pennsylvania
  GRACE MENG, New York
  BRENDA L. LAWRENCE, Michigan
  CHARLIE CRIST, Florida
  ED CASE, Hawaii
  MARCY KAPTUR, Ohio

  ROBERT B. ADERHOLT, Alabama
  MARTHA ROBY, Alabama
  STEVEN M. PALAZZO, Mississippi
  TOM GRAVES, Georgia

  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

             Bob Bonner, Jeff Ashford, Matt Smith, BG Wright,
           TJ Lowdermilk, Shannon McCully, and Trisha Castaneda
                            Subcommittee Staff

                          ___________________________________

                                  PART 5

                                                                   Page
  Understanding the Changing Climate 
System and the Role of Climate Research.
                                  ------                                
                                                                      1
                                        
  Executive Office for Immigration 
Review..................................
                                  ------                                
                                                                     63
                                        
  Oversight of the Department of Justice 
Civil Rights Division...................
                                  ------                                
                                                                    117
                                        
  Gun Violence Prevention and 
Enforcement.............................
                                  ------                                
                                                                    205
                                        
  National Science Foundation...........
                                  ------                                
                                                                    261
                                        
  Members' Day..........................
                                  ------                                
                                                                    311
                                        

                                   

                      ___________________________________

          Printed for the use of the Committee on Appropriations
          
          
                        U.S. GOVERNMENT PUBLISHING OFFICE
                
36-826                         WASHINGTON: 2019
         
          
          


                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, Ohio
  PETER J. VISCLOSKY, Indiana
  JOSE E. SERRANO, New York
  ROSA L. DeLAURO, Connecticut
  DAVID E. PRICE, North Carolina
  LUCILLE ROYBAL-ALLARD, California
  SANFORD D. BISHOP, Jr., Georgia
  BARBARA LEE, California
  BETTY McCOLLUM, Minnesota
  TIM RYAN, Ohio
  C. A. DUTCH RUPPERSBERGER, Maryland
  DEBBIE WASSERMAN SCHULTZ, Florida
  HENRY CUELLAR, Texas
  CHELLIE PINGREE, Maine
  MIKE QUIGLEY, Illinois
  DEREK KILMER, Washington
  MATT CARTWRIGHT, Pennsylvania
  GRACE MENG, New York
  MARK POCAN, Wisconsin
  KATHERINE M. CLARK, Massachusetts
  PETE AGUILAR, California
  LOIS FRANKEL, Florida
  CHERI BUSTOS, Illinois
  BONNIE WATSON COLEMAN, New Jersey
  BRENDA L. LAWRENCE, Michigan
  NORMA J. TORRES, California
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
  ED CASE, Hawaii

  KAY GRANGER, Texas
  HAROLD ROGERS, Kentucky
  ROBERT B. ADERHOLT, Alabama
  MICHAEL K. SIMPSON, Idaho
  JOHN R. CARTER, Texas
  KEN CALVERT, California
  TOM COLE, Oklahoma
  MARIO DIAZ-BALART, Florida
  TOM GRAVES, Georgia
  STEVE WOMACK, Arkansas
  JEFF FORTENBERRY, Nebraska
  CHUCK FLEISCHMANN, Tennessee
  JAIME HERRERA BEUTLER, Washington
  DAVID P. JOYCE, Ohio
  ANDY HARRIS, Maryland
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  JOHN H. RUTHERFORD, Florida
  WILL HURD, Texas

                 Shalanda Young, Clerk and Staff Director

                                   (ii)

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2020

                              ----------                              

                                        Tuesday, February 26, 2019.

 OVERSIGHT HEARING: UNDERSTANDING THE CHANGING CLIMATE SYSTEM AND THE 
                        ROLE OF CLIMATE RESEARCH

                               WITNESSES

DR. MICHAEL H. FREILICH, DIRECTOR OF NASA'S EARTH SCIENCE DIVISION
DR. NEIL JACOBS, ASSISTANT SECRETARY OF COMMERCE FOR ENVIRONMENTAL 
    OBSERVATION AND PREDICTION
    Mr. Serrano. The committee will come to order. Good morning 
and welcome to our first CJS hearing of the 116th Congress.
    And I want to take just a moment to clarify something: CJS 
stands for Commerce, Justice, Science, it does not stand for 
Congressman Jose Serrano. [Laughter.]
    I have no committee named after me.
    First, I would like to recognize and congratulate my friend 
and colleague, Mr. Aderholt of Alabama, who will serve as 
ranking member. I look forward to working with you in Congress 
as we make important decisions on what investments to make and 
continue our vital role in conducting oversight, to ensure the 
executive branch is spending taxpayer dollars wisely and 
investing in our nation.
    I also want to welcome back returning members of the 
subcommittee, including our vice chairman, Mr. Cartwright of 
Pennsylvania.
    Mr. Cartwright. Thank you.
    Mr. Serrano. Ms. Meng, from my home state of New York, who 
will be joining us in a little while; Mrs. Roby of Alabama; 
and, Mr. Palazzo of Mississippi.
    Members joining us for the first time are Mrs. Lawrence of 
Michigan; Mr. Crist of Florida; Mr. Case of Hawaii; Ms. Kaptur 
of Ohio, who in her spare time chairs the Energy and Water 
subcommittee; and last, but not least, Mr. Graves of Georgia, 
my colleague and ranking member of the Financial Services and 
General Government subcommittee.
    Welcome, everyone. It is a privilege and honor to serve 
with you in this Congress, and I hope you find the work we do 
on this subcommittee as rewarding as I have. We will agree and 
disagree across many areas, but it remains incumbent upon all 
of us to get a final product out of subcommittee, full 
committee, and through both chambers of Congress that will make 
us proud. I remain committed to meeting the challenges ahead 
and doing that together.
    And I must say, on a personal note, that this has always 
been my favorite committee. I have served as ranking member 
here with Chairman Harold Rogers, and so this is quite a day 
for me. But I have as much desire as my colleagues on the 
Republican side have to make sure that we get a bill out and 
get a bill passed through both Houses.
    And I want to welcome Dr. Neil Jacobs, who serves as 
Assistant Secretary of Commerce for Environmental Observation 
and Prediction, and, as of yesterday, NOAA's Acting 
Administrator--as of yesterday, right, and today? [Laughter.]
    Not the acting. Congratulations.
    In this new role, Dr. Jacobs will oversee NOAA's $5.4 
billion budget, which in addition to including NOAA's Sea, Air, 
Land, and Space Observing Platforms and the critical 
environmental data they provide, it will now also cover the wet 
side of NOAA, and all of its work in fisheries and coastal 
management.
    Prior to joining NOAA, Dr. Jacobs served as Chief 
Atmospheric Scientist at Panasonic Avionics Corporation, was 
Chair of the American Meteorological Society's Forecast 
Improvement Group, and served on the World Meteorological 
Organization's Aircraft Base Observing System expert team.
    Next I also want to welcome Dr. Michael Freilich, who has 
served as the Director of NASA's Earth Science Division in the 
Science Mission Directorate at NASA Headquarters since 2006. 
His creative retooling of the Earth Science Division's approach 
to research has been widely credited with protecting and 
enhancing the agency's vital work.
    Prior to his tenure at NASA, he spent most of his career as 
professor and as Associate Dean at Oregon State University's 
College of Oceanic and Atmospheric Science, and member of the 
technological--technical staff at the Jet Propulsion Laboratory 
in California. This statement is really a test on how well you 
can handle the English language and, being that English is a 
second language too, I am still dealing with it.
    Dr. Freilich, it is my understanding that you will soon be 
retiring from NASA. The agency has giant shoes to fill given 
the many years you have dedicated to this field. Thank you for 
your service to the American people. We wish you well on this 
new and exciting chapter of your life.
    Both NOAA and NASA have critical missions. What they are 
observing both above and below us is affecting us in many ways. 
This hearing will help us learn from two leading experts about 
how climate is changing; how that will impact our country and 
economy in the short and long term; what research these 
agencies are conducting to help prepare us for the future; and 
how strategic investments from our subcommittee will help meet 
those challenges.
    Over the weekend it was reported that the White House plans 
to name an ad hoc group of scientists with alleged ties to the 
fossil fuel industry to refute November's Interagency National 
Climate Assessment Report that I have here. This unaccountable 
working group appears set to deliberately cherry-pick data and 
science with the sole purpose of pushing back against the 
widely accepted science around climate change. Ths only serves 
to diminish the magnitude of this crisis and it is dangerous. 
It also undermines the important climate research being 
conducted by the board of scientists at Federal agencies like 
NOAA and NASA.
    As I have said many times, it is more than evident that our 
climate is changing, and doing so very rapidly. The people of 
Puerto Rico saw this firsthand as they experienced the largest 
national disaster in their history with Hurricane Maria.
    From the droughts fueling wildfires out West in California 
to hurricanes devastating the continental Southeast year after 
year, our Earth is experiencing record temperatures that cause 
extreme weather, affect food supplies, and devastate local 
economies. The Federal Government must have the tools and 
resources it needs to study these changes, so we can prepare 
and respond accordingly. The CJS subcommittee leads the way in 
this effort.
    Gentlemen, it is a privilege to have you join us for this 
important discussion, and to learn from your expertise on this 
subject from the perspective of the agencies you represent. 
And, as I told Mr. Culberson, who was the former chair of this 
committee, if we can't agree that there is climate change, can 
we at least phrase it in this way: something is going on and we 
have to look at it.
    Before we begin, I would like to recognize my friend and 
colleague, and a person I am really looking forward to working 
with in trying to reach agreement as much as possible, so we 
can do the work we have to do, Mr. Aderholt for his opening 
remarks.
    Mr. Aderholt. Thank you, Mr. Chairman, and thanks for 
yielding. Let me first say congratulations to you on your new 
chairmanship, it is well deserved and well earned.
    As most of you in this room know, Mr. Serrano is a very 
hardworking and well-respected member of the Appropriations 
Committee, and I am honored to serve alongside him as ranking 
member. I am thankful for his friendship that we have 
maintained over the many years and look forward to working 
together with him, as well as working in this Subcommittee on 
Commerce, Justice, and Science. And it is my hope that, as we 
enter this new Congress, we will continue to reach across the 
aisle and tackle those tough issues that our constituents face 
each and every day.
    Like the chairman, I would also like to take a moment to 
welcome our witnesses to this subcommittee this morning, Dr. 
Neil Jacobs and Dr. Michael Freilich. Thank you for joining us 
today and your service to NOAA and to NASA both.
    And, as the chairman mentioned, Dr. Jacobs, congratulations 
on being named as Acting Administrator at NOAA, and we look 
forward to working with you in that capacity.
    As we await the arrival of the fiscal year 2020 budget 
request, I want to thank Chairman Serrano for holding this 
oversight hearing. It is important that the committee hold 
these types of hearings to gain a better understanding of the 
priorities and the work of the agencies that are under our 
jurisdiction.
    Today's hearing focuses on the topic of, that is important 
to all of us, climate change. It is not a new issue or an idea, 
and here in Congress we have debated the climate issue for many 
decades. Most of us agree that the climate is changing and we 
want to be good stewards of the Earth, so that our children and 
our future generations can enjoy a healthy environment, but we 
often disagree about the major drivers of climate change, the 
best way to address it and how to prepare for the future.
    As members of Congress, I believe that we should focus on 
fostering innovative ideas to address the changing climate. We 
should be exploring and investing in technologies that reduce 
pollutants and protect the long-term health of our planet, but 
do not impede energy development. After all, Congress should 
promote the all-of-the-above energy solutions policy.
    To succeed, the United States needs a broad portfolio of 
affordable energy technologies to create cleaner energy. A 
priority should be placed on putting forth realistic, market- 
based solutions for the United States dominance of the clean 
energy market.
    Climate solutions need not compromise the American economy 
or put unnecessary stress on the American family. Research 
being done at NOAA and NASA is making significant contributions 
in the advancement of earth science and its applications, and 
it plays a critical role in informing our policymaking efforts. 
Therefore, when it comes to climate research, it is imperative 
that we focus our resources on advancing our space and ground 
observation and measurements to improve data accuracy, 
sustainability, and validity. This will allow us to speculate 
less, gain a better understanding of the complex relationship 
between Earth's changing climate and weather patters, and 
formulate more concrete, long-term climate models.
    Mr. Chairman, I hope today we can have a thoughtful 
dialogue about the observations, models, and scientific 
analysis that NOAA and NASA carry out to better understand this 
ever-changing plant we call Earth. NOAA and NASA's 
technological and scientific abilities apply to us as 
policymakers to understand climate trends, impacts, and risks, 
so that we are equipped with the information to best prepare 
our nation in the future.
    Mr. Chairman, thank you for letting me share my opening 
remarks and, again, to welcome our witnesses that are here 
before us this morning, and I look forward to the testimonies 
and the discussion that lie ahead, and I yield back.
    Mr. Serrano. Thank you, Mr. Aderholt. Thank you.
    Dr. Jacobs, you are recognized, at this time for your 
opening comments.
    Dr. Jacobs. Good morning, Mr. Chairman and members of the 
committee. Thank you for this opportunity to testify at this 
hearing.
    NOAA plays an essential role in advancing scientific 
understanding of Earth's climate system through sustained 
observations, integrated modeling, and interdisciplinary 
research. Accurate observations of the current state of the 
environmental conditions are critical to building a robust and 
reliable time series of historical data that is required to 
enable a more complete understanding of the complex processes 
that regulate Earth's climate.
    NOAA's observing system network extends throughout the 
oceans, measuring key metrics including temperature, currents, 
chemistry, and sea level. Terrestrial observations monitor 
precipitation, soil moisture, land use, vegetation, snow cover, 
glaciers, and sea ice, as well as many derived data sets from 
proxy data.
    NOAA samples the physical and chemical properties of the 
atmosphere through a wide range of systems, from in situ 
observations provided by weather balloons and aircraft, and 
surface instrumentation, to remotely sensed satellite data. 
High quality, uninterrupted, long-term measurements of 
greenhouse gases, aerosols, water vapor, ozone, and ozone-
depleting gases are essential. Quantifying the sources and 
sinks of each of these climate-forcing agents and 
characterizing the roles they play in the climate system are 
vital to advancing the state of knowledge and climate science.
    Throughout collaboration with our NASA colleagues, NOAA's 
Space Weather Prediction Center monitors total wavelength-
integrated energy from sunlight, which is referred to as a 
total solar irradiance. To derive meaningful information on 
trends and interactions from these observations, they must be 
monitored for decades or longer.
    NOAA's climatological predictive capabilities span the 
medium range and sub-seasonal to seasonal and beyond. Our suite 
of prognostic tools can be divided into statistical and 
dynamical models. The monthly to seasonal forecasts come from 
the Climate Forecast System, or CFS, which is based on the 
Global Forecast System, as well as the North American Multi-
Model Ensemble, which is a suite of seven different models. 
This forecast projects out 9 months, but research is being done 
to extend the longer-range predictions out to 24 months.
    Prediction of climate variations, ranging from El Nino and 
Madden-Julian Oscillation, to sudden stratospheric warming 
events altering the polar vortex, provide long-range 
probabilistic guidance on when future conditions will be 
favorable for extreme weather events that impact lives and 
property, from tornados and hurricanes, to cold air outbreaks, 
heat waves, and flooding.
    The next generation CFS will be FV3-based atmospheric model 
that is two-way coupled to an ocean model with increasingly 
realistic representations of physical and chemical 
interactions. The new CFS will be a part of NOAA's transition 
to the unified forecast system, which spans large time scales 
and space scales with a common architecture.
    Decadal forecasts, produced by NOAA's Geophysical Fluid 
Dynamics Laboratory, are used in long-range projections. The 
verification of these models is made using historical analyses 
and reforecasts. In order to extract a meaningful signal, a 
large ensemble of models and substantial high- performance 
computing resources are required.
    In addition to the suite of dynamical models, NOAA runs 
several statistical models. These statistical models include 
canonical correlation analogs, regressions from post-process 
dynamical model output. These are valuable assets, not just as 
predictive tools, but also a means to refine and improve the 
dynamical models.
    In an effort to improve transparency, NOAA makes all of its 
data, from raw observations to post-process model output, 
available to the public via archives preserved at NOAA's 
National Centers for Environmental Information. In addition to 
the data, the source code that is used to process the data is 
also made available. However, much of this existing code lacks 
sufficient documentation and support. This makes experiment 
replication and software change justification challenging for 
those outside the climate science field.
    With limited resources, we believe it is best to focus 
investment on developing more accurate and reliable models. 
Substantial progress has been made over the last several 
decades in observations modeling and understanding, but the 
mission remains incomplete. Key scientific uncertainties limit 
scientists' ability to understand and forecast changes in the 
climate system. Factors responsible for climate- forcing and 
those underlying climate variability need to be better 
characterized and quantified to improve the nation's ability to 
predict the future state of the climate system, including the 
occurrence of extreme events, with more accuracy than today.
    Mr. Chairman, Ranking Member Aderholt, and members of the 
subcommittee, thank you again for inviting me here to testify. 
I would be pleased to answer any questions you may have about 
NOAA's climate programs.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Serrano. Thank you, Dr. Jacobs.
    Dr. Freilich, you are recognized now.
    Dr. Freilich. Chairman Serrano, Ranking Member Aderholt, 
Members, thank you for the opportunity to discuss NASA's roles 
and contributions to understanding our planet, including 
climate research.
    The changing climate has profound impacts and opportunities 
for us and for our adversaries. Global average sea level is 
rising, impacting our nation's coastal infrastructure and the 
more than 100 million people worldwide who today live within a 
meter of sea level. Our satellite measurements show us not only 
how much, but why sea level is changing.
    Average surface temperatures are rising. Since 2000, we 
have seen 18 of the 19 warmest years ever measured. Rising 
temperatures impact agriculture, transportation, disease 
vectors, and ecosystems everywhere.
    Arctic sea ice is decreasing and thinning, and the 
Greenland and Antarctic ice sheets are evolving. NOAA and NASA 
measurements suggest that extreme weather events are becoming 
more frequent and intense.
    Now, NASA measures and monitors these changes from space, 
then we use the measurements and our research programs to 
understand the natural processes that define our environment.
    The changing climate also presents us with profound 
responsibilities. Only humans can alter our present actions 
based on what we think the world will be like generations in 
the future, but NASA does not make policy decisions; rather, we 
take the measurements and conduct the research. NASA makes the 
facts and the understanding available to you, decision-makers, 
to help inform your decisions, and to monitor whether policies 
that you decide upon are having their intended effect.
    Now, the fact that we know with certainty that the climate 
is changing is actually a profound testament to our nation's 
technological and scientific abilities. NASA's and NOAA's 
satellites monitor most of the Earth's natural processes. 
Climate scale trends have all been detected from space.
    Our applied sciences activities transform the measurements 
and the understanding into information products that improve 
lives.
    Now, NASA has 22 Earth-observing research satellite 
missions on orbit, and 14 more are in development for launch 
before fiscal year 2023. Just this past year, in 2018, we 
launched five major Earth missions and instruments, and our 
next launch will be the Orbiting Carbon Observatory-3 to the 
International Space Station in late April.
    Most of our missions involve international and interagency 
collaboration. We collaborate with the U.S. Geological Survey 
on Landsat, and we develop instruments and satellites jointly 
with NOAA. We also work with NOAA, the Navy, and the Air Force 
to transition research products into operational environmental 
predictions.
    Our Earth Science budget supports high-end computing for 
all of NASA, programs for early career scientists, and, 
importantly, the development of Earth system models, including 
global climate models.
    In the applied sciences, the NASA and U.S. Agency for 
International Development program called SERVIR, improves 
environmental understanding and decision-making capacity in 
developing nations. We help our nation and our international 
partners respond to natural disasters. In fiscal year 2018, our 
Disasters Applications program supported U.S. and international 
response to earthquakes and tsunamis, the California wildfires, 
floods and landslides around the world, volcanic eruptions, and 
hurricanes and typhoons.
    We innovate. NASA invests in technology developments and we 
are demonstrating many of those new technologies, on CubeSats, 
little satellite missions. We put Earth-observing instruments 
on the International Space Station, and we are flying satellite 
constellations to demonstrate the observing systems of the 
future.
    We are building instruments, NASA research instruments to 
fly as hosted payloads on commercial satellites in 
geostationary and low-Earth orbit, partnering with the private 
sector to fly on their satellites. And we have contracts with 
three private New Space companies to purchase their Earth-
observing data from small satellite constellations.
    After evaluations, we plan to pursue long-term data-buy 
contracts, benefitting both the government and the private 
sector. And NASA-funded research results and NASA personnel 
were foundational contributors to the Fourth National Climate 
Assessment.
    So, while the largest uncertainties in predicting the long-
term future climate result from our lack of knowledge of future 
human decisions, the satellite observations help us to advance 
Earth system science, and enable better resource management and 
decision-making.
    Only from space can we measure all of the important 
quantities that link all of the space and time scales, and 
understand our complex planet in order to help improve lives.
    Thank you again for this opportunity to discuss NASA's 
activities to observe and understand the Earth, and I too would 
be pleased to respond to questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    Mr. Serrano. Thank you.
    Despite the White House's recent call for a new panel to 
review the science around climate change, the National Climate 
Assessment, along with the Intergovernmental Panel on Climate 
Change's recent report, these are the foremost documents 
explaining the changing climate, and its impacts on the planet 
and society.
    For both witnesses, and if you could please just give me a 
yes or no answer to this, would you agree with that assessment?
    Dr. Jacobs. Well, my agency was one of the 13 agencies that 
signed off on it. So, based on the assumptions that they made 
on the RCP projections, yes.
    Dr. Freilich. And for the same reasons NASA also signed off 
on it and was a foundational contributor; yes.
    Mr. Serrano. Thank you. Now I would like to walk through 
some of the top-level findings of the National Climate 
Assessment.
    From the first two paragraphs of Chapter 1, it begins, 
``Earth's climate is now changing faster than at any point in 
the history of modern civilization, primarily as a result of 
human activities.'' Would you agree or disagree with this 
statement?
    Dr. Jacobs. Certainly, if you remove natural variation like 
ENSO and PDO, then the remaining trend is anthropogenic.
    Dr. Freilich. Yes.
    Mr. Serrano. Continuing from the report, and I quote, ``The 
impacts of global climate change are already being felt in the 
United States and are projected to intensify in the future.'' 
Would you agree or disagree with that statement?
    Dr. Jacobs. All four scenarios, two of which were included 
in NCA4, trend upward; so, yes.
    Dr. Freilich. Yes.
    Mr. Serrano. ``Further, the severity of future impacts will 
depend largely on actions taken to reduce greenhouse gas 
emissions and to adapt to the changes that will occur.'' Would 
you agree or disagree with that statement from the report?
    Dr. Jacobs. It depends on which pathway you actually look 
at. The severity of 8.5 is obviously more severe than the other 
three, but certainly it is an undisputed fact that humans are 
producing the CO<INF>2</INF>. What is not discussed in there is 
the removal of carbon sinks like vegetation.
    So you can also increase the levels of CO<INF>2</INF> by 
removing the sinks.
    Mr. Serrano. Thank you. So you are saying that there is 
human cause, but there are other causes too, is your belief?
    Dr. Jacobs. That is correct. And in most cases humans are 
removing the sinks as well.
    Mr. Serrano. And your answer?
    Dr. Freilich. Basically, yes. On the time scale of the next 
couple of centuries, what we do in terms of putting fossil fuel 
carbon into the atmosphere and not regulating, but removing and 
constraining carbon levels in the atmosphere will be the most 
important thing for defining our planet.
    Mr. Serrano. Thank you.
    Now skipping down to the second paragraph of the report, 
``Climate-related risks will continue to grow without 
additional action.'' Would you agree or disagree with that 
statement?
    Dr. Jacobs. NOAA's role in that report was just providing 
transparent and defendable information as far as the 
atmospheric measurements, so that is beyond the scope of our 
agency.
    Mr. Serrano. That is a yes or a no?
    Dr. Jacobs. That is not what our agency is in charge of.
    Mr. Serrano. Yes, sir.
    Dr. Freilich. A similar answer from NASA. It is our job at 
NASA to make the measurements, to provide the understanding 
based on our research, and then to make that information 
available to you, the policymakers, to inform and guide your 
policy decisions.
    Mr. Serrano. ``Decisions made today determine risk exposure 
for current and future generations that will either broaden or 
limit options to reduce the negative consequences of climate 
change.'' That is another part of the report; would you agree 
with that, yes or no?
    Dr. Jacobs. Well, the report actually discusses that it 
doesn't evaluate the feasibility or socioeconomic assumptions 
with the RCP, so that is also probably beyond the scope of our 
agency.
    Mr. Serrano. Doctor?
    Dr. Freilich. Decisions made today will influence the 
evolution of our climate, yes.
    Mr. Serrano. Thank you.
    Finally, and I quote, ``While Americans are responding in 
ways that can bolster resilience and improve livelihoods, 
neither global efforts to mitigate the causes of climate 
change, nor regional efforts to adapt to the impacts, currently 
approach the scales needed to avoid substantial damage to the 
U.S. economy, environment, and human health and well-being over 
the coming decades.''
    Would you agree on that statement, with that statement, yes 
or no?
    Dr. Jacobs. If the policymakers decide to address this, it 
certainly needs to be done on a global scale, not a regional 
scale.
    Dr. Freilich. And, again, that is quite policy- dependent. 
What we can do at NASA and in NOAA is, based on our 
measurements and our understanding and our models, we can 
present to you the regional and global impacts of potential 
impacts of policies that you may be considering.
    Mr. Serrano. Thank you for indulging me, gentlemen, with 
that, but I felt it was important to get all of that on the 
record. According to the U.S. Government's best scientists, we 
are not doing nearly enough to avoid substantial damage to our 
economy and human health from the impacts of climate change. I 
thank you both for your answers.
    And Mr. Aderholt.
    Mr. Aderholt. Thank you, Mr. Chairman.
    There is a tendency among the general public in the climate 
debate to cite shorter-scale weather events as evidence for and 
against climate change. In your testimonies you said that 
thanks to satellite measurements and scientific analysis, you 
are increasingly able to detect climate threats and separate 
them from the environmental variability we know as weather.
    Can you give us an example of a recent extreme weather 
event of variability that, while not inconsistent with the 
trends you associate with climate threats, you nevertheless 
would distinguish as separate from what you would consider 
evidence of climate change?
    Dr. Freilich. So the intent of the quote that you read was 
to say that we are able to understand the underlying trends in 
the midst of a lot of instantaneous variability, if you will, 
in the quantities that we are measuring. The short-term 
variability is what we call weather, and the longer-term 
variability and trends are related more to climate.
    Now, what we have both said in our testimonies is that the 
changing climate is changing the statistics, the frequency and 
the intensity of weather events. So to say that a particular 
weather event--and studies have been done at the National 
Academies on this--is, quote, ``the result of climate 
changing,'' is not exactly precise. But to look at the sum 
total of weather events, where they are happening--extreme 
events--where they are happening, their magnitudes and their 
frequency, those statistics are being impacted by climate.
    Mr. Aderholt. Dr. Jacobs.
    Dr. Jacobs. So, to add to what Dr. Freilich just said, 
there are two other things.
    So I would separate short-term natural climate variability 
from long-term trends. So, for example, we have an El Nino 
signal; in 1998, there was a very strong El Nino that produced 
extremely high temperatures. So a lot of--and that is still 
something that we would call climate, more climate than 
weather.
    And then there are instances where you are actually looking 
at hurricane intensity and frequency of those, and a lot of 
those studies are actually done by using climate projections. 
So a future projection of what the sea surface temperature of 
water will be like 100 years from now and then running 
hurricane simulations with those projected conditions.
    So the findings based on those studies, some of them show 
increased frequency, some show decreased frequency, most show 
increased intensity, but they are predictions based on 
predictions. So the underlying assumption is that one of those 
particular emissions scenarios will actually materialize.
    Mr. Aderholt. What is, would you say is more difficult for 
scientists to predict, climate trends over the next 50 years or 
weather over the next 50 years?
    Dr. Jacobs. Well, the skill of our weather forecast models 
is really limited to probably 2 weeks or less, but I would 
imagine that the evolution of the forecast skill in the weather 
model is improving quite rapidly. That is something that is an 
initiative of mine that we are working on right now.
    The trends in climate rely on much more complex feedbacks 
and interactions. And so actually predicting changes in climate 
is far more complicated than predicting changes in weather.
    Mr. Aderholt. Dr. Freilich.
    Dr. Freilich. I would agree with Dr. Jacobs on most of 
that. Again, the ultimate sort of 50-to-100-year evolution of 
our climate depends in not insignificant amounts on the policy 
decisions that you will be making, and those are not built into 
our climate predictions.
    Earth is a very complex system; we have Earth system 
models, but, as Dr. Jacobs said, they are all based on 
particular assumptions about what humans will do, as well as 
knowledge that we have generated on the Earth's natural 
processes and their interactions. That makes it a very complex 
prediction system, as Neil said.
    Mr. Aderholt. So, between the two, would you agree that 
climate is more difficult?
    Dr. Freilich. I think so.
    Dr. Jacobs. Yes.
    Mr. Aderholt. All right.
    Dr. Freilich. But you phrased the question as predicting 
weather 50 years from now----
    Mr. Aderholt. Yes.
    Dr. Freilich [continuing]. And I think that is probably--I 
think NOAA would agree that that is probably beyond our 
capabilities.
    Dr. Jacobs. Yeah, I interpreted that to mean weather 
prediction 50 years from now----
    Dr. Freilich. Skill.
    Dr. Jacobs [continuing]. Skill, not a 50-year weather 
prediction.
    Mr. Aderholt. Right. Yes, exactly. [Laughter.]
    That would be a little bit more difficult.
    I yield back.
    Mr. Serrano. Thank you.
    Just to remind everyone, we will rotate from one side to 
the other and speakers will be based on where you were when the 
gavel went down and seniority, but who was here at that time.
    So, with that in mind, and no matter how I try to explain 
it, Mr. Cartwright is next.
    Mr. Cartwright. I am going to take that as a compliment, 
Mr. Chairman.
    Mr. Serrano. It is a compliment.
    Mr. Cartwright. Thank you.
    Dr. Freilich, Dr. Jacobs, thank you for being here today. I 
want to talk about support for the scientific validity of the 
National Climate Assessment first.
    Dr. Jacobs, in describing NOAA's role, you have said, ``We 
have got a job to produce the most accurate, robust, and 
defendable science. Policymakers need to be able to trust the 
science.'' Have I quoted you correctly?
    So are you and your staff faithfully fulfilling this 
responsibility?
    Dr. Jacobs. Yes.
    Mr. Cartwright. And did NOAA sign off on the National 
Climate Assessment? I think you already said so.
    In Chapter 13 of the NCA it says, quote, ``There is robust 
evidence from models and observations that climate change is 
worsening ozone pollution. This poses a significant challenge 
for air quality management.''
    And are those claims backed up by robust and defendable 
science?
    Dr. Jacobs. Everything in there is based on peer- reviewed 
literature.
    Mr. Cartwright. And in Chapter 14 of the NCA it says, 
quote, ``The health and well-being of Americans are already 
affected by climate change,'' unquote, and that health will 
further deteriorate if climate change continues.
    And, again, are those claims backed up by robust and 
defendable science?
    Dr. Jacobs. That is beyond the scope of NOAA's 
jurisdiction.
    Mr. Cartwright. From chapter 16 of the National Climate 
Assessment I read, quote, ``Climate-related disasters in 
developing countries not only have significant regional, local 
and regional socioeconomic impacts, but also set back U.S. 
investments, humanitarian assistance, and national security.''
    Is that claim backed up by robust and defendable science?
    Dr. Jacobs. Well, we monitor the storms, but not 
necessarily the socioeconomic impacts.
    Mr. Cartwright. I will go to you Dr. Freilich. Is that 
claim backed up by robust and defendable science?
    Dr. Freilich. Again, the science on impact is 
extraordinarily complex, but the measurements of inputs and 
forcing is strong and robust and transparent.
    Mr. Cartwright. OK. And, Dr. Freilich, when looking at the 
NCA, would you say that the projected climate change in the NCA 
is based on scientific and peer-reviewed data?
    Dr. Freilich. Absolutely.
    Mr. Cartwright. And does the NCA represent our foremost 
experts, including yours and Dr. Jacobs' most accurate 
estimates of our climate future?
    Dr. Freilich. The NCA is a comprehensive, scientifically 
rigorous analysis and assessment of the available information 
primarily from the U.S. Government, yes.
    Mr. Cartwright. And in fact in your written testimony I 
noted that you both bolded and italicized the words, quote, 
``know with certainty.'' Did I pick that up correctly?
    Dr. Freilich. You did.
    Mr. Cartwright. And that was when you described climate 
change.
    Recently, White House Press Secretary Sarah Sanders 
described the NCA as, quote, ``The most extreme version and it 
is not based on facts,'' unquote.
    So, Dr. Freilich, do you know who is advising Sarah Sanders 
on climate change?
    Dr. Freilich. I do not. NASA and NOAA are--is involved in 
the U.S. Global Change Research Program, that 13-agency 
program. We collaborate across the federal government and help 
to provide assessments such as the NCA----
    Mr. Cartwright. I don't mean to interrupt, but I only have 
5 minutes.
    Dr. Freilich. I'm sorry.
    Mr. Cartwright. Did she check with you before making that 
statement?
    Dr. Freilich No.
    Mr. Cartwright. You, Dr. Jacobs?
    Dr. Jacobs. So----
    Mr. Cartwright. Did she check with you before making that 
statement?
    Dr. Jacobs. No.
    Mr. Cartwright. Okay.
    Dr. Jacobs. The RCP 8.5 was the most extreme scenario, but 
the NCA4 also used 4.5, which is a more medium- range scenario, 
but the impacts attributed to each weren't specifically broken 
out.
    Mr. Cartwright. Is Ms. Sanders' description an accurate 
representation of the NCA, Dr. Freilich?
    Dr. Freilich. Well, as you saw as I was talking perhaps, we 
have made measurements of climate indicators and many aspects 
of the Earth's system, and it is clear that the climate is 
changing from our long history of measurements and our 
transparent and open analyses that are available to everyone.
    Mr. Cartwright. To say that it is not based on facts, is 
that an accurate representation by Sarah Sanders?
    Dr. Freilich. What we present are based on measurements and 
open analyses.
    Mr. Cartwright. And both NASA and NOAA signed off on the 
NCA report; am I correct in that?
    Dr. Freilich. Correct.
    Mr. Cartwright. All right, my 5 minutes are up. I yield 
back, Mr. Chairman.
    Mr. Serrano. Thank you.
    Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman. And, Dr. Freilich, 
thank you for being here today. I want to congratulate you on 
your pending retirement. So, thank you for everything that you 
have done for NASA; your work hasn't gone unnoticed.
    Dr. Jacobs, I also want to thank you for being here today. 
NOAA is a global leader in climate research, observing all the 
world's oceans and major seas. I am proud to represent the 
Mississippi Gulf Coast, which is home to NOAA's National Data 
Buoy Center.
    For my colleagues who don't know, the center records 
crucial ocean data. From hurricane alerts to safeguarding our 
wildlife, Southern Mississippi knows the value of accurate and 
timely climate research.
    So, Dr. Jacobs, can you speak to the important 
contributions the National Data Buoy Center makes to NOAA's 
research?
    Dr. Jacobs. So the buoy data is extremely critical in both 
weather and climate forecasting, because collecting surface 
observations--in surface observations, not space-based 
observations, over the ocean is extremely complicated, because 
you have to physically be there.
    Surface pressure obs are one of the most impactful 
observation that we put in the weather models. And these are 
also observations that we use to cross-check with sea surface 
temperatures that we derive from satellite imaging.
    Mr. Palazzo. Dr. Jacobs, also in your testimony you 
mentioned that implementing the Earth Prediction Innovation 
Center, EPIC, is among NOAA's highest priority; you state that 
it will directly benefit taxpayers.
    Can you elaborate on what the program is and why it is so 
important?
    Dr. Jacobs. Sure. So this particular center accelerates 
research to operations and we are streamlining our modeling 
suite by combining our weather models with the same dynamic 
core as our climate models, and packaging the software in a way 
that can be run by the community. So various universities and 
academic institutions can download and run, and help develop 
and advance this software.
    What we are also doing is porting this code over to cloud-
based architecture, which addresses another problem which we 
have is limited high-performance computing resources. If we are 
able to actually scale research across cloud, we don't have a 
situation where our researchers are constrained to finite 
resources, so they have to execute experiments in series, now 
they can scale their experiments and execute them in parallel, 
which accelerates the research process.
    Mr. Palazzo. Dr. Freilich, this question is for you. You 
noted in your testimony that not all impacts of the changing 
climate are near-term negative, such as lengthening growing 
seasons, but you caution that these changes may 
disproportionately benefit nations other than the U.S., and my 
State of Mississippi is heavily dependent on agriculture.
    So on what or whose economic analysis is this suggestion 
based? And can you explain how growing seasons have changed 
here in the U.S. and what regions of the country, in your 
opinion, will be most impacted?
    Dr. Freilich. Certainly. Before I answer that, let me just 
give one testimonial, additional testimonial to the National 
Data Buoy Center, NDB. Personally, in my research and with 
NASA, we have used critically National Data Buoy Center 
measurements, both to improve the accuracy of satellite 
measurements of winds over the ocean, and to validate and 
thereby decrease uncertainty in those satellite measurements. 
So they really play a critical role, as Dr. Jacobs said.
    To go back to your main question. Perhaps the most recent 
comprehensive analysis was published in mid-September in the 
prestigious journal Nature Climate Change, where they actually 
did a countrywide, country-by-countrywide analysis of a number 
of different scenarios of changing climate. And what they found 
was that, based on various metrics, which are not all that 
important except that they are incredibly robust, they found 
that India, China, the U.S., and Saudi Arabia, surprisingly, 
were the countries that were most vulnerable overall 
economically to the changing climate, and that--in a negative 
way--and that Northern Europe, Canada, and the former Soviet 
Union were most benefitting from the changing climate, 
primarily in those cases because global temperatures or 
temperatures in those regions are lower than economically 
optimal now, but in a warming climate trend the temperatures 
would increase and therefore their economies would become more 
optimal.
    In the United States, the National Climate Assessment 
looked at the impact of warming temperatures, among other 
things, and found that in particular in the Midwest, that was 
probably the most vulnerable area from an agriculture 
standpoint to increasing temperatures. And that indeed the 
climate assessment pointed out that, if things continue on the 
trends that they are on now, that our agricultural, national 
agricultural production might be reduced for climatic reasons 
to sort of mid-1980s levels, unless there were technological 
improvements in both agriculture and the climate trend.
    Mr. Palazzo. Well, thank you, gentlemen.
    I yield back.
    Ms. Meng. Thank you, Mr. Chairman and Mr. Ranking Member, 
for today's hearing, and thank you to the committee staff for 
all the preparation that went into today's discussion.
    I also want to thank both of our witnesses, Dr. Jacobs and 
Dr. Freilich, for being here today, and thank you for your 
commitment to our nation. And I too want to congratulate Dr. 
Freilich for your upcoming retirement.
    Climate change affects our environment, our public health, 
and our national security. Each year, more extreme weather 
incidents affect our nation, causing tragic loss of life and 
economic damage.
    I represent parts of Queens, New York, and it's imperative 
for our district that we have a clear, research-based 
assessment about the effects of climate change.
    My first question is about clean drinking water. In New 
York City, we draw almost all of our drinking water from the 
Catskill and Delaware watersheds. How concerned should we be in 
this country about our freshwater resources?
    Dr. Jacobs. Well, I would certainly be concerned about it. 
Water is an essential natural resource.
    Along those lines, something that NOAA is doing is 
experimenting with aquaculture, and one of the things that we 
found out through some of the aquaculture of various oysters is 
that they actually provide a tremendous amount of water-
filtering capacity.
    Ms. Meng. Are threats like aquifer salination in Florida, 
melting snow in the Rockies, or changes in precipitation and 
evaporation rates for standing bodies of fresh water, something 
that Congress should consider and work on?
    Dr. Freilich. All of those processes that you talked about 
are indeed important and indeed they are all measurable, not 
only in situ, but from space. One of our NASA missions, GRACE, 
and now GRACE Follow-On, makes precise measurements of gravity, 
which can be related to actual changes in aquifer levels. And 
so we can indeed monitor how the aquifer levels are changing 
relative to the natural processes to determine the impacts of 
human activity.
    Dr. Jacobs. Well, I would like to take this opportunity to 
thank you for the support on the NIDIS reauthorization. So a 
lot of this is built into that, as well as the National Water 
Model System.
    So not only is it something, as Dr. Freilich stated, that 
we can observe, we can also predict it. So the snow melt, the 
runoff, that is a lot of things that NOAA is actually running 
computer models on right now to forecast. And we are in the 
process of coupling our atmospheric models to our hydrology 
models, because, of course, you have to know exactly what the 
forecast is for the rain in order to understand where the 
runoff and snow pack will be.
    Ms. Meng. Thank you.
    My other question, Dr. Freilich, prior to joining NASA, you 
were a professor and Associate Dean in the College of Oceanic 
and Atmospheric Sciences at Oregon State University. Given both 
your testimony today, understanding our changing climate and 
research will continue to be very important to our nation's 
economy, well-being, and security.
    What more can Congress do to support STEM education to 
ensure that our nation is producing the best scientists in the 
world?
    And, in the interest of time, if I could ask my second, 
part too. And do you know of any potential gaps in STEM 
education that will affect our ability to track and 
understanding climate change? So what more can Congress do, but 
also our schools and even private corporations?
    Dr. Freilich. So I was going to address the impact of STEM 
not just at the higher levels of education, but throughout our 
system. STEM education, the scientific and logical approach to 
identifying and analyzing issues, is vitally important for our 
national strength as an overall society.
    My personal experience, of course, has been at the upper 
levels of the education area. However, our daughter is a middle 
school biology teacher, and I can't emphasize enough how much 
support for rigorous STEM curriculum throughout the entire 
education system is vital to our nation for both male and 
female students.
    Dr. Jacobs. One of the things that is extremely important 
for what we are doing for not just climate modeling, but 
weather modeling, is finding really qualified software 
engineers, and there is a major shortage in the government labs 
of software engineers for two reasons. The primary reason is we 
can't compete with industry, whether it is the video game 
industry or the coms industry, as far as recruiting and 
benefits and salary.
    The other issue is a lot of these universities are teaching 
software languages that are different than what we use in our 
computer models, and the industry is rapidly evolving in a 
different direction than a lot of the code that we use.
    Ms. Meng. Thank you, I yield back.
    Mr. Serrano. Mrs. Lawrence?
    Mrs. Lawrence. Thank you.
    Mr. Jacobs, I am from Michigan, and we just had a Michigan-
Michigan State game, where do you sit when there is a South 
Carolina-North Carolina game. [Laughter.]
    Dr. Jacobs. So I would have to say I am an ACC person.
    Mrs. Lawrence. Oh, OK.
    Dr. Jacobs. My wife went to Duke, as well as NC State, so--
--
    Mrs. Lawrence. OK, let's get to work here. [Laughter.]
    President Trump has proposed deep cuts to NOAA's Great 
Lakes Environmental Research Laboratory in his previous 
budgets. As you know, I am from Michigan, the third-largest 
source of freshwater in the world.
    Can you tell us about the work of that lab and why it is 
important for the nation to continue funding that program?
    Dr. Jacobs. Well, on the budget cuts, we had to make some 
difficult decisions, because the administration prioritized 
rebuilding the military and making investments in national 
security. So there were reductions, primarily to external 
funding, and we continued to fund the missions that were 
critical that were within the core mission of NOAA.
    The research budget within OAR on the climate side was 98 
million, oceans was 93, and weather was 91. So, despite the 
proposed cuts, climate was still funded more than weather.
    The labs themselves are instrumental in doing model 
development work and forecasting, particularly on things like 
harmful algal blooms, and integrating a lot of the biological 
and ecological models with the hydrological and atmospheric 
models.
    Mrs. Lawrence. So, would you say it is important for the 
nation to continue funding this program? Because as was stated 
by my colleague, freshwater and drinking water is becoming 
almost an emergency level. We must have safe, clean, and 
affordable drinking water to live, and I am very concerned when 
you start talking about reducing that funding. When we talk 
about national security, water is going to be a critical issue 
in America.
    Dr. Jacobs. All of these programs are extremely important 
and it is just--you know, and we are in a situation where we 
had to make some difficult decisions.
    Mrs. Lawrence. I think difficult and the fact that we want 
Americans to live with safe drinking water is a critical issue.
    I want to ask this question to both of you, NASA and NOAA 
provide us with so much global observation data already, but 
where are there still gaps? What critical satellite data is 
still needed to refine our ability to track climate change?
    One of the challenges we had is with data and I will say 
this on the record, this administration doesn't seem to grasp 
how important the data and the environment will play on us to 
be able to respond to the needs that we must--and so, can I get 
some comments from both of you about this.
    Dr. Jacobs. So, the satellite data is extremely important, 
but I don't want to lose sight of the importance of the in situ 
data. So, on the satellite data, the values that we collect are 
essential, but the vertical resolution is probably the 
weakness. But as critical, if not more critical, is the ability 
to calibrate the satellites, and to do that, we actually need 
in situ observations to calibrate the satellite instruments 
with. And this goes for not just temperature and water vapor, 
but also aerosols and gases.
    So, right now, we do have a program where we collect 
various gases with research instruments put on commercial 
airlines and then we use these gases to analyze and calibrate 
the satellite information. But this program, even though I 
would consider it not nearly as expensive as actually launching 
and deploying a satellite, without the ability to calibrate it, 
the data that we get is really limited.
    Mrs. Lawrence. Thank you. Mr. Freilich.
    Dr. Freilich. Yeah, I agree with Dr. Jacobs. I will focus 
on three areas of measurements that are particularly amenable 
to advancement from space. The first one is, as Neil said, 
atmospheric composition. We have the nascent ability and we are 
constantly improving it to measure the composition and changes 
of greenhouse gases in the atmosphere. This is essential for 
running climate models. It is also essential for you to see the 
efficacy of policy decisions that you might be making locally 
in the global scale.
    A second is vertical winds. This is at the very edge of our 
abilities right now. It addresses a portion of what Dr. Jacobs 
said about vertical knowledge and measurements in the 
atmosphere, and it will improve our models immensely if we can 
do it everywhere and accurately, and it will help NOAA's 
forecasting of the weather and the environment on all scales.
    The third place that I would personally highlight is soil 
moisture.
    Mrs. Lawrence. Soil?
    Dr. Freilich. Soil moisture.
    Mrs. Lawrence. OK.
    Dr. Freilich. The ability to globally understand, make 
measurements of agricultural decisions, if you will, both 
informs, locally, our farmers, and also provide some stability 
in terms of food security, understanding how crops in other 
areas might be impacting prices at home.
    Mrs. Lawrence. Thank you so much. I yield back.
    Mr. Serrano. Thank you. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Welcome, gentlemen, and thank you for your expertise and 
for the years you are giving to our country. I hail from Ohio 
and represent the southern-most of the Great Lakes, Lake Erie, 
where we have had major challenges to our water system with the 
city of Toledo and other smaller water systems. So, we have 
experienced firsthand what is happening with climate change.
    I also represent Brook Park NASA, named in honor of John 
Glenn, Glenn Lewis Labs at Brook Park, and we are very 
interested in your earth science work, relative to, as 
Congresswoman Lawrence talked about, the Great Lakes region. I 
am particularly interested in the NASA HAB, harmful algal 
bloom, monitoring and modeling, and the underlying need for us 
to spread our wings a little bit and work with universities in 
the region that are collecting data. There's all kinds of data, 
but it is not necessarily organized in a way that helps us 
target resources effectively.
    So, my question really is: How are you working with all of 
the datasets that are being generated in the Great Lakes 
region, particularly, Lake Erie, which is the shallowest and 
most drawn-upon of the Great Lakes? As really as the canary in 
the coal mine for what's happening in the Great Lakes region, 
how can NASA exert more of a lead?
    So, I loved your visuals, Dr. Freilich, and actually want 
to see if you have any others that are specifically focused on 
the Great Lakes, in terms of what Congresswoman Meng talked 
about in the STEM education programs, we have a Great Lakes 
Science Center in Cleveland which I represent and also at 
Toledo, Imagination Station. And we can have an enormous impact 
on the next generation if we can share your data in an 
understandable way from NOAA, from NASA, and draw young people 
into the reality of what's happening, targeted even right down 
to their region.
    So, my question is: How are you--can you elaborate on your 
NASA harmful algal bloom monitoring program and the modeling 
that you are doing in collaboration with others in the region? 
And just FYI, I represent the largest watershed in the Great 
Lakes and if we don't get it right there, we are not going to 
get it right anywhere.
    Dr. Freilich. Absolutely. And we have a rather extensive 
harmful algal bloom program. We are in the process of 
developing the technology and the understanding to be able to 
predict the occurrences both, in inland waters and in coastal 
waters, of harmful algal blooms and to track the blooms when 
they occur, this from space.
    Now, with respect to, you mentioned the Toledo issue----
    Ms. Kaptur. Yes.
    Dr. Freilich [continuing]. Issue of several years ago.
    Ms. Kaptur. 2014.
    Dr. Freilich. When that giant harmful algal bloom took 
place, we actually funded and conducted aircraft flights----
    Ms. Kaptur. Yes.
    Dr. Freilich [continuing]. With aircraft instruments out of 
Glenn to monitor and track that bloom. Subsequent to that, some 
Glenn investigators put in a competitive, highly competitive 
proposal--it was one of only nine out of 43 proposals that were 
accepted--to continue aircraft flights over several years, and 
they are even continuing now to monitor and track water quality 
and algal blooms in the area.
    One of the key elements of their proposal was the fact that 
they had brought together, just as you said, many different 
local institutions to pull the information and the 
understanding from the different groups in order to advance our 
knowledge of harmful algal blooms and their impacts.
    Ms. Kaptur. Yes, please let me know what more we can do 
there because we lived that crisis, and we are actually now, 
not sure, in terms of human health, we are looking at, 
apparently higher rates of Parkinson's and Lou Gehrig's Disease 
and we don't know the impact on human health of microcystin and 
some of the cyanobacteria that's in the algal blooms. And it 
seems like science has to run faster to catch up with what we 
are dealing with.
    Also, in terms of agriculture--you mentioned agriculture--
we are not sure whether the soil itself, because we have higher 
rainfall, whether some of that is growing in the soil. And NASA 
does not have the ability to penetrate with satellite imaging 
yet, what's in the soil. It would be nice to be able to give to 
our local weather reporters, hey, that sub watershed is really 
sick right now.
    We don't have the ability to do that, and unfortunate--and 
I am just putting this on the record--we have the most tiled 
region in America, the Great Black Swamp; it extends over 
Indiana--I think Secretary Pence is aware of this or Vice 
President Pence is aware of this--Michigan, Western Ontario in 
Canada, and Ohio, obviously. But it is a giant soybean corn 
bowl and animal bowl, and we have more animals--10 times more 
animals than people--and it is very, very difficult to figure 
out why Lake Erie is getting sick.
    We sort of know why, but we don't know from where or when, 
and so--and the water intakes are too high in the water in some 
of our cities and EPA does not provide any money, really, for 
them to rebuild their water systems. So, we have got this 
really critical moment, and it seems like the Federal 
Government is tiptoeing. If you can have any influence inside 
the administration, we really need a strike force for Lake 
Erie--that is what we need--and for this most-troubled 
watershed. So, if you could make recommendations to the record 
on that, I would greatly appreciate it.
    Thank you, Mr. Chairman.
    Mr. Serrano. Thank you. Well, Mr. Crist just came in, so--
--
    Mr. Crist. Hi.
    Mr. Serrano [continuing]. Mr. Crist, if you are ready, we 
are ready.
    Mr. Crist. Yes, sir. Good morning. Sorry I am late; I am 
double-booked today, but it is great to be with you and I 
appreciate the opportunities. Thank you very much, Mr. 
Chairman. And I want to thank our witnesses for being here; I 
appreciate your presence.
    I am grateful this subcommittee has chosen climate change 
as its first point of discussion, Mr. Chairman, for the 116th 
Congress. This is a topic that is near and dear to my heart and 
one that is incredibly relevant to my district in Florida. I 
represent Pinellas County, Florida. It is on the West Coast and 
includes the cities of St. Petersburg and Clearwater. Sea-level 
rise, nuisance flooding, saltwater intrusion, worsening 
weather, these impacts are real; they are happening now and my 
constituents see it every single day.
    According to a recent analysis published in Science 
Journal, oceans are warming up to 40 percent faster than 
previously thought. Both witnesses, I am curious, what does 
this accelerated warming mean for our oceans and for our 
whether--either of you?
    Dr. Freilich. OK. Well, thank you very much. The vast 
majority, more than 90 percent of the excess heat that is being 
put into the Earth's system is actually being manifested in the 
ocean. There's obviously a lot of focus on surface 
temperatures, but the heat, itself, is in the ocean. It has 
tremendous potential for rapid and, otherwise, changing 
environment and climate change, should that subsurface heat, 
which was discussed in the Science article, make it to the 
surface and then to the atmosphere.
    We are able to make measurements both, in situ and from 
space, to give us a more complete three dimensional--two 
horizontals and vertical--picture of the heat distribution 
throughout the oceans right now. That is where technology and 
models have come together in both, NOAA and NASA, to give us a 
more complete view of the environment and how it might change 
in the future.
    Dr. Jacobs. I would also like to highlight NOAA's Argo 
observing system, which are these profilers that go up and down 
in the water column and collect information. It is not easy to 
actually observe the oceans below the surface. We can do the 
surface relatively simple and straightforward with satellites--
relatively--but the Argo system is incredibly valuable, because 
if we are going to run coupled climate models where we have an 
atmosphere coupled to an ocean model, the ocean model is going 
to need in situ observations and data assimilation. And so, for 
both, the initialization perspective as well as the model-
verification perspective, these observing systems are critical.
    Mr. Crist. Thank you. And can you address what the human 
and economic consequences of this are.
    Dr. Jacobs. That would really go beyond the scope. I know, 
as mentioned, our mission is just to make sure that the 
policymakers have the most accurate projections that we can 
produce.
    Dr. Freilich. I will go a bit farther, but still focusing 
on the physical manifestations of this. The Earth's environment 
is basically defined by two great fluid systems, the atmosphere 
and the ocean; they couple over 70 percent of the Earth's 
surface. And understanding the internal dynamics and the 
exchanges between the two defines our environment, and then 
results in human and economic impacts.
    One of the graphics that we showed, actually, was sea-level 
rise, and you talked about that. We were making incredibly 
precise measurements of global and regional sea-level rise and 
we understand why, because the satellites are telling us that 
two-thirds--half to two-thirds of the sea-level rise is coming 
from putting more water into the ocean, by melting glaciers and 
ice sheets.
    But the other portion is coming from expansion of the water 
that's in the ocean. As the ocean warms, it expands, just like 
the fluid in your thermometer, and that causes sea-level rise, 
too. From a human standpoint, it is just higher. We can not 
only see what's happening, but we can see why it is happening.
    Mr. Crist. Does that mean I have to stop? I yield back.
    Mr. Serrano. Thank you. We will get a second round, now.
    Dr. Freilich, would you please contribute, if you have 
examples of how you are providing useful climate-related 
information, based on your measurements to technical and non-
technical decision-makers.
    Dr. Freilich. One example of this is through our 
applications program which is designed specifically to take the 
measurements and the understanding that we get from satellites 
and research and make focused-information products that address 
the questions of non-technical users, such as: What are the 
statistics of surface wind velocities? What will the statistics 
of surface temperatures be? How will precipitation change into 
the future?
    These impact, particularly, people like architects and 
infrastructure designers who have to make decisions today about 
what the conditions are going to be 50 years from now when 
their buildings and infrastructure are still going to be 
standing. We provide the measurements there today and the model 
estimates into the future in ways that can be accessed by, as I 
say, non-satellite weenies, that is, non-technical people, 
specifically through our applied sciences program.
    Mr. Serrano. Do you find any of the same discussion that 
takes place, in general--and certainly in Congress--about those 
who believe there's a problem, those who believe that the 
problem is not--when this information goes out, are there 
people who reject it and say, you know, that's what I am 
looking for or I don't need that information or it is not 
convincing enough?
    Dr. Freilich. The people on the ground need the 
information. Designers have got to--architects have got to 
design buildings, et cetera. So, it is not a question of not 
needing the information.
    What we strive hard to do is to understand the specific 
information that is needed and it is often very difficult for 
the user to articulate what he or she is looking for in terms 
of environmental information. And that's the role that our 
applied sciences program place, sort of a flexible bridge 
between the non-technical users on the end and what we know and 
what we can provide on the other end.
    The key is to provide information in accessible and an 
efficient way for the non-technical user, not to present, you 
know, a course in environmental science for them, and that's 
what we try to do in our applied sciences program.
    Mr. Serrano. Thank you. Either one or both: Puerto Rico has 
been devastated by recent hurricanes and the Federal 
Government, in partnership with the local government, are 
investing heavily in ecosystem restoration and repairing 
infrastructure. How are you educating the public and local 
officials about the increasing systemic risks to the island? 
Could you explain what specific impacts are expected there, 
either one or both.
    Dr. Jacobs. I can touch on that from two different aspects. 
One is just general hurricane-intensity forecasting work that 
we are doing, and not just on hurricane intensity, but also on 
tracks. So, improving our capability of predicting rapid 
intensification and track within the weather models, with 
specific to that event, we did a lot of aerial surveys after. 
We worked with the Department of Defense and acquired two 
Marine Corps radars to install so that we would have radar 
capability there after the storm.
    Another thing that is--that we are working on is with the 
support of FEMA is actually studying the coral system around 
the island, because the corals are actually very important 
because they act as a way to dissipate wave energy. So, about 
95 to 96 percent of the waves' energy are dissipated by the 
coral reefs.
    Dr. Freilich. Another area of reaching out to the public 
about environmental impact, relative to Puerto Rico that can be 
highlighted comes from the joint, NOAA-NASA Suomi NPP 
satellite, which was flying then and is flying now. It has an 
instrument on it called ``VIIRS'' that has an exquisitely 
sensitive day/night band, and so, it can image during the night 
when there's only starlight or moonlight or not at all.
    Interestingly enough, when there is a natural disaster like 
in Puerto Rico and the power systems go down, areas that were 
previously bright because they had lights, turn dark, and the 
Suomi NPP images of Puerto Rico and other places have profound 
impacts on the public because you can see the city was there 
and now this whole area is black at night because the power is 
out and remains out. And you can track how we are recovering 
from it. This is powerful connection between technology and 
public understanding.
    Mr. Serrano. Let me end my round by staying there for a 
second--and I am sure there are arguments back and forth about 
this--Puerto Rico deals with hurricanes every year or every 
couple of years, but the phrase that's used is ``No one saw 
this one coming'' to that extent, to the damage that it caused. 
First of all, do you think that is true, that there was enough 
information out there to say that this was going to be a 
monster of a storm or did it catch people by surprise? Was it 
the human failure and not being prepared or was it so severe 
that it couldn't have been prepared for it?
    Dr. Jacobs. Well, I think what we are dealing with here is 
a forecasting intensity problem. Obviously, before satellite 
imagery, no one saw these storms coming if they never made 
landfall. But the capability that we have now, as far as 
ability to forecast track, really trails off around day five. 
So, that gives you roughly five days or less.
    That also requires that the storm is initialized in the 
model. So, if there's areas of weakness in the model, it is 
trying to predict when the actual storm will develop. Once it 
is already there, the model usually handles the track fairly 
well.
    The other hurdle is rapid intensification. There's a lot of 
modification that the storm does to the water underneath it and 
it is very hard to derive accurate sea-surface temperatures 
from remotely sensed satellite data beneath the clouds that are 
obscuring the visibility of the waters. So, you know, that's 
one of the areas that we are focusing some research on right 
now with the rapid intensification of hurricanes.
    Mr. Serrano. Thank you. Any comments on that?
    Dr. Freilich. NASA and NOAA are collaborating exceedingly 
well to get the information that's necessary to initialize the 
model and to understand processes such as rapid 
intensification. So, you see that the models are improving year 
by year--NOAA models are improving year by year by year.
    Mr. Serrano. Thank you to both.
    Mr. Aderholt.
    Mr. Aderholt. As a result of climate change, what does 
science predict--and this will be for either or both of you--in 
increased rates of precipitation or decreased rates of 
precipitation?
    Dr. Freilich. I will take that. In general, it is 
intensification of the hydrologic cycle. What does that 
actually mean? Higher highs and lower lows is what the models 
are basically predicting; that is, rainy areas are becoming 
rainier and extreme precipitation events are becoming more 
frequent or at least more precipitation. But the low, also, is 
getting larger; that is, droughts are becoming longer and more 
widespread.
    So, it is not an all one kind or the other kind; it is an 
intensification of the cycle, the peak-to-peak difference.
    Dr. Jacobs. I would just add that it is--you know, this is 
going back to our conversation about how complex the climate 
system is--a lot of these processes have multiple feedback 
mechanisms and they operate in a non-linear fashion. So, some 
of them may self-mitigate; others may scale the opposite 
direction.
    Mr. Aderholt. Are we more likely to see the current 
climates become worse or my drier climates become wetter or 
vice-versa? And that may be a little bit of what Dr. Freilich 
was saying earlier.
    Dr. Freilich. In general, drier is become more dry and 
wetter is becoming more wet.
    Mr. Aderholt. How might uncertainties, with regard to 
physical modeling of cloud and water vapor feedback, affect 
your ability to accurately assess long-term future of the 
climate? And what are some other outstanding scientific 
questions that inject uncertainty in your predictions?
    Dr. Jacobs. Well, there are quite a few areas of 
uncertainty in the climate models. The feedbacks are obviously 
one. Another one is the sinks. There was a paper published last 
week in Nature that showed that the climate models are actually 
underestimating the CO2 uptake from a lot of vegetation.
    Additional areas are aerosols and clouds. A lot of times 
these aerosols act as condensation nuclei for formation of 
clouds. That's a complex process that's not easy to model.
    In addition to that, a lot of interaction with the solar 
outlet. Right now we have, with a great collaboration with 
NASA, the ability to observe the sun, but actually predicting 
what the sun will do is very complicated.
    Dr. Freilich. Dr. Jacobs hit the nail on the head: It is 
the interactions between the processes that are key and the 
interaction between scales and those are exceedingly complex.
    Mr. Aderholt. Well, I think we will all agree that when 
interpreting data to reach conclusions that inform public 
policy, and us as public policymakers, it is critical to ensure 
an objective assessment of available data. How does your 
agencies encourage a diversity of research opinions on the 
subject of climate change to confront the issue of scientific 
bias?
    Dr. Freilich. I will speak for NASA.
    Mr. Aderholt. OK. Yeah.
    Dr. Freilich. So, virtually all of our research programs 
are competitively selected and we, and the Science Mission 
Directorate, actually, are constantly looking at whether--how 
the results of that peer-review process are being subtly biased 
or not. But the peer-review process has shown itself to 
identify the best research, the best use of the nation's 
dollars in general.
    We make all of our measurements freely and openly 
available. We make all of our model code freely and openly 
available. And our approaches are well-documented, as is the 
case with NOAA. So, making things available in a useful way 
lowers the barrier of entry for anyone who wishes to duplicate 
or do their own analyses.
    We spend, in the Earth Science Division, more than 10 
percent of our budget every year on data systems, making the 
measurements and the information widely available.
    Dr. Jacobs. So, we have an internal peer-review process, as 
well, and when our science is published in journals, they 
also--the journal, itself, has a peer-review process.
    One of the interesting things that I have noticed with 
respect to the appearance of bias in high confidence versus low 
confidence, is that there is not a motivation to publish 
scientific research that you have low confidence in. It 
probably wouldn't get past the peer-review process if you did 
not have high confidence in it. So, what ends up happening is 
there's an appearance of having high confidence in this and 
high confidence in that because the low-confidence research 
does not make it through the peer-review process.
    Also, as Dr. Freilich said, we make all of our code, as 
well as our data, available. And one of the things that we have 
been working on with the commercial cloud vendors is NOAA's Big 
Data program and that's--the commercial cloud vendors are 
actually hosting our data for us and developing software 
interactions so that anyone, whether it is a university or just 
someone at home, can access our data, access the code, and 
actually replicate a lot of what we have produced in our labs.
    Mr. Aderholt. Is my time up or are we--thank you.
    Mr. Serrano. Mr. Crist.
    Mr. Crist. Thank you, Mr. Chairman.
    Over the past year, the State of Florida, including the 
district I represent, was plagued by a historic outbreak of red 
tide. As of last October, businesses in my home of Pinellas 
County, reported almost 1.6 million in losses due to red tide. 
Hotels reported a 6 percent drop in overnight bookings, and 
that's just one county.
    While the economic impact is glaringly obvious and while we 
know that red tide is a naturally occurring organism in the 
Gulf of Mexico, confusion remains as to why this past year's 
bloom was so severe. Do you think climate change and warming 
oceans could be playing a role in this?
    Dr. Jacobs. So, with respect to the interactions with the 
water and the algae, there's a threshold. So, in general, 
dissolved oxygen content is higher in colder water and lower in 
warmer water. But most of these algae bloom in a sweet spot of 
temperature ranges. A lot of times, what ends up triggering the 
bloom is a precipitation event of such that creates a runoff of 
fertilizer, so there's nitrogen and phosphate. And a lot of 
times, that is actually the mechanism that triggers the bloom 
and then the photosynthetic algae actually remove the rest of 
the oxygen from the water causing a hypoxia.
    One of the things that we are doing is actually through the 
National Water Center and the National Water Model is trying to 
integrate the atmospheric precipitation forecasts with the 
water model that forecasts runoff and that, the unknown there 
being the amount of fertilizer that's captured in the runoff, 
but at least we should get to a state soon where we are doing 
fairly well in predicting a lot of these blooms.
    Mr. Crist. What do you think is needed to help us better 
understand and respond to harmful algae blooms?
    Dr. Jacobs. I would say possibly some additional 
measurements of chemistry in the water, also, additional stream 
gauges and monitoring so that we can both, initialize, as well 
as calibrate the water model. There's probably also a need to 
integrate a lot of the water model with flow-restricted areas. 
So, in some cases where you have dams and such that are 
actually--there's a human there controlling the water rate, 
that is something that we would need to integrate, as well.
    Mr. Crist. Can you discuss, Dr. Jacobs, the opportunity 
that small satellites, particularly small satellite 
constellations currently operated by commercial companies, can 
play in collecting or providing data to understand climate 
change.
    Dr. Jacobs. So, the CubeSat industry is just now, I 
believe, starting to take off. And the data that they are 
providing, particularly with the GPS radio occultation data, is 
incredibly valued. It is one of the few remotely sensed 
observations that's an actual measurement that does not 
necessarily need to be bias corrected. So, we have temperature 
and moisture profiles from these as good as what we would get 
from COSMIC Data, which is a program that we run.
    The interest that I have is actually being able to acquire 
this data as a subscription service, which is, you know, it is 
very convenient for us. It is very cost-effective, and if 
there's more than one purchaser of the data, say other 
international met services elsewhere, it would essentially 
drive down the cost of the data for us because we would be 
splitting the cost over other international met centers.
    Dr. Freilich. If I could say a word from the NASA side?
    Mr. Crist. Please.
    Dr. Freilich. We also see great potential in private-
sector, small-satellite constellations. And we have in place 
right now a pilot program with contracts in place with three 
different commercial firms who are flying small satellite 
constellations observing the Earth. And we are basically 
purchasing their data and evaluating its contributions and its 
value to advance our research agenda. So, they are flying these 
for their own reasons. We are not imposing requirements on 
them. We are saying, since you have it, we will buy it and 
evaluate how useful it is and then go in for a long-term 
contract if, indeed, it is useful, and we are finding it to be.
    Dr. Jacobs. And we have a similar pilot program where we 
are acquiring and evaluating the impact of data on our model, 
as well.
    Mr. Crist. Wonderful. Dr. Freilich--I hope I am pronouncing 
that correct----
    Dr. Freilich. Close enough.
    Mr. Crist. Thank you. In your written testimony, you stated 
that we are increasingly able to detect climate trends and 
separate them from much larger/shorter scale environmental 
variability we call weather. Can you elaborate on what you mean 
by that.
    Dr. Freilich. Yes. If you think of weather in a particular 
variable as causing rapid fluctuations--maybe the temperature 
goes up or goes down or the rain happens or it does not 
happen--the climate change--the climate trend is underneath 
that. So, if you look for only a small period of time, you see 
weather fluctuations going up and down.
    But if you make continuous, long-term, intercalibrated 
measurements of the underlying variable, you may indeed--and we 
are--seeing that those fluctuations are on a base which is 
changing over time. The satellite measurements, because they 
are global, because they are continuous, and because they are 
consistent over time, allow us to average out, if you will, the 
weather fluctuations and expose quantitatively, the longer-term 
variability.
    Mr. Crist. Thank you. I yield back.
    Mr. Serrano. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    It is Dr. Freilich, right?
    Dr. Freilich. That is----
    Mr. Palazzo. Is that correct?
    Dr. Freilich [continuing]. Precisely correct.
    Mr. Palazzo. Thank you.
    Dr. Freilich. We can go into how the different portions of 
our family pronounced it differently.
    Mr. Palazzo. It is the same with Palazzo or Palazzo; it 
depends on where you are from.
    Dr. Freilich. Yes.
    Mr. Palazzo. I have heard both of you talk about hypoxia 
and the algae blooms, and I know Congressman Crist and I, you 
know, we are Gulf States and it is extremely important having a 
healthy Gulf. And the Mississippi River Basin is the fourth 
largest in the world; 32 states drain into the Mississippi 
River Basin--Canada--and I know we have had what has been 
called the ``Mississippi River/Gulf of Mexico Hypoxia Task 
Force.'' I'm not sure if there's a NOAA or EPA or if there's 
multiple agencies that are involved in that.
    But the dead zone does not seem to be shrinking. And I know 
there have been a lot of flooding events and there's the nine-
point source pollution coming from AG and other urban areas. 
Again, 32 states pouring, you know, all this pollution point 
and nine-point source going into the Mississippi River and it 
is flowing into the Gulf of Mexico.
    Are we making a difference and what can we do to maybe work 
towards eliminating the hypoxia task force? And I think some of 
the comments that you have already made will probably apply to 
the dead zone and the Gulf of Mexico, as well, but I would just 
like to hear y'all's summary and we will start with Dr. Jacobs.
    Dr. Jacobs. We are just now on sort of the cutting edge of 
trying to predict and understand that interaction and the 
research and forecast it. So, it is one of those things where 
if we can understand the physical mechanisms and biological 
mechanisms, then we can probably do a better job of quantifying 
future impacts and potential mitigation capable. But to do it 
empirically would require lengthy observation time, which is 
probably something that we might not have.
    Dr. Freilich. Dr. Jacobs' answer was actually quite 
comprehensive.
    Mr. Palazzo. All right. You brought up aquaculture, so, 
between hypoxia and aquaculture, two parochial interests of 
mine in my home state. And I guess there's no comprehensive, 
nationwide permitting process for aquaculture in federal water, 
which I think has probably hindered America and people wanting 
to get into the aquaculture business because there's no 
certainty. There's the permitting process. The bureaucracies 
are intense, but, yet, we are bringing in more imported seafood 
and it is not the same quality, as I believe, the seafood that 
we find in our oceans and our seas that connect to America. 
But, I guess--and there's a huge deficit, a trade deficit with 
various countries.
    So, it is not just a foot-safety issue--and we have had 
these conversations before--but it is also, you know, under, I 
guess it is the jobs and economic, because these dumping of 
seafoods is hurting our farmers. And so, I guess, how would you 
describe the permitting process and what can we do to improve 
it?
    And I say all this because there was a bill that Chairman 
Peterson and I introduced last year. It is called the ``AQUAA 
Act'' ; it is the Advancing the Quality and Understanding of 
American Aquaculture. It is a bipartisan bill. We are going to 
be reintroducing it this year, and we did have a lot of input 
from the professionals at NOAA.
    And so, if you could, Dr. Jacobs, I would love to hear your 
thoughts on it.
    Dr. Jacobs. So, the seafood--addressing the seafood-trade 
deficit is one of our top priorities, as part of the Blue 
Economy Initiative and it is something that Admiral Gallaudet 
has been working on extensively and we do have a strategy and a 
plan that we are in the process of putting together, and I 
would love the opportunity to provide that for the record.
    Mr. Palazzo. OK. Well, fantastic. Because, you know, future 
populations and having healthy, sustainable, and affordable 
seafood is going to be extremely important. And not only will 
it benefit coastal states on the East Coast, West Coast, Gulf 
Coast, but also our farmers in our ag states, because they will 
be providing the soybean and corn food stock that will be going 
into the feedstock for the aquaculture. So, yes, I will look 
forward to hearing your statement.
    Mr. Serrano. So, in terms of pronouncing names, in the 
Bronx, where the real Little Italy is--it is not the one in 
Manhattan; it is on Belmont Avenue--we put a T in it: Palazzo.
    Mr. Palazzo. It is Sicilian. It is Palazzo.
    Mr. Serrano. It is not pizza; it is pizza, right?
    Mr. Palazzo. Yeah, both are good.
    Mr. Serrano. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. Your meetings are 
always instructive.
    Dr. Freilich, let me also, again, thank you for your 
service to our country and wish you well in the coming years. 
Could I ask you, could you provide to the record, the 17 
satellites you mentioned for earth monitoring and their 
purpose, and did I get the number correct?
    Dr. Freilich. We have 22 satellites----
    Ms. Kaptur. Twenty two.
    Dr. Freilich [continuing]. In major missions on orbit and 
14 more coming through fiscal year 2022.
    Ms. Kaptur. Great. Could you just provide a list of those?
    Dr. Freilich. Absolutely.
    Ms. Kaptur. That would be very helpful.
    And Dr. Jacobs, you used the term ``flow rate'' and one of 
the challenges that we are facing in the western basin of Lake 
Erie is much heavier rainfall and the inability of NASA's 
satellites yet to pierce the soil, so we know what's happening 
and where the water is moving. Just to give a sense of the 
daunting challenge to the lake, we have to hold back water flow 
and have slow and leaching to the lake. We have no means to do 
that right now. We have the most tiled region in America and 
every time it rains, it flows like a superhighway to Lake Erie 
and half of the land in the watershed is absentee-owned.
    So, the challenge to us with these changing conditions is 
to be much more engineering-wise and we don't have a 
mechanism--and I am urging you to think about the 
administration, working with us--and I am going to invite you, 
if both of you could come, to target the information that you 
have and appear before the Great Lakes Task Force, which is 
bipartisan group of members here in the House, to talk about 
the Great Lakes.
    And if you could call from the data that you have to give 
us better guidance, maybe we could do better than we are 
currently doing. But, quite frankly, in meeting with one farmer 
recently, he said, Congresswoman, I can't hold the water back. 
We'd have to change our whole tiling system. So, we would have 
to work with the Department of Agriculture and invest a whole 
lot of money to try to figure out how to hold this water back 
and to probably filter it in some way that we haven't had to do 
in past generations.
    It isn't just a matter of not applying more fertilizer to 
the soil. There are legacy nutrients in the soil and maybe 
things that happened when the soil was first created that are 
flowing into the lake, and we can't save the lake without 
reengineering the watershed, in my opinion. So, data you could 
provide us specific to that region could be very helpful.
    I don't know if you have seen a film--I wish we would have 
made it in this country, a documentary called ``Planet Ocean'' 
done by Yann Arthus-Bertrand and Michael Pitiot. I guess the 
ocean surrounds them so they think about it more. I just love 
that film.
    And as I looked, Doctor, at what you put up there NASA, I 
thought, OK, I am going to push you a little bit further. Take 
a look at their film and see what each of you might have in 
your treasure chest in your departments and agencies and what 
could we tell the American people about the United States of 
America in the way that the Aussies did in that particular 
documentary. I think it could be very important to public 
education and, frankly, to education of members here. So, I 
would suggest that.
    Finally, I just wanted to ask you in the time remaining for 
me, could you discuss, based on your work, trends you see in 
desertification in our country, talk about the Great Lakes 
where 80 percent of the fresh surface water of the United 
States exists, and also coastal impacts. Congressman Crist is 
here with us today from Florida.
    Do you have any comments that you want to make to us about 
our arid West, about our coastal regions, or about the Great 
Lakes that are summary remarks, thoughts that you have had as 
you look through the datasets that would give us guidance as 
members?
    Dr. Freilich. I will take that.
    Ms. Kaptur. It is a hard question, but----
    Dr. Freilich. It is. By the way, as an oceanographer, I 
resonate with your sentiments about the ocean, absolutely. So, 
thank you very much.
    Ms. Kaptur. I did not know you were an oceanographer. Well, 
watch the film and tell me if you think it is as good as I 
think it is.
    Dr. Freilich. It is.
    Ms. Kaptur. OK. You have seen it, OK.
    Dr. Freilich. So, my answer would go back to the discussion 
that we had previously with Mr. Aderholt in terms of 
intensification of the hydrologic cycle. Although we have the 
ability, technologically and infrastructurally, in this country 
to mitigate some of that, there is an increasing trend towards 
drier dry areas. And especially in the West--not in your area--
the precipitation patterns are leading to water stored in snow 
packs, which is where most of the water comes from for 
agriculture in the West, has been changing. So, the drier drys 
and the change in precipitation amounts have evidenced 
themselves, generally in terms of increased dropdown of 
aquifers.
    Ms. Kaptur. All right. Knowing that and looking 50 years 
out, over half of our fruits and vegetables now come from one 
state, do you see that changing in the future because of the 
availability of water?
    Dr. Freilich. I don't know.
    Ms. Kaptur. You don't know.
    Dr. Freilich. It is beyond my expertise, I'm sorry.
    Mr. Serrano. We will try a couple more questions and then 
we will call it a morning, and we thank you for your testimony 
today.
    Some communities are already making massive investments to 
protect themselves from climate impacts. New York City, for 
instance, has a massive plan to build barriers to protect 
itself from another Superstorm Sandy. These types of 
investments are enormous and should be made with the best 
possible information about climate change and the risks that it 
imposes.
    For both of you, what are the most important investments to 
make in climate science and research so that we can reduce the 
uncertainty with regard to these risks?
    Dr. Jacobs. I would say I would categorize the investments 
in three areas. The first one is observations. This is critical 
both, for in situ observations for initializing models, as well 
as, validating predictions.
    And then the modeling, both, weather modeling and climate 
modeling, we are slowly closing the gap between weather models 
and climate models and we are actually learning from the 
development of both sides to benefit the other.
    The last one is investment and computer resources, both, 
HPC and cloud-based computer resources. Because in order to do 
these computations, it requires a tremendous amount of 
computing capability.
    Dr. Freilich. Spot-on: Measurements, models, and 
communications of the results.
    Mr. Serrano. I am hoping, Mr. Aderholt, that every panel we 
have from now on agrees with each other as much as this.
    Dr. Freilich. NASA and NOAA have been working together 
extraordinarily profitably for an exceedingly long time.
    Mr. Serrano. I understand. Related to this, what do each of 
you consider to be the greatest unknowns in climate modeling 
today and what are your agencies doing to address these?
    Dr. Jacobs. In no particular order, I think the real 
changes in climate modeling are understanding the feedbacks and 
the interactions, the various CO<INF>2</INF> sinks, the cloud 
aerosols, and getting accurate initialization from those, and 
then understanding the natural patterns. Because in order to 
isolate any sort of anthropogenic patterns, we need to 
understand the natural signals and be able to subtract those 
off.
    Dr. Freilich. OK. Dr. Jacobs, again, was spot-on. I want to 
focus a bit on the natural extended sources and sinks of carbon 
dioxide, not the point sources.
    On average, about half of the anthropogenic CO<INF>2</INF> 
that we put into the atmosphere stays in the atmosphere. The 
other half goes to the land and the ocean in ways that we don't 
entirely understand. And some years, almost all of the 
CO<INF>2</INF> that we put into the atmosphere globally stays 
in the atmosphere and in some years, almost done of it stays in 
the atmosphere for more than a few months.
    Understanding the sources and the sinks in the oceans and 
the boreal forests and how they interact and how they will 
change in a changing environment is critical for understanding 
what the atmospheric composition is going to be in the future, 
and, therefore, the radiation balance.
    Mr. Serrano. Thank you. Is that all?
    Mr. Aderholt. Let me just follow up on that. Dr. Jacobs, 
you mentioned that substantial progress has been made over the 
last several decades in earth science--earth systems science 
observation modeling, but the mission remains incomplete and 
many questions still remain unanswered. Can you go a little 
further and explain, you know, what you would say what the 
questions remain unanswered and what additional advancements 
can be made to address these outstanding questions.
    Dr. Jacobs. Well, there's--so, I guess I would bin this 
into two categories. One would be: What are the assumptions in 
the respective concentration pathways? So, there's four 
different pathways; there's a 2.6, a 4.5, 6, and 8.5 ranging 
from very minor emission increases to very extreme emissions 
increases.
    Now, there's assumptions based on those; 8.5 is associated 
with a higher population growth and less technology innovation. 
And 4.5 is lower population growth and higher technological 
innovations. This is beyond the scope of NOAA's mission to 
evaluate the feasibility of these, but I do think as 
policymakers, the baseline assumptions of the RCP scenarios 
should be analyzed, and then when we--NOAA--actually used these 
various scenarios to then project what we think the climate and 
weather is going to do based on those scenarios.
    And I am confident that we are making a lot of progress in 
our understanding of the science when we initialize with those 
scenarios what the outcomes will be, but a lot of the question, 
I think, is really on what are the scenarios going to be?
    Mr. Aderholt. Will any of these advancements be able to 
slow global warming in the short-term?
    Dr. Jacobs. Really, as part of NOAA's mission, we are just 
observing the trends in the atmosphere, and trying to predict 
them, it is really up to the policymakers to decide if they 
want to implement something one way or another that may or may 
not make a difference.
    Mr. Aderholt. Mr. Freilich, did you want to add anything?
    Dr. Freilich. Same. NASA makes the measurements, does the 
analysis, and informs you. Then, once you make a policy 
decision, together we monitor the earth's system to see whether 
the impact is what you had expected.
    Mr. Aderholt. All right. I will yield back.
    Mr. Serrano. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.
    I just wanted to follow up on my prior request. Would it be 
achievable for both of you to meet with the Great Lakes Task 
Force and reduce your data granularly to the Great Lakes Region 
or is your data more diffuse?
    Dr. Freilich. I will speak personally for myself. I am sure 
that NASA would be happy to do that. In three days, I will be 
retired.
    Ms. Kaptur. Only three days.
    Dr. Jacobs?
    Dr. Jacobs. Absolutely.
    Ms. Kaptur. All right. I did not know at what level your 
data existed; that's why I was asking the question.
    Dr. Jacobs. So, our--well, it depends on the various data 
sources. Some of it is extremely high resolution, both the 
space and time, and some of it is fairly sparse. But we do make 
that accessible and available to the public, as well as the 
software that we use to process it. And that's all--you can go 
online and get that now.
    Ms. Kaptur. All right. It would be nice to hear how you are 
collaboratively working in different regions of the country and 
reduce it in ways that we can act on, then. That would be very 
helpful to us.
    I wanted to ask a question about--two questions and then I 
will be finished--one is: Is it possible that what we are 
experiencing is being heavily influenced by changes in the 
earth's orbit or its positioning? That, in fact, there is more 
going on than just human behavior and its influence, but there 
is something going on, as well, in space.
    And, secondly, what do each of you have to present today or 
in the future to the record, about energy and the use of energy 
on earth and the earth's environment?
    Dr. Freilich. So, to address your first question, there are 
undoubtedly changes that are happening on very long time 
scales, because we know that the climate has changed on long 
time scales, back throughout the history of the Earth; however, 
what we are seeing today are environmental changes that are 
happening far more rapidly than could be accounted for by 
things like orbital dynamics of the Earth and, therefore, must 
be the result of other factors.
    But both things are happening, long-term changes and short-
term changes. The short-term changes right now are happening 
intensely and, of course, rapidly.
    Ms. Kaptur. I think one of the most effective photos NASA 
put out was the one showing the ozone layer healing because of 
decisions that we made as intelligent beings. Obviously, with 
some of the other challenges that we face, we have some work to 
do, but I thought that was very effective and it showed working 
together we can make progress.
    Do you wish to comment, Dr. Jacobs?
    Dr. Jacobs. That was a great answer. I have nothing to add.
    Ms. Kaptur. OK. What about energy in the environment? What 
about satellite imaging of changes in the use of energy with 
population growth? Do you have any time-series data that would 
help us see how we, collectively, as humanity, impact the 
environment because of our use of energy?
    Dr. Freilich. Well, I would say that the issue isn't 
necessarily the use of energy, but how it is that we generate 
that energy. If we generate that energy by burning fossil 
carbon and adding that to the system, that has one kind of 
environmental impact. If we generate that energy in other ways, 
then the environmental impact of the same amount of energy will 
be much different. So, it is not the energy itself, it is how 
we got it.
    Dr. Jacobs. I would just add to that, that NOAA does 
provide high-resolution wind forecasts, as well as cloud 
forecast and such, that can be used by renewable wind energy 
and solar farms, but we don't actually--beyond the scope of 
providing that atmospheric information, that's where our 
jurisdiction stops.
    Ms. Kaptur. All right. Thank you both very much.
    Thank you, Mr. Chairman.
    Mr. Serrano. Thank you. This has been a very interesting 
hearing and one that continues to be an issue of much 
contention. As I said at the beginning of the hearing, either 
in making a bad attempt at humor or being profoundly sarcastic, 
if we can't agree on what to call it, then maybe we can just 
agree that something is going on. And you folks are doing a 
great job of trying to find out what is going on and telling 
us, you know, what may be causing it or not causing it.
    But it would seem to me that there is a large amount of 
this, if not all of it, caused by we, ourselves, who inhabit 
this planet. And it is the planet we have. It is the only 
planet that we know that we can be on right now. NASA hasn't 
shown us that we can be on another planet yet, although, I 
think that is coming soon.
    But one of the reasons that I love this committee and one 
of the reasons that I wanted very much to get an opportunity to 
chair this committee or be ranking member as I was in the past, 
is because of these two agencies that are in front of us now. 
You do such important work and such important work for the 
American people to help us along to understand where we are.
    Just for the record, as far as NOAA, I have always said 
that NOAA is one of those agencies that really has to go out of 
its way to harm somebody because it is always trying to help 
somebody.
    And so NASA, I say something very district-constituency 
related: You have never seen a crowd react to a congressman 
bringing someone to a school as when you bring an astronaut. I 
mean, that is absolutely incredible and we have to do more of 
that, continue to tie in the work of both agencies to the 
schools.
    Because this excitement--I saw a group of kids just looking 
at weather maps and looking at maps taken on a trip to space 
and they were glued to that screen. You remember when you go 
and the teacher says, OK, you in the back, relax. It did not 
happen; they were glued to it. So, we should work on that.
    So, thank you so much. Thank you for helping us through our 
first hearing. I wish I could say this was our last hearing of 
the season, but it is only our first. Thank you so much.
    [Clerk's Note: The Department did not respond with answers 
to submitted questions in time for inclusion in the record.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, March 7, 2019.

                EXECUTIVE OFFICE FOR IMMIGRATION REVIEW

                                WITNESS

JAMES MCHENRY, DIRECTOR, EXECUTIVE OFFICE FOR IMMIGRATION REVIEW
    Mr. Serrano. The subcommittee will come to order. Good 
morning to all.
    For our second hearing of the year today, we welcome James 
McHenry, the Director of the Executive Office for Immigration 
Review, or EOIR. EOIR primarily functions as our Nation's 
immigration court system, where it administers and adjudicates 
our Nation's immigration laws. And we thank you for being with 
us, Director McHenry.
    I wanted to hold this hearing because I have deep concerns 
about how our Nation's immigration courts are operating. Some 
of those concerns are long standing, while others have been 
exacerbated by the decisions of the Administration.
    Our Nation's immigration courts handle a wide variety of 
immigration-related claims, from removal proceedings to asylum 
claims; these are complex, nuanced proceedings that require 
time, understanding, and care. In many cases, the consequence 
of removal from this country is so severe that we must have 
significant due process to ensure that no one's rights are 
violated in an immigration court proceeding.
    Unfortunately, these concerns are increasingly being shoved 
aside. This in part is due to an enormous and growing backlog 
of pending cases before the courts, which is now more than one 
million cases. According to the Transactional Records Access 
Clearinghouse at Syracuse University, the growth is largely due 
to the significant increase in immigration enforcement efforts 
over the past 15 years, which has not been followed by a 
similar growth in the immigration court system.
    Although this subcommittee has included significant 
increases in immigration judge teams for the past two fiscal 
years, your backlog has actually increased under the Trump 
administration. This situation was worsened by the recent 
government shutdown. The reasons for that are sadly clear: the 
leadership of the Justice Department has attempted to turn our 
immigration courts into a sort of deportation DMV where 
immigrants get minimal due process on their way out the door.
    This Administration has chosen to impose quotas on 
immigration judges to limit case consideration regardless of 
complexity; limit the ways in which immigrants can make valid 
claims for asylum; increase the use of video conferencing to 
reduce in-person appearances; and undermine the discretion of 
immigration courts to administratively close cases, among many 
other things. Ironically, those choices, supposedly aimed at 
efficiency, have actually increased the backlog.
    I believe our immigration courts should strive to be a 
model of due process. A couple of bright spots in that effort 
are the Legal Orientation Program and the Immigration Court 
Help Desk, both of which help to better inform immigrants about 
their court proceedings; we should seek to expand such 
programs.
    Despite these efforts in our current system, an estimated 
63 percent of immigrants do not have legal counsel. We have all 
read stories about children, some as young as 3 years old, 
being made to represent themselves. That is appalling. Our 
immigration laws are complicated enough to native-English 
speakers, let alone those who come here speaking other 
languages or who are not adults. We can and should do better 
than this.
    Today's hearing will explore the choices we are making in 
our immigration court system to better understand how the money 
we appropriate is being used, and whether it is being used in 
line with our expectations and values.
    We thank you again, Director McHenry, for being here today.
    And I would like to turn to my friend Mr. Aderholt for his 
statement.
    Mr. Aderholt. Thank you, Mr. Chairman, for yielding. And I 
am pleased today to be here, so we can conduct this critical 
oversight of the Executive Office for Immigration Review, and 
hear more about the future of our immigration court system.
    In recent years, this subcommittee has been very concerned 
with the conditions at EOIR. I understand there have been 
significant efforts underway at EOIR to accelerate the hiring 
process, improve completion time lines, and allocate resources 
for those areas with the highest workload, such as the 
Southwest border region.
    The adjudication and the appeals of immigration matters are 
central to the proper administration of justice in this 
country. Congress must ensure that U.S. immigration laws are 
interpreted as Congress intended, and administered fairly and 
efficiently; therefore, it is incumbent upon EOIR to operate in 
a way that maximizes docket management and minimizes fraud and 
delay.
    I would say it is probably understatement to say that 
EOIR's 840,000 case backlog is a matter of concern. Through 
this important hearing this morning, I hope to distinguish 
between the extent to which this backlog is attributable to 
factors beyond EOIR's control, and the degree which EOIR's 
resources, administration, and performance contribute to the 
caseload challenges.
    The bottom line is the net effect of this untenable backlog 
situation is to delay justice, in many cases for years, for 
those who have a valid claim to immigration benefits, while 
those who have no right to remain in the United States are 
rewarded with many years of continued illegal presence.
    Unfortunately, disappointing new information EOIR shared 
with this subcommittee this week projects resource shortfalls 
that will result in lower-than-anticipated hirings, delays in 
the rollout of EOIR's electronic courts and appeals system, and 
the impact of the implementation of EOIR's court-staffing 
model.
    As I say, I hope this morning from this subcommittee 
hearing that we can get a full understanding of how the 
recently enacted fiscal year 2019 appropriations for EOIR could 
be so misaligned with EOIR's fiscal year 2019 resource needs. 
How could EOIR have better advised this subcommittee in the 
months leading up to the consideration of our fiscal year 2019 
legislation.
    I want to thank the chairman for holding this important and 
very timely hearing, and I welcome Director McHenry to the 
subcommittee today and we are pleased to have you before us 
this morning. I look forward to hearing your testimony and 
discussing the important work of EOIR.
    And I yield back.
    Mr. Serrano. Thank you, Mr. Aderholt.
    Director McHenry, you are now recognized for your opening 
statement. We wish you could keep it to 5 minutes, although 
please understand that your full statement will be put on the 
record.
    Mr. McHenry. Thank you.
    Mr. Chairman, Ranking Member Aderholt, and other 
distinguished members of the subcommittee, thank you for the 
opportunity to speak with you today. As the Director of the 
Executive Office for Immigration Review at the Department of 
Justice, I welcome this opportunity to share with you the 
progress that EOIR has made and to discuss the challenges it 
faces in the near future.
    The primary mission of EOIR is to adjudicate immigration 
cases by fairly, expeditiously, and uniformly interpreting and 
administering the Nation's immigration laws. This mission is 
carried out every day with professionalism and diligence by 
EOIR's 1800 employees across seven components. I am honored to 
lead EOIR's employees, for they are firmly committed to this 
mission, and have performed commendably as we have sought to 
strengthen and improve the functioning of our adjudicatory 
system.
    We are grateful for the support of Congress, the 
Administration, and the Department in undertaking this effort 
and, with continued support, we expect to be able to build on 
these successes in the years to come.
    EOIR has made considerable progress in the past 21 months 
in restoring its reputation as a fully functioning, efficient, 
and impartial administrative court system, capable of rendering 
timely decisions consistent with due process. To be sure, EOIR 
continues to face a significant backlog of pending cases at the 
immigration court level, one that nearly tripled between 2009 
and 2017. During that time, decreased productivity, protracted 
hiring times for new immigration judges, and the lack of any 
progress in moving toward an electronic filing system all 
hindered EOIR's ability to effectively carry out its mission. 
Beginning in 2017, however, EOIR has aggressively confronted 
these challenges.
    EOIR has hired more immigration judges in the past 2-plus 
fiscal years than it hired in the 7 prior fiscal years 
combined. Further, after 8 consecutive years of declining or 
stagnant productivity, EOIR is now in the middle of its third 
consecutive year of increased case completions and at the end 
of the first quarter of fiscal year 2019 it was on pace for the 
third-highest completion rate in its 36-year history. These 
results are a testament to the professionalism and dedication 
of our immigration judge corps, and a direct refutation of 
critics who intimate that immigration judges lack the integrity 
or competence to resolve cases in both a timely and impartial 
manner.
    EOIR is also striving to modernize and digitize its 
critical information systems, as the benefits of an electronic 
filing and case management are undisputed.
    In 2018, EOIR piloted its new electronic filing system 
called ECAS at five immigration courts and the Board of 
Immigration Appeals. The results have been encouraging, as 
nearly 8,000 attorneys have registered to use ECAS so far. EOIR 
expects to initiate the nationwide rollout of ECAS later this 
year.
    Each of these accomplishments is critical to EOIR's 
continued to success as it addresses the pending caseload. 
Nevertheless, several challenges remain to ensure that these 
successes are not undermined or wholly eroded, and further 
challenges may also be on the horizon.
    Overall, fiscal year 2019 represents a transitional year 
for EOIR; it has solved some of its most persistent problems of 
the past decade, but now it must also ensure that its recent 
improvements do not become ephemeral.
    For many years, the immigration court caseload increased 
due to factors primarily within EOIR's control, mainly 
declining productivity, insufficient hiring, and a lack of an 
institutional emphasis on the importance of completing cases in 
a timely manner; those factors are now being successfully 
addressed. More recent increases to the caseload, however, have 
been driven largely by external factors, including increased 
numbers of asylum claims in immigration proceedings and 
increased law enforcement efforts by the Department of Homeland 
Security. It remains critical for EOIR to leverage available 
resources to ensure this increased caseload is addressed in a 
fair and efficient manner.
    EOIR remains committed to reducing the pending caseload and 
to fully reestablishing itself as the preeminent administrative 
adjudicatory body in the United States. With the leadership and 
support of the Department and the Administration, as well as 
ongoing congressional support, I am confident that EOIR will 
succeed in meeting these goals.
    Again, thank you for this opportunity to speak before you 
today, and I look forward to further discussions on these 
issues and am pleased to answer any questions you may have.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Serrano. Thank you.
    Yesterday, the same day you submitted a rather glowing 
statement to this subcommittee, you sent an email out to EOIR 
staff stating that due to the increase in cost of interpreters 
you are potentially going to slow down the hiring of judges, 
cancel training, curtail acquisition of new space, and delay 
information technology improvements.
    I understand that cost increase, but what I find 
unacceptable is that you didn't come to the Congress, to this 
subcommittee, and openly discuss this budget situation and ask 
for additional resources. I assume these cost increases have 
been going on for months prior to the enactment of the final 
CJS bill. At the same time, this Administration was asking for 
and holding a large part of the Federal Government hostage over 
funding for an unnecessary wall.
    So my first two questions for you are, when did you become 
aware of the shortfall in the budget, and why didn't you 
request more funding for the interpreters' contracts?

                         INTERPRETER CONTRACTS

    Mr. McHenry. To answer the first question, interpretation 
has been a challenge for EOIR throughout its history, and it 
sort of ebbed and flowed over the years. In the early 2000s, we 
had difficulty obtaining interpreters and at that point had to 
switch to telephonic interpreters on a relatively frequent 
basis. Again, over the years, over the time, you know, the 
challenge has come, gone, and come back again.
    Right now, the challenge, however, is driven primarily by 
our successes. As I alluded to, we have hired more judges, we 
are completing more cases, we are holding more hearings. The 
number of hearings for non-English speakers have risen by 
almost 60 percent in the past 5 years. These of course increase 
interpreter costs, because we are completing more cases and 
holding more hearings.
    Mr. Serrano. But you are saying that it is not possible to 
have a hold on finding out how many interpreters you will need 
or you are always short when you are reaching out?
    How many languages do you deal with?
    Mr. McHenry. Our interpreter contract I think calls for at 
least 350 different languages. And we have attempted to address 
the interpreter situation in other ways. For example, last year 
we advertised for full-time interpreters to hire at the courts. 
Unfortunately, to be a full-time interpreter at EOIR, as 
outlined in our language access plan, requires a great deal of 
experience, particularly in a judicial setting. So when we 
tested the interpreters, unfortunately, we only got a handful 
who were able to successfully complete the examination.
    We have also been looking at stacking and docketing 
practices to ensure that languages are grouped together, so 
that we are not wasting the interpreter resources.
    Mr. Serrano. Now, the memo you sent out putting forth this 
bad news to the staff, does that have a starting date, an 
implementation date?
    Mr. McHenry. As you know, the budget was----
    Mr. Serrano. Yeah, I don't want to be in a situation here 
where I am telling you, if you talk to us, we are going to take 
care of the problem. That is not the way we work at 
Appropriations. We have to find out where the money is going to 
come from and so on. But I think, at the minimum, from what I 
heard Mr. Aderholt say and what I have said, we would have been 
open to discuss the situation and find out going forward how 
can we be helpful, either in some special situation that comes 
up in Congress or in the next year's budget.

  EXECUTIVE OFFICE FOR IMMIGRATION REVIEW (EOIR) RESOURCE CONSTRAINTS

    So I am just not understanding how there wasn't an alarm 
that this was going to be a problem and then an email comes out 
saying we have a problem that we, Congress didn't know about.
    Mr. McHenry. No, I am happy to take that message back to 
the Department. I think the Department is pleased to hear that. 
This committee has been extremely supportive of EOIR in the 
past, especially in the recent past, and none of the success, 
none of the things that I alluded to with hiring, with case 
completions, all of our efforts are almost entirely 
attributable to that support. So we are very grateful, very 
appreciative, and I will definitely relay that message.
    Mr. Serrano. Thank you.

              IMMIGRATION JUDGE (IJ) PERFORMANCE MEASURES

    Last year, then-Attorney General Sessions testified that 
immigration judges, quote-unquote, ``agreed to use case-
completion goals as part of their job performance 
evaluations.'' Is this true, did immigration judges agree to 
the use of case-completion goals as part of their job 
performance evaluations?
    I always preface a lot of these comments by saying I am not 
a lawyer; I am not a judge. I played one on ``Law & Order'' 
once, but that doesn't count. But it would seem to me that 
democracy and justice should take whatever time it takes. You 
know, I am one of those few people that says, you know, 
gridlock may not be a terrible thing, because there are places 
where the budget is always on time because one person decides 
what the budget is going to look like, whatever group. We have 
a democracy and democracy means you get elected, I get elected, 
we disagree, and it may take a little longer to reach that 
situation.
    But the whole idea that, you know, you must complete so 
many cases or else you are not doing a good job just doesn't 
make sense to me. Was there agreement on the part of the judges 
and everyone else at EOIR to do this?
    Mr. McHenry. I can't necessarily speak to what Attorney 
General Sessions may have said, because I am not familiar with 
the full context, but what I can say is that prior to last year 
the collective bargaining agreement that we have with the 
immigration judge union prohibited the use of numeric 
performance measures. We negotiated that with the union and, as 
part of that negotiation, that section was withdrawn. That then 
allowed us to promulgate these performance measures at the 
beginning of this current fiscal year.
    To our mind, we understand the concerns and we have looked 
at them very closely, but we don't consider them quotas, and we 
don't consider them quite as black and white or quite as stark 
as perhaps they have been portrayed.
    In the collective bargaining agreement there are six 
discrete factors that we do consider, plus a seventh catchall 
to sort of account for any situations, any anomalies, any weird 
trends that may be impacting a judge's performance.
    Mr. Serrano. Well, but that brings us to the next part, 
which is how can you ensure that judges don't feel pressured to 
take shortcuts within the system in order to meet what is being 
asked of them?
    Mr. McHenry. To our mind, again, we are sensitive to that 
concern, but to us it is sort of a false dichotomy. The 
regulations require that the judges issue decisions in both a 
timely and impartial manner; we don't see the two as in 
tension, being able to do things timely and impartially. And 
these performance measures, they are also not unique to us. 
There are a number of other agencies that have implemented our 
other components. The Board of Immigration Appeals and the 
Office of the Chief Administrative Hearing Officer, they also 
have performance measures or case-completion goals.
    And we won't have the results, we won't have the outcomes, 
obviously, until the end of the fiscal year, but so far we 
haven't noticed any significant issues that have come up with 
them so far.
    Mr. Serrano. Well, let me just say on the record for you to 
take back also, based on what you said before, that we want 
judges to be judges; we want them to judge, we don't want them 
to have to meet a quota or meet a time line in order to deal 
with justice. Justice doesn't work that way. If it takes 
longer, let it take longer, or let's talk about more judges 
rather than a number that doesn't fit.
    And lastly on this, do you anticipate that the use of these 
performance goals could be used as grounds for an appeal of an 
immigration case?
    Mr. McHenry. Again, that is an issue that has been raised 
and that we have looked at, but by itself we wouldn't expect 
so. First, because our judges are professional, they know that 
the law says that they don't make decisions based solely or 
entirely on those goals, they know that that will lead to 
reversal.
    Additionally, we can't control what arguments people want 
to raise, but we have trained our judges, they understand--many 
of them come from other systems that have performance measures 
or case-completion goals, and they understand, as I alluded to, 
how to balance being fair and impartial and respecting due 
process, and also providing timely adjudications of the cases, 
so that these individuals don't have to wait any longer than is 
absolutely necessary to get a decision.
    Mr. Serrano. I want to ask one last question here and then 
get on to the other members and Mr. Aderholt.

         EOIR'S CASE BACKLOG AND EFFECT OF GOVERNMENT SHUTDOWN

    We just had the longest government shutdown in history; 
what has this done in terms of the backlog of immigration 
cases? Can you tell us the current backlog number, as well as 
how many cases have been added to the backlog as a result of 
the shutdown? How long will it take to get back to the pre-
shutdown level?
    Mr. McHenry. The current pending caseload is about 850,000. 
We wouldn't necessarily say those are all backlog, because that 
includes cases that were filed yesterday, the day before, a few 
weeks ago that haven't been pending for that long. It also 
includes detained cases, which generally move much more 
expeditiously.
    In terms of the shutdown, for us it is not a question of 
added cases, because non-detained cases weren't being 
adjudicated, they weren't being filed, so it is hard to say. 
What we can say is that we had to cancel approximately 60,000 
hearings during the time of the shutdown.

                   RESCHEDULING OF CANCELED HEARINGS

    Mr. Serrano. And when you canceled them, were you able to 
get back to those folks after the shutdown and tell them that 
you were ready to hear their cases or that they were still on 
schedule to have their cases heard?
    Mr. McHenry. The courts are in the process of rescheduling 
those. They have been working overtime since the shutdown ended 
to get that done.
    Mr. Serrano. Because from what we understand on the 
committee during the shutdown, many may not have been sent 
written notice after the shutdown that the cancellation now is 
over and they can be taken care of, or at least dealt with 
their issue.
    Mr. McHenry. There was a hiccup the first week after the 
shutdown ended, because we didn't have time to necessarily get 
notices out. We also had a couple of courts closed that week 
due to weather issues that delayed it, but we think those 
problems have largely been resolved since then.
    Mr. Serrano. Thank you.
    Mr. Aderholt.

                     EOIR'S CASE BACKLOG SOLUTIONS

    Mr. Aderholt. Well, talking about the backlog, you said 
850,000, I believe we talked about 840, 850,000 pending cases, 
and you talked a little bit about in your opening remarks about 
the hurdles, but can you again talk about what you think are 
the greatest hurdles to overcoming that backlog and in trying 
to reduce it? I mean, if you had to really focus on just one or 
two things, what do you think are the greatest need there to 
try to overcome that?
    Mr. McHenry. The number-one need, as it has been, as the 
President has outlined, as this committee is aware, the 
subcommittee is aware, is more immigration judges, increased 
immigration judges.
    In October of 2017, the Administration called for adding 
370 immigration judges. At the time, we had about 330, so that 
equates to about 700 total. We know that, when we get more 
judges, they are adjudicating more cases more effectively, more 
efficiently, the numbers keep going.

                 EOIR'S 2014 RE-ALLOCATION OF RESOURCES

    Mr. Aderholt. To what extent do you believe that the 
reallocation of resources and judges to the priority dockets of 
unaccompanied minors and family units beginning in 2014 
contributed to the backlog?
    Mr. McHenry. It is a frequent criticism and it is clear 
that the reshuffling of the dockets didn't help the backlog, 
but it is part of a larger sort of culture at the time that, as 
I alluded to, didn't emphasize the importance or the need for 
completing cases in a timely manner. So it sort of plays into 
the larger issue of, you know, an institutional focus on the 
need to get the cases completed and to get results for the 
individuals in proceedings.

                            CASE PRIORITIES

    Mr. Aderholt. Does EOIR make these cases a priority?
    Mr. McHenry. In January of 2018, we issued a new priorities 
memo. Under the prior memo, fewer than 10 percent of our cases 
were prioritized, but our new memo says detained cases are 
obviously a priority, and any other case that is subject to a 
deadline set by statute, by regulation, by court order, or by 
policy is a priority. Essentially, the cases in which we have 
to wait for another agency to act, those don't necessarily fall 
within the priority distinction, but all of the other cases do.

                      INTERPRETER NEEDS/CHALLENGES

    Mr. Aderholt. And you mentioned additional challenges that 
will need to be sustained to support--to ensure that EOIR's 
recent successes are not undermined or eroded. And you--as 
mentioned earlier, you said it was--correct me, you said in 
early 2000 was when the interpreter issue became a real 
challenge?
    Mr. McHenry. It has been a challenge off and on at least 
since then. We issued policy guidance, I believe in 2004, to 
address it at the time.
    Mr. Aderholt. But that is when it first became real was the 
early 2000s.
    Mr. McHenry. Right, but it hasn't necessarily been 
consistent over that time.
    Mr. Aderholt. Right, but that is when you first saw it, 
even though it has waned back and forth since that time?
    Mr. McHenry. I am not necessarily familiar with the agency 
history before that time, but that is the first time that I am 
aware of.
    Mr. Aderholt. How does the on-boarding of additional judges 
drive your interpreter needs and how we will address this 
challenge in future budget submissions?
    Mr. McHenry. Well, the fiscal year 2020 budget hasn't been 
put out yet, I believe it is scheduled to be put out next week 
or in the next couple of weeks, so I defer to the Department 
and to OMB for the formal submission. But, as I alluded to and 
as our statistics show, the increase in the number of judges, 
you know, we hire them to hear cases, they are hearing more 
cases, they are hearing them more efficiently, we have had an 
increase in the number of hearings that require--or for non-
English speakers, which ordinarily require interpreters. So, 
the more judges you have, the more hearings you hold, the more 
need there is going to be for interpreters.

         EOIR'S COURTS AND APPEALS SYSTEM (ECAS) PILOT PROGRAM

    Mr. Aderholt. In 2018, EOIR launched an electronic filing 
pilot program marking the first phase of EOIR's Courts and 
Appeals System, ECAS, initiative. Can you take a minute and 
just describe that pilot program and the outcomes that you 
observed from your viewpoint?
    Mr. McHenry. Sure. ECAS is our electronic filing program. 
We are one of the few, maybe the only at this point, 
administrative agency that is still using a paper filing 
protocol. We have known it is a concern, we have known it is an 
issue for many, many years. And in 2018, with the 
subcommittee's support, we were able to take some of the first 
steps toward piloting what you call ECAS to rectify that 
situation. We are also grateful the fiscal year 2019 enactment 
had 25 million to go toward technological improvements, which 
is designed to improve and enhance ECAS.
    In short, ECAS is an electronic filing program, it is an 
electronic record of proceedings, so it gets rid of the paper 
files, and it has judicial tools that allow the immigration 
judges to more effectively go through the documents, take 
notes, and follow what is going on. We believe it will make 
proceedings even more efficient in the future. It will also 
free up space right now that is currently being dedicated to 
file rooms and docketing rooms, that we can then put other 
employees, other judges, utilize them better in more effective 
ways.
    Mr. Aderholt. What is your time frame for full 
implementation of this new system?
    Mr. McHenry. We intend to--we completed the pilot last year 
and we are right now sort of assessing the results of that 
pilot. Because of the equipment involved, there is a little bit 
of lead time before we can roll it out nationwide, but we 
expect to do that by the end of this calendar year. It has to 
be done in phases. Obviously, EOIR is a large system, we have 
65 courts and adjudication centers nationwide. We unfortunately 
can't just implement it overnight or turn on a switch. So it 
will probably be done in phases, I would expect definitely into 
2020 and probably into early to mid 2021 as well.
    Mr. Aderholt. What do you anticipate as far as trying to 
implement the ECAS system from being fully implemented, is 
there a particular hurdle that you see as problematic or----
    Mr. McHenry. Right now, time is the biggest hurdle. Once we 
get the equipment, you know, then we can start rolling out. 
There will be a time lag, there will be training that needs to 
be done and that sort of thing, but at this point it is just 
time.
    Mr. Aderholt. Thank you, Mr. Chairman.
    Mr. Serrano. Thank you.
    We will now begin the questioning. Those who were here last 
time remember that the system we use is who was here at the 
time of the gavel, and then who came later, and we will go back 
and forth from that. And we will try to stick--or we will 
stick, especially today, to the 5-minute rule, or you hear this 
gentle and very soft, my lovely way of saying okay. [Laughter.]
    Mrs. Lawrence.
    Mrs. Lawrence. Yes. Thank you, Mr. McHenry.

            IMMIGRATION JUDGE (IJ) AUTHORIZATION AND HIRING

    I have a question. Currently, we know that there are a 
backlog of cases and my question to you is, how many vacancies 
for authorized judges do we have on field today?
    Mr. McHenry. I can't give you the number precisely today. 
What I can say is that, once we process all of the judges that 
we currently have in place, we will only have about eight 
vacant courtrooms remaining. So we have 427 judges currently, 
we are going to be at roughly 450 in a couple of months. We 
have 428 courtrooms right now and that is going to be up to I 
think 460, in that neighborhood, in a couple of months. So we 
are going to be at almost full capacity. The authorization is 
of course 534, but we will need to increase our space to be 
able to bring the judges on.
    Mrs. Lawrence. So the allocation and what we appropriate 
for is for 500 and how many?
    Mr. McHenry. Five hundred and thirty four.

                   IMMIGRATION COURT OPERATING HOURS

    Mrs. Lawrence. Has there been any discussion of extending 
the hours of operation?
    Mr. McHenry. That is something actually that we have looked 
at at different courts. It is difficult to do logistically, not 
only to find people who are willing to do that, because we need 
legal assistants, we need interpreters, we also have to discuss 
security concerns. Some of our courts are located in public 
buildings and it may be difficult to hold them open after 
hours. It is something that we have looked at, but at least in 
the non-detained setting it hasn't shown to be viable just yet.

               LEGAL REPRESENTATION IN IMMIGRATION COURT

    Mrs. Lawrence. One of the greatest obstacles proposed by 
the remote nature of most facilities, a study conducted by the 
LA Times in 2017 found about 30 percent of immigrants in 
detention are jailed more than 100 miles from the nearest 
government-listed agency Legal Aid resource on the pro bono 
list distributed by ICE and the immigration courts.
    I want you to know that represent--I am sure you agree, 
representation matters, particularly given the complex nature 
of immigration law. The vast majority of immigrants in 
detention are under-represented. Fewer than one in five are 
represented. Immigrants in detention are twice as likely to 
succeed in their cases if they are represented.
    What training do you provide to judges who hear detained 
dockets to ensure their respondents are given enough time and 
support to obtain counsel, and if they are unable to do so, to 
be provided or apprised of their rights by the judge?
    This is a major concern, Mr. McHenry.
    Mr. McHenry. Both by statute and regulation, the 
immigration judges are required to apprise all respondents of 
their right to counsel at no government expense. They are also 
required to provide them with a list of pro bono or low bono-
type service providers. By policy, we typically give at least 
one continuance to look for an attorney. By statute, they are 
allowed 10 days before their first hearing to seek counsel.
    Once they are in proceedings, the judge will also look out 
for their rights, will explain the nature of the proceedings to 
them, if they are unrepresented. If they are unrepresented and 
they are seeking asylum or some type of benefit, the judge will 
also explain the qualifications for that.
    Mrs. Lawrence. Do you find having one in five, only one in 
five are represented, what is your response to that data?
    Mr. McHenry. There are many arguments on that and the data, 
at least in the detained setting, is sometimes inconclusive. 
Many respondents who are detained are detained for serious 
criminal charges or serious criminal convictions, and thus 
there may not be much that an attorney can do for them in 
proceedings, and many attorneys as a matter of----
    Mrs. Lawrence. But they are under-represented, so it is not 
an attorney. So are you saying that, if they commit a crime, 
then there is no need for an attorney, is that what you are 
saying?
    Mr. McHenry. What I am saying is that many attorneys as a 
matter of ethics won't take a case for someone if they can't do 
something for them in immigration proceedings. So there may be 
some sort of selection bias going on in terms of looking at the 
overall representation number for detained aliens. We have----
    Mrs. Lawrence. So make me understand that. So, if I am a 
detainee with a criminal record, you are saying that the 
attorneys don't want to take their case, so therefore they go 
through the system unrepresented?
    Mr. McHenry. For example, an individual who has a drug 
trafficking conviction and has no fear of returning to their 
home country, is ineligible for almost everything under the 
immigration laws. An attorney who talks to that individual is 
unlikely to take their case, is unlikely to charge them money, 
because they understand as a matter of law they can't do 
anything in the proceedings.
    We haven't drilled down to know--and it is a level of 
granularity that I am not sure we could get at it--to know how 
many individuals don't have counsel because they haven't looked 
for it or because someone won't take their case, or for some 
other factors.
    Mrs. Lawrence. I will wrap up with this. In our country, 
representation in the legal process is something that is an 
expectation and what you just said to me is something that 
needs to be corrected.
    Thank you. And I yield back.
    Mr. Serrano. Thank you.
    Mrs. Roby.
    Mrs. Roby. Mr. Graves was here before me----
    [Audio malfunction in hearing room.]
    Mr. Serrano. Yes, we went to the videotape. [Laughter.]
    I apologize.
    Mr. Graves. Thank you. Thank you for the southern 
hospitality too from the gentlelady from Alabama.
    Director, thank you for being here. You have a daunting 
task. Myself and Mr. Palazzo were a part of the conference 
committee that dealt with border security funding here a few 
weeks ago, and we were briefed on a lot of the details and 
information as to why the President and the Administration made 
the request for 75 additional judges that came through your 
department.

            FY 2019 IMMIGRATION JUDGE AUTHORIZATION REQUEST

    Was your request, which was granted in that bill, 
contingent on the comprehensive nature of the request? In 
essence, were 75 judges, in your opinion, sufficient if the 
full request was funded, or was it based on an open border 
system or a current border deterrent system or a more advanced 
deterrent system?
    Mr. McHenry. Our request was sufficient for our needs at 
the time it was made and, again, we are very appreciative for 
the subcommittee fulfilling that request.
    Mr. Graves. Is it sufficient for your needs today?
    Mr. McHenry. Our challenge going forward--and, again, the 
next week or the next couple of weeks the Department will 
submit the formal budget request that may more directly answer 
your question, but our challenge going forward is, with 
increased amounts of immigration, EOIR sees most of the 
downstream effects of that. Many individuals come here and they 
make asylum claims, they are placed in immigration proceedings, 
so they end up in our court system. So we know as a matter of 
data, as a matter of statistics, the more immigration that we 
have, the more likely we are going to have increased court 
cases.
    Mr. Graves. So the request was made in December of last 
year in conjunction with the $5.7 billion request for a border 
fence or wall, in addition with a lot of other things, 
including investigators and detention beds and Border Patrol 
and Customs. Do you sense that you would need additional judges 
if the rest was not fully funded as requested originally in 
December?
    Mr. McHenry. I don't necessarily want to speak out of turn, 
because most of those are requests from the Department of 
Homeland Security, and we typically wouldn't comment on another 
agency's budget.

               NON-DETAINED AVERAGE CASE COMPLETION TIME

    Mr. Graves. That's fine. On average, a non-detained 
individual has 672 days before his or her case is heard; is 
that correct?
    Mr. McHenry. Before the case is completed; there may be 
multiple hearings along the way.
    Mr. Graves. So they are not detained. Where are they when 
they are not detained?
    Mr. McHenry. We have 65 courts nationwide, approximately 40 
of them hear non-detained cases.
    Mr. Graves. But where are the individuals who are not 
detained for 672 days?
    Mr. McHenry. Typically, at their house or wherever they 
happen to reside.
    Mr. Graves. The country of origin or----
    Mr. McHenry. No, in the United States or wherever they are 
residing.
    Mr. Graves. In the United States. So, for 672 days they are 
in the United States. What percentage of them actually return 
to have their case heard?
    Mr. McHenry. It is a difficult question to calculate the 
percentage, because there may be----
    Mr. Graves. It should be pretty easy, either they show up 
or they don't.
    Mr. McHenry. Well, there may be reasons that they don't 
show up at a particular hearing, there may be issues with 
notice and things like that. What we know, at least on this 
fiscal year, it is about 44 percent of our cases have resulted 
in an in absentia, which means they weren't present for it, 
that represented in an in absentia removal.
    Mr. Graves. So about 45 percent don't show back up. Where 
do they end up? Do they go home?
    Mr. McHenry. The Department of Homeland Security would be 
in a better position to answer that than I. They do have an 
order of removal outstanding. At that point----

         DETAINED V. NON-DETAINED AVERAGE CASE COMPLETION TIME

    Mr. Graves. So help me understand. What is the difference 
then in 40 to 45 days until a hearing for someone that is 
detained versus somebody that is not detained waiting 2 years, 
why is that different?
    Mr. McHenry. For a number of reasons. Detained cases, as I 
said, are expedited, they are always a priority. Typically----
    Mr. Graves. So would it be better to have more detention 
facilities, so that cases can be expedited, or is it better to 
have less detention facilities, so that 45 percent don't show 
up?
    Mr. McHenry. That would be a question probably better 
directed to the Department of Homeland Security, since they 
maintain----
    Mr. Graves. It is a good question for you too here today.
    Mr. McHenry [continuing]. They maintain the detention 
system.
    Mr. Graves. In your opinion, after all you have seen, you 
have an 850,000 person backlog--I assume that is not because of 
the Department's lack of work, but it is probably due to 
additional apprehensions, as we have seen in the news. Do you 
consider this a national emergency?
    Mr. McHenry. Again, I am not in a position to really 
comment on semantics----
    Mr. Graves. You have expertise, you can----
    Mr. McHenry [continuing]. Or labels. What I can say, as I 
alluded to earlier, we do see the downstream costs. Increased 
immigration does lead to increased court cases.
    Mr. Graves. I appreciate your attempt to avoid that 
question, I know it is difficult. We all get that question and 
we are grappling with that today, but I would say that an 
850,000 person backlog that has increased 14 percent or more 
each year over the last 8 years might be an emergency, and it 
is okay to say that.
    Mr. Chairman, I will yield back.
    Mr. Serrano. Thank you. And once again we apologize for the 
order, since I hadn't seen that you had stepped out of the room 
before the gavel went down and you were here before.
    Mr. Graves. Thank you.
    Mr. Serrano. So I am sorry for putting you in the category 
of forgotten, but not gone.
    Mr. Graves. So I am free to go. [Laughter.]
    Thank you, Mr. Chair.
    Mr. Serrano. Mr. Case.
    Mr. Case. Thank you.
    Director, at the bottom of your testimony, the second-to-
the-last paragraph, you have this statement: ``The nature and 
timing of the fiscal year 2019 process has left EOIR short of 
fulfilling all of its current operational needs, and it is 
limited in its ability to reform programs that are not cost 
effective.''
    What does that mean? What are you trying to say there? I 
think there are two parts to that. One is fiscal year 2019 and 
the second part has some reference to programs that are not 
cost effective.

                         FY 2019 BUDGET REQUEST

    Mr. McHenry. The first part, as I have alluded to, you 
know, we have challenges. We have had a number of things come 
up, most recently, probably the biggest one is the interpreter 
issue has returned.
    In terms of cost effectiveness, the subcommittee is aware, 
obviously, of the study that we did of the Legal Orientation 
Program last year. We have now completed that, or at least the 
first two phases of it, we know what the costs associated with 
it are, and it is something that the Department I think would 
like to engage with the subcommittee at a later date to sort of 
talk about what its best posture is going forward.
    Mr. Case. Okay. So, on the first part, the 2019 budget, 
what you are saying is the interpreter issue came up basically 
after the 2019 budget process?
    Mr. McHenry. As I have said before, the interpreter issue 
has been sort of an off-and-on and ongoing concern, but it has 
become more acute, again, as we have brought in more judges and 
we have heard more cases and they have completed more cases.
    Mr. Case. Okay. And then the second part again, so this 
reference to cost effective is to the Legal Orientation 
Program; is that right?
    Mr. McHenry. To an extent. That is one of the programs that 
we looked at and we evaluated. We know what its costs are, at 
least to us and government-wide, and it is something that we 
would like to engage the subcommittee on going forward.

                    LEGAL ORIENTATION PROGRAM (LOP)

    Mr. Case. Okay. You have not then today made any 
determination that this program is not cost effective?
    Mr. McHenry. We know what the costs associated with it are, 
but the future would be--as I said, that would be part of a 
dialogue or a discussion that we would have with the 
subcommittee.
    Mr. Case. Yeah, I am just trying to get a sense of where 
you are right now, because, you know, I am presuming from what 
I have read here that there is some disagreement over whether 
this program should be continued or not. I mean, it went for a 
while, it got, you know, great reviews by the ABA, who alleges 
that it--or claims that it was cost effective, that it reduced 
backlogs by some 20 percent. That was based on a 2012 study. 
You have said that that 2012 study came under unusual 
circumstances. I don't know what that exactly means, but the 
fact that there is a very significant body of folks out there 
who thought it was cost effective. You suspended it to do 
another study on it.
    It is good to know that that study is proceeding, but I am 
just asking you where you are right now on it, because, you 
know, this is, frankly, a little confusing language. I don't 
know whether it is circular a little bit, ``it is limited in 
its ability to reform programs that are not cost effective.''
    So I don't know whether you have already decided you are 
not going to try to reform this program or whether you have 
decided that you are still thinking about it, or whether you 
have decided that, you know, you are going to run with it, I am 
not sure which one it is.
    Mr. McHenry. We have decided we would like to talk to the 
subcommittee more about it.
    Mr. Case. Okay, so no decision yet on--do you have an 
opinion on whether it is cost effective today?
    Mr. McHenry. We would rely on the study that we have, that 
we have done in the past year that I believe was provided to 
the subcommittee.
    Mr. Case. Right, which is not finished.
    Mr. McHenry. The first two phases of it, the third phase is 
not finished.
    Mr. Case. Okay. So you are still open on this program, 
subject to discussing it with the subcommittee.
    Mr. McHenry. Yes. In fact, we have expanded it recently, I 
think, into a facility in Mississippi.
    Mr. Case. I see. So it is not suspended then?
    Mr. McHenry. No, it was never suspended----
    Mr. Case. Okay.
    Mr. McHenry [continuing]. It is still ongoing.
    Mr. Case. All right. I guess, you know, I read all this 
stuff and I just ask myself, where is this all going? I know 
this is kind of a big-picture question, but you have got 
incredible backlogs here. We can debate whether they are an 
emergency or not, you know, from my perspective, it doesn't 
matter, the backlogs are there.

                          EOIR'S CASE BACKLOG

    When we look out into the future, do you have projections 
about whether your demand on your system will continue to 
increase at this kind of a rate and, if so, how you are going 
to actually deal with that increase in demand?
    Mr. McHenry. The projections would probably best come from 
DHS, because we are contingent upon their inputs, the number of 
new cases they are filing. We know how many they have filed 
over the past couple of years, it has been around 300,000. So, 
when we look at our projections, we are sort of basing it off 
of that number continuing, but they would have the most 
accurate and the best up-to-date data.
    Mr. Case. So you are taking their figures and you are 
calculating an increase in demand still, right?
    Mr. McHenry. Yes. As I alluded to in my opening statement, 
we have largely solved the problems on our side in terms of 
processing. We are able to hire more judges, we are able to 
move the cases more efficiently, but the number of inputs has 
gone up considerably. If we were still looking at the cases 
that we saw in 2015, the backlog would already be going down, 
but there has been a tremendous increase over the past 3 or 4 
years and that is what is driving it right now.
    Mr. Case. Yeah, I guess that is my point, because it kind 
of seems like you are chasing a car that is going faster than 
you are running.
    So I am trying to figure out what--sorry, I still stop 
there, because I have been very unsubtley----
    [Laughter.]
    Mr. Serrano. Mrs. Roby.
    Mrs. Roby. Thank you, Chairman.
    Director McHenry, thank you again for taking the time to be 
here and come before the committee to address our concerns.
    In your opening statement, in an email address to your 
colleagues, you highlight shortfalls within the fiscal year 
2019 funding levels, it has already been brought up today. You 
mentioned cost increases associated with increased 
transcription, data analytics, and other operational 
necessities. The most dramatic increase, though, was with the 
interpreter costs, which I know several of my colleagues have 
addressed.
    In perspective, interpreter costs were $17 million in 
fiscal year 2017, $60 million in fiscal year 2018, and expected 
to approach $110 million for fiscal year 2019.
    But you go on to say, quote, ``This challenging budget 
situation has led us to a position where difficult financial 
decisions need to be made.''

                      FY 2019 RESOURCE CONSTRAINTS

    So I would like it if you would tell us what difficult 
financial decisions you are referencing, and what decisions 
have been or are being made to address these?
    Mr. McHenry. The formal decisions will be made by the 
Department when the spend plan is issued, which I think is 
coming in a few weeks as well.
    The email is designed to sort of lay out priorities. Our 
employees know the situation, they know that we have 
unprecedented growth, unprecedented hiring, unprecedented case 
completion numbers, all due to the support of Congress and the 
Administration; they have questions about where do we go next. 
We have essentially been trying to dig ourselves out of a hole 
for the last 2 or 3 years, and we are getting sort of to the 
top of that, and they want to know what are the next steps.
    So we have outlined sort of what we see as the priorities 
going forward for the remainder of the fiscal year and that is 
what it is designed to convey.
    Mrs. Roby. Okay. You continue in your statement that you do 
not expect to be able to continue to hire and onboard staff at 
the pace previously set, and that you expect delays, to include 
the hiring of immigration judges with no new class after the 
one scheduled for April. You mention you will not be able to 
hire 250 attorneys that are needed.
    So my question gets to this, what resources do you require 
from Congress to address these shortcomings, and are you able 
in your current capacity to keep up the pace you have been on, 
or do you expect the Department to slowly start falling even 
further behind?
    Mr. McHenry. We definitely don't expect to start falling 
further behind. We have set, as I have alluded to, a fairly, to 
my mind, impressive pace in terms of hiring and adjudications, 
that should continue for the foreseeable future.
    In terms of resources, again, it wouldn't be appropriate 
for me to get out ahead of the Department or OMB for the 
release of the actual request.
    Mrs. Roby. Okay. Well, again, I appreciate your time being 
here with us.
    And, Mr. Chairman, I yield back.
    Mr. Serrano. Thank you.
    Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman. Thank you, sir.
    Mr. Serrano. Our vice chairman. We are going to get you a 
thing that says vice chairman on it.
    Mr. Cartwright. And I hope to be forgotten, but not gone as 
well. [Laughter.]

              IMMIGRATION JUDGE (IJ) PERFORMANCE MEASURES

    Mr. Cartwright. Director McHenry, thank you for joining us 
today. I wanted to talk about a few areas, the first one was 
case completion quotas.
    I was an advocate in the courts for 25 years and one thing 
we constantly heard from the Federal courts was statistics, you 
know, how can we hurry cases through the system. And every time 
I heard that, it made me think, what about justice? You know, 
are we sacrificing justice for speed.
    A new EOIR policy that began under Attorney General Jeff 
Sessions was case completion quotas. Beginning in October of 
2018, judges were informed that they were expected to meet a 
quota of 700 cases completed a year or they could be fired.
    Doesn't prioritizing metrics in case completion make it 
harder thoughtfully to dispose and adjudicate these cases, and 
easier simply to deny applications for entry into the United 
States?
    Mr. McHenry. I think this question comes back to a point I 
made earlier that to our mind this is sort of a false 
dichotomy. There is no reason that judges can't be both 
impartial and respect due process and also be efficient. Again, 
we don't call them quotas, because they are not strictly black 
and white, but they are not novel, nor unique to us. A number 
of other agencies use them, in fact they are fairly widespread, 
and we are not aware of any sort of significant or systemic 
issues that have arisen because of them.
    Mr. Cartwright. Well, you understand what I'm getting at 
and the question is, what specific steps has EOIR taken to 
ensure that setting quotas or targets like this doesn't hamper 
a judge's ability to examine each case comprehensively and 
justly?
    Mr. McHenry. All of our judges are properly trained. They 
are expected to know the law, to understand the law; they are 
expected to adhere to the law and to apply it. And they also 
understand the law is very clear that they can't deny a case, 
or deny a continuance or something like that, solely based on a 
performance measure or a case-completion goal.
    Mr. Cartwright. Now, of course our immigration courts are 
structured differently from other courts. They are housed 
within the Department of Justice and immigration judges report 
directly to the Attorney General of the United States; correct?
    Mr. McHenry. They are appointed by the Attorney General; 
there are several layers of management between them, but they 
are appointed by him.
    Mr. Cartwright. And the buck stops at the Attorney General; 
correct?
    Mr. McHenry. By statute, yes.
    Mr. Cartwright. And, if the Attorney General chooses, he or 
she can assign a case to a new judge or even reverse a 
decision; am I correct in that?
    Mr. McHenry. The Attorney General does have certification 
authority to refer decisions to himself from the Board of 
Immigration Appeals.
    Mr. Cartwright. Right. So, when judges are given case-
clearing quotas that they must meet or potentially lose their 
jobs, and their decisions must be approved by a potentially 
partisan supervisor, do you have a concern that this system 
might result in something less than objective and independent 
adjudication?
    Mr. McHenry. The immigration court system has been part of 
the Department of Justice since 1940. Almost every Attorney 
General, to my knowledge, with rare exceptions has exercised 
review authority. This is a situation that is neither new or 
that uncommon. And, again, we are not aware of any systemic 
issues that have arisen because of it.
    Mr. Cartwright. Well, you know what I am going to say about 
that, I am going to say, well, we have always done it that way 
is something less than a full discussion on the merits.
    Do you have a concern that partisanship can enter into the 
adjudication process?
    Mr. McHenry. I am not aware of any partisanship for 
anything in the adjudication process. The Attorney General, by 
statute, is charged with offering controlling guidance on the 
immigration laws.

      ADJUDICATION CENTERS AND VIDEO TELECONFERENCE (VTC) HEARINGS

    Mr. Cartwright. Okay. I also understand that, in addition 
to immigration courts, EOIR has two adjudication centers, 
right, one in Forth Worth and one in Falls Church, Virginia?
    Mr. McHenry. That is correct.
    Mr. Cartwright. Okay. At these centers, judges hear cases 
from around the Nation via teleconferencing, right?
    Mr. McHenry. Video teleconferencing, yes.
    Mr. Cartwright. Video teleconferencing, right. And my 
understanding is judges at the adjudication centers, they are 
at the adjudication centers, while the attorneys and 
respondents are in separate locations around the country. But 
in February of this year seven detainees, along with three 
public defender groups, filed a federal lawsuit against ICE and 
they said--and you are familiar with that suit, I'm sure----
    Mr. McHenry. I am.
    Mr. Cartwright [continuing]. They said reliance solely on 
video conferences has, quote, ``had disastrous effects on 
detained immigrants, the ability of their attorneys effectively 
to represent them, and the efficiency of the immigration 
court,'' unquote.
    My question is, has the EOIR taken steps to examine whether 
teleconferencing impacts the attorney's ability to advocate for 
their clients or, for that matter, a judge's ability to provide 
due process to immigrants seeking fair adjudication?
    Mr. McHenry. I can't speak specifically to the situation in 
Varick Street, obviously, because it is a pending litigation--
--
    Mr. Cartwright. Certainly.
    Mr. McHenry [continuing]. But what I can say is that our 
numbers don't bear out any sort of systemic issues.
    During the first quarter of this fiscal year, we held about 
29,000 VTC hearings, only 151 had to be adjourned due to some 
sort of video malfunction. We are in line with other agencies, 
including the Social Security Administration, the Department of 
Veterans Affairs, the Department of Health and Human Services, 
who have all found VTC to be a helpful, efficient, and useful 
tool.
    It also helps us eliminate dark courtrooms and give 
individuals, respondents essentially an extra day of hearing 
that they might otherwise have to wait for multiple months or 
weeks.
    Mr. Cartwright. Okay. So the answer is, yes, you have 
thought about it and you have reviewed it, and it is on your 
radar screen?
    Mr. McHenry. Yes. We believe VTC is an efficient and 
effective way of hearing cases. It has been authorized in the 
statute since 1996 and we have found it to be generally 
successful.
    Mr. Cartwright. Thank you.
    I yield back.
    Mr. Serrano. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.

                     IMMIGRATION JUDGE (IJ) HIRING

    Director McHenry, thank you for being here today.
    To follow up on what Congressman Graves asked you, he was 
talking about the judges briefly, and originally we had $5.7 
billion in the President's budget and you asked for 75 
additional judges, but it was reduced--for the wall, it was 
reduced to $1.3 billion. If you had known that, would you have 
asked for more judges than the 75?
    Mr. McHenry. Again, unfortunately, I am not sure I am in a 
position to answer hypothetical or to comment on----
    Mr. Palazzo. Could you use more judges----
    Mr. McHenry [continuing]. Another department's budget.
    Mr. Palazzo [continuing]. Than 75?
    Mr. McHenry. As I mentioned, it has been an Administration 
priority. You know, the President called for up to 700 total, 
and it has been a key part of our strategy of addressing a 
backlog. And, again, the subcommittee has been extremely 
supportive of us in those efforts.
    Mr. Palazzo. And, Mr. Chairman, you know, something that 
keeps popping in my mind, and Congressman Graves and I did 
serve as conferees on the Homeland Security appropriations 
process, and, you know, we seem to have a lot of our colleagues 
asking questions. Some of them are good questions, some of 
them, you know--I guess they are all good questions. But I was 
just always curious how many Members have actually been to the 
border and seen firsthand what our Border Patrol Agents, our 
ICE Agents, our judges, our local law enforcement officers, and 
local elected officials in the communities at large think about 
the crisis that we have at our border.
    And I just want to continue to urge my colleagues, you 
know, to get down there and see firsthand. It is a wonderful 
trips, the professionals down there will tell you how it is, 
and you can see firsthand, you know, whether you want to see 
whether the wall works or not, or where the wall is applicable. 
It is great, you can see the ports of entry. When we were 
there, they apprehended seven kilos of cocaine the morning of 
going to a point of entry, and they say this just happens every 
hour on the hour.
    But I kind of digress. So I would like to get back to, you 
point out that out of the judges that you had a target to hire 
in 2019--or your 2018 goal, you have come up short and you were 
only able to hire 20 judges, and you say it is due to an 
increase in interpretation costs. Can you describe how were you 
under-projecting the interpretation costs and it went up so 
much you can't hire the judges?
    Mr. McHenry. Again, final decisions on hiring and so forth 
haven't been made. Those will be part of the spend plan that is 
coming. Right now, our projections are--we have another class 
coming in April and then we are not sure about the remainder of 
the fiscal year.
    Interpretation is obviously part of it. Again, for reasons 
I have said there are more judges, means more cases, means more 
hearings, and it is something that we are factoring in 
definitely going forward.

                           INTERPRETER COSTS

    Mr. Palazzo. All right. So, interpreters, I mean, are not 
they a dime a dozen on the border? I mean everybody down there 
is pretty much bilingual in large part, so how are 
interpretation costs going up significantly?
    Mr. McHenry. Unfortunately, it is not as simple as that. 
Our interpreters are required to be trained both, in 
simultaneous interpretation and consecutive interpretation. 
They need experience in a judicial setting before we can hire 
them. I think I mentioned previously, we actually advertised 
and we are looking to hire more full-time interpreters. We have 
about 60, I think, currently, on staff. When we put the ad out, 
we only had 12, 13, 14 who were able to actually pass the 
examination.
    So, because, you know, we adhere to due process, 
interpreters are essential to most of our proceedings, we have 
to make sure that they are trained. And that they are proper.
    Mr. Palazzo. That is good to hear. From being able to 
discuss things with the professionals that are knowledgeable on 
the subject matter, we learn things every day to help us make 
decisions.

      LEGAL REPRESENTATION AND THE LEGAL ORIENTATION PROGRAM (LOP)

    One of our--my colleagues mentioned earlier, she kept 
talking about representation. If you are here illegally, are we 
obligated to provide representation to people here illegally?
    Mr. McHenry. In general, the statute, the Immigration 
Nationality Act provides aliens a right to counsel, but not at 
government expense.
    Mr. Palazzo. And so, there is a legal orientation program 
made up of non-government entities. Can you kind of describe 
that process.
    Mr. McHenry. Sure. Legal orientation, or LOP, is sort of an 
umbrella term and we have several subgroups under, but I think 
the main one that the subcommittee has been interested in is 
the general LOP, which goes to detention facilities across the 
country and they do one of four tasks. The primary one is sort 
of know your rights presentations; explain to the detainees, to 
the respondents what to expect, what is going to happen. After 
that, they may do follow-up individual consultations. They may 
refer them and things like that.
    Mr. Palazzo. Do you ever feel like they may be coaching the 
detainees to cheat the system to, you know, try to, hey, this 
is how you get a credible fear claim, you know, all you have to 
do is say this keyword and you are free.
    Mr. McHenry. I am not as familiar with on-the-ground facts 
and I haven't observed any LOP briefings. I am not aware of any 
concerns like that, but, again, it is something that we can 
take back to----
    Mr. Palazzo. We heard there are NGOs where, actually, these 
people are coming from, they are actually coaching them how to 
get through, whether it is to the coyotes, the cartels who are 
profiting off of this. So, that is somewhat of a concern that I 
have.
    But if people come here illegally, that is still against 
the law in our country, correct? And what would that charge be?
    Mr. McHenry. Illegal or improper entry is a crime. It is 
under 8 U.S. Code 1325.
    Mr. Palazzo. And that is a misdemeanor?
    Mr. McHenry. First offense is a misdemeanor.
    Mr. Palazzo. And the second offense?
    Mr. McHenry. It can go up to a felony.
    Mr. Palazzo. And, all right. Well, I yield back.
    Thank you, Mr. McHenry.
    Mr. Serrano. Mr. Palazzo, since you started your comments 
before my saying, `` Mr. Chairman,'' to the extent I will have 
to sort of answer in a way, the chairman's opposition to a wall 
does not fall under the usual arguments that you will hear. It 
is just that this country, our country of all countries should 
not build the wall. Not the country that has the Statue of 
Liberty. We have immigration and we have to deal with that, 
absolutely, but not a wall. Not this country.
    Mr. Palazzo. Mr. Chairman, since you brought it up, I 
think----
    Mr. Serrano. You brought it up.
    Mr. Palazzo. That was not directed for you to respond to 
what I discussed. I was thanking Mr. Chairman for being 
recognized----
    Mr. Serrano. Oh, OK.
    Mr. Palazzo [continuing]. Recognizing me to speak, but I 
think a combination of a defensive barrier, boots on the 
ground, and technology, would well-serve and protect an 
American and American citizens.
    Mr. Serrano. Thank you. Ms. Meng.
    Ms. Meng. Thank you, Mr. Chairman. Thank you, Director 
McHenry for being here today.
    I wanted to also address comments made by Mr. Palazzo, if I 
may. Many of us, including myself, have been to the wall. It is 
arguable that there is a crisis at the border; in fact, much of 
the backlog in our immigration courts can be arguably said that 
it is manufactured.
    We have--Mr. Serrano has a constituent and many of us have 
been working with his office, where a gentleman who has worked 
and paid taxes in this country for 25 years, is a union member, 
has been separated from his family. We have cases of thousands 
of children who have been separated from their families, and 
so, if we are talking about backlogs and, you know, 
prioritizing our resources, I think that we can do better in 
this area, as well.

      LEGAL REPRESENTATION FOR UNACCOMPANIED ALIEN CHILDREN (UAC)

    I do want to ask about legal representation for children. 
There are so many reports of young children appearing 
unrepresented in Immigration Court which brings attention to 
the availability or lack thereof of legal representation for 
them in removal proceedings. And representation in immigration 
proceedings is particularly critical when the respondent is a 
minor.
    Do you believe people in deportation proceedings should be 
entitled to an attorney if they cannot afford one, and what is 
the policy?
    Mr. McHenry. There are a couple of responses here. First, 
the issue, specifically, of representation for children is one 
that is very much in litigation; in fact, it is pending, so I 
am sort of limited in the amount of comments that I can make. 
But I would say, at least based on our statistics, if you are 
looking at unaccompanied alien children, at least for those 
whose cases have been pending for a year, the representation 
rate is close to 80 percent. It is similar-- 80 percent for 
asylum-seekers, as well. So, a good number of our cases are 
represented.
    In terms of the law, the law provided that an alien, the 
respondent is entitled to an attorney at no expense to the 
Government. Our judges explain the rights. They explain the 
proceedings to the respondents. They provide a list of pro bono 
providers if the respondent is unrepresented, and, again, they 
generally give some time to look for an attorney.
    Ms. Meng. I appreciate that, and I know that judges do 
explain. Do you agree with--there was a case a few years ago 
where an immigration judge, who was, himself, in a leadership 
position at EOIR was criticized for saying, ``I have taught 
immigration law, literally, to 3 year olds and 4 year olds. It 
takes a lot of time. It takes a lot of patience, but they get 
it. It is not the most efficient, but it can be done.''
    Do you agree with his statement?
    Mr. McHenry. I am familiar with that statement and it is 
unfortunate. It was mentioned several years ago, but it comes 
up periodically. There are a couple of responses to that. 
First, the judge's role is not to teach anyone the law in 
proceedings; the judge's role is to adjudicate the case based 
on the facts and evidence before them and to ensure that due 
process is respected.
    It is always an unfortunate situation when you have 
situations with children as young as 3 or 4 who have been 
smuggled or who have been brought to the United States 
illegally and unknowingly. It is always a rough situation 
having them in proceedings.
    But our judges, again, they are trained. They understand 
how to deal with the sensitivities in terms of dealing with 
young respondents. They are trained to know what to do and how 
to maintain the case, how to oversee the case to ensure that 
their rights are respected and that any claims are properly 
adjudicated.
    Ms. Meng. I agree with you that judges should not be 
teaching law to our toddlers, and that can also contribute to a 
lot of the backlog in our Immigration Courts. Since that 
article came out, what has EOIR done to improve quality and 
frequency for children's representation? I know you mentioned 
it is about at 80 percent. Do you think the system would 
benefit from universal representation of children in 
immigration proceedings?
    Mr. McHenry. Again, that sort of gets to a hypothetical 
question and also a question of litigation, so I can't--it's 
not appropriate to answer it directly. What I can say is that 
our judges, they are trained. They are trained in children's 
cases. They have special procedures. They understand the law. 
They protect the due process rights of all respondents, 
including those who are young.

             NOTICES TO APPEAR (NTAS) IN IMMIGRATION COURT

    Ms. Meng. If I have time for one more question, I wanted to 
ask about a recent Supreme Court decision stating that all 
notices to appear at Immigration Court must include a date, 
time, and location. EOIR knowingly began to provide DHS 
components with artificial hearing dates to circumvent these 
requirements. What steps have been taken to remedy incorrect 
NTAs and to provide proper notice to affected individuals.
    Mr. McHenry. These were--we are aware of this situation 
because it flared up two or three times in the fall and then, 
again, in January. But the dates that we provided are not--they 
have been called ``fake dates''--they are not fake dates. There 
is perhaps a lack of understanding of how the system works.
    The Department of Homeland Security is responsible for 
serving respondents with the notice to appear. So, when a 
respondent receives that, they see the date on that document; 
however, we don't know about it until DHS also files it with 
us, which is sort of a second step in the process. And we need 
to receive that document in a timely fashion so we can make 
sure it is correctly processed and the case is entered into our 
system and that we are ready to hear it.
    So, sometimes, there is some slippage and we understand 
people may think that they have a court date, but until the 
document is actually filed with us, we don't have jurisdiction, 
and for us, there is no court date. Now, we have worked with 
DHS and are remedying that situation. We have an interactive 
scheduling system that allows them to schedule these cases 
electronically, so that we are more aware of them on the front 
end and we don't expect a reoccurrence of the situation going 
forward.
    Ms. Meng. All right. I mean, as you know, people take time 
off from work. They have to provide childcare. They may have to 
travel hours to get to these courts and, in fact, internal EOIR 
emails indicate, for example, that on June 27th, 2018, an 
assistant chief immigration judge authorized the use of these 
fake or dummy hearing dates--and I appreciate the explanation--
do you agree with that? Is that blanket policy?
    Mr. McHenry. We actually issued a policy memorandum on this 
in response to some of the issues in the fall. It was issued 
right before the shutdown, so it may not have gotten as much 
attention as it should have. But we have worked with the 
Department of Homeland Security. We are not providing them the 
dates any more; instead, we have given them access to our 
interactive scheduling system, ISS, so it should be--they 
should be using it to schedule them electronically going 
forward.
    Ms. Meng. Thank you. I yield back.
    Mr. Serrano. Mr. Crist.
    Mr. Crist. Thank you, Mr. Chairman.

                          EOIR'S CASE BACKLOG

    Mr. McHenry, thank you for being here. I appreciate your 
testimony. I am kind of curious about the backlog situation. 
What did you say is the current backlog of cases?
    Mr. McHenry. The current pending caseload is about 850,000. 
It is perhaps inaccurate to say that they are all backlogged, 
because that includes some that were filed just yesterday or in 
the past two or three weeks, but that is----
    Mr. Crist. Cases that have not been heard?
    Mr. McHenry. Right. But that is basically the ballpark.
    Mr. Crist. OK. Thank you.
    Do you know, what is the highest number of cases that have 
not been heard ever in your agency's history?
    Mr. McHenry. I can't speak to the entire agency's history, 
but 850,000, I think is the largest pending caseload that we 
have had.
    Mr. Crist. It is the largest--highest it has ever been----
    Mr. McHenry. As far as I know----
    Mr. Crist [continuing]. In the history of America.
    Mr. McHenry [continuing]. But, again, I can't speak to 
the--to it in the past completely.
    Mr. Crist. Excuse me?
    Mr. McHenry. I can't speak to it beyond--we were created in 
1983--I can't speak to anything beyond that time, but it looks 
like it is the largest.
    Mr. Crist. Well, I wouldn't expect you to. So, since '83, 
it is the highest it has ever been?
    Mr. McHenry. Yes.
    Mr. Crist. OK. Why do you think that is?
    Mr. McHenry. It is a combination of factors.
    Mr. Crist. Please.
    Mr. McHenry. And you have to sort of look at the backlog in 
two stages. From about--because it didn't happen overnight--
from about 2008 until about 2017, it was driven by a lot of the 
factors that I alluded to, you know, lack of productivity, lack 
of hiring, a lack of emphasis on the need or the importance, 
significance of completing cases.
    As we have addressed those problems with the subcommittee's 
assistance and support, the recent increases are for different 
factors; they are mostly external factors. We have seen an 
increase in immigration. We have seen an increase in asylum 
claims. They have doubled in the past couple of years. Stepped 
up enforcement efforts. All this means that more new cases are 
coming in.
    Last year, DHS filed approximately 300,000 new cases, which 
is roughly a hundred-thousand increase over what they had filed 
just five years ago--four years ago. So, right now, it is 
increasing because the inputs are stripping our completions, 
but we are catching up. Again, with the support that we have 
received, we get more judges onboard, we are completing more 
cases, and we are going to be improving.
    Mr. Crist. Let's say five years ago, 2014, any idea what 
the number was at that point in time?
    Mr. McHenry. I don't have it in front of me. The chart is 
available on our website. We know the backlog, essentially, or 
the caseload, essentially, almost tripled between 2008 and 
2017.
    Mr. Crist. 2008 and 2017 it tripled?
    Mr. McHenry. Yes.
    Mr. Crist. How much has it increased since 2016?
    Mr. McHenry. I don't have the number from 2016, because we 
go by different fiscal years. I do know that since the end of 
fiscal year 2017, it has increased by about 30 percent.
    Mr. Crist. Thirty percent. Is that typical for an annual 
increase?
    Mr. McHenry. Well, that is a--it would be more than a year 
now since it was from fiscal year 2017. The rate has gone up. 
It sort of depends on which year you are looking at. I don't 
know if I would say it is typical or not.
    Mr. Crist. The rate has gone up?
    Mr. McHenry. It has.
    Mr. Crist. And what would you attribute that mostly to?
    Mr. McHenry. Oh, as I alluded to: new cases coming in, the 
increased numbers of new-case filings.
    Mr. Crist. And what is causing that?
    Mr. McHenry. Increased immigration. The Department of 
Homeland Security files the cases with our court system so all 
new cases come from them.
    Mr. Crist. So DHS is more active in terms of numbers?
    Mr. McHenry. They are filing more cases, yes.
    Mr. Crist. Yeah. So, the average wait for a case to go, as 
I understand it, is 780 days; does that sound right to you?
    Mr. McHenry. The median time for a case, a non-detained 
case to be completed is around 660, 670 days.
    Mr. Crist. Do you think that is a reasonable amount of time 
for a human being to wait for justice?
    Mr. McHenry. We don't. In fact, we have, among our case-
completion goals and support-level goals--these are not the 
judge-performance measures--we seek to complete all of our 
priority cases, all of our non-detained priority cases, within 
one year.
    Mr. Crist. What is the single thing most important to 
speeding up that process in a fair way?
    Mr. McHenry. As we have alluded to: more adjudicators. The 
number-one factor in our strategy to combat the caseload is 
increasing our adjudicatory capacity and that means more 
immigration judges.
    Mr. Crist. How many do you anticipate would be appropriate?
    Mr. McHenry. As I have indicated, the president called for 
an additional 370, and that is the number that we have been 
looking at. Obviously, those are not all at one time or over 
one fiscal year. The Department will present its proposal for 
each fiscal year, as it has done in the past.
    Mr. Crist. Well, if you were asked today, what would you 
ask for?
    Mr. McHenry. Again, it is----
    Mr. Crist. You are the guy running the department.
    Mr. McHenry. I appreciate that very much----
    Mr. Crist. Me, too. That is why you are here.
    Mr. McHenry [continuing]. But it is not appropriate for me 
to get out ahead of the Department or OMB; they will present 
the formal request in the next couple of weeks and that will be 
the number that we need.
    Mr. Crist. You are probably the most hands-on guy with this 
issue and you won't tell us what you think the numbers should 
be?
    Mr. McHenry. As I----
    Mr. Crist. Who should we go ask?
    Mr. McHenry. As I said, the Department will provide that to 
you.
    Mr. Crist. The Department? What does that mean for the 
human being that is associated with that?
    Mr. McHenry. The Department of Justice in the next couple 
of weeks.
    Mr. Crist. Very well. Thank you.
    Mr. Serrano. Welcome to this level of appropriations where 
we always get, Well, we have to check with the Department. We 
sort of understand it.
    Mr. Aderholt.
    Let the record show that we have broken tradition and we go 
to Mr. Aderholt to start off second round. That will never 
happen again, but----
    Mr. Aderholt. Thank you, Mr. Chairman.

                  VIDEO TELECONFERENCE (VTC) HEARINGS

    I want to talk about video teleconferencing. Of course, the 
technology allows court proceedings to be conducted 
efficiently, effectively, even though the participants are not 
all together at one site.
    Can you talk about some of the benefits of video 
teleconferencing with regard to administration of your 
proceedings.
    Mr. McHenry. Certainly. And we are not the only agency that 
does this. I mentioned the Department of Health and Human 
Services, Department of Veterans Affairs, Social Security 
Administration, most other adjudicatory agencies of our size 
use VTC on a widespread basis because it is efficient. It 
allows the agencies to conduct hearings in more locations. It 
is more convenient in some cases for the respondents or 
individuals who are appearing, and in our case in particular, 
it helps us get towards solving the problem of dark courtrooms.
    Because of scheduling issues and judges working alternative 
work schedules, you know, we sometimes have courtrooms that are 
not used on particular days of the week on a regular basis. 
That is the equivalent of a lost hearing or a lost day of 
hearings, so the people who are waiting months or years for 
their hearing, we could actually be hearing their case, and 
that is what VTC allows us to do; to bring that case, to move 
that case to an earlier date so we can give that person an 
adjudication.
    Mr. Aderholt. What is the role of video teleconferencing in 
the Criminal Alien Program?
    Mr. McHenry. Criminal Alien Program, I think, is a label 
the Department of Homeland Security uses for a specific 
program. We use VTC, though, for what we call the Institutional 
Hearing Program, which is for respondents who are detained 
either in state or federal criminal custody. It allows us to 
complete their case more quickly so that by the time they have 
served their sentence or finished serving their sentence, they 
already have a decision in their immigration situation, and 
they could either be granted--they will either have the relief 
and get to stay or they will have a removal order that can then 
be executed by DHS.
    Mr. Aderholt. Okay. What about--how do you ensure fairness 
to accommodate the needs of respondents and their 
representatives when they are using the VTC?
    Mr. McHenry. Again, there is always going to be some place 
where the respondent and their witnesses or their 
representative can be when we do a VTC hearing. Respondents, as 
I said, have the right to counsel with no expense, so if they 
have representation, the attorney will have to be there.
    Sometimes, the attorney is in the same court where the 
judge is and the respondent is by VTC. Sometimes the attorney 
is with the respondent--wherever the respondent is--and they 
both appear by VTC. In rare cases, we could do bridges, 
potentially, where they could both be in different locations 
and still have it done by VTC. But we make sure that the 
attorney is present for the hearing if there is one.
    Mr. Aderholt. Are you doing any kind of upgrades to the 
video teleconferencing equipment, the audio equipment, or the 
simultaneous-interpretation equipment?
    Mr. McHenry. We are expanding--we have expanded the 
digital-audio recording equipment as we build new courtrooms. 
We constantly look at our VTC equipment, our VTC connections. 
This is one issue that relates to the Varick Street litigation, 
so I can't get into it in too much detail, but we do 
continually monitor our equipment.
    As the status, the statistics that I referenced earlier 
indicate, the error rate or the malfunction rate is typically 
less than one-tenth of 1 percent. So, we haven't seen as many 
technological issues as, perhaps, there have been in the past.

          AVERAGE CASE COMPLETION TIME AND USE OF CONTINUANCES

    Mr. Aderholt. In 2012, Office of Inspector General noted 
excessive delay in immigration case processing can undermine 
the administrative justice if witnesses are no longer available 
to testify, U.S. citizens, relatives die, or documentary 
evidence is lost; moreover, the failure to promptly resolve 
cases result in aliens with unsupportable claims for relief 
from removal, remaining in the United States longer while those 
with legitimate claims for relief remaining in legal limbo for 
unwanted lengths of time. Would you agree with that assessment?
    Mr. McHenry. Well, the OIG report that you are referencing 
and also the GAO report in 2017, they both indicated or both 
noted issues with excessive continuances or proceedings 
dragging out for too long. That is one of the issues that we 
have looked at very closely and we have issued guidance on 
continuances.
    Last year, the Attorney General issued a binding precedent 
decision, also clarifying the law for judges on continuances. 
We haven't run any recent statistics. I don't have anything 
immediately available, but we believe that we are moving in the 
direction where excessive and unneeded or unnecessary delays 
are not causing us as many problems as perhaps, in 2012.
    Mr. Aderholt. But as far as agreeing with that assessment, 
would you agree with the overall assessment?
    Mr. McHenry. I was not with the EOIR in 2012, so I can't 
speak directly to that, but I know that it has been a concern 
for many years and it is still a concern.
    Mr. Aderholt. But, would you agree that it undermines the 
administration of justice if the witnesses are no long 
available to testify, if they die, or the evidence is lost?
    Mr. McHenry. Well, certainly. The longer the proceedings 
go, you know, the loss of recollection, the loss of witnesses, 
all those will affect the viability of a particular case.

                          EOIR'S CASE BACKLOG

    Mr. Aderholt. From your perspective, what do you see as the 
effects of the backlog?
    Mr. McHenry. It is twofold, but it is perhaps two sides of 
the same coin. Individuals who are here who have no claim to 
stay are allowed to remain longer in violation of the law than 
they otherwise should have.
    On the flipside, individuals who are here who have valid 
claims, it takes longer for those claims to be adjudicated, 
like, it takes longer for them to get the relief that they 
deserve.
    So, in short, no one benefits from the backlog and that is 
why we have taken such significant steps to try to address it.
    Mr. Aderholt. Thank you, Mr. Chairman.
    Mr. Serrano. Thank you, Mr. Aderholt.

                             MATTER OF A-B

    Mr. Director, were you involved in any way in the decision 
by former Attorney General Sessions In the Matter of A-B Case 
which limits the use of domestic violence as an adjudication 
for an asylum claim?
    Mr. McHenry. I am familiar with the AB decision, but it is 
another one that is very much in active litigation; in fact, 
part of it has been enjoined recently, so it is not appropriate 
for me to talk about it.
    Mr. Serrano. You support removing the category of domestic 
violence as a justification for an asylum claim?
    Mr. McHenry. Again, asylum claims are individual; they are 
very much fact-specific. There has been case law on domestic 
violence claims going back to 1975, so it is not an issue that 
is particular new or particularly novel. Our judges know that 
they adjudicate the cases based on the facts, the evidence, the 
claims before them, and in accordance with whatever precedent 
they happen to be bound by.
    Mr. Serrano. Let me--do you think at any moment you will be 
able to comment further or be involved more or do you think 
that while it is in the courts, we should just stay away from 
it at all?
    Mr. McHenry. On the issue matter of AB?
    Mr. Serrano. Yes.
    Mr. McHenry. The court case is pending and it is being 
challenged in different areas or it is being appealed in 
different areas. I don't know how long that process will take.

                   MIGRANT PROTECTION PROTOCOLS (MPP)

    Mr. Serrano. Thank you. The administration recently 
announced a new plan to require those seeking asylum at our 
southern borders to remain in Mexico while awaiting just of 
their asylum adjudications. This raises a whole host of 
potential problems for our immigration courts; for instance, 
how does the Court provide notices to appear to these 
individuals? How are they to appear to have their claims heard?
    And as I was reading this question--as I am reading it now, 
I am thinking also--and maybe this is solely out of left 
field--but if some of these folks are running away from 
violence or from physical danger, I think the last thing they 
want is for their local postman knowing they are getting a 
letter or something from the U.S. Asylum Office or something 
from Immigration, because that will target them as being 
involved in trying to get out. Maybe I am thinking too much, 
but those folks are facing a lot of hardships.
    So, how do you think this will work out?
    Mr. McHenry. Notice is always a concern for all of our 
proceedings. I can't speak to the Migrant Protection Protocols 
specifically, because, again, unfortunately, there is pending 
litigation going on. But notice is required by our statute and 
by regulations and any cases that are filed with us, we make 
every effort to ensure that the respondents to get proper 
notice of whenever the next hearing is.
    Mr. Serrano. And are you--was your office consulted on this 
decision to keep people in Mexico? And by the way, is it 
speaking seeking asylum from Mexico or to anybody who made it 
to Mexico from any other place?
    Mr. McHenry. The MPP is a Department of Homeland Security 
initiative, so I can't speak to it comprehensively. My 
understanding, at least based on how the statute is, it is 
individuals who are coming from a non-contiguous country, so, 
not from Mexico, who apply for asylum at a port of entry or at 
the border and then are allowed to wait or remain in Mexico 
until their cases are heard.
    Mr. Serrano. Were you consulted at all, your office 
consulted at all in putting this together?
    Mr. McHenry. The Department of Homeland Security initiated 
the policy. It is their policy. Obviously, it impacts us, so we 
have coordinated in terms of understanding where the cases are 
going to be.
    Mr. Serrano. And let me ask you, is EOIR facilitating 
access? How is EOIR facilitating access to counsel for 
individuals awaiting adjudication of their asylum claims?
    Mr. McHenry. Under this protocol or just in general?
    Mr. Serrano. Just in general.
    Mr. McHenry. As I have indicated, our judges--if someone 
shows up who is unrepresented, the judges will explain the law 
to them. They will explain their rights to them, including the 
right to get counsel at no expense.
    If they have a claim for asylum and they don't have 
representation, which is only about 20% of our cases, by 
regulation, the judge is required to discuss the claim with 
them and provide applications and information to them so that 
they can apply for asylum withholding or whatever protection 
they are seeking.
    Mr. Serrano. And on the one we were discussing before, is 
there a target time frame--there is a target time frame for 
adjudicating these cases and what is reasonable? What is a 
reasonable time?
    Mr. McHenry. I'm not sure I follow. Which types of cases?
    Mr. Serrano. The Mexico issue, I'm sorry.
    Mr. McHenry. Again, they may fall under our existing 
priorities, but the cases haven't actually started yet or been 
heard yet, so I am not sure how they are going to play out.
    Mr. Serrano. They haven't been assigned yet? They haven't 
started yet?
    Mr. McHenry. The cases have been filed, but we haven't had 
the first hearing yet.
    Mr. Serrano. So, do you know how many judges have been 
assigned to these cases?
    Mr. McHenry. They are assigned to courts. In terms of how 
many judges will be hearing them and particular dockets, I 
don't know.

                         ZERO TOLERANCE POLICY

    Mr. Serrano. Mr. Director, were you involved in any of the 
meetings either with others at the Department of Justice or the 
Department of Homeland Security where discussions of the family 
separation policy were held and did you support the adoption of 
this policy?
    Mr. McHenry. I actually testified a little bit on this last 
week. The Department did not have a family separation policy. 
The Attorney General, following upon a policy issued in 2017, 
which followed an executive order issued earlier that year, 
issued what's called a zero- tolerance policy, which is a 
prosecution policy that directed prosecutors at USAAs along the 
border to accept cases referred by the Department of Homeland 
Security for illegal entry. Because it is a prosecution policy, 
certainly, I was aware of it, but it is not something that we 
were directly involved in.
    Mr. Serrano. Yeah, but the policy, itself, resulted in the 
separations, so what was the involvement of your agency in it? 
I mean, look, we have many issues to discuss on immigration--we 
all know that--but I think even people who haven't spoken on 
this--and I am not putting words into anybody's mouth, 
especially my friends on the other side--no one likes children 
being separated from their parents.
    This morning, we have a report that 471 parents were 
deported without their children. I mean that is something that 
we are not supposed to be doing. And, you know, again, I am not 
a lawyer, but I am wondering does that qualify that we 
kidnapped their children if we did that? You know, what did we 
do?
    So, that cost of separation, and is there anything in place 
at your agency to try to be part of remedying whatever harm 
that has been done?
    Mr. McHenry. Part of this is in litigation. It is still 
ongoing litigation, the Miss L case, and we certainly work with 
our litigators to provide them with any information that they 
may need in terms of the reunification efforts.
    The zero-tolerance prosecution policy, itself, however, 
does not directly affect us. Individuals who are prosecuted 
under the policy, it does not prohibit them from applying for 
asylum or any sort of protection to stay here. So, we would get 
their cases, whether they are prosecuted or not.
    Mr. Serrano. Thank you.
    Mr. Graves.

                          EOIR'S CASE BACKLOG

    Mr. Graves. Thank you, Mr. Chairman.
    Director, thank you for your time today. You have had a lot 
of questions thrown at you. I want to just make sure that we 
clear up a couple of comments from earlier. I know that Mrs. 
Meng made reference to and used the term ``manufactured 
backlog''. In no way do I believe that she was insinuating that 
there are mistruths or anything like that. So, I will just 
clearly ask the question: Is the backlog that you have 
referenced today manufactured?
    Mr. McHenry. Not in the sense of being artificially 
created.
    Mr. Graves. In what way could it be manufactured?
    Mr. McHenry. Sort of deliberately created or deliberately 
manufactured.
    As I have indicated, the factors that affect it sort of 
changed in 2017 and it is been growing----
    Mr. Graves. But it is accurate.
    Mr. McHenry. It is growing.
    Mr. Graves. It is accurate, though, 850,000 or so, as of 
today?
    Mr. McHenry. Yes.
    Mr. Graves. In your opinion, do you believe that the 
current apprehensions that we have heard about this year thus 
far, the number I wrote down here was 268,000 apprehensions in 
the first five months. Is that a manufactured number?
    Mr. McHenry. I don't have any reason to dispute those 
statistics. We do follow DHS----
    Mr. Graves. Secretary Nielsen indicated that we could be 
upwards of a million apprehensions this year. Do you believe 
that is a manufactured number?
    Mr. McHenry. Again, I don't have any reason to dispute 
their statistics. We do try to track them fairly closely.

                           HUMAN TRAFFICKING

    Mr. Graves. We have heard a lot about human trafficking. 
You referenced that, as well. Do you believe that is a 
manufactured crisis on the southern border?
    Mr. McHenry. We do see trafficking cases in our courts and 
our judges, they have protocols----
    Mr. Graves. So, it is real.
    Mr. McHenry [continuing]. In terms of how to deal with----
    Mr. Graves. So, these are not hypotheticals that people are 
making up to score some sort of political points?
    Mr. McHenry. Again, I can't speak to----
    Mr. Graves. Children are being trafficked.
    Mr. McHenry. I can't speak to every single case, but we do 
see, sometimes, trafficking cases.
    Mr. Graves. Do you believe that sex trafficking and sexual 
abuse is being manufactured on the southern border? Is that 
real?
    Mr. McHenry. Again, I can't speak to every single 
situation, but I am aware that there are cases of sex 
trafficking.

           EOIR'S CASE BACKLOG AND FY19 RESOURCE CONSTRAINTS

    Mr. Graves. Mr. Crist had asked you some questions about 
what has been attributing to the backlog--850,000 or so now--
and he had some really good questions. I thought he was very 
thorough. You kept using the term ``external factors'' and you 
did not really want to go past that.
    Is it fair to say that one external factor is the increase 
of apprehensions on the border, which is a result of an 
increase of illegal activity on the southern border? Is that an 
external factor in your mind?
    Mr. McHenry. Yes, that is one of the ones that we stated. 
There is increased immigration that does have downstream costs, 
because most of those apprehensions will eventually end up in 
our courts.
    Mr. Graves. When you were putting together your budget that 
is being submitted--I know you don't want to talk about your 
budget for the next week or so--who submitted the budget? Was 
it something you reviewed and submitted to OMB or is it 
something OMB or Department of Homeland Security or Department 
of Justice did on your behalf?
    Mr. McHenry. I actually don't know all the ins and outs of 
that process. The Department, I know, works with OMB, but the 
person who actually submits it, I don't know.
    Mr. Graves. They are considering a budget that they have 
presented on your behalf and you haven't had a chance to review 
it yet; is that accurate?
    Mr. McHenry. No, we review. We are involved with----
    Mr. Graves. You, personally, are involved in that process?
    Mr. McHenry. Myself and my administrative team and other 
people are involved.
    Mr. Graves. Mr. Palazzo asked you about the 75 judges 
earlier. Regarding those 75 judges, he asked you if you had 
known it was going to be $1.3 billion for the wall, if you had 
known there were not going to be additional investigators, 
would you have requested additional judges. Knowing that you 
won't answer that question, how do you determine how many 
judges you need? What are the metrics? Surely, you can answer 
that.
    Mr. McHenry. We look at several things. There is, 
obviously, a limit to how many you can bring onboard at any one 
time, because we have to train them and we have to have 
locations for them. I mentioned one of our----
    Mr. Graves. So, if there were zero dollars for additional 
border security, zero for additional investigators, do you 
anticipate that apprehensions would increase, thus, increasing 
the backlog, thus, increasing the need for judges; is that a 
fair and logical statement?
    Mr. McHenry. I am not sure that I followed every part of 
the question, but if there are increased apprehensions, 
increased illegal immigration, we will likely see more cases.
    Mr. Graves. So, is it sufficient to say that if you had 
additional judges, and less apprehensions--meaning more border 
security--the backlog might decrease?
    Mr. McHenry. If new cases go down, the backlog will likely 
decrease. If the number of new cases being filed was the same 
as it was in 2015, the backlog would already be going down.
    Mr. Graves. So, fewer apprehensions as a result of fewer 
illegal entries into our country or fewer illegal activities in 
our country with additional judges could reduce the backlog?
    Mr. McHenry. A reduction in new-case filings by DHS would 
lead to a reduction in the backlog, potentially.
    Mr. Graves. Thank you, Mr. Chairman. I know my time is 
expiring, but I just want to point out that this is a very 
comprehensive issue we deal with and Mr. Palazzo and I dealt 
with as conferees on the conference committee. I would hope 
that we would keep that in mind when the question was asked 
about judges making partisan decisions. It is really unfair 
coming from a partisan asking that question--I don't believe 
they do. I believe these judges are doing the best they can 
with the little they have under immense pressure and what I 
would refer to as a crisis and an emergency on the border. And 
I know that you might or might not agree with that statement, 
but it is certainly a challenge you deal with.
    Thank you, Mr. Chairman.
    Mr. Serrano. Thank you.
    Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.

   DOWNSTREAM COSTS TO EOIR ASSOCIATED WITH INCREASED ILLEGAL BORDER 
                               CROSSINGS

    You mentioned in your testimony, or I saw it somewhere, 
that there is downstream costs associated with not having the 
appropriate amount of judges. Can you elaborate on that, if you 
recall.
    Mr. McHenry. The downstream costs are the effects of an 
increase in immigration. So, increases in immigration, 
increased apprehensions leads to increases in new cases. That 
means more cases that we have to deal with, more cases for our 
judges to adjudicate.
    Mr. Palazzo. And there is a tremendous amount of downstream 
costs to America, to states, cities, municipalities, based on 
just the sheer volumes of illegal immigrants that are also 
currently in our country and that are making their way to our 
country. So, I definitely agree with that.
    I don't know how you would be able to answer this, but I am 
going to ask it: In your opinion, what is driving the surge at 
our southern border?
    Mr. McHenry. I think the Department of Homeland Security 
would be in a better position than I am. I know they put forth 
several factors. But they have access to better data than I do.
    Mr. Palazzo. And I guess the reason I asked that is there 
seems to be no consequences showing up at our backdoor, 
knocking, saying, Hey, I am here for asylum or whatever, take 
me in. We can't detain them anymore, I guess, for an extended 
period of time because of a court ruling and they just 
disappear into our country.
    And you know, we have 840,000 people waiting, I guess, part 
of the backlog, and, what did you say, 44 percent don't show up 
for various reasons because I think there is no consequences to 
breaking our nation's laws. That we are going to continue to 
see--we may see that 1-million-person number, if not greater. 
Just this last month, we have had over 70,000, which I believe 
is a record, at our southern border.
    And I know Ms. Meng mentioned something. I am glad that she 
had an opportunity to go to the border, because if you see it 
firsthand and you talk to the professionals and you are 
objective, you see there is a crisis. I mean if 70,000 people 
are showing up at our southern border illegally--and that is 
only the ones that we are either catching them between the 
ports of entry or showing up at the ports of entry--it is what 
we are not catching. It is the other trafficking of drugs and 
criminal aliens and foreign nationals that may or may not want 
to do us harm which concerns me, and that is what concerns all 
of America.
    And that is why, you know, I think we need to get--when we 
talk about securing our southern border that it needs to be an 
``all of the above'' approach. It needs to be defensive 
barriers. We know defensive barriers work. Just go to San Diego 
and see a million-dollar community right next to where there 
used to be full of bodies and drugs and right on the other side 
is the Mexican border. And that wasn't that way in the 1980s; 
it was a war zone and San Diego residents will tell you that 
they absolutely work.
    We keep talking about asylum a lot, and, honestly, I am a 
CAP by trade--I am not an attorney or an immigration attorney--
but can you tell me, historically, what constitutes an asylum 
request and, especially, with regard to our southern border, 
maybe not foreign countries, outside that.

                 ASYLUM APPLICANTS IN IMMIGRATION COURT

    Mr. McHenry. Yeah. Under the law, under the statute, there 
are five bases to apply for asylum: race, religion, 
nationality, political opinion, and membership in a particular 
social group. The first four, I think, are fairly 
straightforward--race, religion, nationality, political 
opinion--that last one, that membership in a particular social 
group, there is not a definition either in the statute or the 
regulations and it has sort of been developed by case law along 
and along, and that is what leads to decisions or it is what 
has led to decisions regarding things like gang claims, 
domestic violence, things like that, because it is somewhat 
amorphous and somewhat hard to define. So, you do see more 
claims that try to fall under that rubric.
    We don't break down specific types of claims to that level 
of granularity, so I can't say for certain what our data shows, 
but anecdotally, it does seem that we are seeing more of these 
types of claims especially in the past four or five years. We 
have certainly seen more litigation and more case law related 
to these types of claims than we have to any of the other four 
bases.
    Mr. Palazzo. And you said it is fact-based. You have to 
prove, you know, one through four, and number five may be not 
as easy to support, especially with people coming from South 
America, Central America. So, what support is that; is it just 
the testimony of the person seeking illegal entry or asylum 
into our country?
    Mr. McHenry. Again, it can vary based on the specifics of 
each case. It could be based on as little as the testimony, but 
a typical case will have some documentation if it is affidavits 
or government documents. The judges also consider country 
reports from the State Department, various other organizations. 
So, there is typically a little bit more to it than just the 
testimony.
    Mr. Palazzo. Are they carrying that with them when they 
come through the border or are we re-investigating and 
researching it and having people on the ground back in, say, 
whether it is Honduras or Guatemala?
    Mr. McHenry. Not working for Customs and Border Protection, 
I can't necessarily say what goes on at the actual border. But 
individuals who do end up in immigration proceedings, when they 
bring their claims, roughly 80 percent of them have attorneys, 
so their attorneys help them with the claim and determine 
what's the best evidence or the appropriate evidence to submit.
    Mr. Palazzo. What percentage of asylum-seekers are actually 
granted, I guess, asylum versus being rejected asylum and put 
in custody for removal?
    Mr. McHenry. I can't speak to the second part about put in 
custody, because that is a DHS determination, but the denial, 
or I should say, the grant rates are between 16 and 20 percent.
    Mr. Palazzo. Sixteen to 20 percent----
    Mr. McHenry. Are granted asylum.
    Mr. Palazzo [continuing]. Are granted asylum, OK.
    Mr. Chairman, I yield back.
    Thank you, Mr. McHenry.
    Mr. Serrano. Just one last question--of course, all members 
are welcome to submit questions for the record--do you know 
what percentages of the backlog are people entering the country 
without seeking asylum, without legal papers, the proper 
papers, undocumented, and what percentage may be people who 
overstay their visa?

                        VISA OVERSTAYS CASELOAD

    Mr. McHenry. We can--we don't track that. Normally, we 
could triangulate it to some extent based on the information 
that we get from the Department of Homeland Security, but I 
don't have that statistics with me.
    Mr. Serrano. Because there is a strong feeling out in 
various communities and in government, too, that the larger 
number of people who are considered undocumented or illegals or 
people who overstayed their visa, not people who entered 
without documentation; do you know that to be the case or----
    Mr. McHenry. I don't have the specific numbers. We do know 
that visa overstays are a significant part of our caseload and 
I believe we have a report that we submit to the subcommittee 
on that, but I don't have those specific numbers with me.
    Mr. Serrano. Well, thank you. Thank you for your testimony 
today. You took some very tough questions and you faced up to 
them. It does not mean we agree with your answers, but, also, 
very strong on asking questions. And I just have a personal 
note, you know, we should, every so often, when we deal with 
this immigration issue, put ourselves in the shoes of those 
people in those countries and what they are going through. And, 
you know, I once either sarcastically or very profoundly, said 
if you don't want an immigration problem--because I call it an 
immigration issue, so I don't call it a problem--then don't 
advertise.
    We tell the world that we are the greatest country, and we 
are. We tell the world that we have the greatest economy, and 
we do. We tell the world we are the greatest military, and we 
have it. We tell the world that we are the land of opportunity, 
and then we are amazed that people would come here and, you 
know, there is something inconsistent with that.
    So, how do we resolve the immigration issue? Many ways. 
Maybe one of them is not trying to make the whole world think 
that we are the greatest on earth--which we are, for the 
record; I don't want to get a Tweet saying that I hate my 
country--this is the greatest country, but that is why we have 
immigration issues.
    Thank you so much, and thank you to the panel.
    Thank you, Mr. Aderholt.
    Mr. Aderholt. Thank you.
    Mr. McHenry. Thank you, Mr. Chairman.
    Mr. Serrano. This hearing is adjourned.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

                                           Tuesday, March 12, 2019.

      OVERSIGHT OF THE DEPARTMENT OF JUSTICE CIVIL RIGHTS DIVISION

                                WITNESS

ERIC DREIBAND, ASSISTANT ATTORNEY GENERAL, CIVIL RIGHTS DIVISION, U.S. 
    DEPARTMENT OF JUSTICE
    Mr. Serrano. Good morning. The subcommittee will come to 
order.
    Today we are meeting with Eric Dreiband, the Assistant 
Attorney General for the Civil Rights Division in the 
Department of Justice.
    In addition to his work in the private sector, Mr. Dreiband 
has served in several positions over the years throughout our 
Federal Government, including as the General Counsel of the 
Equal Employment Opportunity Commission from 2003 to 2005, and 
as Deputy Administrator of the Department of Labor's Wage and 
Hour Division. And we welcome you, sir.
    Mr. Dreiband. Thank you.
    Mr. Serrano. For more than 60 years, the Civil Rights 
Division at the Department of Justice has been a shining 
example to our Nation as a force for marginalized communities, 
protecting their basic rights, and ensure justice for all 
communities.
    In communities of color, the Civil Rights Division holds a 
place of reverence that is well earned through a record of 
achievement. The mission of the Division is essential to 
ensuring that all Americans receive equal protection under the 
law.
    Sadly, that proud record of service is imperiled under this 
administration. The attacks on longstanding precedents and 
effective policies have been unending. From preventing the use 
of consent decrees in addressing systemic issues with local law 
enforcement, to a lack of enforcement of the Voting Rights Act, 
to rescinding guidance protecting transgender students, the 
Department has pulled back on policies that have protected 
millions.
    The Department has also chosen to change sides on cases 
involving cornerstone civil rights issues like affirmative 
action and discriminatory voting laws.
    Earlier this year, the Washington Post reported that the 
Justice Department had been tasked with analyzing current 
disparate impact guidance and policies, any revision of which 
could severely undermine our Fair Housing laws. The pace of 
these changes is dizzying and disturbing; many of them 
undermine the core mission of the Civil Rights Division.
    Last month, in what can only be described a Freudian slip, 
the President praised the quote, ``abolition of civil rights,'' 
end of quote. Unfortunately, that statement hits far too close 
to the truth. This subcommittee intends to look at the work of 
the Civil Rights Division very carefully and we expect that the 
dollars we appropriate to the Department will be used in a 
manner that protects the vulnerable communities the Division 
has stood up on behalf of for many decades.
    Once again, we welcome you, Assistant Attorney General 
Dreiband, and we look forward to your testimony.
    Before I proceed, let me just say that my comment before 
really was sincerely spoken. Growing up politically, and 
growing up physically, but certain politically, the Justice 
Department was that place that you looked to for fairness and 
for coming in, basically, and straightening things out when 
they were being unfair. That is why a lot of us are sad at what 
we think is happening in the Justice Department and especially 
in this Division.
    Mr. Aderholt.
    Mr. Aderholt. Thank you, Mr. Chairman.
    And welcome, Mr. Dreiband, good to have you here today. And 
we are especially glad to have you here to discuss this 
important issue, really fundamental issue of the Civil Rights 
Division of the United States Department of Justice.
    This Division of the Department of Justice has the solemn 
responsibility, as you know, of ensuring that civil and 
constitutional rights of all Americans, particularly some of 
the most vulnerable members of our society, are upheld. I 
commend you and your team for your steadfast efforts to protect 
the rights of all individuals to live free of violence, 
discrimination, and exploitation; to safeguard the fundamental 
infrastructure of democracy; and ensure that all have an equal 
opportunity to learn, earn a living, live where we choose, and 
worship freely.
    I have a particular interest in enforcement of the federal 
statutes prohibiting discrimination on the basis of religion. 
Religious freedom has been a core American principle since the 
foundation of this Nation. For this reason and for others I 
wish to commend the Civil Rights Division, the United States 
Attorneys, as well as your federal enforcement partners for 
your successful prosecution of the horrific, heartbreaking 
attack on the African-American worshipers at Emanuel African 
Methodist Episcopal Church in Charleston, South Carolina, as 
both a vile hate crime and abhorrent assault on the free 
exercise of religion.
    In addition to religious liberty, and the fundamental 
rights of due process and equal protection under the law, I 
look forward to discussing the Division's extensive efforts to 
safeguard the integrity of our elections, and also address the 
scourge of human trafficking, among other vital pursuits.
    Again, I thank the Chairman for holding this very important 
hearing, and I yield back.
    Mr. Serrano. Thank you.
    Please try to keep, Mr. Dreiband, your comments to 5 
minutes, but we assure you that your full testimony will be 
inserted in the record.
    Mr. Dreiband. Thank you, Chairman Serrano and Ranking 
Member Aderholt, and members of the committee, for the 
opportunity to speak with you today. It is an honor to serve as 
the Assistant Attorney General, and as the voice of the women 
and men of the Civil Rights Division at the United States 
Department of Justice. Thank you also for making time today for 
this important hearing.
    As you know, the Civil Rights Division works to uphold the 
civil and constitutional rights of all, including some of our 
most vulnerable members of our society. We enforce several 
civil and criminal statutes, including the Civil Rights Act of 
1964, the Voting Rights Act, the Americans with Disabilities 
Act, the Fair Housing Act, and the Shepard-Byrd Hate Crimes 
Prevention Act, among others.
    The Division currently has approximately 567 full-time 
employees, including 369 attorneys. The Division's fiscal year 
allocation from the General Legal Activities Account is $148.2 
million.
    The Civil Rights Division remains focused on a variety of 
priorities; these include prosecuting hate crimes; prosecuting 
human traffickers and destroying transnational organized 
trafficking networks; prosecuting those who violate federal 
race discrimination laws; combating unlawful hiring practice 
against U.S. workers; enforcing federal laws to protect 
servicemembers, veterans, and their families; protecting voting 
rights; safeguarding religious freedom; ensuring that 
individuals have access to treatment for opioid addiction and 
are free from discrimination; combating sexual harassment and 
abuse.
    The Attorney General has made hate crimes prosecutions a 
priority, and the Department launched a Hate Crimes Enforcement 
and Prevention initiative. The Civil Rights Division leads that 
initiative, and coordinates the Department's efforts to 
eradicate hate crime. Since January of 2017, the Department has 
convicted more than 40 defendants for hate crimes violations.
    The Division also plays a lead role in the Department's 
efforts to enforce laws against human trafficking, including 
both sex trafficking and forced labor. From 2013 to 2017, the 
Division, in partnership with U.S. Attorney's Offices around 
the country, brought 427 human trafficking cases, which is an 
82-percent increase from the prior 4-year period.
    The Division has also launched several other initiatives. 
The Protecting U.S. Workers Initiative seeks to identify 
employers who abuse temporary visa programs, and combats 
employment discrimination against U.S. workers. The Division's 
Americans with Disabilities Act Voting initiative seeks to 
ensure that people with disabilities have an equal opportunity 
to participate in the voting process. The Division entered into 
its most recent settlement agreement under this initiative just 
2 weeks ago.
    The Division has also zealously protected the right to vote 
under other federal statutes, including the Voting Rights Act, 
the Uniformed and Overseas Absentee Voting Act, the National 
Voter Registration Act, and the Help America Vote Act.
    Since January of 2017, the United States has participated 
in six cases brought under Section 2 of the Voting Rights Act. 
The federal appellate courts resolved three of those cases, and 
in each case the courts adopt the position adopted by the 
Justice Department; the other three cases remain pending.
    And since January 2017, the Civil Rights Division has 
entered into settlement agreements with Arizona and Wisconsin 
to protect the voting rights of military and other overseas 
voters; and with Kentucky and Connecticut to ensure compliance 
with Federal law requirements regarding the maintenance of 
complete and accurate voter registration rolls.
    In April 2018, in time to coincide with the 50th 
anniversary of the Fair Housing Act, the Division launched the 
Sexual Harassment in Housing Initiative. The Division has 
opened a record number of investigations and filed a record 
number of sexual harassment pattern or practice lawsuits in 
Federal court.
    The Division's Religious Discrimination initiative works 
with U.S. Attorney's Offices to combat religious discrimination 
in schools, and the Place to Worship Initiative seeks to 
increase enforcement and public awareness of the land use 
provisions of the Religious Land Use and Institutionalized 
Persons Act.
    Finally, last year, the Division and the Department 
commemorated the 50th anniversary of the tragic assassination 
of Dr. Martin Luther King. Every section of the Civil Rights 
Division plays a role in seeking to make Dr. King's vision of a 
nation free from racial prejudice a reality, and the Division 
is committed to continue its efforts to eliminate race 
discrimination in this country.
    Chairman Serrano, Ranking Member Aderholt, and members of 
the committee, your support allows the Civil Rights Division to 
protect the civil rights of all Americans.
    Thank you, and I look forward to your questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Serrano. Thank you, sir. We apologize for the door, it 
was left over from Halloween. [Laughter.]
    That is the best I could do today.

                             VOTING RIGHTS

    Ever since the Supreme Court's Shelby County v. Holder 
ruling ended some federal oversight under the Voting Rights 
Act, there has been a historic increase in the threat and 
reality of voter suppression. The House last week passed H.R. 1 
to reform voting rights protection and upgrade elections 
security, among other things.
    Question: how many cases is the Division, either the Voting 
Section or the Criminal Section, working in Georgia and in 
Florida?
    Mr. Dreiband. Well, Chairman Serrano, as you know, the 
right to vote is one of the most important rights we have; it 
is secured by the Constitution of the United States and several 
laws, including the Voting Rights Act. As I mentioned in my 
opening statement, we have participated in various ways through 
litigation and otherwise in six Section 2 Voting Rights Act 
cases since 2017. With respect to ongoing investigations, 
voting or other matters, I cannot comment on those, but I can 
assure you that the message that I have delivered to the Voting 
Section of the Civil Rights Division, as well as the Criminal 
Section of the Civil Rights Division, is that we are committed 
to aggressive and zealous enforcement of all of the laws within 
our jurisdiction, including the Voting Rights Act in 
particular.
    That law, as you know, was enacted in 1965, and it was 
primarily designed to combat race discrimination in voting, but 
it does reach other areas as well, and ensures protections for 
people who struggle with the English language, for example, and 
other protections as well.
    Mr. Serrano. So, with that in mind, how does the Civil 
Rights Division prioritize efforts and manage its election-
related workload?
    Mr. Dreiband. Well, we do that in many different ways. So 
we, for example, have settled cases to ensure the integrity of 
state voter laws. We also in the 2016 and 2018 elections 
dispersed several people throughout the United States to 
monitor the polls.
    In fact, in the 2018 election I spent much of the day with 
a command center run by our Criminal Section and with our 
Voting Section attorneys, who were monitoring in real time as 
voting was actually happening, complaints, concerns that people 
were raising. We worked in coordination with the Federal Bureau 
of Investigation to both monitor the activities on that day 
and, in addition, disperse people throughout the United States 
to several jurisdictions to monitor the voting and report on 
any problems that anyone saw.
    We also conduct investigations in various states around the 
country to ensure that they are complying with the Federal 
voting laws. And then, of course, we engage in litigation 
through the Federal court system to enforce various Federal 
laws within our jurisdiction.
    Obviously, we would prefer to settle cases, if we can, and 
oftentimes we are encouraged that States will work with us to 
reach an appropriate resolution to a dispute, but, if we have 
to, we are prepared to litigate and do litigate cases in the 
Federal courts throughout the United States.
    Mr. Serrano. Now, I know you can't get into specific cases, 
but do we know what the top number of complaints are in voting-
related issues?
    Mr. Dreiband. Chairman Serrano, I don't know that data off 
the top of my head, but we do take complaints from the public, 
and our Voting Section investigates complaints, our Criminal 
Section does as well. And we work with the Federal Bureau of 
Investigation and at times other components of the Federal 
Government as well, for example the Department of Homeland 
Security, and other aspects of the executive branch of the 
Government to investigate complaints, either alleged violations 
of the Voting Rights Act, the National Voter Registration Act, 
the Help America Vote Act, and other laws as well.
    Mr. Serrano. Could you at a later date give the committee 
some numbers just for our information of what is the number one 
complaint, you know?
    Mr. Dreiband. Chairman Serrano, I will certainly take that 
back to the Department and, working with our Office of 
Legislative Affairs, provide you with whatever data we can 
satisfy concerns you may have, as well as other members of the 
subcommittee.
    Mr. Serrano. Thank you.
    H.R. 1 as passed by the House would add significant new 
election system protections; if enacted, how would Voting 
Section workload be affected? What resources would help you 
carry out your mission as you understand H.R. 1?
    Mr. Dreiband. Chairman Serrano, I am not familiar with H.R. 
1 and would look forward to reviewing the bill, and in 
consultation with the many dedicated and career attorneys in 
our Voting Section talk with them. Our Policy Section of the 
Civil Rights Division would also look at it. And then I would 
be happy to take it back and work with you and your colleagues 
on it, as well as in conjunction with what we have at the 
Justice Department, it is called our Office of Legislative 
Affairs. That office provides a liaison, as you know, between 
this subcommittee and other committees of the House of 
Representatives, and it is something that we would look at and 
weigh in as appropriate.
    Mr. Serrano. Mr. Aderholt.
    Mr. Aderholt. Thank you.
    Of course, we have talked about the Civil Rights Division, 
of course it is charged with overseeing the U.S. voting rights 
laws. And you have talked a little bit about it, but could you 
describe the efforts that you undertook in your division, 
particularly during the 2016 and 2018 elections, to monitor 
compliance with the Federal voting rights laws?
    Mr. Dreiband. Sure. In both the 2016 election and the 2018 
election, Ranking Member Aderholt, the Civil Rights Division, 
as well as other components of the Justice Department, 
dispersed literally hundreds of people throughout the United 
States to monitor the polls in several dozen states at several 
dozen locations.
    And what we did is we took recommendation from the experts 
we have in our Voting Section about where we should send 
people, and particularly with respect to areas of concern based 
on their judgment. Many of the individuals in our Voting 
Section have worked at the Department for several decades and 
devoted their professional lives to protecting the right to 
vote. And so what we do is we take their--and what we did was 
took their recommendations and generally followed them, and 
then many people went out throughout the United States and 
monitored the polls as people were voting.
    Meanwhile, back in Washington, we had people from our 
Voting Section, as well as our Criminal Section, working with 
the FBI and the Department of Homeland Security to monitor 
through our command center indications of potential violations 
of any of the voting laws, and to do what we could even on 
election day to take prompt action, if any was appropriate. And 
then later, of course, if any investigations were warranted, we 
would investigate any allegations of violations of the right to 
vote.
    In addition, I was particularly heartened when I first 
joined the Department to see that many of our attorneys and 
other staff in the Civil Rights Division who do not focus on 
voting laws, that is they are focused on say, for example, 
disability discrimination or other forms of discrimination, 
they volunteered themselves on the election day to help take in 
complaints or reports of alleged violations of the Voting 
Rights Act or other laws, and worked very hard to do that.
    Mr. Aderholt. Well, can you talk a little bit about or give 
us some examples of the type of potential violations that you 
were on the lookout for in the 2018 and 2016 elections?
    Mr. Dreiband. Sure. Well, the voting rights laws protect 
everything from the right to vote to be free of race and other 
forms of discrimination, to protections related to Americans 
and servicemembers who are overseas and their right to vote, 
and so--as well as the right to have access to the ballot for 
certain jurisdictions where people may struggle with the 
English language, for example.
    And so we look at those, all of those areas, you know, with 
respect to the laws and the standards that govern the laws 
within our jurisdiction about the right to vote. Our voting 
rights attorneys and other staff and investigators look for 
those things. They take in reports of any kind of violation of 
that sort, and then we do what we can, either immediately or to 
remedy the problem, if we find one, or to investigate 
allegations after the fact as well.
    Mr. Aderholt. Could you talk a little bit about the 
enforcement tools that you have available?
    Mr. Dreiband. Well, we have many enforcement tools 
available. The enforcement tools that we have do vary by 
statute. There are some statutes on the civil side that grant 
us the authority to subpoena documents and other information 
and witnesses. Obviously, our Criminal Section, working with 
the FBI, works through the normal law enforcement process that 
the Congress has set up for the criminal laws of this country, 
including the use of grand juries. We have access to the 
Federal courts, depending on the particular kind of case or 
matter that may be involved, either through civil lawsuits or 
criminal prosecutions. And we have staff, we have everything 
from architects who deal with disability rights issues to 
access to voting places by individuals with disabilities, we 
have people who speak various languages who help us work with 
very vulnerable populations throughout the United States. And 
we try to utilize the tools that the Congress has given us to 
use to the best we can to try to eliminate all forms of 
discrimination within this country by using the statutes that 
Congress has authorized us to prosecute and investigate.
    Mr. Aderholt. Let me get in one more question, if I could. 
The National Voter Registration Act of course is a law that is 
designed to expand registration opportunities for all citizens 
and ensure proper maintenance of voter registration lists, and 
states are required to keep voter lists accurate and also 
current. Can you talk about the role that proper maintenance of 
voter registration lists play in the national voting integrity 
effort?
    Mr. Dreiband. Sure. There are two Federal laws that the 
Congress has enacted that ensure the integrity of the state 
lists of voters, the National Voter Registration Act and the 
Help America Vote Act. And I think the design of those laws as 
meant by Congress was to ensure the integrity of the voting 
system; to ensure that states satisfy their duty under Federal 
law to make sure that their lists of voters are accurate, to 
prevent voter fraud, and to protect the rights of all Americans 
to know that when they cast their ballot they are doing it 
through a fair process; and that the states have a duty to 
maintain that process and to protect all of our right to vote 
when we go to the polls.
    Mr. Aderholt. And then, lastly, are there any examples of 
litigation regarding the maintenance of voter lists that you 
have brought in the past?
    Mr. Dreiband. Yes. As I said earlier, Ranking Member 
Aderholt, we try, if we can, to settle any kind of disputes 
within our jurisdiction if we can reach an appropriate 
settlement without litigation.
    And so with respect to the integrity of the voting lists we 
were able to settle the matters with the States of Kentucky and 
Connecticut, and it is mentioned in my statement for the 
record, and I commend both the States of Kentucky and 
Connecticut for doing so.
    In addition, the Justice Department participated in a 
matter pending before the Supreme Court of the United States 
involving the voter rolls in the State of Ohio, and the Supreme 
Court agreed with the Justice Department that the State of 
Ohio's efforts to comply with the National Voter Registration 
Act and the Help America Vote Act was fully compliant.
    Mr. Aderholt. Was not?
    Mr. Dreiband. Was compliant; no, that Ohio complied with 
the law.
    Mr. Aderholt. All right. Thank you.
    Mr. Serrano. Thank you.
    Now we will begin our 5-minute-per-member round, and you 
know what this means.
    Mr. Cartwright.

                     ROLE OF CIVIL RIGHTS DIVISION

    Mr. Cartwright. Thank you, Mr. Chairman.
    And, Mr. Dreiband, thank you for joining us.
    I want to make sure I have a clear understanding of your 
role at the Civil Rights Division. Your job is to pursue civil 
rights cases against discrimination on the basis of race, 
color, sex, disability, religion, familial status, and national 
origin; am I correct in that
    Mr. Dreiband. Representative Cartwright, the protected 
categories do vary from statute to statute, but the categories 
that you mentioned are among those that are vested within our 
jurisdiction and, as the Assistant Attorney General, it is my 
job to direct and help our career staff, our lawyers and 
investigators, enforce those very important protections against 
discrimination.
    Mr. Cartwright. And do you agree that a primary purpose of 
both the Civil Rights Division and our Federal civil rights 
laws, including Title VII, the ADA and the ADEA, is to protect 
the rights of the marginalized and vulnerable communities?
    Mr. Dreiband. Title VII of the Civil Rights Act does 
protect against race, color, national origin, religion, and sex 
discrimination in employment. It is one of the most important 
laws that we enforce; it was enacted as part of the Civil 
Rights Act of 1964.
    The Americans with Disabilities Act, of course, protects 
against disability discrimination both in employment and with 
respect to various programs of state and local governments and 
public accommodations.
    Mr. Cartwright. I don't mean to be impolite, but they only 
give us 5 minutes and I have a chairman who is going to be 
banging that gavel on me any minute, that was a yes-or-no 
question and I take it it is a yes.

          NUMBER OF CASES BROUGHT BY THE CIVIL RIGHTS DIVISION

    Public records indicate the Civil Rights Division has 
started 60 percent fewer civil rights cases under President 
Trump than under the first 2 years of President Obama, and also 
50 percent fewer cases than under President George W. Bush. Do 
you know if that is an accurate assessment?
    Mr. Dreiband. Representative Cartwright, I don't know what 
numbers you are referring to. What I do know, though, is that 
we have brought a record of cases under the Fair Housing Act 
through our sexual harassment initiative, we brought a 
significant increase in human trafficking prosecutions, and we 
have participated and brought several other cases under many of 
the other laws within our jurisdiction.
    Mr. Cartwright. OK, so you don't know.
    Do you agree that the biggest decline in new filings has 
been in the areas of systemic enforcement misconduct and 
violation of disability rights?
    Mr. Dreiband. Representative Cartwright, I am not sure what 
you are referring to there. The message that I have 
consistently expressed to the various sections of the Civil 
Rights Division, including our Disability Rights Section, is 
that we are committed to zealous and aggressive enforcement of 
the civil rights laws.
    Mr. Cartwright. Are you telling me that enforcement actions 
have increased or stayed the same, or are you agreeing with me 
that they have declined since the last two administrations?
    Mr. Dreiband. Well, Representative Cartwright, enforcement 
efforts with respect to many of the areas of our jurisdiction 
have increased, including, as I said, under our Sexual 
Harassment in Housing Initiative. We brought a record number of 
investigations and a record number of pattern or practice of 
sexual harassment lawsuits under that initiative.
    Mr. Cartwright. I asked you about violation of disability 
rights; have those gone up, have they gone down, or have they 
stayed the same? And, if you don't know, it is OK, you can tell 
us.
    Mr. Dreiband. Representative Cartwright, with respect to 
disability rights, I am not sure what you are referring to.
    Mr. Cartwright. The Americans with Disabilities Act. I 
think you actually even mentioned that.
    Mr. Dreiband, the decline is deeply concerning to me, that 
is why I am asking these questions. Americans with disabilities 
are less likely to be employed today than they were before the 
ADA was enacted in 1990. Those that do work are often in low-
paying jobs and earn considerably less than someone without a 
disability. Isn't systemic pay and job discrimination an 
indicator of a need for increased enforcement?
    Mr. Dreiband. Representative Cartwright, I agree with you 
that zealous and aggressive enforcement of the Americans with 
Disabilities Act is critically important to the protection of 
rights of the individuals with disabilities in this country. We 
enforce that law in various ways, including in particular with 
respect to the right to vote. We have an initiative committed 
solely to the voting rights of individuals with disabilities to 
make sure that they have access to their right to vote, but we 
also enforce the Americans with Disability Act in employment 
within the jurisdiction that we have. Our jurisdiction with 
respect to employment is limited to public employers and we do 
enforce that law, and we enforce it in many other ways as well.
    Mr. Cartwright. Would you mind if I followed up with your 
office, because we don't seem to see eye-to-eye on the 
statistics. It is clear to us that enforcement of civil rights 
cases has decreased dramatically under this administration and 
I want to see if we can pin you down on that. And, if we can't, 
I want to seek a commitment from you to reverse that trend. 
Will you work with our office?
    Mr. Dreiband. Well, Representative Cartwright, first of 
all, I am fully committed to aggressive and zealous enforcement 
of the Americans with Disabilities Act and to all of the laws 
within our jurisdiction. With respect to working with you and 
your colleagues on the subcommittee, I work through our Office 
of Legislative Affairs at the Department of Justice and would 
be delighted to work with you and your colleagues as 
appropriate.
    Mr. Cartwright. All right, thank you.
    I yield back.
    Mr. Serrano. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman. I appreciate you 
being here today.

                           HUMAN TRAFFICKING

    I would like to address your office's attempts to prosecute 
human trafficking. We know human trafficking is prolific in the 
United States and, in looking through some of the notes here, 
you point out that Mexico is the country of origin of the 
largest number of foreign-born human trafficking victims 
identified in the United States. Of course, several reasons, 
probably because we have a large, 2,000-mile contiguous border 
with Mexico and that border is not secure, and at any given 
time drugs, human trafficking, foreign nationals with intent to 
do Americans harm can just cross our border.
    Could you tell me a little bit about--and I know Anne 
Wagner, our colleague in the House, has been leading this 
effort for several years to address human trafficking and she 
has done a wonderful job. Even my home state has taken this 
extremely seriously in passing legislation to increase the 
penalties of human trafficking, and our law enforcement are 
actively engaged. Can you tell me a little bit more about what 
your office is doing? And do you see a trend, an upward trend 
or a downward trend based on our efforts, and can we do more?
    Mr. Dreiband. Yes. We have what we call our Human 
Trafficking Prosecution Unit, which is part of our Criminal 
Section of the Civil Rights Division, and that unit coordinates 
efforts throughout the Federal Government, with the FBI, the 
Department of Homeland Security, United States Attorney's 
Offices, and even the Mexican Government, among others, to deal 
with this problem of human trafficking.
    We do see a problem whereby human traffickers will smuggle 
people across the border from Mexico into the United States for 
the purpose of human trafficking, both with respect to sex 
trafficking and forced labor. It is a very serious problem and 
it is one where we have seen a significant increase in the 
number of prosecutions, in fact an approximately 82-percent 
increase from 2013 to 2017 compared to the prior 4-year period.
    And just within January of this year we obtained long 
sentences for several members of the Rendon-Reyes trafficking 
organization. In that case, these were individuals from Mexico 
who for more than 10 years smuggled dozens or perhaps hundreds 
of women across the border--and young girls as well, some as 
young as 14 years old--into the United States and forced them 
into prostitution. And working with the Mexican Government 
through the U.S.-Mexico Bilateral Human Trafficking Enforcement 
Initiative, and with the FBI and with our prosecutors in the 
Civil Rights Division, we were able to bust up that 
international human trafficking ring. And there are others like 
that that we see as well.
    Mr. Palazzo. How many others do you feel are out there? And 
also you say smuggled; by smuggled, I am assuming that they are 
not crossing the ports of entry, they are coming in through our 
porous border, correct?
    Mr. Dreiband. Well, I think these human traffickers have 
different ways of bringing people across the border. They can 
bring them--there are various ways they can do it. And so the 
problem I think that we are seeing is there is a lot of 
deception happening by these human traffickers where they bring 
these people in. And these are typically very vulnerable 
individuals, both with respect to sex trafficking and forced 
labor, and they come into the United States and they find 
themselves in these horrible conditions where they are forced 
to do things against their will; they are abused, mistreated, 
and it is a really terrible thing for them.
    And we do what we can to investigate these allegations, to 
bring prosecutions when appropriate. And, in addition, through 
the Office of Justice Programs we also help--through the 
Trafficking Victims Protection Act help to try to remedy the 
problems that these things have created for the victims of 
human trafficking.
    Mr. Palazzo. Well, I hope we can eradicate 100 percent of 
human trafficking, especially in this day and age with 
technology, and we need to provide the resources to our men and 
women at the border, so they can intercept these outfits who 
are smuggling young children across our border into the sex 
trade and forced labor.

                       EMPLOYMENT DISCRIMINATION

    Not knowing how much time I have, I would like to move to 
another question. You say part of your job is protecting U.S. 
workers and Buy American and Hire American Executive Order is 
something that you enforce. Can you just tell me, what sort of 
industries actually abuse this practice the most, and is this 
really commonplace or is it something that is less--I guess, 
you all are less engaged in, or is this something that you are 
highly engaged in?
    Mr. Dreiband. It is something we are highly engaged in, 
Representative Palazzo.
    The right to work in this country free from discrimination 
includes the right to work free from national origin and 
citizenship discrimination, so we enforce the anti-
discrimination protections that are contained in the 
Immigration Nationality Act. Our Immigrant Employee Rights 
Section initiated in early 2017 what we call the Protecting 
U.S. Workers Initiative. And what we have seen is that there 
are times when employers will discriminate because of 
citizenship status against American citizens, and our very 
dedicated career attorneys have taken very aggressive and 
appropriate action to remedy that when we are able to uncover 
it and find it.
    Mr. Palazzo. I'm sorry, something a little more direct. You 
say employers abuse temporary visa programs to bring in, I 
guess, foreign or cheaper labor at the expense of American 
labor, I guess that is what I was more focused on, because I do 
know you pursue the others heavily and rightfully so.
    So I guess what industries would be using temporary visa 
labor to--and not use American labor, and may be abusing this 
process?
    Mr. Dreiband. Well, Representative Palazzo, it does vary.
    Mr. Palazzo. OK.
    Mr. Dreiband. We have seen it, for example, with respect to 
agriculture, for example, but it can happen in any industry 
really. But the right to work without regard to discrimination 
because of citizenship, that does extend to American citizens 
as well, and American citizens have a right to work in this 
country without employers using their citizenship as Americans 
against them, and we have seen that happen, as you said.
    Mr. Palazzo. That is one place we can find bipartisan 
support is Buy American Hire American.
    So, thank you.
    Mr. Serrano. Thank you.
    Ms. Meng.
    Ms. Meng. Thank you, Mr. Dreiband, for being here today and 
for your work.

                             VOTING RIGHTS

    Enforcement of the Voting Rights Act of 1965 has been 
crucial in increasing the Asian-American communities access to 
the ballot. How many cases have been brought by the Voting 
Section under the Voting Rights Act since 2017?
    Mr. Dreiband. Well, we have--as I said in my statement and 
I said in my written submission, we have participated in six 
cases under the Voting Rights Act at various levels of the 
Federal courts. We are currently litigating a case in Michigan 
under the Voting Rights Act.
    And as you know, and I agree, Representative Meng, that the 
right to vote and the protections of the Voting Rights Act are 
among the most important rights that we have as Americans, they 
are enshrined in both the Constitution of the United States, as 
well as in the Voting Rights Act and in other laws as well.
    Ms. Meng. How is the section, Voting Section, assigning 
federal observers, and how many employees are detailed as 
observers?
    Mr. Dreiband. Well, what we do when we decide about how to 
assign people is we look at through our experts in our Voting 
Section various polling places and jurisdictions that we think, 
based on the information available to us, may have been subject 
to problems of various kinds where there might be concerns 
going into an election, for example under the 2018 election, 
about either the right to vote, of potential discrimination 
related to voting, the right to language access by the voters 
in particular jurisdictions where under the Voting Rights Act 
they have a right to the ballot even if they are unfamiliar 
with the English language.
    And so we take recommendations from our Voting Section 
attorneys and leadership there, and we make judgments about how 
to disperse our resources throughout the United States.
    Ms. Meng. My second question, you have mentioned this a 
little, the DOJ has been enforcing the Voting Rights Act for, 
let's say, over 50 years now; correct?
    Mr. Dreiband. Yes. The Voting Rights Act was enacted in 
1965 and the Civil Rights Division has been enforcing it for a 
long time.

                              CENSUS DATA

    Ms. Meng. Has the DOJ previously used citizenship from the 
American Community Survey to protect voting rights?
    Mr. Dreiband. Representative Meng, I am not familiar with 
that, with that service, so it is not something that I know off 
the top of my head.
    Ms. Meng. Has the DOJ lost any Voting Rights Act 
enforcement cases in the last over 50 years because it did not 
have the citizenship information?
    Mr. Dreiband. Representative Meng, I don't know the docket 
and the entire history of every case that the Civil Rights 
Division has brought since 1965. It certainly is the case 
generally that we don't win every case we bring, but--so I 
don't know the answer to your question about whether or not in 
the last 54 years or so we have ever lost a case based on the 
data or the survey that you are referring to.
    Ms. Meng. I would like to follow up with your office to see 
if there were cases that were lost because you did not have the 
citizenship information. Secretary Ross has made reference to 
that previously in relation to the census and the need to 
include a citizenship question.

                            LANGUAGE ACCESS

    One more question, sorry, before my time expires. In the 
2015 memorandum on Civil Rights Division Language Access Plan, 
can you update us on the continued community engagement and 
outreach activities the Division has undertaken to engage with 
limited-English-proficiency individuals and communities?
    Mr. Dreiband. Representative Meng, are you asking about 
like our efforts under the Voting Rights Act or----
    Ms. Meng. Oh, separate. Just outreach and working together 
with limited-English-proficiency communities based on the 2015 
memorandum that is still on your website.
    Mr. Dreiband. I see. Well, Representative Meng, we have 
various laws that we enforce that seek to provide language 
access to people of limited English proficiency. I think, in 
addition to the Voting Rights Act, we have a section that is 
very zealous with respect to language access through recipients 
of federal funding under Title VI of the Civil Rights Act of 
1964. That law prohibits discrimination because of race and 
national origin, for example. And what we do see is that there 
are times when individuals may struggle with access, for 
example, to local courts or other areas where Title VI of the 
Civil Rights Act applies, and we do seek to enforce that.
    We also enforce the Equal Educational Opportunities Act, 
which ensures language access for limited-English-proficiency 
speakers through our Educational Opportunities Section, and we 
enforce those laws in a variety of ways; through 
investigations, through settlements and, if necessary, through 
litigation throughout the United States.
    Ms. Meng. Thank you. I know my time is up. I would love to 
continue working together if there are groups that can be 
helpful in working together with the Department.
    And then, finally, if I could have 10 seconds, on your 
website there was a section to contact one's local FBI field 
office to report various types of incidents such as hate 
crimes, et cetera. Of the six links, only the human trafficking 
link is functioning; the hate crimes, excessive force, force or 
threats in relation to reproductive health care services, 
damaging religious property, and the right to vote, five out of 
six are not functioning. So I hope we can see those up and 
working soon.
    Mr. Dreiband. Well, Representative Meng, thank you for your 
support of the Civil Rights Division. You know, to the extent 
our website is not working, it is something that we will look 
into, and I thank you for bringing that to my attention. And we 
certainly look forward to your continued support and continuing 
to work with you.
    Ms. Meng. Thank you, sir.
    Mr. Serrano. Just a bit of information for members, we will 
be providing the Department with any questions for the record 
that you may not ask here.
    Mrs. Lawrence.
    Mrs. Lawrence. Thank you, Mr. Chair.

                              HATE CRIMES

    Under the Hate Crimes Statistics Act of 1990, the FBI is 
required to collect and report hate crimes statistic data from 
the Nation's 18,000 Federal, state, and local law enforcement 
officers. In 2017, the most recent data available, the FBI 
reported a 17-percent increase in hate crime, with increasing 
crime directed against individuals and institutions based on 
race, religion, and sexual orientation.
    How has this increase impacted the business of your 
organization? What are you doing to address this double-digit 
increase in just one year?
    Mr. Dreiband. Representative Lawrence, thank you for your 
question.
    The Attorney General has made the prosecution of hate 
crimes a priority of the Department of Justice and the 
prosecution of those crimes and the jurisdiction over those 
crimes is vested in the Civil Rights Division in our Criminal 
Section, and we have seen dozens and dozens of hate crimes 
throughout the United States.
    First, though, I would like to address, Representative 
Lawrence, your point about the data. One thing that we have 
done and what the FBI has done is try to obtain a better and 
more reliable data about hate crimes reporting. There has been 
a challenge in the Federal Government to obtain reliable hate 
crimes data. There are some jurisdictions in this country, for 
example, that have never reported a hate crime and we know that 
they happened.
    And so we are working to obtain and are obtaining better 
data about that. We then through our Criminal Section and 
through the FBI are investigating allegations of hate crimes. 
We are bringing many, many hate crimes prosecutions throughout 
the United States, including those involving the murder of 
people because of their race, because of their sexual 
orientation, because of their religion, because of their status 
as transgender individuals.
    Mrs. Lawrence. Can you tell me, you said he has made it a 
priority, what actions does that result in?
    So, if something is a priority, obviously we have a real 
issue and a problem in America, and you even address we may not 
have the real scope of it. So when you say it is a priority, I 
want to know what does a priority--how does things change in 
the Department? Has there been a request for additional 
funding? Have you increased the number of staffing to address 
this issue?
    Because my concern is that while we are looking at data it 
is business as usual. So you can say something is a priority, 
but what are you doing to make sure that it is a priority?
    Mr. Dreiband. And, Representative Lawrence, it is an 
excellent question and an important issue.
    What we have done are many different things. We have 
increased resources to our Criminal Section. When former 
Attorney General Sessions, for example, announced a hiring 
freeze at the Department of Justice, he exempted out our 
Criminal Section from that hiring freeze. So we were able to 
continue hiring people into our Criminal Section, and to expand 
and increase the resources available for the investigations and 
prosecutions of hate crimes. We have established a website 
devoted to hate crimes. We are doing outreach to various 
individuals and organizations throughout the United States.
    And we have increased significantly our focus on both 
investigating hate crimes and prosecuting them when 
appropriate, including in places like Charlottesville, 
Virginia, which in August 2017 we saw what I regard, at least, 
as a very horrific series of events that led to the death of an 
individual and severe injuries by dozens of others. And so, 
working with the FBI and the United States Attorney's Office 
there, we were able to obtain an indictment of an individual 
who was involved, we allege, in a hate crime; that case is 
pending. We have brought other cases, for example at the Tree 
of Life Synagogue in Pittsburgh, where we allege--the case is 
pending--we allege that an individual went into a synagogue and 
killed several people.
    Mrs. Lawrence. Exactly.
    My last question, Mr. Chair.
    So there is an anniversary of the Matthew Shepard and James 
Byrd Hate Crimes Prevention Act. I am a firm believer that your 
responsibility doesn't lie just internally, and I am glad to 
hear what you are saying. What are you going to do to promote 
and be part of educating people on hate crimes, for being 
proactive? What is the role of the Justice Department in 
ensuring that while we have, I feel, personally, it is my 
belief that we have a culture that is nurturing divisiveness 
and hate, what is your role and how do you recognize an 
anniversary in this country that we are trying to prevent hate 
crimes?
    And that will be my last question.
    Mr. Dreiband. Representative Lawrence, I agree with you, I 
think we have a very serious problem in this country. We have 
what we call the Hate Crimes Enforcement initiative, and we 
have outreach to local police and community leaders to deal 
with this issue. The Justice Department and the Civil Rights 
Division in particular is primarily a law enforcement agency, 
and so we are charged with and take very seriously our 
responsibilities under the Shepard-Byrd Hate Crime Prevention 
Act of 2009. We are devoting more resources to enforcement of 
that law.
    And we are seeking through both our enforcement efforts, 
our outreach efforts, and our initiative to do everything we 
can to eradicate hate crimes and hatred from this country.
    Mrs. Lawrence. I close with this, I hope that includes 
training staff too on when you look at prosecuting hate crimes 
that--the biases that inherently are in our system, that we 
train to remove those biases as well.
    Thank you. I yield back.
    Mr. Serrano. Mr. Crist.

                             VOTING RIGHTS

    Mr. Crist. Thank you, Mr. Chairman. And thank you for being 
here today, Mr. Dreiband.
    As you probably are aware, this past November an 
overwhelming majority of Floridians, nearly 65 percent in fact, 
passed Amendment IV, restoring the right of over 1.4 million 
Floridians to vote. It was a great day, one that ended a dark 
chapter of Jim Crow-era politics in Florida.
    As Governor of Florida, I was proud to restore the voting 
rights of over 155,000 nonviolent felons, because I believe in 
forgiveness and I believe in second chances, and that voting is 
in fact a civil right.
    And I was curious, do you believe that voting is a civil 
right in our country?
    Mr. Dreiband. Representative Crist, yes, I believe that 
voting is a civil right in our country and in fact, more than 
that, it is something that is enshrined in the Constitution of 
the United States and in our Federal laws, including in 
particular the Voting Rights Act.
    I think one of the most important constitutional amendments 
in our history is the Fifteenth Amendment to the Constitution, 
which guaranteed the right to vote to individuals who were then 
experiencing and have since experienced significant race 
discrimination in this country, including especially with 
respect to their right to vote, and the Voting Rights Act I 
think reinforces that as well.
    Mr. Crist. Thank you, sir. I am encouraged by that and I 
appreciate your answer.
    Do you think there should be a Federal policy then to 
restore the rights of nonviolent felons to vote after they have 
paid their full debt to society?
    Mr. Dreiband. Representative Crist, as I said, the right to 
vote is one of the most important rights that we have, it is 
fundamental to who we are as a democracy. With respect to the 
rights of felons to vote, that really is up to lawmakers around 
the various states in this country, and you and your colleagues 
in the Congress.
    Our duty at the Civil Rights Division is to enforce the 
laws within our jurisdiction, including the Voting Rights Act 
and the National Voter Registration Act, the Help America Vote 
Act, and other laws. Right now we do not have a law that we are 
trusted with enforcing that seeks to address that issue, but it 
is something that really is up to lawmakers in this country. 
And our duty at the Civil Rights Division is to enforce the 
laws within our jurisdiction and that is what we do.
    Mr. Crist. Is it also to enforce the Constitution?
    Mr. Dreiband. Yes, of course.
    Mr. Crist. Didn't you cite that because of the federal 
Constitution that there should be protections of voting rights 
and shouldn't that extend to those who have paid their debt to 
society?
    Mr. Dreiband. Representative----
    Mr. Crist. I mean, do you have to have a law? I don't mean 
to interrupt, forgive me. I'm sorry.
    You cited that it would be nice to have a law, I agree, but 
we also have a Constitution. And if the Constitution would 
extend that right and give that right to your Department, 
wouldn't it be appropriate to enforce that nationwide----
    Mr. Dreiband. Representative----
    Mr. Crist [continuing]. Under the Constitution?
    Mr. Dreiband. Yes, Representative Crist, certainly 
constitutional rights are the most fundamental rights we have 
in our country and, if the United States were to amend the 
Constitution to extend a constitutional right to convicted 
felons, then that would broaden the right to vote to those 
individuals and would enshrine it in the Constitution.
    Right now, the Constitution does not address that issue, as 
far as I know anyway, but it is something that I think you and 
your colleagues in the Congress and at the various state 
legislatures across the country can consider and decide how to 
proceed.
    Mr. Crist. Thank you. I'm not sure how much time I have 
left, but I have another area of a little bit?
    Mr. Serrano. One minute.

                       EMPLOYMENT DISCRIMINATION

    Mr. Crist. One minute. As you know, the Department of 
Justice filed a brief in the case of Zarda v. Altitude Express, 
arguing that Title VII of the Civil Rights Act does not protect 
an employee from being discriminated against on the basis of 
their sexual orientation. From my understanding, this 
interpretation runs counter to the previous administration's 
interpretation.
    Can you explain to me the impetus for the decision making 
and the change, and why did the Department decide to reverse 
course?
    Mr. Dreiband. Well, Representative Crist, the brief that 
you are referring to was filed by the Department in I think in 
2017, before I joined the Department, so I did not personally 
participate----
    Mr. Crist. That is correct.
    Mr. Dreiband [continuing]. In that brief.
    Mr. Crist. You are correct.
    Mr. Dreiband. Generally speaking, Title VII of the Civil 
Rights Act is the law that was at issue and is at issue in that 
case. That case, as I think relevant to your question, protects 
applicants for employment and employees, and even former 
employees, from discrimination because of sex. The Federal 
Courts of Appeals have split on the question of whether or not 
the sex discrimination prohibitions of Title VII of the Civil 
Rights Act of 1964 extend protections because of sexual 
orientation. That case, as well as other cases presenting 
similar issues, are currently pending at the Supreme Court of 
the United States and we look forward to the Supreme Court's 
decision. And we remain fully committed to enforcing the 
protections of law with respect to sex discrimination and the 
other protected categories contained in Title VII.
    Mr. Crist. You are aware--and this will be it, Mr. 
Chairman, in February of 2018 the United States Court of 
Appeals for the Second Circuit ruled in Zarda's favor, arguing 
that Title VII prohibits sexual orientation employment 
discrimination under the category of sex.
    Mr. Dreiband. Representative Crist, yes, I am aware of the 
decision by the United States Court of Appeals for the Second 
Circuit in the Zarda case. As I mentioned, that case then is 
now pending before the Supreme Court of the United States, it 
has been pending up there since or shortly after the Second 
Circuit issued its decision, and we will see what the Supreme 
Court does with it.
    Mr. Crist. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Serrano. Thank you.
    Mr. Case.

               CIVIL RIGHTS DIVISION ENFORCEMENT ACTIONS

    Mr. Case. Thank you. Mr. Dreiband, there was an extensive 
article in Vice News about six days ago that I am looking at 
right now. It was by a gentleman named Rob Arthur. The title 
was, ``Exclusive: Trump's Justice Department is Investigating 
60 Percent Fewer Civil Rights Cases Than Obama's.'' The lead 
paragraph says, ``The Trump Administration is pursuing far 
fewer civil rights cases, including hate crimes, police bias, 
and disability rights cases than the Obama or Bush 
administration did, an exclusive Vice News analysis of DOJ data 
shows.''
    The second paragraph says, ``The DOJ Civil Rights Division, 
which has enforced nearly every pivotal moment of rights reform 
since its creation in '57 has started 60 percent fewer cases 
against potential violations and 50 percent fewer than both, 
Obama and Trump.''
    And it purports to be based on--for the objective facts in 
here, it has got plenty of subjectivity in it, as you can 
imagine, but the objective facts purport to be based on actual 
DOJ status, mostly online. Are you familiar with this article? 
Have you read it?
    Mr. Dreiband. Representative Case, no, I am not familiar 
with the article and the description of the Civil Rights 
Division that you just read to me is inconsistent with what I 
have seen since I joined the Department.
    Mr. Case. OK. So, you haven't read about it and you haven't 
heard about it?
    Mr. Dreiband. I have not read the article. It is possible I 
may have heard of the article, but I haven't read it.
    Mr. Case. Is there some way that we can talk apples-to-
apples about whether, in fact, enforcement actions have 
increased, declined, or remained stable over time? I mean, I 
understand--in my understanding of enforcement actions, the 
limited understanding, is that an enforcement action results 
from a formal investigation, so, in other words, an actual 
formal action by DOJ for a potential civil rights violation. 
Would we be on the same page if we talked in those terms?
    Mr. Dreiband. Well, Representative Case, I think it would 
depend on the statute and the type of case. Each of the 
statutes within our jurisdiction have enforcement mechanisms 
and procedures that vary from statute to statute. So, it is 
hard to compare, for example, some statutes where we routinely 
settle matters civilly, for example, with a criminal 
investigation, or matters where we frequently litigate.
    Mr. Case. How would you define an enforcement action? How 
would you define an enforcement action?
    Mr. Dreiband. Well, I would define an enforcement action 
first by looking at the particular statute that we might 
discuss.
    Mr. Case. OK. Let's just start with that. Let's accept that 
definition. I accept that. Have those enforcement actions, 
whatever the statute is, whatever the department is, have they 
gone up? Down? What is happening to the actual enforcement 
actions? Because the subjective conclusion of this article--and 
it is not a new conclusion; this has been out there for a 
while--the suspicion and fear of many that this administration 
is not ignoring our civil rights statutes to the same degree as 
Republican and Democratic presidents previously, and has some 
degree of animus, even, to the enforcement of civil rights 
statutes in some areas, at least.
    How do you respond to that? What is the empirical evidence 
to disprove that?
    Mr. Dreiband. Well, Representative Case, I think it is very 
unfortunate that anyone would believe the type of myth that you 
just described. The notion that the Civil Rights Division is 
hostile to civil rights is deeply insulting to me and to my 
colleagues at the Civil Rights Division and it is simple 
untrue.
    Mr. Case. OK. How would----
    Mr. Dreiband. With respect to enforcement actions, I can 
cite, for example, the fact that our human-trafficking 
prosecutions in the most recent four-year period are up by an 
eighty-two percent number from the prior four-year period. I 
could also point to the fact that the Civil Rights Division, 
since 2017, has brought a record number of investigations and 
patent or practice lawsuits under our Sexual Harassment in 
Housing Initiative under the Fair Housing Act. I could point to 
dozens and dozens of hate crimes prosecutions that we have 
brought. I----
    Mr. Case. I am prepared to accept the empirical evidence 
that you are, in fact, you know, enforcing the civil rights 
statutes. I am just concerned that there is so much out there, 
some of which purports to be based on very objective evidence 
from the DOJ saying that is not the case. It may be the case in 
some of your departments, but it may not be the case in others.
    So, what I am trying to get to the bottom of is, is this 
unfair or not? I mean, what do the facts actually show about 
whether this administration and this DOJ is continuing to 
vigorously enforce the civil rights acts, as prior 
administrations have; that is the basic question that I have.
    Mr. Dreiband. And, Representative Case, I think it is an 
excellent question, and I am here telling you that the message 
that I have given to our career staff in the Civil Rights 
Division since I joined the department, which was in November 
of 2018, is that we support and will continue to pursue 
aggressive and zealous enforcement of the civil rights laws. 
That includes all of the laws within our jurisdiction. We do 
have limited resources, so we have to make judgments about how 
to deploy our resources. So, numbers may vary.
    But this notion that there is some kind of hostility 
towards the civil rights laws is wholly inconsistent with 
everything that I have seen since I have joined the Department 
of Justice and it is----
    Mr. Case. OK. How many attorneys do you have right now?
    Mr. Dreiband. We have--I don't recall the exact number; I 
mentioned it, it is in my statement--approximately 370 
attorneys or thereabouts. It is a rough number.
    Mr. Case. OK. Fiscal year--I am just looking at your own 
information--fiscal year 2019, continuing resolution, 369 
attorneys, allegation is that you are having a little higher 
than normal non-retention; in other words, people are leaving 
and are not being replaced. I don't know if that is correct or 
not, but I do note in your fiscal year 2020 budget request, you 
have only asked for an additional two attorneys. So, that means 
to me either you think you are fully staffed or you don't have 
any--you know, you are not seeing an increase in enforcement 
actions or some other reason that I am not sure.
    What explains--to me, it strikes me as unusual that we are 
seeing only a two-attorney increase, when we feel so much 
apparent, you know, increase--I don't know if this is justified 
or not--but there feels like more interest, more demand for the 
U.S. Government to enforce civil rights actions and, yet, the 
attorney load that you are asking for is not very significant.
    Mr. Dreiband. Well, Representative Case, of course, the 
budget is something that you and your colleagues will 
determine. I note here, for example, that in fiscal year 2017, 
we had--the numbers that I have in front of me are 278 
attorneys and that number went from 278 to 369 in 2018, stayed 
that way in 2019, and we are asking or projecting for 371, as 
you say.
    Obviously, we, in the Civil Rights Division do have limited 
resources. It is up to you and your colleagues, here in the 
Congress, to determine, you know, how much money to appropriate 
to us. So, that is a judgment for you to make.
    Mr. Case. Is that your judgment that plus-two attorneys is 
sufficient for your needs to enforce our civil rights statutes?
    Mr. Dreiband. That, Representative Case, that is the 
proposal and we will certainly do our best to enforce these 
laws within our jurisdiction and use the limited resources that 
we have--obviously, the Government does not have unlimited 
resources--and you and your colleagues on this subcommittee and 
in the Congress need to make judgments, given the competing 
demands that you have about how to allocate the taxpayer 
dollars, and we will do everything I can with the resources 
that you and your colleagues decide to appropriate to us. We 
very much appreciate your support, as well as those of your 
colleagues, and we remain committed and will be committed to 
enforcing the civil rights laws.
    Mr. Case. Thank you.
    Mr. Serrano. Ms. Kaptur.
    Ms. Kaptur. Thank you very much, Mr. Chairman.
    Welcome Mr. Driehaus--excuse me--Dreiband. We had 
congressman and mayor from Cincinnati named Driehaus.

                            CONSENT DECREES

    Attorney General Sessions issued a memo right before he 
left limiting the use of consent decrees in civil rights 
enforcement cases; that was his last act in office. And I am 
curious, we know that those instruments put all parties on the 
record and I wonder what the impact of his memo has been to 
date. How many consent decrees, to your knowledge, have been 
entered into by the Civil Rights Division by this 
administration by section?
    Mr. Dreiband. Representative Kaptur, if I am pronouncing 
that correctly, you are correct that former Attorney General 
Sessions did sign a memorandum about consent decrees. That 
memorandum is limited to consent decrees with state and local 
government institutions--cities, counties, states, things of 
that nature--that memorandum established a process internally 
at the Justice Department for both, standards that govern 
consent decrees and the promise for obtaining approval of 
consent decrees in the department. They apply to both, the 
Civil Rights Division and to all other litigating components of 
the department.
    In terms of consent decrees versus other forms of resolving 
disputes, the way that works and the way we use them is that we 
use consent decrees, as well as settlement agreements, to 
resolve a dispute in our civil prosecution of the federal civil 
rights laws. They do vary in the type of settlement that we 
seek to obtain in particular cases. So, we have both, 
settlement agreements and consent degrees, and we use them as 
best we can using our judgment.
    With respect to your particular question about section by 
section, I don't know the numbers off the top of my head. We 
have 11 sections in the Civil Rights Division; 10 of those 11 
involve civil-type claims. One is a policy section that does 
not litigate cases, but the other ones do litigate cases, 
civilly. Our Criminal Section, of course, they bring 
indictments and guilty pleas and things like that and 
convictions.
    So, with respect to consent decrees, our civil-litigating 
sections use them and we use them frequently to usually settle 
matters that are filed in federal courts.
    Ms. Kaptur. Could you have your staff prepare those 
numbers? How long would it take you to submit that to us, on 
behalf of this administration?
    Mr. Dreiband. I'm sorry, how long--I don't--Representative 
Kaptur, I'm not sure how long it would take. I would have to 
take that back to the Department of Justice and see what kinda 
that we have about it.
    Ms. Kaptur. All I am asking is for this administration, by 
section, how many of the consent decrees have been entered into 
by the Civil Rights Division, how many by section. That should 
be fairly easy during this administration, since it has been 
sworn in.
    Mr. Dreiband. Representative Kaptur, I will look into that 
and take that back to the Department and do what--find out what 
we can find out for you on that. We certainly appreciate your 
support and continue to work with you and your colleagues on 
this subcommittee and here in the Congress.

                            FAIR HOUSING ACT

    Ms. Kaptur. Thank you. I just wanted to move to the housing 
arena, if I could, on an area I have a great interest in. The 
housing section does not appear to have brought a single fair-
housing case based on race discrimination in this 
administration. Perhaps my information is not up to date. Why--
could you possibly explain this and why would the Department of 
Justice be ignoring the law, a powerful tool that this 
particular section provides us? Do you not have any lawyers in 
that section?
    Mr. Dreiband. Representative Kaptur, we enforce the Fair 
Housing Act through our Housing and Civil Enforcement Section. 
We have several dozen lawyers in that section and with respect 
to the different kinds of cases they bring, they, of course, as 
I mentioned earlier, have brought a record number of sexual 
harassment investigations and pattern and practice sexual 
harassment cases. With respect to race discrimination cases 
under the Fair Housing Act, I have instructed them that I 
regard race discrimination protections under the Fair Housing 
Act as very important and something that I fully support. And I 
work with them to do that and to bring those cases, as well. It 
is something that we are working on and we are investigating 
and litigating all kinds of cases through our Housing and Civil 
Enforcement Section. And not just with respect to race and sex 
discrimination, but on behalf of individuals with disabilities 
and on behalf of other protected categories, as well.
    Ms. Kaptur. Well, it is from the data I have--and, again, 
it could be wrong--but it appears that the housing section has 
not brought a single Fair Housing case in two years since the 
administration took office based on race discrimination. Is 
that possible?
    Mr. Dreiband. Representative Kaptur, that does not sound 
correct to me. I don't have the data as I am sitting here 
today, but, certainly, race discrimination protections of the 
Fair Housing Act, I think, are among the most important 
protections embodied in the Fair Housing Act. In fact, the Fair 
Housing Act was passed in 1968 primarily to get at race 
discrimination in housing, and that law passed shortly after 
the terrible and tragic assassination of Dr. Martin Luther 
King, Jr., and it was designed to eradicate race and other 
forms of discrimination in housing.
    I know, as I say, we have seen a significant increase in 
sexual harassment, in particular, in housing. And these are 
very disturbing cases where what we often see are male 
landlords who coerce, threaten, intimidate very often, low-
income and vulnerable women into threats of sexual favors in 
exchange for rent or rent discounts, things of that nature, and 
we are prosecuting a record number of those.
    Ms. Kaptur. Thank you for that.
    Mr. Dreiband. Sure. And we also receive referrals from the 
Department of Housing and Urban Development where we prosecute 
those cases, as well, through our Housing and Civil Enforcement 
Section.
    Ms. Kaptur. And the way you are structured, do you have 
someone in charge of the housing litigation; is there someone 
within----
    Mr. Dreiband. Yeah, the structure of our--of the Civil 
Rights Division, with respect to our Housing and Civil 
Enforcement Section, is that we have a deputy assistant 
attorney general who reports to my principal deputy and to me. 
He is a career attorney who has been at the Department for more 
than 20 years. Then, we have an individual who is the chief of 
our Housing and Civil Enforcement Section. She, likewise, is a 
career attorney and she reports to our deputy assistant 
attorney general, and the two of them, working with me and the 
other people in our Housing Civil Enforcement Section and the 
leadership of that section, investigate and litigate 
allegations of housing discrimination, among other things.
    Ms. Kaptur. Thank you. So, it would be easy for you to get 
back to us fairly quickly on whether what I stated is correct, 
and that is that the administration has not brought a single 
housing case, Fair Housing case based on race discrimination in 
this administration. You could check with that person and get 
back to us fairly quickly, right, so you can verify what I am 
saying is true?
    Mr. Dreiband. Well, Representative Kaptur, certainly, I can 
check with the leadership of our Housing and Civil Enforcement 
Section----
    Ms. Kaptur. Thank you.
    Mr. Dreiband [continued]. And, in fact, I talk with them 
frequently. I have met with them several times this week, for 
example.
    Ms. Kaptur. Well, you know, Jones Day has a big legal 
operation in Cleveland, Ohio, also, and I would be very, very 
interested in the answer to that question, sir. Lou Stokes is 
one of my predecessors from Ohio and he was very intent on this 
issue, and I admired his work and the work that we have done as 
a country to heal these racial divides. So, I would be very 
grateful for that information.
    Thank you, Mr. Chairman.
    Mr. Serrano. Thank you.

                             POLICE REFORM

    Mr. Dreiband, how much staffing and funding does the 
Division devote to police reform?
    Mr. Dreiband. Well, I would say two of our sections 
primarily deal with police departments through the Civil Rights 
Division, our Special Litigation Section and our Criminal 
Section. But, of course, other sections of the Justice 
Department and the Civil Rights Division also do it, as well. 
For example, police departments are governed by Title VII of 
the Civil Rights Act of 1964 in that they are prohibited from 
discrimination because of race, sex, and other protected traits 
and our Employment Litigation Section enforces that law. So, it 
does vary by statute.
    Each of those sections, the three sections that I 
mentioned, have several dozen attorneys and investigators and 
other professionals who work with them.
    Mr. Serrano. Now, from your knowledge, is that particular 
dedicated funds amount lower than it is been in the past years? 
Has it held steady over a period of time?
    Mr. Dreiband. Well, I think the numbers vary. They vary 
from section to section in terms of increases or decreases in 
staffing. Some sections have more attrition than others. So, 
for example, our Criminal Section has seen an increase in 
staffing over the last couple of years, but it does vary by 
section.
    Mr. Serrano. And how many reform agreements are now in 
place and how many are under consideration, either in 
negotiation or in implementation?
    Mr. Dreiband. Chairman Serrano, I'm sorry, what kind of 
agreements were you asking about? I did not quite hear that.
    Mr. Serrano. Reform agreements.
    Mr. Dreiband. Well, Chairman Serrano, we enter into 
different kinds of agreements with police departments. They 
could be in the form of a settlement agreement of a disputed 
matter. They could be in the form of a consent decree, as I was 
talking earlier. So, it does vary in terms of the form of the 
agreement.
    We don't use the term ``reform agreement'' when we settle a 
matter with a police department or any other organization or 
institution. So, it does vary in terms of the type of 
resolution that we have with these organizations. But--so, I am 
not sure I can define it more precisely than that.
    Mr. Serrano. You mentioned consent decrees and we have an 
understanding that there have been less than those agreed to; 
is that correct?
    Mr. Dreiband. Chairman Serrano, I don't know the numbers of 
consent decrees that this Civil Rights Division has entered 
into. We have entered into many, many consent decrees through 
the various sections of the Civil Rights Division over the last 
few years, many of which predate my arrival, obviously. So, I 
don't know the numbers off the top of my head. I think it would 
vary from section to section of the Civil Rights Division.
    Mr. Serrano. OK. Well, you can provide that on the record 
and we will also provide you with more information to clarify 
our questioning.
    Mr. Dreiband. Thank you, Chairman Serrano.

                            CONSENT DECREES

    Mr. Serrano. On November 7th, former Attorney General 
Sessions initialed a policy memo to curtail the use of your 
consent decrees saying that it is not the responsibility of the 
Federal Government to manage non-Federal law enforcement 
agencies.
    Has the policy been implemented and did it lead to 
terminating agreements or setting deadlines?
    Mr. Dreiband. Chairman Serrano, you are correct that on 
November 7th of 2018, then-Attorney General Jeff Sessions did 
sign a memorandum about consent decrees with respect to state 
and local government institutions. That memorandum established 
certain kinds of procedures, both, with respect to obtaining 
approval of consent decrees and standards that govern consent 
decrees.
    The memorandum has not resulted in any kind of artificial 
termination of any consent decree within the jurisdiction of 
the Civil Rights Division since it issued, nor have I given any 
direction to anyone in the Civil Rights Division to terminate 
any existing consent decree, artificially or otherwise, as a 
result of that memorandum. So, consent decrees that existed 
before that memorandum and that have not yet otherwise expired, 
remain in place and our various sections of the Civil Rights 
Division continues to enforce them.
    You know, we do consult, as a result of the memorandum, 
with the Office of the Associate Attorney General, for example, 
or the Deputy Attorney General, as appropriate, and we are 
continuing, though, marching on and soldiering on with respect 
to our law enforcement activities.
    Mr. Serrano. Then you wouldn't know how many agreements 
were affected and where they were affected?
    Mr. Dreiband. Chairman Serrano, I did not hear the last 
part of your question.
    Mr. Serrano. And you wouldn't know how many of these 
agreements were affected and where, at this point?
    Mr. Dreiband. Yeah, Chairman Serrano, in terms of the 
existing agreements, I don't believe that any of them were 
affected at all. We don't read that memorandum to be 
retroactive or anything like that to affect pending consent 
decrees; rather, it was a directive, at least as I read it, on 
a going-forward basis, about how the Civil Rights Division, but 
not just the Civil Rights Division, but the Justice Department, 
generally, will seek to obtain consent decrees, with respect to 
state, local government organizations, and institutions, 
respecting, of course, the federalism concerns that are at 
issue in those cases, because when we have, you know, state and 
local government organizations and the federal government 
bringing enforcement actions in those cases.
    Mr. Serrano. In your confirmation hearing, you testified 
that--and I am quoting, ``The division, Special Litigation 
Section, is entrusted with the role of enforcing Federal laws, 
protecting the civil rights of individuals in our communities 
who interact with state or local law enforcement officers.''
    You also said, ``That while intervention may not be 
appropriate in every case, the Division will stand ready and 
willing to assist State and local authorities, when 
necessary.''
    With that in mind, what standards should DOJ use to 
identify organizations in need of review or reform?
    Mr. Dreiband. Yeah, we, through our Special Litigation 
Section, we enforce a variety of statutes and we gain 
information about alleged violations of statutes in different 
ways, through local communities, through advocacy groups, 
through individuals. Our Special Litigation Section then 
conducts investigations, as appropriate; again, each law varies 
from--in terms of the exact process available to us.
    For example, some statutes provide subpoena power during 
investigations in civil matters and others do not. For example, 
the Civil Rights of Institutionalized Persons Act, which is one 
of the laws that the Special Litigation Section is entrusted 
with enforcing, that does, thanks to amendments by you and your 
colleagues in the Congress, does authorize us to issue 
subpoenas, for example, to compel production of information.
    Under that law, for example, we recently issued findings, 
letters against both, a jail in Kentucky and a prison in 
Virginia, where we found that there was a pattern of practice 
of violations of the Constitution by law enforcement officials 
in those cases and we are--and those occurred after lengthy and 
thorough investigations by the very dedicated staff and 
attorneys in the Special Litigation Section of the Civil Rights 
Division, and we are now working with those institutions, 
hopefully, to bring about a resolution to those alleged 
violations and to make sure that in those cases, the 
institutions are complying fully with the Constitution of the 
United States and the federal civil rights laws that--within 
our jurisdiction.
    Mr. Serrano. Thank you.
    Mr. Aderholt.
    Mr. Aderholt. Thank you, Mr. Chairman.

                              HATE CRIMES

    We talked--I think we talked a little bit about the 
prosecution of hate crimes, but let me ask you about the 
incidences of hate crimes, in general. Did--and you may have 
mentioned this--but clarify this, would you say that the 
instance of actual crimes are growing, staying the same, or 
decreasing?
    Mr. Dreiband. Ranking Member Aderholt, with respect to hate 
crimes, I think what I can say is that we think the data are 
improving; in other words, the reporting of hate crimes and the 
data available to us is better and getting better, and it is 
something that the Federal Bureau of Investigations is working 
very hard on, along with our Criminal Section at the Justice 
Department. So, the data are better, which is helpful.
    In terms of an accurate measure of how many hate crimes are 
occurring in this country, I think that is more difficult to 
say. As I said earlier, we are concerned that there are 
jurisdictions in this country that have not reported hate 
crimes at all and, yet, we are confident that those hate crimes 
are occurring.
    So, I think the good news is that the data are better and 
we are committing more resources to prosecuting hate crimes, to 
reaching out to local law enforcement and community 
organizations and individuals to uncover instances of hate 
crimes and to take appropriate action where----
    Mr. Aderholt. So, it may not be that the number of actual 
hate crimes are growing so much, as there is better information 
regarding incidences that are out there are being reported more 
now than they were in the past; is that safe to say?
    Mr. Dreiband. Ranking Member Aderholt, yes. I think, as I 
said, the data are better, and that improvement in the data 
enables us to identify hate crimes and investigate them, and 
when appropriate, working with local law enforcement to bring 
appropriate actions, including criminal prosecution, of those 
who commit such crimes.
    Mr. Aderholt. Let me shift just a bit. I will talk about 
hate crime hoax and, of course, they can be as damaging as 
actual hate crimes. Or still, hate crimes hoaxes compound the 
injury by unjustly defaming the category of individual 
identified with the perceived of the characteristics of the 
perpetrator or perpetrators.
    Has your division ever been involved with the prosecution 
of a hate crime hoax?
    Mr. Dreiband. Representative Aderholt, I am not familiar of 
whether or not the Civil Rights Division has ever prosecuted a 
hate crimes hoax. I agree with you that any kind of hoax about 
a hate crime is a very serious thing and can damage public 
perceptions about victims of hate crimes. They can also involve 
criminal misconduct, as well, if, for example, an individual is 
falsely reporting a hate crime, may make a material false 
statement to an FBI agent, for example, that is a felony.
    Likewise, if an individual goes into a grand jury or 
otherwise testifies under oath falsely about a hate crime, 
that, likewise, would be criminal perjury and could be 
prosecuted. So, these are very serious things, but they are 
also serious from the standpoint of public confidence in 
criminal justice and I think they seek to undermine the victims 
of hate crimes when people perpetrate hoaxes about them.

                           RELIGIOUS LIBERTY

    Mr. Aderholt. Public colleges and universities are, of 
course, bound by the Constitution, since they are institutions 
of government, yet, freedom of speech and religious liberty 
come under attack far too often on public campuses. What 
responsibilities do public institutions have to afford equal 
access to facilities and resources for faith-based student 
organizations, including organizations that promote viewpoints 
that are unpopular with the leadership of the university 
itself?
    Mr. Dreiband. Well, Ranking Member Aderholt, religious 
liberty is, like voting, one of the most important protections 
that we have in the Constitution of the United States. It is 
something that the founders enshrined in the First Amendment to 
the Constitution of the United States, including, in 
particular, the free exercise of religion, and it is something 
that public institution, because they are governmental 
organizations, have a duty to comply with and to respect the 
free exercise of religion of those individuals within their 
community.
    We have seen in the Civil Rights Division that there are 
times when certain public institutions are taking actions that 
we regard as in violation of the First Amendment. For example, 
we had a case recently, a case called Business Leaders in 
Christ v the University of Iowa, where the University of Iowa 
de-registered a religious student group, and we concluded that 
it did so in violation of the First Amendment.
    We filed with the Federal District Court in Iowa, a 
statement of interest explaining the standards that govern such 
claims and the Federal Court there did agree with us, found 
that the University of Iowa had violated the First Amendment 
with respect to this religious student group there, and we have 
seen that in other circumstances, as well.
    Mr. Aderholt. Well, that was going to be my next question. 
So, that has been a recent effort that you all have worked on 
there with that University of Iowa case?
    Mr. Dreiband. Ranking Member Aderholt, yes. That is one 
case of various cases where we, at the Civil Rights Division, 
have found that various public institutions appear, at least, 
to us, to have violated the First Amendment religious liberty 
protections. And what we do and have done in those cases, 
typically, is to advise the federal courts of this and advise 
them of the standards that govern and the standards that these 
public institutions should adhere to. And then, you know, the 
courts take appropriate action in whatever cases are pending.
    Mr. Aderholt. And I am sure that in this particular case, 
the University of Iowa took the appropriate action and let this 
group back on the campus?
    Mr. Dreiband. Well, I don't know what the University of 
Iowa has done. The decision was issued very recently, and so I 
don't know whether the University of Iowa has come into 
compliance with the First Amendment. I certainly hope they 
have.
    What we do know is that the Federal Court in that case did 
agree with us and issued a decision, a very thorough decision, 
about the violation of the First Amendment that it found.
    Mr. Aderholt. What Federal Court was it that issued that 
ruling; do you recall offhand?
    Mr. Dreiband. Yeah, it was--it was a federal court in Iowa. 
I don't remember which district court it was, but it was in the 
state of Iowa.
    Mr. Aderholt. All right. Thank you, Mr. Chairman.
    Mr. Serrano. Mr. Palazzo.
    Mr. Palazzo. All right. Thank you, Mr. Chairman.

                        RIGHTS OF SERVICEMEMBERS

    In your testimony, you talk about protecting the 
servicemembers' rights to vote and also their reemployment 
rights when they deploy. And we know over the past two decades, 
we have had hundreds of thousands of men and women deployed all 
over the nation, primarily in the Middle East.
    Can you briefly describe your efforts and are they 
transpositive or negative, again, in employees and employers 
and states, I guess, in one sense, making sure that they are 
able to vote when they are serving overseas, but also, their 
reemployment upon returning home, just what you have seen in 
your office and are we turning them in the right direction?
    Mr. Dreiband. Yes, we have, as I mentioned in my written 
submission, Representative Palazzo, we did--we are focused on 
protecting servicemembers against discrimination and against 
deprivation of their rights to vote. So, we enforce a law 
called the Uniformed Services Employment and Reemployment 
Rights Act, as well as two other laws, I think, that are 
relevant to protections, at least within our jurisdiction, for 
servicemembers, the Uniformed and Overseas Citizens Absentee 
Voting Act--that protects the right of servicemembers who are 
outside the United States to vote--the Servicemembers Civil 
Relief Act also provides protections.
    For example, we have seen cases where certain auto lenders 
have seized property in violation of the Servicemembers Civil 
Relief Act, foreclosed on mortgages, things like that, when our 
servicemembers are outside the United States or might even be 
fighting in a place of combat. Under the Uniformed Services 
Employment and Reemployment Rights Act, USERRA is what that law 
is known as, we have seen instances where servicemembers have 
lost their jobs, in violation of the law, or have otherwise 
suffered adverse employment consequences. And so, when we found 
that--and we have found it--we take appropriate action, 
including up to and filing lawsuits against individuals or 
organizations that may violate these protections.
    Mr. Palazzo. As the chairman of the National Guard and 
Reserve Components Caucus, and as a veteran myself, and a 
current member of the Mississippi National Guard, we have 
over--in fact, we have the largest contingent of National 
Guardsmen returning from overseas. They spend a year in the 
Middle East, and we have another group from Laurel, the 184th 
Sustainment Command that is in the middle of their deployment.
    You know, these things are important and, you know, I just 
want to thank the employers that continue to hire National 
Guardsmen and Reservists, especially in light of the tempo that 
we have had over the past 20 years. It is really admirable of 
them, and, in fact, in Congress, we have tried to make it even 
more appealing by providing tax credits for those who hire men 
and women in uniform and that are deployed to help, again, just 
incentivize people to continue hiring men and women in uniform, 
because they do make some of the best employees out there.
    You know, we have kind of focused on protecting the right 
to vote. Protecting, you know, the American citizens vote is 
extremely important to me. Just last week on HR1, which I think 
it is called For the People's Act, and some people think it is 
for the politician's act, more of an incumbent protection 
program, I mean, we heard crazy things like reducing the voting 
age to 16, you know, allowing--you know, we actually had, I 
guess, a motion to recommit or a statement to, you know--and it 
was by Congressman Dan Crenshaw to basically prohibit people 
who are here illegally from voting in our federal elections, 
but many of my colleagues thought that it was okay for people 
who are here illegally to vote in federal elections.
    And when you look at California, California actually has 
local ordinance that allows not only illegals to obtain 
driver's licenses, but to vote in local elections. What are we 
doing to protect our vote? Because I think it sends a horrific 
message, and are we doing anything to go after the voter fraud 
in these cities by--because, basically, they are in direct 
violation of federal law. Because I am assuming if they are 
voting in local elections, they are voting in federal 
elections, as well.
    Mr. Dreiband. Well, Representative Palazzo, first, let me 
address your comments about our servicemembers, with which I 
agree. Our very dedicated women and men who put on a uniform 
are willing, literally, to put their lives at risk to protect 
the liberties we have in this country. This is a tradition that 
goes back to the Continental Army and during the American 
Revolution, as you know, and they do so, among other things, 
protect the right to vote.
    And I think when we see violations of that right, it is 
something that the Justice Department takes very seriously. In 
the Civil Rights Division, we are entrusted with enforcing the 
civil rights protections related to voting. Voter fraud, when 
it happens, is within the jurisdiction of the Criminal Division 
of the Justice Department.
    And, you know, my focus, as the head of the Civil Rights 
Division, of course, is to focus on the laws within our 
jurisdiction, but I do know that we have many very fine lawyers 
in the Criminal Division at the Justice Department and they 
work with the FBI to investigate any claims or allegations of 
voter fraud when they happen. It is not something that I am 
personally involved in because, as I said, because of the 
jurisdiction that we have in the Civil Rights Division, but I 
agree with you that it is an important issue and it is one that 
we should all be concerned about as Americans.
    Mr. Palazzo. Thank you for your public service and thank 
you for coming out today. I appreciate it.
    Mr. Dreiband. Thank you, Representative Palazzo.
    Mr. Serrano. I can't let it pass. My good friend, and I 
mean my good friend, Mr. Palazzo, no democrat supported 
undocumented folks voting in elections. It is a good approach 
that is used. Every time we bring up voter suppression, all the 
difficulty that is made in some States for you to vote, then 
the other side brings up voting by undocumented.
    I don't know what it feels like to be an undocumented 
person; I was born a citizen in a territory, but everything I 
know about these folks is that they would rather stay in the 
shadows. The last thing they want to do is get caught in an 
election that they are not supposed to be voting in, because 
that would be the end of their stay here or worse, they would 
stay here under another circumstance: behind bars. So, I don't 
think that that is something for us to worry about.

                      COMMUNITY RELATIONS SERVICE

    Let me ask you one last question and then we will wrap it 
up and let you go enforce the laws. Fiscal year 2019 proposed 
to put the Community Relations Service in your division. Is 
this a good idea in your opinion?
    Mr. Dreiband. Well, the Community Relations Service, 
historically, has been separate from the Civil Rights Division. 
I understand there is a proposal to make it a part of the Civil 
Rights Division. The Community Relations Service, historically, 
has served a different function than we do in the Civil Rights 
Division in that the Community Relations Service has 
historically helped work with communities in an amicable way to 
calm tensions, to build trust often times when there have 
various controversies in a particular community.
    And the Civil Rights Division, as I said earlier, and you 
referenced, Chairman Serrano, we are primarily charged with 
enforcing the laws within our jurisdiction through either 
criminal prosecution or civil lawsuits or investigations, 
things of that sort.
    So, with respect to the proposal, I really think that is 
something that you and your colleagues, here in the House of 
Representatives and your peers over in the United States Senate 
should decide, and whatever you decide and whatever you do, we 
will do our duty as best we can. And if you decide, and your 
colleagues decide to combine the Community Relations Service 
with the Civil Rights Division, we will do our best to make 
sure that both, the Community Relations Service and Civil 
Rights Division can continue to function as best and as 
efficiently as they can, given the limited resources that you 
and your colleagues appropriate to us.
    Mr. Serrano. Thank you.
    Mr. Aderholt, do you have any closing comments?
    Mr. Aderholt. I don't have anything else.
    Mr. Serrano. Let me just thank you for being here with us 
today and I will end the way I started. You know, I come from a 
generation of people who saw the Justice Department as the one 
place you went to for relief and every time the Justice 
Department got involved, it was not to hurt someone unless 
someone was doing something wrong; it was to defend the rights 
of people and even those who were in the margins of society, in 
many ways--financially and, otherwise--felt protected.
    And as I said before, for the African-American community, 
it became the one place, especially, where the justice could be 
brought about. And I would hope that that is still the feeling. 
I would hope that that is what you consider to instill in the 
people who work in this section and I would hope that we can 
continue to have a Justice Department that we can remedy what 
is wrong, grow on what is right, and serve the people well. And 
I thank you.
    Mr. Dreiband. Thank you, Chairman Serrano.
    Mr. Serrano. And this hearing is adjourned.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                                         Wednesday, March 13, 2019.

                GUN VIOLENCE PREVENTION AND ENFORCEMENT

                               WITNESSES

THOMAS E. BRANDON, DEPUTY DIRECTOR, BUREAU OF ALCOHOL, TOBACCO, 
    FIREARMS AND EXPLOSIVES
CHRISTINE HALVORSEN, ACTING ASSISTANT DIRECTOR, CRIMINAL JUSTICE 
    INFORMATION SERVICES, FEDERAL BUREAU OF INVESTIGATION
    Mr. Serrano. The subcommittee will come to order. We 
welcome everyone to our fourth hearing of the year. Today we 
are going to examine gun violence prevention and enforcement 
efforts.
    There is an epidemic of gun violence in our Nation and this 
subcommittee has a key role to play in the urgently needed 
response as we oversee the Federal law enforcement agencies 
tasked with overseeing gun dealers, investigating gun crimes, 
and running our background check system, among other things. 
That is why I am pleased to welcome our two witnesses today; 
Thomas Brandon, the Deputy Director and head of the Bureau of 
Alcohol, Tobacco, Firearms and Explosives, also known as ATF; 
and Christine Halvorsen, the Acting Assistant Director for 
Criminal Justice Information Services, or CJIS, pronounced 
CJIS, at the Federal Bureau of Investigation. CJIS, among other 
things, operates the National Instant Criminal Background 
Check, more commonly known as NICS, pronounced as NICS.
    Both agencies play a crucial role in preventing gun crimes 
before they occur and investigating them once they do. You also 
have a key role in the policymaking and the public to better 
understand how guns fall into the wrong hands; how our 
government oversees our Nation's firearms dealers and buyers; 
and what we need to prioritize. Both agencies also have a key 
role in working with state and local law enforcement in these 
goals.
    There are a large number of issues that have raised 
concerns on both sides of the aisle in recent years, from 
oversight over federally licensed gun dealers to loopholes in 
our background checks system, to delayed denials to gun 
trafficking, to the need to more rapidly trace the sources of 
crime guns. The list goes on and on.
    Unfortunately, we in Congress have too often failed you 
just as well. Given the diversity and seriousness of your 
missions, we have too often underfunded some of your critical 
functions.
    Right now, for instance, the New York City Police 
Department has more than 39,000 officers and more than 19,000 
administrative staff; as of 2019, the ATF has a total of 5,109. 
Given your responsibilities, I think it is safe to say that an 
increase in staffing is sorely needed.
    On the NICS side, funding has grown over time to help 
states maintain and update their background check databases, 
and continued NICS funding is vital to ensuring that the 
background check database is accurate.
    Lastly, we also cannot discuss enforcement of our gun laws 
without also mentioning previous legislative actions taken by 
Congress that have impeded ATF's ability to prevent and 
investigate gun violence. This committee, unfortunately, has a 
long history of interfering in some commonsense policies to 
ensure that the ATF can act in ways that are effective and 
efficient. Hopefully, we will get a chance to discuss the 
impact of those choices today.
    I represent a community that is far too often subject to 
gun violence, like so many Members do, not only in this 
committee, but in Congress. We are not far from the issue of 
illegal guns to have moved from a legitimate federally licensed 
firearms dealer to an illegitimate source. So far this year, we 
have had 29 shootings in the Bronx. I think we can all agree 
that this is too many and that we need to act to prevent this 
from happening.
    Gun crimes happen all over our Nation and not a day goes by 
without a firearms-related death. This violence has a serious 
impact on our neighborhoods, not only the serious physical and 
emotional impact on families, but also the psychological impact 
on the broader community at large. Two weeks ago, the House 
took a step toward addressing this epidemic. I look forward to 
working with the agencies here today to determine what steps we 
can take next.
    So, we welcome you again. And, with that, I recognize Mr. 
Aderholt, my partner.
    Mr. Aderholt. Thank you, Mr. Chairman, for yielding, and I 
would like to welcome our two witnesses to the hearing this 
morning. It is good to have you here this morning.
    The primary criminal enforcement mission of the Bureau of 
Alcohol, Tobacco, Firearms and Explosives is to protect the 
public from violent crimes. Similarly, the Federal Bureau of 
Investigation's predominant mission is to protect the American 
public from dangerous criminal threats.
    As such, Direct Halvorsen and Deputy Director Brandon, I 
know you are both experts on the topic of violence crime and 
public safety, and so that is why we certainly welcome your 
presence here to the subcommittee this morning. I look forward 
to your insights and learning more about the comprehensive 
efforts that are underway at your respective agencies to better 
understand crime trends and modernize our Nation's efforts to 
respond to them.
    The complexity of violence and the very nature of criminal 
behavior, as was just mentioned in the Chairman's remarks, make 
predicting and preventing incidents of violence extremely 
difficult. For this reason, I deeply appreciate the 
extraordinary efforts of your agencies to work with your 
Federal, state and local partners to address the violent issues 
of firearms with the help of advanced technology, the improved 
intelligence, better coordination, and targeted training and 
also enforcement.
    All too often, as the case, some in Washington and members 
of the media want to blame the presence of guns for acts of 
violence, and use tragedy as the very reason to restrict 
fundamental rights to bear arms. I believe the Founding Fathers 
wisely included the Second Amendment in the Bill of Rights, and 
this fundamental freedom protects the right of gun owners and 
in turn restrains the presence of criminal activity and 
tyranny.
    I firmly believe that restricting the rights of gun owners 
is not the answer to the issues that we have seen and to the 
criminal misuse of firearms in general.
    So, with that, I thank the chairman for holding this 
important hearing, and I yield back and look forward to your 
testimony.
    Mr. Serrano. Thank you, Mr. Aderholt.
    Director Brandon, it is time for your opening remarks. 
Please try to keep your statement to 5 minutes and, as always, 
your full statement will be inserted in the record.
    Mr. Brandon. Yes, sir.
    Well, Chairman Serrano and Ranking Member Aderholt, and 
members of the committee, my name is Thomas Brandon and I serve 
as the Deputy Director for the Bureau of Alcohol, Tobacco, 
Firearms and Explosives, known as ATF. As head of the agency 
representing the men and women of the ATF, I want to thank you 
for your invitation to appear before you today in order to 
address ATF's role in combating gun violence.
    The plague of gun violence has enormous impact across 
America, from Charleston to Pittsburgh, from Columbine to 
Parkland, and throughout our Nation. Whether you live in a big 
city or a rural community, whether it is our children in 
schools, adults at work, or families attending religious 
services, no one is immune to the impact. While a mass shooting 
captures the attention of the nightly news, the daily 
occurrence of firearms-related violent crime in many of our 
neighborhoods takes a heavy toll on the hearts of the entirety 
of this great Nation.
    ATF shares the Nation's desire to combat gun violence; it 
is our job and it is what we do every day. ATF's mission to 
protect our communities from violent criminals, criminal 
organizations, the illegal use and trafficking of firearms, and 
the illegal use and storage of explosives, and acts of arson 
and bombings.
    I often say ATF's goal is to be a better partner and that 
is why a major key to ATF's impact on enhancing public safety 
is the work we do every day in partnership with our state and 
local law enforcement agencies. We seek to achieve this goal 
through hard work in the trenches and through the unique 
expertise we provide. The resources we provide to our partners 
include the National Integrated Ballistics Information Network, 
known as NIBIN, and firearms tracing, the two federal resources 
the Major City Chief's Association has identified as far and 
away the most valuable federal resources they use in their 
fight against firearms violence.
    ATF is a small agency with a big mission. Today I would 
like to provide you with some examples of what we do with the 
resources you all give us, and hope these examples point to 
what we can do to have an even bigger impact in combating 
violent crime in the future. In my written statement, as you 
mentioned, I provided a more complete list of what we do with 
the resources you give us, but for my oral testimony I will 
highlight just a few.
    For the past several years, we have been assessing how we 
use the tools we have in order to be ahead of the curve with 
regard to violent crime. In fact, I would say we have played a 
significant role in actually changing the nature of criminal 
investigations, driving change in a way that we use technology 
and thus helping to drive change in the way our local law 
enforcement partners use technology.
    An example of our efforts to expand our investigative 
abilities is the transformation of ATF's NIBIN. When a firearm 
is discharged, it ejects a shell casing, leaving behind unique 
markings on the casing. NIBIN is the only nationwide network 
that allows for the capture and comparison of 3-D ballistic 
images of spent shell casings recovered from crime scenes and 
crime gun test fires. In the past, the technology existed 
primarily in our labs to generate evidence for judicial 
proceedings, but our efforts have directly caused NIBIN to 
become an investigative leads generator, often linking crimes 
previously thought to be unrelated.
    Since 2016, ATF has provided these NIBIN matching services 
at one centralized location in Huntsville, Alabama called our 
National Correlation and Training Center. Correlation is the 
process of comparing images in the NIBIN system and is cost-
prohibitive for many police departments nationwide. Currently, 
ATF conducts correlation reviews for more than 250 law 
enforcement agencies, with results within 48 hours or less. We 
plan to continue to expand this essential service and our goal 
would be to offer it to all NIBIN participants by the end of 
fiscal year 2020.
    The success of NIBIN is illustrated by a case recently 
adjudicated in Detroit, Michigan. In January 2017, a nonfatal 
shooting occurred at a Detroit gas station. Months later, in 
April 2017, there was another shooting, this one fatal, at a 
different gas station. By collecting the shell casings at both 
scenes and using surveillance footage from the first nonfatal 
shooting, investigators were able to link up both casings to a 
single suspect, who was arrested and successfully prosecuted.
    A study conducted by Rutgers University regarding the use 
of NIBIN in New Jersey found that when you have two shootings 
matched through NIBIN there is a 50-percent chance that the 
firearm is going to be used in another shooting in the next 90 
days. Our protocols are designed to identify and arrest those 
violent criminals as soon as possible to prevent them from 
engaging in more violence.
    As these NIBIN machines and our correlation capabilities 
are implemented across the country, ATF will be able to 
integrate data from localities throughout the network, allowing 
our experts in Huntsville to generate an even higher volume of 
actionable investigative leads.
    Violent crime knows no boundaries, so our work at the 
national level supporting local law enforcement is a key part 
of connecting the dots across judicial boundaries.
    NIBIN is also the cornerstone of another way we continue to 
transform criminal investigations, through our Crime Gun 
Intelligence Centers.
    Located in each ATF field division, Crime Gun Intelligence 
Centers are collaborative efforts that use cutting edge 
technology and a dedicated investigative team to identify 
shooters and their sources of crime guns. Our Crime Gun 
Intelligence Center best practices have revolutionalized the 
way criminal investigations are conducted, bringing NIBIN and 
our firearms tracing capabilities into a one-stop shop. This 
allows us the ability to direct our intelligence to go after 
the trigger pullers in an even more efficient and effective way 
than ever before.
    Let me provide a real-life example from New York as to how 
we use Crime Gun Intelligence. In 2009, an enforcer in a 
violent drug-trafficking organization shot and killed the 
mother of two children. In 2010, another member of this 
organization was shot and killed because they feared he would 
cooperate with law enforcement. NIBIN linked those two murders 
to the same gun and our application of crime gun intelligence, 
now generated in all Crime Gun Intelligence Centers, assisted 
in identifying and arresting the shooter, who in 2017 was 
sentenced to life in prison plus 10 years.
    Chairman Serrano, Ranking Member Aderholt, and members of 
the subcommittee, I hope I have relayed why I feel that your 
investment in ATF is money well spent. We know that in order to 
fight violent crime we must be an integrated and resourceful 
organization, nimble in responding to an ever-changing 
environment with technological sophistication. ATF personnel 
know there is no higher priority than protecting the American 
public.
    Thank you for your time and I am happy to answer any 
questions you may have.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Serrano. Thank you, Director.
    At this time Director Halvorsen, you have 5 minutes, and 
try to keep it to 5 minutes and we will include your statement 
in the record.
    Thank you.
    Ms. Halvorsen. Good morning, Chairman Serrano, Ranking 
Member Aderholt, and members of the subcommittee. My name is 
Christine Halvorsen and I am the current Acting Assistant 
Director of the FBI's Criminal Justice Information Services 
Division, as we heard earlier, otherwise known as CJIS. I am 
pleased to be here with you today to discuss the FBI's efforts 
to halt the flow of gun violence facing our communities.
    Let me first assure you, the people of the FBI remain 
committed to doing whatever is necessary to prevent violence 
which leads to the tragedies within our communities. For the 
last few months of my 23-year career, I have had the honor to 
serve alongside the hardworking men and women in the CJIS 
Division, who every day are committed to protecting our 
communities from violence. I am extremely honored and humbled 
to speak on their behalf of the significant efforts we have and 
continue to make within the FBI to one day end gun violence.
    We are leading several initiatives with our law enforcement 
partners to ensure we are all best equipped and positioned to 
mitigate and respond to these violent threats. To do this, the 
FBI is focusing on partnerships, sharing and evaluating 
intelligence, conducting continuous process improvements, and 
looking at our policies, procedures, and the development of our 
people, so we can better assess our posture against the threats 
while upholding the Constitution of the United States.
    For example, in order to improve our daily operations, the 
FBI has increased staff levels at the National Threat Operation 
Center, formerly known to you all as PAL, and that is thanks to 
the Committee's support. It has refined its organizational 
structure and training to support expanded management and 
appropriate referrals to law enforcement to ensure imminent 
threats to life and national security events are handled in a 
timely and appropriate manner.
    It is building and strengthening partnerships with 911 call 
centers, suicide prevention hotlines, fusion centers, and other 
Federal Government agencies who also receive public tips 
through their online or call centers.
    Currently, NTOC operates 24/7 with more than 200 members. 
The members receive and assess public leads and tips made to 
FBI field offices via phone or e-tips, and, when necessary, 
disseminate the actual intelligence to action officers. In 
calendar year 2018 alone, NTOC personnel answered more than 
655,000 calls and 755,000 e-tips.
    The NTOC standard operating procedures has also been 
modified to ensure standardization. Additionally, NTOC members 
are provided threat briefings, threat-to-life, and guidance on 
school shooting training, reiterating its responsibility to 
escalate threats to life complaints and ensuring critical 
information is being relayed clearly, efficiently, and timely 
to the appropriate action officer.
    A number of important IT changes have also taken effect at 
CJIS and they have been implemented to streamline operations, 
add critical reporting, and create call auditing features.
    CJIS is also responsible, as you said earlier, for the NICS 
system, the National Instant Criminal Background check system. 
NICS is a computerized system which aids in determining if a 
person's criminal history disqualifies them from possessing or 
receiving firearms.
    I would like to level set the committee on how the FBI 
processes NICS transactions. When a requesting business 
initiates a NICS transaction, a name and date of birth check is 
conducted against three databases for possible matches. For all 
FBI NICS transactions where the database checks are negative, 
the NICS transaction is proceeded within seconds, sometimes 
minutes, and it is purged from the system within 24 hours. For 
NICS transactions processed by the FBI where potentially 
prohibiting records are returned, the FBI has to initiate a 
manual review to determine if the record demonstrates a 
prohibition to the firearm possession.
    I want to take a second to talk about the detailed manual 
review process, so you all can live a day in the life of a NICS 
operator. Each manual review is labor intensive, as a reviewer 
only has limited information, as well as must be knowledgeable 
of the varying state-to-state prohibitions for firearms 
possession. At the conclusion of the manual review, the outcome 
is noted as either a proceed, deny, or delay.
    In most cases, a delay is issued if the FBI lacks the 
appropriate information necessary to make a determination. To 
obtain this information, the FBI makes requests of their law 
enforcement partners to provide the information as soon as 
possible. The FBI maintains the transaction as delayed until 
they receive the information necessary to make the 
determination or, if the information is not received, it is 
purged from the NICS system within 88 days.
    Since 2010, NICS has experienced substantial increases in 
the volume of NICS transactions. For example, for Black Friday 
of 2018, they experienced the highest volume for the highest 
number of days in the history of NICS. In that one day alone, 
NICS processed 182,000 transactions.
    To help better equip and position our law enforcement 
partners, the FBI continues to provide basic active-shooter 
training and response training to sworn law enforcement 
officers within the United States, and continues to collect 
active-shooter data. From fiscal year 2015 to 2019, the FBI has 
trained approximately 58,000 law enforcement officers.
    We have developed and delivered courses designed to assist 
in the implementation and management of intelligence-led 
policing, focusing on reduction of crime violence.
    In short, today's FBI shares more information with our 
partners than ever before.
    Our partnerships are strong and continually we are 
assessing where the FBI can do better and making changes 
wherever possible. We are working shoulder-to-shoulder with our 
partners at every level of law enforcement to halt the flow of 
gun violence facing our communities.
    We greatly appreciate the support of the Subcommittee in 
all that we do. Thank you for the opportunity to appear before 
you today and I am now happy to answer any of your questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Serrano. Thank you. Thank you both for your testimony.

            INSPECTIONS OF FEDERAL FIREARMS LICENSES (FFLS)

    Mr. Brandon, ATF currently inspects approximately eight 
percent of all Federal Firearms Licensees, or FFLs, each year. 
What funding and personnel would you need to increase that to 
20 percent? And does ATF have a target for what percentage 
should be inspected each year? If not, what percentage would 
you recommend as a matter of best practice?
    And let me tell you that I have been in Congress for quite 
a long time and on this committee for quite a long time, it is 
very rare to have the chairman or the ranking member, or anyone 
say, how much money do you need? It is usually you are asking 
too much. So, if you can tell us.
    Mr. Brandon. Mr. Chairman, thank you for the question and, 
hey, we will take whatever you give us, you know. [Laughter.]
    But as far as our industry operation investigators, we have 
about say 850, but really about 684 are actually doing the 
inspections. Each one, they work their tails off; they do about 
40 to 50 inspections per year. And one of the things with these 
inspections is that in the firearms industry about 50 percent 
of the FFLs, the Federal Firearms Licensees, are new within the 
last 5 years. When someone establishes a business, we want them 
to be successful. The IOIs personally meet with them, and go 
over the regulations and the administrative documents that they 
need. So that eats up a lot of the time. We can always do more 
with, with IOIs.
    And, to answer your question, IOIs, if we had a few hundred 
more, could we do more? Sure. We try to maximize with whatever 
resources we are allocated.
    We are using a new type of way that is like a CompStat with 
our inspections, to go after the people that are worthy of 
inspection, and we are having oversight at the headquarters 
level. Each field division will give us their plan for the 
year, their domain assessment, and we will have headquarters 
review it to make sure they are inspecting the proper targets. 
I have heard it referred to as, you know, the troubled dealers 
that we don't have attention on. I have been in my position 7 
and a half years now, and we have improved and we continue to 
improve, as we should, as any organization should with 
continuous process improvement.
    But to answer your question--I would say we would need a 
few hundred more industry operations investigators to 
accomplish the percentage you recommend.
    Mr. Serrano. A couple of hundred would bring you to 20 
percent, you said?
    Mr. Brandon. As best as I can answer right now, sir, yes, I 
would be comfortable in saying that that would help us. We 
would obviously have more progress, but I believe that would be 
accurate.
    Mr. Serrano. Last summer, the New York Times did an 
investigation of ATF's inspections of gun dealers that revealed 
that supervisors downgraded recommendations to revoke these gun 
dealers' licenses. How many of these recommendations to revoke 
licenses get downgraded each year?
    Mr. Brandon. Well, sir, I will get back to the committee 
with the specific numbers, but I will explain the process, and 
it was a process to be fair, that you didn't have 
inconsistencies applied around the country depending on who the 
DIO, the Director of Industry Operations was; there is one for 
each of the 25 field divisions. So it comes up and is reviewed, 
we address the issue and there is national oversight to ensure 
there is consistency and fairness applied to the process.
    Mr. Serrano. Let me ask you another question. Several years 
ago, Congress prohibited ATF from requiring the Federal 
Firearms Licensees conduct physical inventories of their 
premises. To what extent does this restriction impede ATF's 
ability to inspect the FFLs?
    Mr. Brandon. Well, sir, we follow the laws that you pass 
and the funds you give us to do that, so we operate within the 
confines of that.
    I will say, there is a program where the FFLs have been 
receptive, and when they are victims of a burglary or a 
robbery. And we respond as an integrated team of ATF special 
agents and ATF industry operations investigators, and along 
with the local police. And a key component is that is helping 
the FFL determine the inventory, the firearms that were being 
stolen, so that they could be entered into NCIC that the FBI 
controls. And we know from those burglaries and robberies that 
those are no longer lawful commerce, they are crime guns and 
they are going to be used to shoot people, and most likely the 
people that are going to come up against them are the brave men 
and women on patrol in uniform.
    Mr. Serrano. Thank you.

                                  NICS

    Ms. Halvorsen, I understand NICS relies on three main 
databases; the NICS crime database, the Interstate 
Identification Index System, and the NICS index, which includes 
records not in the other two databases, particularly from 
states and other agencies to include mental health records. An 
important point is that states provide their information 
voluntarily.
    Would you agree that it is critical to have timely and 
complete information from the states to ensure NICS has what it 
needs to make accurate and timely assessments of gun 
purchaser's eligibility?
    Ms. Halvorsen. So it sounds like you know our process very, 
very well. So, yes, the firearms background checks--
    Mr. Serrano. Somebody does on staff, for sure.
    Ms. Halvorsen. Yes, there you go. [Laughter.]
    So, as I had said in my opening statement, the firearms 
background checks are only as good as the information we have 
at the time that we have it. So the operator--we call them 
legal instrument examiners--when they review the NICS 
background check request that comes in, they are going off the 
information they have at that point in time and then request 
further information if we need it.
    So, the more timely the information, the quicker we can 
make a decision and move forward with the process.
    Mr. Serrano. And what records do we need to get state or 
federal partners to improve submission of relevant health and 
other records?
    Ms. Halvorsen. So regular--so I am just confused----
    Mr. Serrano. What records do we need to get state or 
federal partners to prove submission of relevant health and 
other records?
    Ms. Halvorsen. So, the Fix NICS Act was a big help to us 
with getting the dispositions into the system and working 
through that, and having the grants that were funded by DOJ to 
help the states get through that has been helpful; we are still 
working through that process to get the relevant records that 
we need into the system.
    Mr. Serrano. Let me just ask a question that I don't have 
here. What would say is the morale of the folks that work in 
your agencies? Because a lot of times we hear that people feel 
that their hands are tied on some of the things they want to 
do. What is the sense? If I, you know, was to talk to employees 
at ATF, for instance, would I find people who say we could be 
doing more, but we are not allowed or we can't do more? What 
would I find?

                     MORALE OF AGENTS IN THE FIELD

    Mr. Brandon. Sir, I believe morale in the field, the men 
and women that are running and gunning, going after the trigger 
pullers and the traffickers providing those trigger pullers 
with the gun, they do it with passion. It is not who they 
became, it is who they have always been. It is in their DNA to 
go after and do this type of work, and I am sure it is the same 
in the FBI and all the other law enforcement organizations.
    But I would not be doing my job up here of the continual 
compression of our budget where the costs have gone up; even 
though our budget has gone up, the costs have gone up higher. 
And to be candid with you, I have been an agent for ATF 30 
years, and the cost of conducting criminal investigations has 
gone up. Everybody has a cell phone in their life, so it costs 
for digital media exploitation, social media warrants and so 
forth, and I know we are not alone. The one thing that they 
would maybe feel is that we are underappreciated for the job 
that these brave men and women do. We are the smallest 
component in DOJ and law enforcement; FBI, DEA, US Marshals, 
and then ATF.
    But, regardless of that, I attend every academy class 
mostly, and I ask them why they come on the job and they come 
from other agencies, even from the FBI, you know, and then 
the----
    Ms. Halvorsen. Hey. [Laughter.]
    Mr. Brandon. We love stealing people, the Secret Service, 
everybody. And----
    Mr. Serrano. You would take people from the FBI?
    Mr. Brandon. Oh, we have classes, yeah. But the reason I 
say that--and we have a great relationship with the FBI--is the 
mission. It is they want to go after--to your point in the 
Bronx--they want to go after the people that are hurting 
people. These are good Americans that are saying, hey, let us 
go after the trigger pullers and the traffickers. I know from 
personal experience, there is nothing like locking up a killer.
    Mr. Serrano. Thank you.
    Mr. Aderholt.
    Mr. Aderholt. Thank you, Mr. Chairman.

                              FIX NICS ACT

    As you know, last year when the President signed the Fix 
NICS Act, which requires all federal agencies to certify twice 
a year that they are uploading criminal record information to 
NICS, and requiring the Attorney General, in coordination with 
the states, to establish implementation plans to ensure maximum 
coordination of reporting records.
    Director Halvorsen, let me direct this question to you. Has 
Fix NICS--and you alluded to it, but I want to get a little bit 
more of a definite answer on this--has Fix NICS made a 
difference in states and federal agencies that submit these 
relevant records to NICS?
    Ms. Halvorsen. So the Fix NICS Act has been very relevant 
to the work that NICS is doing every single day. All the 
submissions are due March 25th of 2019 by all the agencies that 
were required to submit one for the Fix NICS Act. And we have 
issued reports in December 2018 and February 2019 and, out of 
the 56 agencies that were required, 18 have yet to submit. But 
we know that they are on target for the March date.
    We have actually created a whole outreach group as well 
with our local and state partners that actually are working on 
the grants that DOJ has provided to them to help them get 
through this. And, again, we are holding their hand through 
that process. They are all in different phases, all in 
different stages of how to do it, but we are working through 
that and technology fixes on how we can better assist them to 
get them in. Overall it has been tremendous. Including for the 
appeal process. We are under the 60 day deadline every single 
week on the appeal process because we are getting the 
dispositions in and have been able to, you know, adjust them as 
quickly as we possibly can because of the dispositions coming 
in.
    Mr. Aderholt. What would be the impact on the FBI if all 
states require firearm background checks on private sells 
across the U.S.?
    Ms. Halvorsen. Obviously, the workload would tremendously 
increase, but we don't know what that would be, because right 
now private sales aren't tracked. So we don't know what the 
volume increase would actually be to NICS, but if that was 
implemented, obviously our workload would increase.

                                  NICS

    Mr. Aderholt. To the extent to which states work on a 
collaborative effort with the FBI to conduct NICS checks varies 
depending on the willingness of the state governments to act as 
a liaison for NICS, Federal Firearms Licensees will contact 
either the FBI or the designated state point of contact to 
initiate the background checks on individual's possessing or 
receiving the firearms.
    So, my next question, are states and federal agencies 
mandated to contribute records to NICS?
    Ms. Halvorsen. At this time, they are not mandated--it is 
voluntary.
    Mr. Aderholt. What is the difference between a full-time 
state point of contact and a non-point-of-contact state?
    Ms. Halvorsen. So, when the Brady Handgun Violence 
Prevention Act of 1983 was implemented, states could actually 
choose one of three options. They could become a full POC 
state, a non-POC state, or a partial POC state.
    In states designated as a full POC state, FFLs utilize the 
POC to submit their NICS check. So all that is done by the 
states. In states designated as non-POC, NICS does all the 
checks. And then we have other states that we do some handgun 
checks or we do long gun checks, and those are the partial POC 
states.
    Mr. Aderholt. OK.
    Ms. Halvorsen. So we kind of have a mix of it all.
    Mr. Aderholt. Has NICS volume increased say over the last 5 
five years?
    Ms. Halvorsen. Yes. In 2018, it was $26.1 million.
    Mr. Aderholt. What is the difference in volume that the FBI 
processes versus state POCs?

                              NICS VOLUME

    Ms. Halvorsen. We actually don't have that number, so it 
would be great to get back to the committee----
    Mr. Aderholt. OK.
    [The information follows:]

    As reported in the National Instant Criminal Background 
Check System's (NICS) 2018 Operations Report, the FBI Criminal 
Justice Information Services Division's NICS Section processed 
8,235,342 background checks in 2018, and state users processed 
17,946,594 background checks. Of the state initiated background 
checks, 5,293,391 were for the potential transfer of a firearm 
and 12,653,203 were for firearm-related permits.
    Please note, states may have procedures or regulations upon 
which they deny a background check before the NICS is queried; 
therefore, the volume provided may not be representative of the 
actual total.

    Ms. Halvorsen [continuing]. And work with the states to 
provide that number to you at a later date.
    Mr. Aderholt. OK. If you get back with that, that would be 
great.
    Can a private seller utilize NICS today?
    Ms. Halvorsen. They can, if they go through an FFL, they 
are able to go to an FFL and submit the private sale through 
the FFL.

           RESTRICTING SALES OF FIREARMS/TERRORIST WATCH LIST

    Mr. Aderholt. This committee has considered on many 
occasions an amendment aimed at the restricting sales of 
firearms to persons on the so-called terrorist watch list; does 
that amendment raise any concerns with you?
    Ms. Halvorsen. I can understand why you ask that question, 
because I have been in the Counterterrorism Division since 9/11 
and I was New York when 9/11 happened, so I completely 
understand the question. But when we look at that, we take each 
one of those on a case-by-case to make sure that there are 
legal prohibitions. Just because they are on the terrorist 
watch list, right, there is a due process that in order. So we 
refer those over to the individuals and we work in that 3-day 
window to try to determine if there are prohibitions for each 
individual that does hit on the watch list.
    Mr. Aderholt. Because clearly it is easy to get on the 
watch list, because something--when I say easy, it is very 
common for people who may not should be on the watch list to in 
some way get on the watch list because they may have been 
somewhere in various other things.
    Ms. Halvorsen. Yes.
    Mr. Aderholt. If enacted or something of this nature were 
enacted, how would the FBI square the requirements of that 
amendment with the constitutional guarantee of due process of 
law?
    Ms. Halvorsen. So I think we have to wait until the 
legislation comes out and work through it with you after it 
comes out on implementing procedures and processes behind it, 
after we see the language.

                                  NICS

    Mr. Aderholt. And this is my last question here. Just as 
NICS needs to have the appropriate disqualifying records, it 
also is important for NICS not to contain inaccurate records or 
records that are prohibiting. What impact on the system do 
extraneous or inaccurate records have?

               IMPACT OF EXTRANEOUS OR INACCURATE RECORDS

    Extraneous or inaccurate records generally do not impact 
the NICS functionality, from a system or technical standpoint. 
The FBI relies upon the collaboration and cooperation of 
agencies nationwide to submit accurate information on 
prohibited individuals.
    In March 2018, the U.S. Attorney General sent a letter to 
the FBI, state governors, and state attorneys general 
encouraging improvement in disposition record reporting. The 
FBI's goal is to make state and federal prohibiting records 
available at the national level. Additionally, the Fix NICS Act 
of 2017 has reinvigorated criminal history discussions across 
the country.
    The FBI has long-standing relationships with record-owning 
agencies, and has collaborated with and advocated for record 
sharing. The FBI has numerous proactive measures in place to 
support agencies in the identification of lacking or missing 
information in the applicable databases searched by the NICS. 
The list below outlines a few specific resources the FBI has 
made available to assist the states in addressing missing or 
incomplete records in the applicable databases searched by the 
NICS.
    <ctr-circle> The FBI conducts educational outreach to 
increase database records and final dispositions, as well as 
the identification of other needed pieces of information to 
support the immediate identification of prohibiting 
information, such as relationship to victim, statute, and 
subsection of the conviction;
    <ctr-circle> The FBI provides annual criminal history 
dashboards to agency contacts. Each dashboard provides 
information about the number of arrests on file in the FBI's 
Next Generation Identification (NGI) System, as well as the 
number of arrests with and without final disposition data;
    <ctr-circle> The FBI requests that agencies perform self-
audits to identify gaps in providing arrests and subsequent 
disposition information to the NGI System;
    <ctr-circle> The FBI provides reports to requesting 
agencies containing arrests with missing dispositions that are 
older than a year. This supports a continuous self-auditing 
tool;
    <ctr-circle> The FBI has dedicated staff performing 
research to assist in the location of missing dispositions, 
which the FBI then uses to update criminal history records in 
the NGI system;
    <ctr-circle> The FBI has dedicated liaison teams who 
specialize with the applicable databases searched by the NICS. 
They provide regular and ongoing support to record-owning 
agencies and contributors with the identification, submission, 
and maintenance of data and records;
    <ctr-circle> The FBI created a Disposition Task Force in 
2009 and continues through today to collectively pursue methods 
to enhance disposition reporting.
    The FBI CJIS Division conducts system audits on a triennial 
basis. Among other audits, the CJIS Division is responsible for 
National Crime Information Center (NCIC) and Interstate 
Identification Index (III) audits. The audits are conducted 
with state and federal CJIS Systems Agencies (CSA) and include 
reviews of local agency/field components within their 
applicable jurisdiction or span of control. The audits assess 
the performance of the CSA in administering NCIC and III 
systems access and services.

    Ms. Halvorsen. So we would have to go back and do a study. 
We frequently audit the system to make sure that we have 
accurate records, and we go back to the different federal 
agencies and law enforcement partners to update the records 
frequently. But if you need a full impact, I would have to get 
back to you on that.
    Mr. Aderholt. OK. Yeah, just let us know what impact that 
would have----
    Ms. Halvorsen. Absolutely.
    Mr. Aderholt [continuing]. It would be very helpful.
    So, all right, I will yield back.
    Mr. Serrano. Thank you, Mr. Aderholt.
    So we will start our members round with Ms. Meng. And 
please keep in mind, try to keep it to 5 minutes, and remember 
that this is simply a love tap.
    Ms. Meng. Thank you, Mr. Chairman and Mr. Ranking Member, 
for holding this important hearing today, and to both our 
witnesses for being here and your work for our country.

                DOMESTIC VIOLENCE AND FIREARM POSSESSION

    I wanted to ask a question about domestic violence and 
firearms, which, as you know, can be a lethal combination. An 
average of three to four Americans are murdered by intimate 
partners daily, most of these victims are women, and most of 
them are murdered by abusers using firearms. Thirty five 
percent of women in the U.S. who are killed by men are killed 
by intimate partners using firearms.
    Ms. Halvorsen, how many default proceeds to prohibited 
persons occurred last year and what percentage of them were to 
domestic abusers?
    Ms. Halvorsen. So it is a good question and a very, very 
important topic that you are discussing. I don't have the 
numbers on that. We don't do auto proceeds if there are any 
hits in the system. So there wouldn't be hits in the system. If 
there was, they would go into the delay queue, and then in that 
manner it would be processed.

                              FIX NICS ACT

    Ms. Meng. And I know you also mentioned how the Fix NICS 
Act has helped, has made a difference; is that also true for 
the entry of domestic violence records? How has that changed 
from before and after Fix NICS?
    Ms. Halvorsen. So we continue to work with our partners on 
getting the domestic violence information put into the systems. 
Sometimes it is incomplete and inaccurate information we get 
it. So, it will hit on it, but it might not have the right code 
that we need. So we will reach out and get those codes into the 
system that we need in order to make the right determination. 
And there are also limitations, we have other factors we have 
to prove in that domestic violence, on the relationship, the 
violence, based on the statutory requirements right now that 
are necessary to make that determination.
    Ms. Meng. OK. Do you feel like you have the resources you 
need to ensure that agencies put in place state-by-state 
implementation plans?
    Ms. Halvorsen. To join in, any more resources are always 
helpful in the process and adding to that. So, it would be 
great. But we do handle them, like I said, and case by case 
basis and we do get through each one.

                DOMESTIC VIOLENCE AND FIREARM POSSESSION

    Ms. Meng. And, Mr. Brandon, what is the ATF doing to be a 
resource to local law enforcement agencies to ensure that these 
adjudicated abusers don't have access to firearms?
    Mr. Brandon. Ma'am, thank you for the question. For 
instance, if we received a delayed denial from the FBI, meaning 
that the firearm has transferred after 3 full business days, 
the Federal Firearms Licensee has that option, and all of a 
sudden it is determined that the person has a misdemeanor crime 
of domestic violence, that is a priority to ATF and we pounce 
on it, you know, because we don't want someone getting hurt by 
someone that shouldn't have a firearm.
    So we are vigilant with that, I get briefed every month on 
that, and we have our eye on the ball. And we work hand-in-hand 
with our FBI partners, because they realize that as well. So, 
if we get that alert, it goes to the division, we move on it.
    Ms. Meng. Thank you.

                         ACTIVE SHOOTER DRILLS

    I also wanted to talk about the importance of active 
shooter drills, which are increasing. I am a mom of two young 
boys, I am always thinking about their safety, and all our 
children across the country. A recent analysis by the 
Washington Post found that during the last school year more 
than four million students experienced at least one lockdown or 
drill, including about 200,000 students in kindergarten or 
preschool. Even in my district, we have local synagogues 
conducting active shooter and terrorist-prevention training for 
their congregants.

     INTERAGENCY SECURITY COMMITTEE POLICY AND BEST PRACTICES GUIDE

    I saw that ATF was part of the working group to craft the 
2015 Interagency Security Committee Policy and Best Practices 
Guide, but this guidance was designed to apply only to 
buildings and facilities occupied by federal employees. To what 
extent was ATF's participation in crafting this guidance, and 
can we work together in researching strategic approaches to 
preventing this type of violence, specifically in public or 
private schools, or even in houses of worship?
    Mr. Brandon. Ma'am, thank you for the question. We weren't 
consulted, but ATF remains at the ready for any expertise we 
have, and we have a lot of tactical experts. We will work hand-
in-hand with our law enforcement partners to protect America.
    Ms. Halvorsen. So, I also am a mother of two young 
children, so obviously this is a topic that affects me every 
day. My kids are paranoid, because my husband is also an agent, 
so they live in a different world sometimes than other 
children. But we, in the FBI, have held in June 2018, a school 
security summit where we brought in all our law enforcement 
partners, as well as in this last fall we also brought in 
different schools to come in and talk about what the threats 
are, not even just from a violent crime aspect, from a counter-
terrorism aspect and other aspects of threats that are facing 
them every single day, and walk through that.
    And so we are continuing to do that outreach. We continue 
to work with them, and get them to understand what the current 
threat environment looks like and how they can operate within 
that, while still keeping laughter inside the schools.
    Ms. Meng. Thank you.
    I yield back.
    Mr. Serrano. Thank you. The beauty of being a Member of 
Congress, you recognize the gentlewoman from New York, where it 
was pretty chilly this morning, and now we recognize the 
gentleman from Hawaii, where it was not, I imagine.
    Mr. Case. My apologies for that, Mr. Chair. [Laughter.]
    Thank you to both of you. And I want to first of all say 
thank you to you and all of the great people that serve with 
you. You know, you have got a tough job here. You are on the 
front lines of what I believe and many believe is now clearly a 
public health epidemic, and you are obviously on the front 
lines of a continued political divide on whether and to what 
extent to regulate guns.
    What I am focused on, I hear, is not so much that policy 
side, but the appropriations side of this, which is, as the 
Chair said, do you have the resources you need to do your job.
    And I will say up front that a big-picture, you know, high-
altitude observation is that the system simply seems to be 
getting overwhelmed at some times with the not only increasing 
gun violence, but with increasing demands on the existing laws, 
much less the new laws, that I and other people propose to 
increase protections.

                             FBI RESOURCES

    And so the basic question is, is the Federal Government 
keeping up with the resources, both financial and positions, 
for you to do your job?
    And I use one example, and correct me if I am wrong, but if 
I understand this correctly, there were somewhere in the range 
of 6,000 checks that really weren't completed in time in a 
recent fiscal year; is that correct, is that about right?
    Ms. Halvorsen. So it is not that the checks weren't 
completed on your question, are you speaking about the gun 
retrievals that were referred over to ATF?
    Mr. Case. No, I am talking background checks. So within the 
3-day period that they did not come back within 3 days.
    Ms. Halvorsen. So it is a very cumbersome process. It is 
not that the checks weren't completed, it was sometimes we 
don't get all the information in order to make the 
determination on the checks. So there is a difference there 
that----
    Mr. Case. OK. Well, I don't want to get into the semantics. 
The point is that we have a very tight time frame and that time 
frame was not within 3 days, and therefore there was a sequence 
of events that occurred in terms of people being able to 
acquire the guns, right?
    Ms. Halvorsen. Correct.
    Mr. Case. OK. So that is a lot. And the question is, do you 
have the resources to--you know, obviously, many of us propose 
to extend that deadline, because we think it is too tight to 
start with, but even assuming that deadline, 6,000 not to be 
completed within that period, that is a logistical issue, 
because at the right level, I suppose, of funding and 
positions, you could in fact whittle that 6,000 down 
significantly.
    So I am looking at your budget, I am just looking at the 
budget that we got, at least the skinny budget, we don't have 
the detail yet, and I am just looking in the NICS portion and 
it says here, ``Increases by $4.2 million, 40 positions,'' and 
if I calculate that correctly that is an increase of about 
close to four percent in terms of money and about six percent 
in positions. That just doesn't seem to me to be a lot of money 
and positions to increase by, considering the testimony that 
you have given and all of the other evidence in terms of what 
seems to be a real problem in implementing the current law, 
much less, you know, changes in the law, just from a resources 
perspective. Do you share that perspective?
    Ms. Halvorsen. So, the 40 bodies absolutely help, so we 
want to thank the committee for funding those bodies, because 
they absolutely help the staff that was there. In the FBI, we 
have statisticians that work off of the data. When we know gun 
sales are increasing, and we have to surge, we end up surging 
employees from other areas that are critically needed to assist 
in the gun check process. So when we have those peak times like 
Black Friday, we have people already trained up who can assist 
in that.
    So the FBI is continuing to surge employees back and forth 
to assist with the checks that we are doing.
    Mr. Case. What you are describing to me is a good-faith 
effort to accommodate existing limitations, that is not the 
question I am asking. The question I am asking is, are you 
adequately resourced, in your view, or do you believe--I am 
going down the lines of the Chair's question, which is do you 
have what you need?
    Ms. Halvorsen. More resources----

                          FBI RESOURCES CONT'D

    Mr. Case. You have got public safety in your hands and do 
you have the resources that you need? And I make the point 
again, I think that the budget requests in this department 
seems to be pretty skinny for getting the job done, considering 
the trends and considering your testimony.
    So I am just asking you straight out, do you think that 
this is an adequate budget request?
    Ms. Halvorsen. So I know for the 2020 budget, which we 
still haven't received yet, that we would be looking to make a 
budget request enhancement.
    Mr. Case. OK. Well, I am telling you what the budget says, 
because I have it, and it says four percent money and six 
percent positions.
    Ms. Halvorsen. That was for fiscal year 2019, correct?
    Mr. Case. No, I think that is the 2020 program enhancement 
proposal.
    Ms. Halvorsen. OK, we are requesting it. OK, sorry.
    Yes, so I think the more resources we have, the better off 
we would be in having that surge of resources back and forth.
    Mr. Case. It seems that there has been--you know, 
obviously, in a budget process there is a policy judgment 
component to it and there is an internal discussion as to what 
is adequate, and there are cost-benefit analyses and tradeoffs 
and, you know, all the things that go into a budget.
    What has your familiarity been with those discussions? Was 
there a discussion about whether proposed increases in this 
department should be limited or enhanced, or maximized or--you 
know, what is the priority in terms of background checks?
    Ms. Halvorsen. The priority in background checks is trying 
to get through all the background checks, right, before the 3-
day window closes, to minimize the risk that we possibly can, 
and to actually also allow people who should be possessing 
weapons, to allow them to possess weapons.
    Mr. Case. I guess I'm not trying to be too hard on you at 
least, but you are in----
    Ms. Halvorsen. No, it is all right.
    Mr. Case. I just wonder whether this had the priority that 
it deserved, so that is what I am trying to get to from a 
budget perspective.
    Ms. Halvorsen. So it absolutely does have the priority, 
because we wouldn't be surging individuals off of other 
programs to surge to meet the need when we need to.
    Mr. Case. Well, you wouldn't have to surge them if you had 
adequate funding to start with. So I don't want to go back to 
that surge thing, because that is getting taken away from 
somewhere else.
    Ms. Halvorsen. Correct.
    Mr. Case. Okay. So that is a temporary solution, not a 
permanent solution.
    Ms. Halvorsen. Correct, absolutely.

                         APPROPRIATIONS RIDERS

    Mr. Case. OK. Mr. Brandon, you made reference to 
implementing the law, as is your charge, and I am asking you a 
little bit about whether we need to change some of that law. 
And I get to it from appropriations, because in some of these 
areas you are subject to appropriations riders, you are subject 
to appropriations riders that have been included in recent 
years and in, you know, various areas to include restrictions 
on gun dealer physical inventories, working with other federal 
agencies, creating searchable databases of records, multiple 
gun traces, looking for patterns, those are all appropriation 
riders that are limitations on your funding without actually 
being laws per se, but they have the effect of law.
    Do you believe that we should reverse some of those 
appropriations riders, would that help you do your job better?

                             ATF RESOURCES

    Mr. Brandon. Sir, can I get the same question as Christine 
did about funding? [Laughter.]
    Mr. Case. Yes, you can. I didn't see your funding go up at 
all in the area of--if you want that question, I will ask you 
that question, because I'm not sure I saw----
    Mr. Brandon. Sir, I love ATF, I love America, I like guns, 
I hate gun violence. And, truth be told, our budget for 2020, 
if it goes and we salute, we will have to let go of--trim 377 
positions. So ATF won't be as able to do what it can do today. 
In 2019, we cut $40 million to keep status quo. You hear people 
say trim the fat, then we trimmed into muscle, and now we are 
trimming into bone.
    I can't end my career as an ATF agent who loves America, 
loves our partnerships, and knows the consequence of ATF not 
being properly funded. I don't care if you are a Democrat or 
Republican, I am an American, and I have seen people suffer 
from gun violence my whole career. So maybe that is the 
saturation point.
    So, thank you for letting me answer your question.
    Mr. Case. I thank you for your incredible candor. That is 
what I want, you know, that is what we want. We want to know, 
are you adequately resourced? I look at the fiscal year 2020 
budget, saw no increase in your area focused on gun violence, 
and I wondered the same thing, what is the policy judgment that 
goes into that?
    Mr. Brandon. And, Sir, if I could tell you, the Deputy 
Attorney General, he has been phenomenal, former Attorney 
General Jeff Sessions, when I mentioned the Correlation Center. 
When our pass-back came back last year, I didn't even get a 
call it was so bad. If it wasn't for them fighting for us, we 
would have been crushed.
    You see the benefit of this Correlation Center. When those 
rounds are in the street, we don't know if the person is male, 
female, white, black, or brown, but we know we have got a 
trigger puller. And to get the money issue--we have been 
robbing Peter to pay Paul to deliver on everything, and it is 
the drip, drip, drip, and now we are cutting into bone.
    And so I thank you for letting me do that, and hopefully 
you can see that I am not trying to be political, I am trying 
to be honest as, you know, and I am assuming, you know, under 
oath.
    Mr. Case. Thank you.
    Mr. Serrano. Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman. And, Director 
Brandon, thank you for your candor as well, and thank you for 
both of you being here today.

                    CHARLESTON LOOPHOLE (H.R. 1112)

    I want to talk about the Charleston Loophole bill that the 
House just passed, H.R. 1112, which of course is designed to 
close that loophole by preventing individuals from purchasing 
firearms from a gun dealer without a background check. The 
Administration opposed the bill and I am trying to figure out 
why. We are talking about a law that would simply ensure that 
people who can't pass a background checks are not able to 
purchase a firearm from a licensed gun dealer.
    The problem is, as it stands today, there is 3-day waiting 
period and, after the 3-day waiting period, people who are not 
supposed to get a gun can pick one up from a gun store if the 
FBI has not finished the background check, hence the reason for 
H.R. 1112.
    The FBI reports that in 2017 6,004 firearms were 
potentially sold by gun stores to criminals because of this. So 
criminals, including violent felons, dangerous fugitives, 
domestic abusers, people like that, because the FBI had not 
completed their work in the 3-day time allotted, that was an 
increase of nearly 2,000 guns from 2016.
    So the first question for you, Mr. Brandon, is how would 
passage of H.R. 1112 impact the ATF's efforts to prevent gun 
violence?
    Mr. Brandon. So, thank you for the question. Obviously, I 
am in the executive branch, and the Administration came out 
with a statement of administrative position that they oppose 
it. So I will just say that I can tell you what the consequence 
would be if more time is allowed, say from Christine's folks.
    So, obviously, the more time you have, the more time then 
you have time to make a decision. I think transferring a 
firearm is an important decision, but the consequence would be 
that there would be less delayed denials for ATF agents to go 
out and track down and getting these guns. Then the agents 
would have more time--and I keep referring to it--going out to 
capture the people that are shooting people, which is a smaller 
number of people. We know how to do it with our intelligence-
led, risk-based, Crime Gun Intelligence Centers.
    So that is the downstream. If there is more time, there is 
less delayed denials, and that is just making a logical 
inference of, the more time you have, the more time you have to 
make a better decision.
    Mr. Cartwright. Thank you, sir. I thought so too.
    OK. So, when these loopholes are default proceed 
transactions, in other words where the 3 days goes by and the 
background check isn't done and the person gets the gun, do you 
have to go out and collect these firearms or conduct an 
investigation if the purchaser is later denied by the NICS?

                            DELAYED DENIALS

    Mr. Brandon. Yes, sir, there is a process. We work hand-in-
hand and we act on those delayed denials within 48 hours, and 
then they will get--if they meet these parameters for 
prosecution for each judicial district, it will be referred to 
the ATF field office.
    First, they will try to just reach out to the person to see 
if they will bring the firearm back to the Federal Firearms 
Licensee, or transfer it to a non-prohibited third party that 
won't reside with the person. If they don't, then it is, you 
know, going out to retrieve the firearm from the person that is 
prohibited from possessing it.
    Mr. Cartwright. So, Director Brandon, this is not a pop 
quiz and, if you don't have a ballpark off the top of your 
head, I won't blame you, but do you have any statistics 
regarding how successful ATF is at recovering firearms in 
delayed denial cases?
    Mr. Brandon. Sir, yeah, I won't guess at numbers, but I 
will say that there was an OIG review a few years ago that 
said, when we get the information from the FBI, it is 99 
percent that the system is working accurately. And myself and 
my team, we put a focus on these delayed denials and, God 
forbid, like a Charleston, nobody wants that to happen. The FBI 
and ATF, no organization wants to say, hey, the person got the 
gun, they shouldn't have had the gun.
    And I just want to comment, we have great relationships 
with the firearms industry. A lot of the big box stores, even 
though they say, yeah, we can do it, they make it their policy 
not to transfer it until they hear from the FBI. So that is 
something that we try to do within our authority just to share 
things with them and, to be honest, I guess the margin of 
profit on a firearm is less than the accessories that would be 
sold with it, but it is not worth their headache to have a 
public relations nightmare.
    Mr. Cartwright. Understood. Thank you for that.

                     DANGER OF RETRIEVING FIREARMS

    So I am delving into your world right now and I am kind of 
imagining the picture, and I want to get confirmation from you, 
if I can. Isn't that potentially dangerous where you have to go 
out and retrieve a firearm that somebody that really should not 
have got hold of a firearm in the first place has? You are 
talking about dangerous people and retrieving their guns from 
them that they never should have got; isn't that potentially 
dangerous?
    Mr. Brandon. Sure, sir, and it is analogous to the man and 
woman in uniform on patrol, they pull over someone, they don't 
know what they are going to be dealing with. Even though we 
have the advantage of doing some work-up, you never know if it 
is high risk, low risk. It is unknown risk. So it is dangerous, 
inherently dangerous, retrieving a firearm from someone.

                    CHARLESTON LOOPHOLE (H.R. 1112)

    Mr. Cartwright. That is what I thought. So wouldn't H.R. 
1112 keep your agency from having to go through that exercise, 
going out to pick up guns from dangerous criminals that can't 
legally have them?
    Mr. Brandon. Well, sir, like I mentioned, the downstream 
effect where the people that wouldn't have to be doing that, 
would be going out after the trigger pullers. So it would be 
probably be even more dangerous, because we know these people 
are actually pulling the trigger and shooting people.
    But to your point, it would have less touch points with the 
public if downstream there are less delayed denials.
    Mr. Cartwright. So wouldn't this bill help your agency 
devote its very scarce resources to other important 
investigations and activities?
    Mr. Brandon. Sir, whatever laws you pass, we will follow. 
And then being, again, in the executive branch, you know, the 
chain of command goes up to the White House and we follow our 
marching orders, but we will always act within the 
appropriations and laws that you pass.
    Mr. Cartwright. And I want to ask the same question for 
you, Ms. Halvorsen. Would the passage of H.R. 1112 eliminate or 
greatly reduce the time and money that you need to spend on 
sending out firearm retrieval referrals to the ATF?
    Ms. Halvorsen. So just coming back on, obviously, surging 
resources, we surge that so we can meet the 3-day window; it 
would absolutely stop us needing to be able to surge resources 
to meet that 3-day window. And as we work through the process, 
right, any more time would absolutely assist in the process.
    Mr. Cartwright. And it would save money too, wouldn't it?
    Ms. Halvorsen. That, sir, I don't know. We would have to 
come back and look at that on saving money.
    Mr. Cartwright. Very good. Thank you so much.
    I yield back, Mr. Chairman.

                   GAO REPORT: FIREARMS PROSECUTIONS

    Mr. Serrano. A 2016 Justice IG order of the handling of 
firearm purchase denials noted a big drop in prosecutions since 
fiscal year 2013. A recent GAO report requested by this 
subcommittee found that DOJ rarely prosecuted individuals who 
falsify information, such as not disclosing felony convictions. 
In 2017, of 112,090 denials, ATF referred 12,710 for further 
investigation, resulting in only 12 prosecutions. In contrast, 
GAO found three states that reviewed their denials that had had 
a higher proportion of referrals and a high conviction rate.
    GAO recommended ATF assess the use of warnings to 
applicants who misrepresented their eligibility for gun 
ownership rather than pursue prosecution in lieu of 
prosecution.
    Deputy Director Brandon, has ATF taken action on these 
recommendations?
    Mr. Brandon. Yes, sir. In fact, it was a year ago yesterday 
that then-Attorney General Sessions sent a memo out to all his 
U.S. Attorneys across the country, which, incidentally, they 
have been crushing it with firearms prosecutions, but he 
addressed that specific issue about lie-and-try. There have 
been some U.S. Attorneys in certain areas of the country that 
have increased that.
    The numbers are still relatively small, but the percentage 
looked like it is a high percentage increase. But I would like 
to get back to the committee with those specific numbers to 
answer your question regarding standard denials, which is when 
the firearm didn't transfer, the person lied on the form, and 
the U.S. Attorney's Office prioritized their resources to 
maximize prosecutions of all the cases they have.
    Mr. Serrano. Well, that is the thing. I can tell you that 
in conversations amongst Members of Congress, not in a formal 
setting, one of the concerns is the low prosecution rate as we 
interpret it and as many in the press interpret it.
    So did I ask you the right question or is there something 
else we could be doing?
    Mr. Brandon. No, sir. I could just show you, someone has 
three violent felonies or a misdemeanor crime of domestic 
violence, and we see that there is a standard denial and they 
didn't get that, we will work with the U.S. Attorneys. And, to 
be honest, the cuffs have been slapped on a few of them, you 
know, recently I have gotten them through our notification 
system.
    So it has improved and I give Attorney General Sessions 
credit for cracking the whip with the U.S. Attorneys, and they 
are moving.

                            DELAYED DENIALS

    Mr. Serrano. And could you tell us to what extent your 
divisions use warnings in denial cases?
    Mr. Brandon. Yes, sir. This goes into the regulatory 
process, you know. At ATF, we want people to be successful in 
their business, if they're operating legal businesses with 
lawful commerce, but we can't be a capture component of our 
regulatory component. So, unless something is really egregious, 
like as far as a warning letter or a warning conference, it is 
progressive to try to get them in compliance, but if they don't 
and they fail to do that, we will go after their license.
    We have done that and that is where we have a national look 
at that, so we are consistent. Where one businessperson says, 
hey, I was treated differently because, I was in Alabama, 
another was in Pennsylvania. So that is why it was brought up 
to the national level to be fair to these businesspeople.

                               GAO REPORT

    Mr. Serrano. Now, the GAO report also showed a patchwork of 
policies where each ATF field office and each U.S. Attorney's 
Office had different standards for investigating and 
prosecuting individuals who falsify information on their 
applications and referring cases to state and local 
authorities.
    How can we do a better job coordinating these efforts? 
Should we have someone overseeing these policies to ensure we 
are all going in the same direction?
    Mr. Brandon. Sir, one of the things which we established 
with myself and my team is that every year the Special Agent in 
Charge for the field division and whatever judicial districts 
he or she has to certify that there is what the U.S. Attorney 
will accept for these standard denial cases, and I think that 
been helpful.
    And the other thing in working with getting the information 
from the FBI, collaborating, is how can we share this 
information with state fusion centers. So it can be beneficial, 
because you say, hey, you may not want to prosecute this guy, 
but say he is a gang member, and he is trying to buy a gun, it 
can be intel that can be used.
    In past committees I have been asked that question, we went 
back and worked as a team. And I really think that is a good 
way of saying, instead of letting the information sit on 
standard denials, you know, if they are not going to be 
prosecuted, how do we share that in an intelligence capacity, 
and that maximizes public safety and that is how we have 
approached it.

                    GAO REPORT: FIREARMS PROSECUTION

    Mr. Serrano. Now, do we know if different U.S. Attorneys 
have different standards?
    Mr. Brandon. Sir, I will have to get back to you. I was 
going through a bunch. I believe, just my experience, I think 
there are 93 judicial districts. I think it would be a 
statistical improbability to say you have got 93 U.S. Attorneys 
who are usually--whatever, you are Democrat or Republican, they 
are usually spirited people and that they have to be consistent 
across the lines, because they are all addressing different 
things, and I know you know that, sir, with all your 
experience.

                             ATF RESOURCES

    Mr. Serrano. So here is the question you love to be asked. 
Would additional resources enable ATF to pursue more 
prosecutions of individuals who falsify or misrepresent their 
status on Form 4473, which is the firearms transactions record?
    Mr. Brandon. Yes, sir, obviously more resources would lead 
to potentially, more but--and, again, it all goes back to what 
gets prosecuted. And with our limited resources, to be candid, 
I have been saying, if we are not in step with the U.S. 
Attorney, we are out of step with him or her, because we don't 
want to waste our time investigating something that is not 
going to get prosecuted. So, you know, front load it, you know, 
work as a team, work with our partners, and have maximized 
value to the American taxpayers to say, hey, go after the 
violent people that are wreaking havoc, particularly in the 
inner cities and other areas of the country. I don't want to 
leave out rural areas, but we could do more with more, sir.
    And I don't want to beat a dead horse, I believe I said 
what I said to Mr. Case, on behalf of the men and women of ATF, 
who I am very proud of.

                           FIREARMS TRANSFERS

    Mr. Serrano. Firearm retrieval is a term used by NICS for 
the action recommended after a background check is unresolved 
within the 3-business-day time frame, and an FFL proceeds with 
a firearms transfer, but subsequently learns that the request 
should have been denied, the NICS section then notifies ATF 
that a prohibited person is in possession of a firearm and ATF 
can undertake action to retrieve the firearm.
    In 2017, 6,004 referrals for retrieval were made to the 
ATF, but the NICS section and ATF assessed that in 1,140 of 
these cases the transfer was undetermined.
    What does transfer--what does that mean, transfer 
undetermined?
    Mr. Brandon. Sir, I think it is, we will get the 
information from the FBI saying, hey, the firearm was 
transferred, it is a delayed denial. The branch that is in 
Martinsburg, West Virginia that looks at this for ATF will have 
all the documents for each judicial district to say look at the 
criminal history. Here is what I am fairly confident in saying. 
Say the guy had a dope conviction of under 25 grams of cocaine 
in 1980, nothing else, would the U.S. Attorney's Office 
prosecute? I would be 99.9 percent accurate, absent any other 
intelligence, that it would say, hey, refer that to the 
division to be looked at to investigate, because that is the 
filter. Because there is such a volume--it is a prudent step. 
But say it comes back going, hey, guess what, this guy has a 
misdemeanor crime of domestic violence, he whooped the hell out 
of his wife or former partner and everything like that, and 
that was only 12 months ago or 6 months ago. Get that thing to 
the division, you know, and let's go get that gun from that 
guy.
    The U.S. Attorneys--when you have that type of threat to 
public safety, they will go after them, but that is the type of 
filter, sir, that has happened, and that is why the numbers go 
down to what goes to the field.
    Mr. Serrano. One last part to this. Does ATF have a 
responsibility to confirm that a prohibited person has not 
taken possession of a firearm in such cases?

                            DELAYED DENIALS

    Mr. Brandon. Yes, sir. I mean, the delayed denial will 
indicate that they did take possession of it, and then we will 
work to make sure that, like I said, they can return it to the 
gun shop, turn it over to a third party that is not prohibited 
and not cohabitating with them, or that we will go and get the 
firearm from them.
    Mr. Serrano. Thank you.
    Mr. Aderholt.
    Mr. Aderholt. I have got one more question for Director 
Halvorsen, before I go to Director Brandon.

                              FIX NICS ACT

    What has the FBI done to ensure that it is complying with 
this 60-day requirement on the Fix NICS Act?
    Ms. Halvorsen. Thanks for asking that question, because it 
has been a big effort at CJIS that they are actually very proud 
of and that they have worked very hard. And so we have actually 
moved resources from one other area of CJIS over to this group 
and they have actually automated a significant amount of the 
process, and because of the automation that we have put in 
place and some technical enhancements, they are able to get 
through the backlog and with the new cases coming in every 
single day--usually within a 45-to-48-day time frame.

       NATIONAL INTEGRATED BALLISTIC INFORMATION NETWORK (NIBIN)

    Mr. Aderholt. Of course, it was back in 1999 that the ATF 
established the NIBIN, which provides federal, state and local 
partner agencies an automated ballistic imaging network. And I 
notice that NIBIN's programs can be expensive and not every 
district has a NIBIN site.
    What is the key goal of NIBIN? And that would be for you, 
I'm sorry, Director Brandon.
    Mr. Brandon. Thank you, sir. I thought it went to the FBI 
for a second.
    Mr. Aderholt. Yeah, I was----
    Mr. Brandon. So the key goal of NIBIN is, again, like I 
mentioned, it is to identify the people that are pulling the 
trigger--and this is where law enforcement, I believe, more so 
at the local level, but us as federal partners working, we used 
to target whole areas in a neighborhood. And, to be honest, you 
can go in there and, you tick off a lot of the people, you 
know, because they think, hey, why are you focusing on this 
area and me?
    What NIBIN helps us do is drill down to the small numbers 
that the locals know better than anyone of who is pulling the 
trigger, because it is a smaller percentage of criminals that 
are actually doing the shootings, and NIBIN gives you that 
critical lead. We have tried to maximize the use of NIBIN. The 
Phoenix PD, a wonderful PD that uses NIBIN, they open up other 
PDs in the suburbs to come and submit casings to them. So it is 
a cost-efficient way and it can relate shootings that may 
happen in Chandler, Arizona and Phoenix, Arizona, sir.

                     VIOLENT GUN REDUCTION STRATEGY

    Mr. Aderholt. OK. Can you talk a little bit about why it is 
vital to overall violent gun-reduction strategy.
    Mr. Brandon. Yes, sir. And, again, I mentioned about our 
Correlation Center and if I can--I know time is short, Mr. 
Chairman--someone pulls a trigger on a gun, a semi-automatic 
pistol, and a casing comes out. What's critical for the police 
chief, he or she makes it a policy, and not just policy, but a 
changed culture--I have been around where if no one is shot, 
they clear the run, they move on, and the casings could be 
still lying in the street. You have a comprehensive collection 
plan of those casings. Those casings go into NIBIN. Someone 
doesn't know the shooting and all of a sudden, there is someone 
that is dead or there is a non-fatal shooting. It could match 
that up.
    We have used it as a leads generator which is the game 
changer. We were critically faulted by Sam Houston University--
it was funded by a Bureau of Justice Assistance study, I think 
in 2012--12 months to 18 months--the information is not timely 
relevant and actionable. We have changed it down to 48 hours 
through the Correlation Center and with these PDs 
comprehensively, picking that evidence up in there.
    So, to answer your question, it is a vital technology, 
along with our Crime Gun Intelligence Centers, with e-tracing, 
and with other technology that can help us find the casings--
they call it gunshot detection technology--I call it like the 
fish-finder, and so forth. You put all of that together, sir, 
and I think it is what you all want. Hey, find the people that 
are really doing the shootings and that will have the most 
value for your limited resources to take these people off the 
street. And we don't care--state, federal--they are the ones 
causing harm on everybody.

          GROWTH IN COMMERCE OF FIREARMS AND PERMIT PROCESSING

    Mr. Aderholt. ATF's work has seen a significant increase 
due to the expansion and growth of commerce within our 
industry, as you noted earlier, and, certainly, I commend ATF's 
effort to establish the e-forms, which is the electronic filing 
process to help reduce submission and processing times, as well 
as data-entry backlogs. And I believe Congress provided a 
combined 23 million in fiscal year 2018 and fiscal year 2019 
for activities at the national--of the National Firearms Act 
Division to continue improving the processing of the Act's 
application to further develop and implement ATF's next 
generation of e-form systems.

                             E-FORM FILING

    Can you give us an update on the improvement to the e-form 
filings process and to the reduction in the processing of 
backlogs.
    Mr. Brandon. Yes, sir, and thank you for the question. I 
want to stress, because we have our criminal enforcement side 
and we have our regulatory mission of firearms and explosives 
industries, and we are sensitive to that equally as well, so we 
appreciate that funding. One of the things we did with the 
appropriations you gave us, is that we put it on contracts 
because in order to expand the electronic forms and the speed, 
we had internal IT issues. And so, we have gone to the cloud. 
It is posted on the ATF website, but I can have it provided to 
the committee on the waits. I think now for Form 1, we are down 
to a month. When we were shut down, we were prohibited from 
acting on any certain forms unless they are related to the law 
enforcement, military, or to our government contracts.
    So, we had our wait time down to five months. It is gone up 
a few more months, but our goal is to get that down. But we 
also did a look at the touchpoints on how we can be more 
efficient and effective. So, with this money, we saw an IT 
issue and now we have contracts that are going to help us speed 
up the reply from NFA for the fingerprints and so forth, that 
we can have this down to days instead of months to wait, and 
that is what those funds are doing.
    With the CR & A team, we were not able to put them on 
contracts right away so they work now on it from the 2018 
money. But, that will help speed up us processing those forms 
and we thank you for that attention.

                         NATIONAL FIREARMS ACT

    Mr. Aderholt. Can you describe just briefly how the 
National Firearms Act restricts the sale and the purchase of 
firearms.
    Mr. Brandon. Yes, sir. Guns are a sensitive issue, but 1934 
was the enactment of the National Firearms Act. So, it was 
machine guns, silencers, you know, the old tommy guns, and 
Congress, you all ruled and said, Hey, we want to regulate 
this. So, that is where we have the person's name. We have 
their address. We have the make, model, and serial number of 
the firearm, and there is a picture and photographs that come 
along with it, and the person can't get that firearm until that 
is approved and then they can't even transfer that firearm to 
someone else unless it is approved. So, that is how the 
National Firearms Act works and it is for those items that 
Congress declared exceptionally risky to public safety: machine 
guns, silencers, short-barreled rifles, and short-barreled 
shotguns.

                        ACTIVE SHOOTER INCIDENTS

    Mr. Aderholt. You, as we all know--and it is very 
unfortunate Americans have increasingly faced incidents of 
indiscriminate violence in schools and shopping malls and other 
public places. Can you elaborate for just a moment on efforts 
that the ATF and the FBI are involved with to help minimize and 
respond to when there is an active-shooter incident.
    Mr. Brandon. What is the response?
    Mr. Aderholt. Yeah, just how you can help minimize or how 
you all help respond to those particular instances.
    Mr. Brandon. Sure. Well, one of the things that I am very 
proud of, is that we established an internet investigation 
center dealing with firearms commerce over the internet, people 
doing illegal things, and so forth. A byproduct of that, sir, 
is that our folks became good where they detected information 
about potential school shooters or other acts of violence. We 
don't publicize it, but we immediately share the information 
with the locals and just within the last few months, I think I 
have had two or three that have come up to me and I tell our 
folks, hey, jump on it.
    And I have to say, the locals are happy when FBI, ATF, and 
the U.S. Marshals respond to scenes together. That is the DOJ 
response now and I think we have really improved on that for 
the better. But I just share that, sir, because you asked about 
threats to school safety or workplace violence. Our 
investigation center, they have developed an expertise and we 
share it with everybody rapidly, to answer your question.
    Mr. Aderholt. Ms. Halvorsen?

                    ACTIVE SHOOTER INCIDENTS CONT'D

    Ms. Halvorsen. Thanks for the question. We are making a lot 
of steps. I mean, it really comes down to partnerships and 
sharing intelligence, and if we are all sharing the 
intelligence, together, we can put the pieces together a lot 
quicker to try to stop these events from happening.
    And those partnerships, over the years, have changed. You 
should not be meeting someone for the first time in your 
community, right, especially a law enforcement partner the 
first time on an active-shooter situation. You should be 
training together, which we are doing with our law enforcement 
partners and also our federal partners. You should be having 
active-shooter plans together and meeting together, and that is 
what we, as the FBI, have been doing throughout the different 
communities through our SACs.

                                  NICS

    Mr. Aderholt. I think it was you, Director Brandon, you 
mentioned that it is important to prosecute individuals who lie 
on their 4473 forms, and if a person is denied the ability to 
purchase a gun because the NICS indicates that they are an 
illegal alien, do you think that the individual should be 
prosecuted and this information be transmitted to the law 
enforcement partners at ICE, due to the danger of criminal 
alien groups like we have seen with MS-13?
    Mr. Brandon. Sir, that is a great question. And if it 
doesn't get prosecuted at the district level by the U.S. 
Attorney, based on their parameters I will give you an example. 
The southwest border, our folks in Phoenix, Arizona, have taken 
that information and they share it with ICE. If they are going 
for an immigration hearing, we want you to know that this 
person tried to buy a firearm in this state.
    So, that is where--hopefully, I am answering your 
question--is that we are trying to maximize that standard 
denial intelligence that we get in knowing they will say, oh, 
we are not going to get prosecuted, but what can we do? And we 
are putting it through the state fusion centers and at local 
levels, again, where you have immigration issues, we will share 
that and they can use it as they see fit.
    Mr. Aderholt. So, the bottom line is they should be 
prosecuted, so absolutely.
    Mr. Brandon. Yeah, so, MS-13, I hate them, right? In going 
after MS-13, we do that. The FBI does that. We are working 
hand-in-glove locking up MS-13 gang members that are shooting 
and chopping people and everything like that. I don't know what 
your political stripe is or whatever, but how could anybody 
argue against that?
    Mr. Aderholt. Thank you, Mr. Chairman.
    Mr. Serrano. Mr. Case.
    Mr. Case. Thank you. Ms. Halvorsen, Fix NICS, status of 
implementation and do you have the adequate resources to fully 
and timely implement?
    Ms. Halvorsen. So, we have already been implementing Fix 
NICS for months now. We are obviously, as I testified to 
earlier, within that 45- to 48-daytime window on the appeals, 
which is under the 60 day mandate, and part of that, too, is we 
have hired contractors to help us, as well, which I forgot to 
mention. They go out and get dispositions for us that we 
haven't been able to get and they research dispositions to fill 
that void of dispositions, as well, through the resources there 
to adequately address that process.
    As far as working with our partners, I mean there are a lot 
of partner agencies involved here with Fix NICS, including our 
local, state, and tribal partners, right, and our federal 
agencies.
    Mr. Case. What's the status of the implementation plans at 
the state level?

                         FIX NICS: STATE LEVEL

    Ms. Halvorsen. So, at the state level, we are still working 
with each state individually and their plans are due back by 
March 25th, next week or the week after----
    Mr. Case. I see.
    Ms. Halvorsen [continuing]. And so, we have some of the 
plans ready, and we are working with each individual state and, 
actually, each individual municipality, because everybody is 
different on what stages they are at, so everybody has 
different needs. So, we have plans with each one of those to 
address----
    Mr. Case. Do you feel that you are adequately resourced to 
implement fully, timely right now?
    Ms. Halvorsen. So, the FBI is addressing it with the 
adequate resources that we have. It is whether the local----
    Mr. Case. That is the diversions from other places?
    Ms. Halvorsen. No, actually, these were----
    Mr. Case. Internal?
    Ms. Halvorsen [continuing]. Part of the--bodies that we 
received in fiscal year 2019 that we have helped put over 
there.

                          APPROPRIATION RIDERS

    Mr. Case. OK. And then, let's see, going back to kind of my 
appropriation-rider set of questions, I think there is one that 
is appropriate for you which is a rider requiring the 
destruction of records of background checks through which the 
buyers are approved within 24 hours of approval. So, then, is 
that correct, as a matter----
    Ms. Halvorsen. I'm sorry, can you repeat that. A rider?

                                  NICS

    Mr. Case. Background checks have to be destroyed within 
20----
    Ms. Halvorsen. If they are proceeded.
    Mr. Case. Pardon?
    Ms. Halvorsen. If they are proceeded.
    Mr. Case. Right. Within 24 hours.
    Ms. Halvorsen. Yes, I'm sorry.
    Mr. Case. Do you have any concerns with that? And the 
scenario that sometimes I think about, and others do as well, 
is, fine, the background check is destroyed. You have got a 
concern over a particular person and you want to know whether 
that person has actually purchased any firearms within recent 
history. Is the destruction of that background check a 
hindrance from knowing that?
    Ms. Halvorsen. So, we are just following the legislation as 
it is passed.
    Mr. Case. I understand, but I am asking you whether you 
think the legislation is or should be continued as an 
appropriations rider or otherwise from your perspective on 
adequately figuring out whether somebody is a risk.
    Ms. Halvorsen. Yeah, I think that is a discussion we have 
to have further about it with also our other agency partners, 
because it is not just an impact on the FBI; it is an impact on 
all the partners if that is changed.
    Mr. Case. Do you have a view on that?
    Mr. Brandon. Sir, I am going to have to defer to the FBI.
    Mr. Case. Wait a minute, you can't both defer to each 
other. I'm sorry, somebody has to answer the question.
    Mr. Brandon. No, I feel what you are saying is, this is the 
law, we follow it. But the general theme is, if you have more 
time and access to information, can that be for making better 
decisions or leading to investigations?
    Mr. Case. But just having information that is no longer 
available that may be relevant in a particular situation; that 
is what I am concerned about.
    Mr. Brandon. Yes, sir. And that is where I would think it 
would be a healthy discussion for all of you. I will just say 
when I make a decision, when I have proper information and I 
have enough time, I usually make better decisions.

                          APPROPRIATION RIDERS

    Mr. Case. OK. And then, Mr. Brandon, I am going back to my 
original question on the appropriations riders that I think are 
in your bailiwick. So, I have got a couple here that have been 
accumulated over recent years. Again, these are riders that you 
are functioning under right now. One does not require gun-
dealer physical inventories, as I understand it. Another 
hinders or also disallows you from working with other federal 
agencies in certain areas. One does not allow you to create 
searchable database of records. And I think the third one that 
I think you may be talking about, which is not pursuing 
multiple gun traces to look for patterns, are you familiar with 
all of those restrictions and do you have a view as to whether 
any of them should be repealed?
    Mr. Brandon. Sir, what was the first one?
    Mr. Case. OK. I have got--the first one says, no 
requirement of physical inventories for gun dealers.
    Mr. Brandon. Sir, like you said, it is an appropriation 
restriction. It becomes like law. We abide by it. I just share 
that, you know, people are operating legitimate businesses and 
if you are operating a businesses to stay in business and 
maintain an inventory, that would be something I think that you 
all should discuss.
    Mr. Case. Yeah, OK. The second one, as I understand it--and 
I may not have the deals--restrict your ability to work with 
other--coordinate your efforts with other federal agencies. Are 
you familiar with that one?
    Mr. Brandon. Sir, are you talking about trace information?

                      APPROPRIATION RIDERS CONT'D

    Mr. Case. I think trace is separate from this particular 
area. If I don't have adequate information, then I----
    Mr. Brandon. I don't know of anything that prohibits us 
from working with any law enforcement organizations--state, 
federal, local, or tribal.
    Mr. Case. OK. So, let's then, take the trace information 
restriction. Can you speak to that?
    Mr. Brandon. Sure. I think it is the Tiahrt Amendment. 
Actually we were a supporter of it because we were afraid of 
undercover investigations and undercover agents, in particular, 
being jeopardized and hurt because that information could be 
subject to Freedom of Information Act requests. The historical 
record on that is we support that.
    Now, we share trace information with law enforcement 
agency. They get it. What they do with it, it is their 
decision; we leave it up to them to make the proper decision of 
who they share that with. But that is something that has been 
beneficial to prevent some long-term undercover investigations 
on gun trafficking and going after store purchasers--and 
undercovers dealing with them--that could be compromised if it 
wasn't protected information.
    Mr. Case. OK. Thank you.
    Mr. Serrano. Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.

                            ATF'S RESOURCES

    Mr. Brandon, you expressed unequivocally the point that ATF 
is underfunded. And you are not the first one on Capitol Hill 
to say that recently. The House Judiciary Committee held a 
hearing on H.R. 8 on February 6th of this year and there were 
several witnesses who testified that ATF is not properly 
funded. In fact, one law enforcement witness said it was an 
open ``secret'' in law enforcement that ATF was--is 
underfunded.
    I have read your testimony and it is to have been me that 
you are trying to take ATF in a new direction with respect, 
particularly, to technology- and intelligence-based policing, 
in fact, you just mentioned internet investigations.
    This Congress is clearly motivated to address violent gun 
crime in this nation and I want to make sure that as we pass 
common sense gun-safety laws, we properly enforce--we properly 
fund the agencies tasked with enforcing those laws. The 
question is, I'd like to hear from you, what could be done with 
another twenty-five, thirty-five, $45 million dollars in your 
budget and how would you prioritize the use of those additional 
funds?
    Mr. Brandon. Well, thank you, sir, for the question. Like I 
mentioned, we have robbed Peter to pay Paul, as far as the 
Correlation Center is concerned--You hit the point and from my 
statement, myself and my team, we have really worked hard to 
say, where do we bring value?
    The Police Foundation did a report in 2016, actually, for 
the new Trump Administration coming in, in 2017. The number one 
thing that the major city chiefs wanted was NIBIN. The second 
thing was eTrace. The last thing that they wanted was what we 
were doing, or the surges or enhanced enforcement initiatives. 
They don't want a flash in the pan; they want sustainability 
and we knew that, and that is where we have pivoted as a team.
    So, to accomplish those objectives, for instance, in 2019, 
we couldn't buy any government cars for our employees. We had 
to cut and we delivered for the Administration, as we should, 
because, again, they were being supportive. But we knew these 
$40 million in cuts in 2019 were not sustainable and now we are 
going into 2020, and I don't want to be technical, but when the 
2019 budget was being formulated, the CR was still going on for 
2018. So, they started with a number that was 20 million lower 
than what we got, and so, we were already in the hole and 
digging out.
    So, I am not an alarmist by nature, and I am fiscally 
conservative, but I wouldn't be doing my job speaking to you 
distinguished folks if I did not rightfully say that ATF needs 
to be funded. And I think it was Art Acevedo, (phonetic)--he is 
the police chief and now the head of the major city chiefs that 
mentioned that. We are a good investment.

                                  NICS

    Mr. Cartwright. All right. Thank you for that.
    And, finally, I am also concerned with a situation that 
occurred recently in Aurora, Illinois, in which a man killed 
several co-workers with a firearm that he ``legally'' purchased 
years earlier from a gun store. And I say ``legally'' because 
that sale never should have happened, based on the shooter's 
1995 felony conviction in another state.
    Now, Illinois conducts their own background checks and 
apparently, they missed the conviction from the other state in 
their query of the shooter's criminal history in 2014. The 
State even issued this man a firearm-owner identification card 
prior to the sale, further demonstrating this flaw in the 
system.
    My question is, do either of you have any information 
regarding the number of times a person with an alternate permit 
or other state firearms purchase card successfully purchased a 
firearm when they would or should have failed a standard NICS 
background check or even a state-run background check?
    Ms. Halvorsen. Obviously a tragic situation that happened 
there, but we don't have the data right now. We would have to 
go to each individual state and get that data and compile it 
for you.

                              NICS CONT'D

    Mr. Cartwright. OK. Same answer?
    Mr. Brandon. Just so you know, when he got picked up, it 
was because he went for a CCW permit to carry a gun and it was 
the fingerprints that I needed and I think what happened was it 
showed the state system--I think it was Mississippi--they did 
not have the records from the FBI to be able to alert them.
    Mr. Cartwright. Would it not make sense to require a state 
that issues an alternate permit periodically to update the 
record via a comprehensive background check, and if so, do you 
have any recommendations as to what the interval should be for 
those updates?
    Ms. Halvorsen. Again, when we do the checks, right, the 
information is only as good as what is in the systems and what 
we have from the states. So, we, again, work very hard to try 
to get them to update their information as we see it when we 
conduct audits in our system and we feel that that information 
needs to be updated, and so, that is how we go about making the 
decisions----
    Mr. Cartwright. The question is, it is one of those ``what 
should be'' questions.
    Ms. Halvorsen. So, the more information you have and the 
more time you have to make the decisions, the better off the 
decision is going to be.
    Mr. Cartwright. Do you agree? Would it make sense to 
require updates like that?
    Mr. Brandon. Yes, sir. I know that we accept, and I think 
it is by law that if someone has a--are updating that to make 
sure, should that person still have that, they could go ahead 
and get it done and they wouldn't have----
    Mr. Cartwright. So, it would make sense to require updates. 
Do you have a recommendation on how often?
    Mr. Brandon. No, sir. I just think that anything that you 
all decide that tightens things up to make sure that the proper 
people get firearms and the ones that don't, don't----
    Mr. Cartwright. All right. I thank you both.
    I yield back.
    Mr. Serrano. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. I apologize I am late. 
I had other activities outside the building I had to take care 
of this morning.
    Let me say to Directors Brandon and Halvorsen, you both 
have such impressive backgrounds. Thank you for your service to 
our country.
    And I have to say to Director Brandon that I noted your 
work in Detroit and your degree from University in Michigan--
Oakland--in Oakland. These are areas just 20 minutes from my 
district in Toledo. So, you have seen--you have both had 
tremendous experience.
    My question really goes to--first of all, you have my 
support and probably more support than you want--but I am 
interested in patterns of criminal activity. Probably one of 
the most important books I have read is by Sam Quinones, 
Dreamland, because I was trying to understand the drug trade in 
much more depth.
    And, generally, when something horrible happens, whether it 
is ISIS-related or whether it is a gang-related crime, there is 
a story in some newspaper somewhere in the country and they 
report on that. But I am interested in patterns, patterns of 
criminal activity.

                     PATTERNS OF CRIMINAL ACTIVITY

    And so, I am going to ask you in two areas, if you could 
comment on this and anything additional that I could do to help 
you collect the data and interpret it to guide us. Obviously, 
Northern Ohio is a big concern of mine--I represent it--and we 
have a lot of crime, a lot of gun activity, and I don't believe 
that some of it is just isolated.
    So, first, in terms of major shootings in this country that 
have occurred going back, let's start with something like 
Virginia Polytechnic where we lost a lot of innocent people and 
the perpetrator was mentally ill or we go to Sandy Hook--same 
thing. If I were to ask you to go back into your database and 
to string together the crimes that were major crimes like that 
and the gun, the weapon, is there a pattern that we can follow 
that would tell us something, especially when they are mentally 
ill, of what happened, rather than just an incident or 
something like that? Is there something about where we can 
learn about where they got the weapon or what can this pattern 
of continuing murder across our country, what do you know, 
maybe, that hasn't been organized in a way to educate the 
public?
    So, I am very interested in mass murder and mental illness 
and guns and I am very interested, particularly from my region, 
in gang-related violence with guns and the drug trade. Ohio is, 
unfortunately, at the top of the list in terms of the number of 
deaths per capita. So, we have plenty of evidence of what these 
individuals are capable of doing. But it tendency to be 
reported incident by incident by incident and you don't get a 
sense of, well, where's most of it coming--where did the gun 
come from or guns come from and who are these individuals 
connected to?
    Do you have any ability to create some order in our minds 
in either of these important areas, either gang-related crimes 
with guns or mental illness and guns going back, and help us 
understand the guns and where they came from, and how to--do 
you have the ability to do that in your data system?

                     PATTERNS IN CRIMINAL ACTIVITY

    Ms. Halvorsen. I love the way you are thinking and where 
you are going with this and you think big picture, and these 
are conversations that we have all the time, especially on 
intelligence-driven organizations on how do we address this, 
right, how do we address all the threats that are coming at us? 
So, one of the things that the FBI has worked towards with the 
Unified Crime Report system that we had for years, was always 
summary-based reporting, meaning that a summary would be 
written on the crimes in nine categories and it would just not 
really have a geographical or any breakdown on what types of 
crime.
    The other problem with the Unified Crime Reporting was if 
it was an assault with, you know, a break-in and a trespass, 
right, the highest crime there would be the only one that would 
get reported; you wouldn't get both. So, you wouldn't know that 
a robbery actually caused the assault or the assault caused a 
robbery. You had no idea.

                                 NIBRS

    So, now, we have gone to the National Incident-Based 
Reporting System, the NIBRS system, which we are still working 
through, and by January 1st of 2021, all our local and state 
partners are going to be contributing into the NIBRS system, we 
hope. We are working with it right now.
    Ms. Kaptur. Is that in Ohio?
    Ms. Halvorsen. Yeah. And we are working with all----
    Ms. Kaptur. Toledo?
    Ms. Halvorsen. We are working with every single state to 
report into NIBRS. Some are further along in the process than 
others, but NIBRS is incident by incident, and what we have 
seen is that the law enforcement agencies that have been able 
to come onboard sooner into that system are now able to 
reallocate their resources much more quickly to the areas of 
violence that are occurring because they have an incident 
breakdown. We have actually created a web interface.
    Before, they had to wait until we issued the report. Now, 
every day they can go into one of the statistics they are 
reporting and actually use it as a tool, themselves, and run 
their own statistics. They can even use it at roll call to 
determine where they are going to allocate their resources that 
day.
    So, what we have seen is that it is been very, very 
instrumental to strategically go after the threat instead of 
waiting for the summary report to come out, you know, twice a 
year or once a year.
    Ms. Kaptur. Each member, I mean, we know our districts, and 
it would be very interesting, to the extent that you can help 
us understand--unwind what's going on there. We are not going 
to ask for confidential information, but right now it is so 
diffuse.
    I ask myself, as a member, you know, how can I help my 
local sheriffs? How can I help the local chiefs of police? What 
can we possibly do to--and with the young people with these 
guns, I am saying to myself, Where do they--how does all this 
get in here? And I just don't have a clear path because right 
now--so, it'll take till 2020; I hope I am still here--but I am 
concerned about the lack of focus, and maybe it is just held by 
law enforcement be officials and we are not allowed to know all 
that.
    But I just don't feel that we are doing enough, certainly, 
in the mental illness area. You never read a story where you go 
back 20 years starting with when Russell Weston came into the 
Capitol here and killed two of our police officers and tried to 
get in the majority leader's office and all that, and it is 
like a story and then it fades.
    But what if you piece together all of them, what is it 
telling us? I think there is something there that is a bigger 
message that we need to understand and I don't think we have 
it.

                                  CJIS

    Ms. Halvorsen. So, I would absolutely invite you to come 
out to CJIS, just to sit down with our folks who gather the 
crime-specific data, and let them walk you through the process 
of how they do that and the relationships we have with our law 
enforcement partners and how they use that information and 
also, to walk you through the intelligence, how we use intel to 
drive those operations, as well.
    Ms. Kaptur. Can I listen to Mr. Brandon, Mr. Chairman? 
Might I have an additional 30 seconds to listen to his reply? 
Thank you.
    Mr. Brandon. Thank you, sir.

                     CRIME GUN INTELLIGENCE CENTERS

    Ma'am, I have a specific answer to your question. It is our 
Crime Gun Intelligence Centers. We have established these, and 
exactly what you are asking for, that is what we have drilled 
down on. What Mr. Cartwright observed is we are using 
technology and intelligence and working collaboratively with 
our law enforcement partners to go after the trigger-pullers--
who is pulling the trigger--and who is supplying that trigger-
puller with the firearm, and we call them a trafficker. So, it 
is the two Ts; the trigger-puller and the trafficker. Our Crime 
Gun Intelligence Centers have been uniquely designed to answer 
your question.
    We would be happy to give you, with respect of time, 
separate presentations. We invite you all down to our 
Correlation Center in Huntsville, Alabama. But exactly what you 
are asking, we have been working at it.
    Ms. Kaptur. I have to go to Huntsville to find this?
    Mr. Brandon. No, we will come to you or we will go 
wherever. What's wrong with Huntsville?
    But I share that, ma'am, because that is where we are 
providing a service to the police departments, I believe, in 
your jurisdiction, that can get that correlation service. 
Because, as you know, you go into whole neighborhoods and you 
say, hey, we are going to target it, and you tick a lot of 
people off, innocent people that may just be living there 
because that is where they live, instead what you are asking 
is: Who is shooting people and how are they getting the guns? 
That is what we are solving in Crime Gun Intelligence Centers.
    So, thank you, Mr. Chairman, for letting me have that time.
    Mr. Serrano. Mr. Crist.
    Mr. Crist. Thank you, Mr. Chairman. I want to apologize, 
too. I had a conflicting committee meeting and apologize for 
running late. Thank you for running this hearing.
    Thank you, Ms. Halvorsen for being here and Mr. Brandon. I 
appreciate your presence today and what you do and your service 
to our country.
    My home state of Florida has been devastated in recent 
years by gun violence and mass shootings. In both, the Pulse 
nightclub and Parkland High School mass shootings, neighbors 
and co-workers were warned--warned, rather, the FBI.
    The Pulse shooter was openly sympathizing with terrorists 
at work. His co-workers called the FBI tip line. The FBI opened 
an investigation and put a tail on the individual, but nothing 
became of it. Then he illegally bought a weapon and used it to 
kill 49 people and wounding 51 more, many critically. For them 
and for our state, particularly in the Pulse situation, the 
LGBT community and the Latin community, the wounds will never 
heal.
    There were multiple warnings about the Parkland shooter. 
His YouTube comment about becoming a school shooter was 
reported to a local FBI field office. One month before the 
shooting at Marjorie Stoneman Douglas, a young woman who knew 
the shooter, called the FBI tip line and for the next 14 
minutes, provided specific details about the shooter, talking 
about animal mutilation, severe temper, violent threats, 
stockpiling weapons, social media, all in a transcript.
    He killed 17 people six weeks later, including 14 high 
schoolers. The Stoneman Douglas kids changed this country. They 
demanded that we put the lives of our children, the lives of 
their friends and loved ones first. They should not have had to 
be because Parkland never should have happened.
    With both Pulse and Parkland, the FBI was alerted. In both 
cases, that did not stop it. What exactly went wrong? And I 
want to know the failures that occurred in the Bureau, how your 
policies and procedures have changed, and where the failures in 
our laws gave these two monsters access to weapons of war and 
what this committee can do to support you to make sure that 
these kinds of things don't happen again, please.

                             MASS SHOOTINGS

    Ms. Halvorsen. So, very tragic events. And in my 23 years, 
I actually worked gangs in New York before I came to 
headquarters, and so I saw a lot of this, right, throughout my 
whole entire career and then worked counterterrorism right 
after 9/11, as well, so I have seen a lot of this. So, my heart 
goes out to the families and having been on the other side of 
having to tell families and victims and working through all 
that, right.
    And so, we continue to work with the Parkland families. It 
is the men and women who work in CJIS who answer those calls--I 
gave statistics earlier--they handled 655,000 calls last year 
and 755,000 e-tips that come in. Not every call is a threat to 
life, but they have to go through each call to figure out if it 
is a threat to life.
    We have changed all our procedures since Parkland to work 
through that. They have gotten enhanced training. They get 
threat briefings now. They get briefings on how to handle 
potential school shootings. They have gotten new standard 
operating procedures that they are operating by. We have more 
supervisor review. We have implemented new procedures in the 
chain of approvals and how to get through those approvals. We 
have technology enhancements that enables them to get the 
information to their fingertips a lot quicker, and we are 
actually working to get the information out to the field 
offices very quickly and have implemented procedures on top of 
the field offices on how they are handling those threats that 
are coming in, to work with our partners and our fusion 
centers, as well, to get the information in the action 
officer's hand.
    And that is why in my opening statement, I don't talk about 
an FBI agent, you know, who gets information. It is an action 
officer who can action that information very quickly, that we 
are working towards.
    And so, we have put all those procedures in place and 
continue to work in modifying our processes as the threats 
happen. We don't want any of these to happen anymore, either. 
This is what we have worked so hard for. This is why we joined 
the organizations that we did: to keep the public safe.
    And every time something like this happens, it kills us 
inside, as well, and we strive harder and harder to make sure 
that it doesn't happen.

                             FBI RESOURCES

    Mr. Crist. Is there a specific goal or amount that you 
would like this committee to help provide you in order to 
further prevent these things from happening? Have you thought 
about that?
    Ms. Halvorsen. Yeah, and it goes to the question that you 
posed; I really would love for you to come out to CJIS and sit 
with these people who are taking these calls every day and 
going through that to see, really, what they are dealing with 
on a daily basis and how they are going through it so you have 
that education.
    I have been out there now for two months as acting 
Assistant Director. I have been in the Bureau 23 years. It is 
my first experience out there. I knew they did great work, but 
they do amazing work every day. As a matter of fact, just this 
weekend, we actually referred a threat-to-life issue to our Los 
Angeles Field Division. Within an hour time frame of receiving 
it, they--it was an individual who was making threats online--
quickly identified, through getting a 2307(d) order who that 
individual was online. Then they went out to the house and 
found out that person had mental illness issues and was off 
their meds, right, and they were able to stop this person from 
committing violence before it even happened and was able to 
work with the family to get this person the treatment that they 
needed.
    They are doing things like that every day, and so it would 
be great for you to come out and see the work that they are 
doing and the changes that we have made and where we are going. 
And especially from your constituency, coming out there and 
saying, well, this really doesn't work because this is what 
they told me, it would be great to get your feedback, as well, 
on the work that we are doing out there, as well.

                             MISSION OF ATF

    Mr. Crist. Sure. Thank you very much.
    And, just briefly, Mr. Brandon. You are at ATF. How would 
you describe the primary mission of your agency?
    Mr. Brandon. Sir, we are guns. It is about 82 percent of 
our budget, as far as enforcing the federal firearms laws. We 
also, I guess the catchy phrase--bang, boom, and burn--you 
know, where it is most people don't realize that we are 
involved in arson investigations. We have the Federal Fire 
Research Laboratory, the only fire research asset in the 
federal government, and we support our federal, state, and 
local partners, and tribal partners with that.
    But our main mission is violent crime; particularly, 
firearms--violent crime related to firearms or criminal acts of 
arsons or criminal bombings. Obviously, whenever I hear you say 
the T-word, our role is to be no better partner to the FBI 
dealing with terrorism, and so I think that the ATF and FBI 
have made strong progress and have a great working relationship 
that benefits the American people. It is the public first.
    Mr. Crist. Yes, sir. So, is it safe to say, then, to 
summarize, that it is your mission to primarily prevent violent 
crime by the usage of guns?
    Mr. Brandon. That would be our primary mission, sir, yes.

                             ATF RESOURCES

    Mr. Crist. In the--how much money do you need more to do 
that, and then I am done?
    Mr. Brandon. About 60 million.
    Mr. Crist. Did the president recommend that?
    Mr. Brandon. Sir, I don't know, and you know, I salute to 
the administration. I am here testifying under oath and being 
honest. Like I said, you cut fat. You say we are cutting at the 
muscle; we are cutting at the bone. That is the truth with the 
ATF.
    Mr. Crist. Thank you, Mr. Chairman.

                     DEFINITION OF ``UNDETERMINED''

    Mr. Serrano. Thank you. A couple more questions. First of 
all, I admit to the guilt of having try to invent a new word. 
The word is ``undetermined,'' but that has actually brought us 
to yet another dilemma we have, is that we still don't know 
what undetermined--transfer undetermined means. Does it mean 
the fact that the transfer or does it mean eligibility of the 
purchaser? I mean, what does transfer undetermined mean? We 
don't want to leave this hearing not knowing what that means.
    Ms. Halvorsen. Just from the FBI's perspective on that 
question, when we have a disposition--when we have a delay 
queue disposition come back and we are able to make the 
determination that that person should have been a deny and then 
we refer it over to ATF. If it is after that 3-day time window 
from the 4 to 30 days, they have the ability to purchase a 
weapon during those 4 to 30 days. At day 31 they have to come 
back in and re-apply, so from the 31 to 88 days.
    In that 4 to 30 days, when we refer it over to ATF, we 
don't know if they have gotten a weapon or not. We can't tell 
if the sale occurred or not. So, in that 6,000, it is not that 
all 6,000 got weapons; they just had the ability to get 
weapons. And to the point of some of our partners working with 
some of the big gun sellers, they will not sell if you are 
still in that delay queue. So, some of those 6,000 may not have 
been people who fully got weapons.
    Mr. Brandon. Sir, on delayed denials, we don't leave 
anything undetermined. If it comes from the FBI and it looks 
like they have gotten a firearm, we track it by month. I get 
briefed monthly with my executive team and there has to be a 
resolution. Often times, there can be problems with obtaining 
court documents, which frustrates the FBI--rightfully so--and 
even with us having more time than 3 business days, we can say, 
hey, 30 days, 60 days, we are still trying to retrieve these 
records. But we don't leave anything undetermined, and that is 
tracked monthly and briefed up to me.

             OVERSIGHT OF FEDERAL FIREARMS LICENSEES (FFLS)

    Mr. Serrano. Thank you. Previous ATF reports have indicated 
that nearly 60 percent of guns used in crimes can be associated 
with only 1 percent of federally licensed firearms dealers. Do 
you think that the ratio is still accurate? Does the ATF know 
who the troublesome gun dealers are? And what does the ATF do 
to make sure that these dealers are subject to additional 
oversight and enforcement?
    Mr. Brandon. Sir, that is a great question. And as I 
mentioned earlier, we have a continuous process improvement and 
this is one of the areas that we can improve. In fact, just 
three weeks ago, I was briefed on how we are going to have 
better oversight at the national level--the Division may say, 
these are our problematic federal firearms licensees that we 
need to inspect.
    And I don't know if you are familiar with the term 
``CompStat'' it started at NYPD, but it is used in data to 
question people's decisions and modeling. We are using a new 
computer product with analytics to question these assumptions. 
I really think it is going to take ATF in a more precise way of 
going after, to what you are saying, these dealers that are 
really not following the law and making and diverting lawful 
commerce into the black market where they become crime guns.
    Mr. Serrano. One last question, and it is almost a fun 
question, except that it is not; it is a very sad question, a 
new threat. The whole issue of 3-D printer guns. What kind of a 
threat do you see and what should law enforcement and Congress 
consider doing to address the threat?

                            3-D PRINTED GUNS

    Mr. Brandon. Sir, I know I dealt with this a few years ago, 
and it was the Undetectable Firearms Act that was renewed. I 
think it was called the Liberator firearm, a piece of plastic, 
3-D printed, but you have to, to be compliant with the law, 
have a piece of metal that can be detected through a TSA 
security machine when walking through.
    The threat we didn't see is maybe gang members doing this, 
but the threat to public officials or for any type of 
assassinations in which the 3-D firearms would be undetected 
and reassembled and so forth. What we see are self-made, 
unserialized firearms, which are legal to do. It is not illegal 
to make your own firearm and not serialize it, as long as you 
are not in the business of selling guns.
          
    I had a briefing where our divisions in Los Angeles, San 
Francisco, and Miami are seeing an uptick in this, in 
particular, with gang members. One of these self-made 
unserialized firearms was used in a school--a community college 
shooting a few years ago. And so, they are not necessarily 3-D 
printing, but going to these legal firearms and this person, I 
believe, was prohibited, so he made his own gun, which the part 
he bought is not regulated and they can make some minor 
modifications now and get unregulated parts like the barrel, 
the upper receiver, assemble it, and that is a threat to public 
safety. That is something that we are looking at.
    Mr. Serrano. Yeah, I suspect it is one that we are going to 
be looking at a lot because it is available to a lot of people 
and it creates, yet, another problem for all of us to deal 
with.
    Mr. Brandon. Sir, you have people saying you have hobbyists 
that legitimately--you know, I mean, I like guns and there are 
hobbyists that like making their own guns, but it also opens it 
up for the people who are prohibited that are not going to go 
into an FFL and go through a FBI background check NICS check 
and then say, hey, get this, three holes, drill it, get these 
parts, slap it, I have got my own gun and nobody knows the 
difference. We have a number of shootings that they are 
involved in.
    Mr. Serrano. Thank you.
    Mr. Aderholt.
    Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman, very much.
    I wanted to go back to my question about mental illness and 
guns. For the most recent year for which you collect figures, 
how many fatalities have there been in our country due to 
shootings with guns? Sixty thousand? I think you probably have 
that number.
    Ms. Halvorsen. I don't have that number on hand.

                      FIREARMS AND MENTAL ILLNESS

    Ms. Kaptur. Okay. Because I am going to ask you if you 
could go back and get that number and, also, then, of that 
percentage, how many of those were due to an individual with a 
weapon who was mentally ill. Do you have the ability in your 
dataset to identify that or not?
    Ms. Halvorsen. No, we don't.
    Ms. Kaptur. Well, how sad is that? I want to just say this 
because I am going to ask you to work with your colleagues in 
other branches of the government. I will go through this, and I 
am looking for a report. I don't know who to go to for the 
report, but you are a good place to start.
    If I go back to when Officer Gibson and Chestnut were shot 
here in 1998--both Chairman Serrano and I were present during 
that horrible incident--that was 1998. That perpetrator was a 
schizophrenic and had traveled all the way across the country 
looking for a purple light here in the Capitol. A few years 
later in Virginia, at Virginia Polytechnic, we had a mass 
shooting and the perpetrator was a paranoid schizophrenic. One 
of our dearest colleagues, Gabby Giffords was shot here or shot 
in her home community in 2011--the same thing with her 
perpetrator.
    And each of these incidents happens in an isolated way, 
which I go back to my original line of questioning, is there 
any way you can work with your colleagues across the 
establishment of the federal government, to look at the numbers 
of how many people die from these crimes annually--some are 
domestic violence; that may be one of the highest categories--
but the mental illness issue is not tangential. There are many 
crimes where people--and we are not going to solve this problem 
until we look it right in the face. Every sheriff I represent 
across Northern Ohio, half the people in their jails are 
mentally ill, and most of them spend time in juvenile detention 
facilities as kids and they merely graduate into the adult 
institution as adults.
    So, we are holding this population, through 
deinstitutionalization that they said didn't work back in the 
1980s--everybody was released--and now we have got sick people 
at the juvenile level who are filling our juvenile detention 
facilities and then they just graduate and they go in the adult 
facility. So, this is how we are handling mental illness as a 
country.
    So, the people, the casualties that are resulting from 
these individuals--Sandy Hook was another one, right--we act--
we are all shocked and we all go home. And I am saying to 
myself that I think the data can really help us if we could 
assemble that. And I am very interested in where they got the 
gun. We know the Sandy Hook perpetrator got it from his mother. 
She was taking him to a shooting range and he was not stable--
oh my goodness.
    So, we have really work to do in this country, but I am 
asking, do you have the ability in your own agencies or with 
your colleagues across the federal government, to go back to 
1998, start with the shooting right here, where did Russell 
Weston get his gun? Is that on the record somewhere? And then, 
what his diagnosis was, and then deal with the people over at 
NIMH and figure out what happened? How did this guy get through 
the net?

                             MASS SHOOTINGS

    And do the same with these mass shootings across our 
country and enlighten the American people. I think that would 
be a great contribution. Do you have the ability to participate 
in that type of effort? Or lead it?
    Mr. Brandon. Ma'am, as I mentioned, when there is a mass 
shooting, ATF, FBI, and U.S. Marshal Service is going to 
respond. We have all come up with our roles, which we have been 
defining under the Deputy Attorney General's leadership. The 
ATF's mission is always follow the gun. We are going to learn 
to say, How did this person get the gun? Were any federal laws 
violated? Did anybody conspire to get this person the gun?
    And I do believe that the FBI and even the Secret Service 
do a study looking back at saying, what is the historical 
nature?
    I can tell you anecdotally--and my chief of staff is here--
when I hear of these shootings I say, I bet the person 
purchased it in the last three to four months. They are not 
prohibited, but they have a mental illness. And I have been 
pretty good at just doing it. I am picking that up just going, 
Oh, my God, there is another tragedy, you know, and you 
mentioned Newtown. Everybody knows where they were. It is like 
the 9/11 tragedy when you hear about that.
    But the other thing I have learned from talking with folks 
is that people that have mental illness, they are not violent, 
you know, a lot of them. So, it is really drilling down to 
which mental illness, because painting people with a broad 
brush can be unfair, because they can be victims of violence 
themselves.
    So I think your question is well put, and also, I think the 
ATF, FBI had testified with a Secret Service representative--
she was a Ph.D.--that would look into trends and shootings. So, 
it is something that I think there is information there that 
can answer your question and the FBI can get back to you on.
    Ms. Kaptur. I would really be grateful and we will try to 
put some language in a report.
    Ms. Halvorsen. Thanks.

                       MENTAL HEALTH AND FIREARMS

    Ms. Kaptur. Try to put some language in there to get that 
kind of--wouldn't that interest my other colleagues on this 
committee--on this subcommittee?
    And I am not saying--I know the mental illness community 
resists this because they don't want to view the mentally ill 
as largely violent--and they aren't--but there is a subset, and 
it is like what do we do as a country to identify this 
possibility and avoid these casualties?
    Ms. Halvorsen. This is a very, very complex problem and it 
is something that is going to need a whole-of-government 
approach going forward on it. So, I appreciate you offering 
that up and following up with us on that.
    And I will tell you on the JTTFs, the National JTTFs, we 
have been working very hard with Health and Human Services to 
get a Task Force Officer that is from Health and Human Services 
on the JTTFs, even if they are part-time, so that when we are 
going through our counterterrorism cases, we can actually 
review it through them if we think there may be some mental 
illness involved and figure out how we work through the process 
around that person. And how do we handle that case?
    Do we have other tools in the toolbox, right, that we can 
actually help, instead of putting them in prison, are there 
other things that we can do to get them help? And they are the 
subject-matter experts on it; we are not, right, as law 
enforcement. We are not mental health professionals; they are.
    And so, we are working with that on the counterterrorism 
investigations and I know they are trying to work through that 
on some of our criminal investigations, as well, but it is a 
step in the right direction, but it has to be a whole-of-
government approach moving forward on this.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Mr. Serrano. I want to thank you for joining us today. It 
is been very informative and we are on your side. We know the 
work that you need to do. We want you to do more of it. We want 
you to have the opportunity to do it better, as I am sure you 
want to improve on it, and as time goes on as we get this bill 
ready, we will keep that in mind and our conversations will 
continue.
    So, thank you so much, and this meeting is adjourned.
    [Whereupon, at 12:34 p.m., the subcommittee was adjourned.]
    [Clerk's note: The Department did not respond with answers 
to submitted questions in time for inclusion in the record.]

                                            Tuesday, March 26, 2019

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

DR. FRANCE A. CORDOVA, DIRECTOR, NATIONAL SCIENCE FOUNDATION
    Mr. Serrano. The subcommittee will come to order.
    I would like to welcome NSF Director, Dr. France Cordova, 
to the subcommittee. Good morning.
    The National Science Foundation is an independent federal 
agency charged with promoting basic research and education in 
science and engineering. In doing so, it is a major source of 
federal support for U.S. university research in the STEM 
fields. NSF's investments in STEM education help train the next 
generation of scientists and engineers. As you know, Dr. 
Cordova, I am a strong supporter of NSF and I believe that its 
programs help our Nation to be the world leader in major 
discoveries, innovations, and scientific breakthroughs.
    The President's budget proposal for fiscal year 2020 
requests $7.06 billion for NSF, which is a $1.01 billion, or 12 
percent, decrease from the 2019 enacted level. Within the 
total, the President's budget also proposes $5.66 billion for 
the Research and Related Activities account, which is a cut of 
$858 million, or 13.1 percent below the current level. These 
proposed levels of funding endanger the core missions at NSF.
    For example, if the requested amount is enacted into law, 
the number of competitive awards for fiscal year 2020 would go 
down from 11,600 awards in 2018 to 10,400. In a given year, NSF 
awards grants to over 1,800 colleges, universities, and other 
public and private institutions in 50 states, the District of 
Columbia, and Puerto Rico. Cutting funding for NSF will 
inevitably leave many schools without this much-needed 
education and research funding.
    The President's budget blueprint for fiscal year 2020 also 
requests $823.4 million in funding for the Education and Human 
Resources account within NSF. This represents a cut of $86.5 
million or 9.5 percent. The President's budget proposal would 
accomplish this decrease by cutting programs that increase STEM 
participation, including programs that help minorities. I will 
strongly oppose this and will work to make sure that minority-
serving institutions receive robust funding for STEM research.
    Another issue of importance to me is the Arecibo 
Observatory in Puerto Rico. The President's budget for fiscal 
year 2020 proposes a total of $4.26 million for the Observatory 
from NSF's MPS and GEO accounts, which is a reduction of $3.28 
million from the fiscal year 2019 enacted level. I strongly 
support the Arecibo Observatory and its mission.
    In short, NSF helps our economy grow, sustains our economic 
competitiveness, and enables us to remain the world leader in 
innovation. We will continue to work in a bipartisan manner to 
ensure that it is well funded.
    Thank you once again, Dr. Cordova, for joining us today and 
I look forward to your testimony.
    Now I would like to recognize my friend and ranking member, 
Mr. Aderholt.
    Mr. Aderholt. Thank you, Mr. Chairman. And I just want to 
say that I think in light, everyone is a little disappointed to 
hear about your announcement yesterday regarding your 
retirement, and I just want to say it has been a pleasure 
working with you over the years. And of course you are a 
tireless advocate for not only your constituents, but also for 
all the things that we work for on this subcommittee and so 
many things on the Appropriations Committee overall.
    So we will certainly miss serving alongside you in 
Congress, but wish you the best in the next chapter of your 
life.
    Dr. Cordova, thank you for being here today, and it is an 
honor to have you here to discuss the National Science 
Foundation fiscal year 2020 budget. Looking at your resume, you 
have a commendable career and we appreciate your service.
    As you well know as much as anybody, going back to 1950, 
the National Science Foundation has been successfully carrying 
out its mission to promote American science and engineering by 
supporting fundamental research and STEM education.
    Furthermore, last year alone the National Science 
Foundation funded 11,700 research awards, supported over 
380,000 teachers, scientists, and students. And this support is 
key, because research spurs innovation, innovation drives our 
U.S. economy, and enhances our national security. This allows 
the U.S. to make improvements technologically and to create 
new, thriving industries, spur job growth, and make the 
workforce more efficient.
    Even in times of fiscal restraint, this committee has 
remained supportive of NSF's efforts to ensure that students, 
scientists, and universities have the funds they need to carry 
out their vital research.
    This committee has also worked hard to ensure that NSF and 
of course all agencies under our jurisdiction are held 
accountable to remain and remain exceptional stewards of the 
taxpayer dollars. Of course, the fiscal year 2020 request for 
the NSF is what we are here going to be discussing today, and 
our goal today is to discuss the details of that request and 
gain a better understanding from you, Dr. Cordova, about the 
priorities for the coming year.
    In particular, it would be good to hear about the 
proposal's impact on programs like EPSCoR; NSF's investment in 
advanced manufacturing, artificial intelligence, quantum 
information science; and the ongoing Antarctic Infrastructure 
Modernization for Science Construction Project. It will be 
important for this committee to understand how NSF plans to 
continue carrying out its mission in fiscal year 2020 to 
support basic research throughout the country, while having an 
increased focus on a group of long-term interdisciplinary 
research projects known as the Ten Big Ideas.
    So, Dr. Cordova, with that, I look forward to your 
testimony. And, Mr. Chairman, I yield back.
    Mr. Serrano. Thank you, Mr. Aderholt.
    Dr. Cordova, you are recognized at this time. We will hold 
you to 5 minutes, but please understand that your full 
statement will be inserted in the record.
    Dr. Cordova. Thank you very much, Mr. Chairman, Ranking 
Member Aderholt, Congresswoman Meng, and all the members of the 
subcommittee and staff. It is really a pleasure to be with you 
today.
    And, Chairman Serrano, let me also reiterate Mr. Aderholt's 
comments about your announcement yesterday. We are just so 
indebted to you for your service to the Nation. Thank you very 
much.
    The President's fiscal year 2020 budget request for the 
National Science Foundation is $7.1 billion. This request makes 
targeted investments in basic research within a constrained 
budget environment. The details of the budget request are laid 
out in my written testimony; however, I would like to take the 
next few minutes to highlight the value our agency has brought 
to the Nation.
    In 2020, the National Science Foundation will celebrate its 
70th anniversary. I have been thinking about this milestone. 
Every day, we interact with advancements that would not be 
possible without the National Science Foundation. I bet one of 
the first things we all did today was grab our mobile phones to 
read our emails, check the news, and check the weather. The 
touchscreen interface that we have become so accustomed to was 
developed by an NSF-funded scientist, as was the lithium ion 
battery that powers smartphones and laptops.
    And that weather forecast you rely on to make decisions 
every day was made more accurate by Doppler radar, a product of 
Government-funded research, including NSF.
    The barcodes that do everything from scanning goods at the 
grocery store to tracking our packages as they travel across 
the country, to getting us into airplanes, that technology was 
made possible by NSF-funded researchers.
    You might use a GPS-based app to find your away around in a 
new city or to find an alternate route home in heavy traffic. 
In its early days, Qualcomm relied on SBIR funding from NSF to 
develop technology that changed the face of wireless 
communications globally.
    Indeed, one of the wonderful things about basic research is 
that you never know where it might lead and whom it might 
benefit someday. A great example is how research in economics 
has saved lives by transforming our system of kidney 
transplants. Nobel Prize-winning, NSF-supported scientists used 
research into game theory to develop software that could match 
kidney donors with recipients more efficiently, speeding up a 
process where time is precious.
    Sometimes basic research is criticized at first for seeming 
silly or wasteful or unworthy of federal resources. It is hard 
to imagine this today, but when linguist William Stokoe began 
to look at American Sign Language in the 1960s, NSF was 
criticized for supporting his work by those who did not 
appreciate sign language as a possible means of communication. 
However, his use of NSF funding to publish the Dictionary of 
American Sign Language revolutionized education for deaf 
individuals, improving the lives of so many.
    Often, discovery requires persistence in the face of 
incredible odds. A century after Einstein predicted their 
existence and with 40 years of NSF support, the LIGO facility 
detected gravitational waves produced by the collision of two 
black holes. In doing so, a new era of discovery in 
astrophysics began.
    This is the type of high-risk, high-reward research that 
NSF is uniquely charged with undertaking.
    From Nobel Prize-winning work for interpreting the genetic 
code in its function and protein synthesis, to mapping the 
wheat genome, to making 3D printing a reality, NSF supports the 
discoveries and discoverers that keep the United States a 
global leader in innovation.
    As we look towards celebrating NSF's 70th anniversary, I am 
focused on positioning the agency to continue this work so that 
my successors may come before this body and herald the next 
great breakthroughs.
    That is why we developed NSF's Ten Big Ideas. The Big Ideas 
strategically focus on areas ripe for discovery, areas that 
will allow NSF and the Nation to continue to push into the 
frontiers of science. With other science agencies, we are 
positioning our Nation to continue to lead research in 
artificial intelligence and quantum information science.
    We continue to invest in large research facilities that 
keep the U.S. at the forefront of discovery, building the 
world's most powerful solar observatory in Hawaii, for example, 
and that observatory will see first light this summer. We are 
investing in super computers, robotics, and advanced 
manufacturing. We will stimulate convergence across scientific 
disciplines to foster the type of integrated research needed to 
address our most pressing needs.
    And, perhaps most importantly, we continue to invest in 
people. Discoveries don't happen without discoverers. We have 
to continue to light the imagination of the next generation, to 
nurture them as they find their way to the sciences; we have to 
ensure that we are reaping the benefits of our country's 
diversity, creating an environment free from all types of 
harassment, and supporting them in their academic careers.
    Mr. Chairman, I would be remiss not to also thank this 
committee and you and your colleagues for the historic level of 
funding provided for NSF in fiscal year 2019. With that 
funding, we are making investments that keep America at the 
cutting edge of scientific discovery and keep Americans leading 
the world in scientific achievement.
    Thank you for your time today and your continued strong 
support of NSF and our mission. None of the advancements I have 
described would be possible without Congressional support.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Serrano. Thank you. Thank you so much for your 
testimony.

                           NSF BY THE NUMBERS

    Director Cordova, the Administration's fiscal year 2020 
budget request is a significant reduction of $1.1 billion below 
the fiscal year 2019. Can you tell us how many fewer research 
grants will be awarded and how many fewer graduate fellowships?
    Dr. Cordova. Yes. If I do the math that both you and Mr. 
Aderholt just mentioned--you mentioned that we would be funding 
about 10,400 grants this year, and he mentioned that we were 
funding 11,700 grants in fiscal year 2018--then that is about 
1,200 to 1,400 fewer grants overall with this budget.
    As for the graduate research fellowships, our 2020 request 
is for funding 1,600 graduate research fellowships; in fiscal 
year 2018, we funded 2,000.
    Mr. Serrano. How many?
    Dr. Cordova. Two thousand new ones last fiscal year and we 
can fund 1,600 new ones in fiscal year 2020, so 400 fewer.
    Mr. Serrano. Significant decreases.
    What other reductions will your budget request, if enacted, 
result in?
    Dr. Cordova. Pardon me?
    Mr. Serrano. What other budget reductions--if your budget 
request is enacted----
    Dr. Cordova. Yes.
    Mr. Serrano [continuing]. What other reductions will take 
place?
    Dr. Cordova. As was mentioned, the budget is reduced about 
12 percent from previous levels and that is a reduction in just 
about all of our programs. A few we have kept at the levels of 
fiscal year 2018, but basically the answer is that just about 
all of our programs will see some reductions.
    Mr. Serrano. For several years now, not all of the NSF 
programs to expand participation of groups traditionally under-
represented in science have been held flat; your budget request 
cuts many of these programs. How much of the demand do these 
programs meet?
    Dr. Cordova. It is all about capacity, Chairman. With 
additional investment, we can fund more programs; more need is 
there. Every year, we leave about $4 billion--and that is at a 
total funding level of around $8 billion--we leave about $4 
billion's worth of good proposals on the cutting room floor, 
and those are proposals that are rated very good to excellent.
    With the recent--just as one concrete example--with the 
recent call for mid-scale proposals, those are proposals for 
instrumentation facilities in the range between a few million 
dollars, what we call our major research instrumentation 
program is below that, and the major facilities, which cost 
over $100 million, we received $4.7 billion in proposals just 
for that one opportunity from several hundred people. So there 
is enormous demand out there.
    Whatever our budget is, NSF will fund the best possible 
research. We have this amazing merit review process that is the 
gold standard, and it will judge which are the top proposals.
    Mr. Serrano. Yeah, I am concerned about that, because just 
in your opening statement you listed so many wonderful things 
that have been done, and you even listed the fact--you 
commented on the fact that some people might not have approved 
at the time and thought it was perhaps a waste of money or 
something and yet it turned out to be wonderful. So we worry 
that these cuts are really harming our future.
    Look, I know that budgets are tight at times, but there are 
certain areas that should not take heavy cuts because they make 
life better for all of us and keep our country where it should 
be.

                   BROADENING PARTICIPATION PROGRAMS

    Let me ask you, what are the major gaps in participation 
that NSF does not have programs to address? Are there areas 
missing still?
    Dr. Cordova. When I came to NSF 5 years ago, I was very 
concerned about broadening participation, and I looked 
carefully into NSF's programs for that. We do spend a lot of 
money on broadening participation. That is part of our mission 
to encourage people of all ages to have access to STEM 
education--young people in particular to want to become 
scientists and engineers--and to supply the next generation 
with the types of discoveries I talked about.
    I was concerned that we are still not moving the needle. We 
still have a large, untapped group of people, women and 
minorities, who don't have access or encouragement in science 
and engineering. And so I looked at the programs we have and 
asked if there some things that we should stop doing? Should we 
change the way we are doing things? And I found that the 
programs that are doing broadening participation are very good 
programs. There are excellent programs in different parts of 
the country with different kinds of missions; some are directed 
towards students and provide them scholarships.
    One great example is the Hostos Community College program 
in the Bronx, which you know about. It is such an important 
program to get students the capacity, the knowledge, to then go 
on to a 4-year program like the Grove School of Engineering at 
CUNY.
    But we still had gaps in that and we still really need to 
move the needle on participation of everybody, so we started 
the INCLUDES Program. The INCLUDES Program is one of our Big 
Ideas and it is funding programs, 70 or more now, all across 
the United States in different areas, and the whole goal of it 
is to increase the representation of women and minorities in 
particular in STEM education. And this program now is really a 
network of networks. We have the different pilot programs 
grouped into alliances around the country. And now we have a 
backbone organization that is run by SRI; they are doing 
evaluation and assessments of the programs, and they are 
networking all the investigators together. Because, Chairman, 
the basic challenge is how do you scale really good ideas, how 
do you make them scalable so that the whole country can 
understand that these are good models to replicate? And that is 
what the INCLUDES Program is really trying to do that hasn't 
been done much before.
    Mr. Serrano. Thank you.
    Let me just touch on one subject area before I turn--one 
further subject area before I turn it over to the ranking 
member.

                          ARECIBO OBSERVATORY

    The Arecibo Observatory is the second-largest single-dish 
radio wavelength reflector and has been in service since 1963. 
Although multiple agencies perform research at the Arecibo 
Observatory, NSF's Division of Astronomical Sciences has the 
longstanding responsibility for basic site maintenance and 
upkeep. We provided $16 million in disaster relief funding to 
repair and upgrade this facility because of Hurricane Maria. 
Can you give us an update on the status of the repairs at the 
observatory?
    Dr. Cordova. Yes. In fact, I am going to Puerto Rico next 
week just to see how they are doing there and to check in on 
the observatory, and also to talk with universities like the 
University of Puerto Rico and its campuses.
    And I actually have used Arecibo data in the past. I am an 
astrophysicist; this is my line of work and research. We spent 
about $2 million of that $16 million to date starting on the 
repairs. We have asked OMB and Congress to approve a 5-year 
spend plan so that we could, in an orderly fashion, address 
everything that we needed to address in terms of repairs and 
modest upgrades to this facility.
    So we very much appreciate that much-needed money for the 
upgrades. It is just an outstanding facility that has made 
amazing discoveries, including Nobel Prize-winning discoveries.
    Mr. Serrano. And, with that in mind, over many decades the 
Arecibo Observatory has produced some valuable scientific 
research and discoveries. That is why I believe that the 
Federal Government should maintain ownership of this facility, 
even if it is administered and run by an educational 
institution or a private party.
    You will commit to not transfer the title of the 
observatory to a private party?
    Dr. Cordova. We have no plans to transfer the title in 
fiscal years 2019 and 2020. I think you know that the whole 
discussion about title transfer was something that was surfaced 
by the management entity, the University of Central Florida; 
that has been of interest to them, but we have no plans to do 
that in the next two fiscal years.
    We are hopeful that the University of Central Florida will 
engage other partners, as they have committed to do, to be part 
of funding the Arecibo Observatory. We know that NASA has upped 
its commitment to $4.65 million, and we have also given a grant 
to Brigham Young University to build a receiver that costs on 
the order of $5 million, a new receiver that will open up new 
capabilities for the observatory. And so we continue to fund 
assets that will help the observatory.
    Mr. Serrano. You will know that the answer is, while I am 
still in Congress, it is OK. So you guys get ready, all right? 
No, I think we have a lot of friends who support the 
observatory.
    Mr. Aderholt.

     ESTABLISHED PROGRAM TO STIMULATE COMPETITIVE RESEARCH (EPSCOR)

    Mr. Aderholt. Thank you, Mr. Chairman.
    Traditionally, Dr. Cordova, the distribution of NSF 
research dollars has not been uniform cross the country, but 
the Established Program to Stimulate Competitive Research, 
commonly known as EPSCoR, helps to address this problem. Of 
course, EPSCoR promotes scientific progress nationwide by 
strengthening research capacity and competitiveness at 
universities in particular states. So, last year alone, Alabama 
received over $14 million through EPSCoR to stimulate 
competitive research.
    Unfortunately, in the fiscal year 2020 request EPSCoR is 
reduced by $24 million from the fiscal year 2019 enacted level. 
The last time the EPSCoR was funded at a similar level was back 
in fiscal year 2012.
    I just wanted to get your opinion of what the rationale 
would be in reducing this important program?
    Dr. Cordova. The EPSCoR program is an extremely important 
program, and I have been to many EPSCoR states. I actually live 
in an EPSCoR state. New Mexico is my home, and I have been able 
to see firsthand the amazing things that are being done to 
raise capacity, research infrastructure, and research itself in 
the EPSCoR states.
    The EPSCoR funding is formulaic; it is by congressional 
design. And so when our budget goes up, the EPSCoR funding goes 
up in line with--it is like an index fund, it goes up with our 
total budget and, when it goes down, it goes down according to 
the formula. So it is exactly the amount that we have proposed 
in 2020 is according to the formula as set out by Congress.
    Mr. Aderholt. But at this level what would be the impact on 
states like Alabama that, you know, have a lot of institutions 
that rely on these funds to build the capacity they need to 
compete nationally?
    Dr. Cordova. The need for research investment is great in 
EPSCoR states. It is great throughout the country. It is just, 
as I said earlier, a matter of capacity. With increased 
investment, we can fund more. But whatever investment we have, 
we will always use it very wisely. We will fund the very best 
possible research and that includes in Alabama.

                         ADVANCED MANUFACTURING

    Mr. Aderholt. Of course, manufacturing is a key industry in 
Alabama and, of course, in many states. I am very supportive of 
any efforts that create additional jobs and opportunities for 
manufacturers throughout the country. I was pleased to see that 
the fiscal year 2020 request includes $268 million to 
revitalize American manufacturing.
    Can you take a moment just to explain how this research 
investment will help the manufacturing industry grow and 
flourish? And also how it could potentially help our American 
manufacturers to be more competitive with foreign entities?
    Dr. Cordova. Yes. Well, this is of course a priority of the 
Administration, and it has been a priority of the National 
Science Foundation for a long time. We have no fewer than four 
of our directorates involved in funding programs in advanced 
manufacturing, which, as you know, is a very broad topic. Our 
Computer and Information Science and Engineering Directorate, 
our Biology Directorate, our Math and Physical Sciences 
Directorate, and of course our Engineering Directorate all fund 
programs in advanced manufacturing. And this is everything to 
do with the smart work force of the future.
    One of our Big Ideas, and you mentioned those, Mr. 
Aderholt, in your remarks, is called the Future of Work at the 
Human-Technology Frontier. And in order to fund the best 
possible research that will impact what the future of work 
looks like, we are going to have to have smarter machines and 
smarter approaches in order to help the worker.
    And so I have been able to see the progress of this Big 
Idea and the kinds of investments we are making. I have seen 
some recent examples that have to do with the factory floor in 
enabling humans and individuals to have additive manufacturing, 
and things like virtual reality and robotics to assist them in 
doing jobs that they couldn't possibly do all by themselves. It 
is really very inspiring to see the kinds of work that we are 
funding in advanced manufacturing.
    Mr. Aderholt. How do you or how will you ensure that all 
areas of the country benefit from these investments in the 
manufacturing sector research?
    Dr. Cordova. The same way we do with all of our programs. 
Our calls for proposals are open to the entire country and we 
have an emphasis on advanced manufacturing, we have an emphasis 
on the American worker. I am a member of the President's 
National Council for the American Worker, and there our main 
subject is skilling and re-skilling of the American workforce.
    And for NSF, there are two main programs where we do that. 
One is our Advanced Technological Education Program, which is 
in many, many community colleges throughout the country, and 
people are welcome to take courses in learning all sorts of 
technology occupations. I visited some of those sites and it is 
absolutely amazing the kinds of projects that are going on in 
our community colleges, the equipment that they have to train 
people, and the quality of their faculty to teach them.
    So that is one our programs. And we keep putting, with the 
graciousness of Congress, more money into the Advanced 
Technological Education Program.
    Then we have a number of other programs. For example, our 
Convergence Accelerator that we are just now starting, we put 
out the first call for the accelerator projects last week. And 
these are all projects that welcome everyone from around the 
country to conceive ideas to accelerate research in three main 
areas; one of those is big data, but the other two are in re-
skilling and up-skilling the workforce and matching the workers 
to the work. And so we are very excited about seeing the 
results of those, and we think that that is going to be a big 
push. We are asking for proposals on a short time scale, and we 
are hopeful that they will achieve outcomes within the next 
couple of years. We think this could be a real game-changer.
    Mr. Aderholt. Thank you, ma'am.
    Mr. Chairman.
    Mr. Serrano. Thank you.
    We will now begin our first round for members, adhering to 
the 5 minute rule.
    Mr. Cartwright.

          DEVELOPING A ROBUST SCIENCE AND TECHNOLOGY WORKFORCE

    Mr. Cartwright. Thank you, Mr. Chairman, and thank you to 
our distinguished witness for being here today.
    I want to start by talking about a 2018 New York Times 
article by Dr. Maria Zuber, the former Chair of the National 
Science Board and Vice President for Research at MIT. She 
expressed deep concern about our Nation failing to make 
necessary investments in research, in graduate education, in 
training, to produce the knowledge and workforce that we need 
to compete with the investments being made by China and other 
nations.
    Dr. Zuber explained that China's spending on research and 
development has grown by an average of 18 percent every year, 
while the U.S. is spending just by 4 percent. The potential 
consequence of this funding disparity, among others, is that 
China now claims more than 200 of the fastest supercomputers, 
while the United States has fewer than 150.
    Dr. Zuber concluded, quote, ``We cannot continue to advance 
the frontiers of knowledge and lead the world in innovation 
without funding for students and equipment, and when the only 
long-term federal commitment is to fiscal uncertainty,'' 
unquote.
    Even President Trump is quoted as saying in the U.S. 
National Securities Strategy Report that, quote, ``Losing our 
innovation and technology edge would have far-reaching negative 
implications for American prosperity and power.''
    My first question for you is, what is the consequence of an 
inability to compete with China and other nations when it comes 
to science and technology? In layman's terms, what happens to 
the U.S. if we don't have a robust science and technology 
workforce?
    Dr. Cordova. We clearly need a robust science and 
technology workforce. This is a competitive world in which 
things are changing very rapidly, Mr. Cartwright, and that is 
why NSF cares so very much about its investment in the best 
possible research. That is one of the reasons that we stepped 
up with a new strategy called NSF's Ten Big Ideas. They are 
addressed towards what are the pressing needs of the country, 
whether it is in quantum information science or artificial 
intelligence, advanced manufacturing in 5G, and clearly 
broadening participation in STEM education. There are many, 
many needs of our country and we have to be competitive in all 
of those.
    And so we will do our part. I co-chair three of the six 
committees of the National Science and Technology Council that 
are really moving ahead as part of the Administration and all 
of the executive branch agencies to do our best to be 
competitive.
    Mr. Cartwright. Well, I think it is obvious that NSF 
recognizes that its funding supports research that is a primary 
driver of economic growth in this country.
    According to Nobel Prize winner and MIT economics professor 
Robert Solow, since World War II, half of American economic 
growth can be traced to advances in science and technology. Our 
investments in NSF will produce real family-sustaining jobs.

               VALUE OF BASIC RESEARCH TO ECONOMIC GROWTH

    The question is, how do you explain how NSF funding drives 
economic growth?
    Dr. Cordova. The NSF funding is mainly about funding 
fundamental research that is at the basis of technology and 
innovation. Without making the fundamental discoveries, you 
then can't go to application and outcomes.
    I mentioned in my opening remarks several examples of where 
fundamental research, whether it is in communications or any 
form of research, physics, chemistry, or materials, has led to 
amazing technology. And one example I gave had to do with our 
cell phones and our laptop computers. Sure, Apple put them all 
together, but it had to have the ingredients, and we make the 
ingredients. There are several technologies that are involved, 
for example, in cell phones and every single one of them, when 
you look at them in detail, was first funded by a government 
agency and several of them by the National Science Foundation.
    So, if we don't press on doing the fundamental research, 
then we will have nothing left to invent applications for, to 
put things together, and create the technologies of the future. 
When I go into a hospital, I just marvel because I know that 
NSF research is at the foundation of so much of the equipment 
that is used on me as I am examined. When people try to 
understand better, predict what various things that I have, 
what is going to be their outcomes, it is because of 
fundamental research that we have the equipment that we do in 
hospitals, in our cars and airplanes, and so forth.
    Mr. Cartwright. Well, my last question then is, with this 
kind of gargantuan return on investment in NSF funding, why 
would anyone in the world want to cut NSF funding given that 
its funding drives our economy, enhances our national security, 
and advances this Nation's leadership globally?
    Dr. Cordova. We are grateful to Congress for giving us a 
historic budget for fiscal year 2019 of $8.1 billion; I can 
thank you for that.
    Mr. Cartwright. Well, this fiscal year 2020 budget proposal 
for NSF puts the agency back to where it was in fiscal year 
2012. That doesn't sound like much of an investment in the 
future. We have to invest in the future in areas like, as you 
mentioned, artificial intelligence and quantum computing.
    This committee has made it clear year after year that we do 
not support Draconian cuts in the NSF budget, despite this 
Administration proposal.
    Thank you, and I yield back.
    Mr. Serrano. Thank you.
    Ms. Meng. I'm sorry, Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    Director Cordova, thank you for being here today. It is 
good to see you again. I think the last time we had you at our 
hearing was in 2017. Well, it is a shame we didn't have a 
chance to hear from you last year.

              ENGAGING WOMEN AND MINORITIES IN STEM FIELDS

    I want to speak with you today about STEM management, 
particularly those programs geared towards women and the under-
served communities. My time serving as chairman of the Space 
subcommittee taught me the importance of STEM programs and the 
President's budget proposal reduces the funds available for you 
to engage women and minorities.
    So my question is, how are you planning to provide 
opportunities for those interested in STEM fields?
    Can you discuss how this budget request affects programs 
like the PBS program SciGirls, and the Computer Science For All 
Program?
    And, third, has the ADVANCE program increased women's 
participation in science and engineering fields? And anything 
else you would like to add.
    Dr. Cordova. Well, thank you very much for those questions. 
As you can imagine, those are close to my heart.
    I was a young girl once who wanted to be a scientist, and I 
didn't have the encouragement from family or teachers, because 
the vision of what a scientist was looked very different from 
me. In fact, when I was NASA's Chief Scientist, my first day in 
the office, a senior official came in to me and he said 
jokingly, but he said, ``you don't look like a chief 
scientist'', because we have these pre-conceptions. And so that 
is something that we really want to change through programs 
like--you mentioned a couple, SciGirls, which is on television 
in a lot of places, and the ADVANCE Program. We are trying to 
make an impact through other things like our sexual harassment 
policy that moves to reduce harassment, which can be a barrier 
to advancement for women, and to participation and engagement.
    So at Purdue University, when I came in as president, we 
were just submitting the proposal for the ADVANCE program, our 
first. I was the principal investigator for that, so for almost 
the whole time I was there I led that program at Purdue 
University. And there our special effort was to advance in 
particular minority women, Hispanics and African-American 
women, through the professoriate.
    And so I know, because I have been there firsthand, that 
these programs really can make a difference.
    My inspiration, if you were to ask me how being a young 
person without a family and teachers that were motivating, it 
was from just a program very much like SciGirls; it was a 
program on television. This one happened to be about neutron 
stars that also convinced me to become an astrophysicist. These 
informal education programs, as well as the more formal 
programs like the ADVANCE program, which insists on 
institutional commitment to really rectify a situation and make 
it possible for those pathways to be open to women, are just so 
very important.
    So I am really proud that NSF has the diversity of programs 
with a diversity of ages for entering into the programs. It 
hits young girls, middle school girls, and it hits women in the 
professoriate.
    Mr. Palazzo. Well, thank you, Director Cordova.
    And I yield back.
    Mr. Serrano. Ms. Meng.
    Ms. Meng. Thank you, Director, for being here today, and 
Mr. Chairman and Ranking Member, for holding this meeting.
    I want to echo the concerns that have been mentioned by the 
chairman, by Mr. Palazzo, about encouraging STEM--building a 
STEM workforce, especially for those from minority communities. 
I know we've talked about cuts of funding to programs like 
historically black colleges and universities' undergraduate 
program, tribal colleges and universities' program, for 
example.
    I wanted to specifically ask, I know you talked about your 
work at Purdue for African-American and Latino women, but I 
wanted to know about Asian-American and Native American Pacific 
Islander-serving institutions. This program provides grants and 
other forms of assistance to institutions to expand their 
capacity to serve this community. I notice that NSF's budget 
does not have dedicated funding streams for these institutions. 
Can you explain how NSF currently funds these institutions and 
reaches out to the AAPI community?
    Dr. Cordova. Our programs are open to all and we have a 
relatively new program over the last few years called INCLUDES. 
There are about 75 projects all over the country and some of 
them have that particular goal. They can have all sorts of 
goals of broadening participation. And the whole idea there is 
that they are networked into each other so that they can share 
best practices and so the whole effort of broadening 
participation can scale up. So that is one way that we do it.
    And we have many programs like Computer Science For All, 
our Discovery Research for Pre-K through 12 programs, our REU 
programs, our graduate research programs for graduate fellows, 
all of which welcome the populations that you are talking 
about. Even though we don't have a specific program, we do have 
programs where we welcome the diversity of the population to 
join them.
    Ms. Meng. Wonderful. If we can ever collaborate in any way, 
especially in my home state of New York, please feel free to 
let me know.

                      QUANTUM INFORMATION SCIENCE

    I wanted to talk about a field that you mentioned, quantum 
information science, which is a whole new field. There is a 
race in this field to develop and retain talent. We can have 
the best plans and long-term strategy for quantum research, but 
if we don't grow this talent in our country, we will be left 
behind. I'm told by industrial researchers that you cannot just 
take engineers or physicists and teach them quantum 
engineering, that it's a whole separate and new field.
    What is the Administration doing to develop the workforce 
necessary to meet our industry needs for quantum-trained 
talent? I know that some applications may be several years 
away, so how can we retain the talent we developed? And can the 
NSF DOE centers that were authorized in H.R. 6227 help develop 
this talent needed?
    Dr. Cordova. The answer to all those questions is yes.
    There is a very vigorous effort on the part of this 
Administration to step up our efforts and investment in quantum 
research, and even a few years ago, NSF stepped up with one of 
its Ten Big Ideas called ``The Quantum Leap.'' And so we have 
been funding at NSF quantum sciences, quantum research for 
decades, and in fact NSF funded 31 Nobel Prize winners who won 
for specific quantum inventions and discoveries.
    We are a part of the group in the National Science and 
Technology Council that worked with the White House to put 
together a strategic plan under OSTP's leadership for quantum 
information science, and that plan was put out just a short 
while ago. That plan also calls for--and the congressional 
language, because Congress, of course, passed their quantum 
initiative, which is just great--it called for OSTP to lead in 
an effort to really get us to the next level. And so there is a 
group that has been formed in OSTP under Jake Taylor's 
leadership and NSF has contributed members to that, as have 
other agencies.
    So this is really top of mind for all of us agencies 
working together, quantum. And as for young people, part of the 
quantum strategic plan actually specifically addresses raising 
a quantum workforce, and what is needed is investments at a 
very young age. Just as we are trying to get all students to 
think more computationally and to be computer literate, we also 
want them to be quantum literate. And there are professors in 
our universities and faculty in many places who believe that 
very young people can learn quantum principles.
    And quantum physics was one of my favorite subjects in 
graduate school and just like anything else, like calculus, if 
you learn it at an early age, it is new enough and different 
enough, it is like learning another language, and it is 
actually quite fun to put yourself in that space. There are 
those of us who really believe that you can learn the 
principles of quantum science and computer science, which are 
inextricably linked through quantum information science, at a 
very young age.
    Mr. Serrano. Thank you.
    Mrs. Lawrence.
    Mrs. Lawrence. Thank you, Mr. Chair, and thank you for 
being here.

      DEVELOPING AN ETHICAL FRAMEWORK FOR ARTIFICIAL INTELLIGENCE

    On February 27th, I introduced a resolution, H.R. 153, to 
encourage the ethical development of AI. How do you plan on 
incorporating ethical and social studies into the AI research 
NSF supports?
    Dr. Cordova. Thank you, Mrs. Lawrence, Congresswoman 
Lawrence, for your leadership on this. Having an ethical 
framework for artificial intelligence is extremely important.
    As you know, artificial intelligence is a very broad 
collection of approaches, and it promises all sorts of 
opportunities, but also a lot of challenges. So what NSF is 
doing to help provide leadership in this area--and it is 
leadership that is, frankly, coincident with the 
Administration's plan for this country to be a leader in 
artificial intelligence--is to fund some specific proposals 
that have to do with ethics and bias, fairness and 
transparency, and accountability and explainability in 
artificial intelligence.
    We released just a short while ago, a few months ago, a 
call for proposals from our Computer and Information Science 
and Engineering Directorate, working with our Social, 
Behavioral, and Economic Science Directorate and an entity 
called the Partnerships for Artificial Intelligence, which is a 
collection of about 50 industries, foundations, and nonprofit 
organizations. All of us are working together to request 
proposals from the community at large that deal with these very 
important subjects.
    In addition, our computer science branch is working with 
Amazon and we just signed a memorandum of agreement to develop 
proposals and fund research on fairness in artificial 
intelligence.
    We are fast becoming a real leader in this area and it is 
just incredibly important that at the outset of doing new 
research that you also incorporate things like bias and 
fairness, and accountability and transparency. So I am really 
glad we are pursuing this.

                ARTIFICIAL INTELLIGENCE SAFETY RESEARCH

    Mrs. Lawrence. How is NSF prioritizing research funding to 
address safety problems?
    Specifically, there are particular AI safety research 
questions you hope to address in the future research, such as 
about reducing unsafe exportation by AI systems. What is your 
feeling on the safety?
    Dr. Cordova. Well, safety is incredibly important, and the 
programs that I just mentioned will also be welcoming proposals 
in this area. Safety is an extremely important part of all 
research and particularly in artificial intelligence.
    So one of our Ten Big Ideas is on the Future of Work at the 
Human-Technology Frontier. This is about machine learning and 
robotics, artificial intelligence in general, helping the 
worker to have a safer work environment, and to augment human 
capabilities so that we leave individuals free to work in a 
healthy, safe environment to do the creative things, and the 
robots and machines are doing the things that are more 
dangerous, that are heavier, et cetera.
    So safety is all part and parcel of the basic research that 
we do.

                       EVALUATION AND ASSESSMENT

    Mrs. Lawrence. My last question. You are saying all of the 
right things when it comes to STEM, when it comes to inclusion 
of women and minorities; however, how do you monitor success? 
Have you set internal goals that says that we want to have what 
percentage of impact of improvement? Who monitors that?
    And my concern is that--and I have seen it where someone 
will talk about a wonderful plan, but no one monitors it and 
there are no specific goals. What are your goals as related to 
increasing those in the workforce?
    Dr. Cordova. Congresswoman Lawrence, I am a person who is 
not fond of saying that was a great question, but I will say it 
this time, that is a great question.
    So I too was very concerned when I first came to NSF, now 5 
years ago, about evaluation and assessment of our programs. And 
we have been funding through our merit review process, which is 
an amazing process that identifies great research. We have been 
funding spectacular work, but how do we assess and evaluate it? 
And how do we then transfer that knowledge to others, so that 
they can replicate it and so that it is scalable, so that 
everybody can take advantage of what we have just invested in?
    So we are changing things up. Our INCLUDES program, which 
is one of our Ten Big Ideas, is a great example of that. In the 
INCLUDES program, we insist as part of the proposals that 
people have identified what are the goals and what are the 
metrics to achieve those goals. And then we hired a backbone 
organization, SRI--they are our first backbone organization--
which is charged with making sure that those are done and then 
coming up with overall evaluation and assessment schemes, so 
that we can sit or stand before a body like this one and say 
that, for that program, here is what we set out to achieve, 
here is what we did achieve, this is why it is important, this 
is what is replicable about it, and this is how we would scale 
it.
    So I couldn't agree more. And that goes way beyond any 
specific program; that has to do with all of our programs. We 
do have an Evaluation and Assessment Office--it is within our 
Office of Integrated Activities--and they are charged with 
doing evaluation and assessment of specific programs. But we 
haven't yet achieved a goal that I would like us to achieve: 
that every single program, whether it is the INCLUDES program 
or anything, has built within it a framework for metrics for 
evaluation.
    So you have hit on something that is very close to me and I 
am committed to seeing that idea furthered, you know.
    Mr. Serrano. In other words, that was a great question. 
[Laughter.]
    Mr. Crist.
    Mr. Crist. Thank you, Mr. Chairman. And thank you, Dr. 
Cordova, for being with us today.

                          HARMFUL ALGAE BLOOMS

    I appreciate that the National Science Foundation is 
working to tackle issues of scientific and societal importance 
through the Ten Big Ideas. However, there are a lot of other 
societal issues important to my district, like harmful algae 
blooms, climate change, and civil rights, that are not included 
in the big ideas.
    Considering that the agency's budget proposes a top-line 
cut of almost 12 percent, while also investing more money in 
the Big Ten, what are you going to do to make sure that the NSF 
continues to support research to address issues that are not 
included in the Big Ideas?
    Dr. Cordova. Well, that is a great question too----
    Mr. Crist. Thank you.
    Dr. Cordova [continuing]. Because I come from a Big Ten 
institution, Purdue University----
    Mr. Crist. You are a Boilermaker.
    Dr. Cordova [continuing]. And, as you know, there are more 
than ten members of that. So there will be more than ten 
members of the Big Ideas pretty shortly.
    One of the big ideas is called NSF 2026, and it is called 
2026 because the year 2026 will be the 250th birthday of our 
country. We thought it would be great to have a whole suite of 
new Big Ideas ready for investment by that time, so we set on 
that goal. We sent out a call last summer for new Big Ideas to 
everybody in the Nation, everybody that is greater than 14 
years old, because for some legal reasons you can't be younger 
than 14 because it comes with a monetary prize.
    So we had all those proposals in as of the end of October 
and they are being evaluated. There are many, many hundreds of 
those proposals. They are being evaluated internally right now, 
and we expect to make an announcement on the winners, who will 
also be asked, some subset of them, to produce videos and all. 
We want to make it a very public thing that the public can have 
this opportunity to suggest Big Ideas that are appropriate and 
fundable for the National Science Foundation. So we intend to 
have a big splash on that.

                         RAPID AWARD MECHANISM

    Your more specific mention of things like algal blooms, 
these are incredibly important to the National Science 
Foundation also and we have other programs, like our RAPIDS 
Program. RAPID is an acronym, but what it really means is that 
you, if you are interested in something that just happened, a 
disaster, a tornado, an earthquake, hurricanes, algal blooms, 
infectious disease, you can propose to attack that problem 
immediately and you don't have to wait 6 months to be funded, 
you can be funded within just a few weeks' time. That is called 
our RAPIDS Program initiative.
    We also have one of our Big Ideas, called Navigating the 
New Arctic, and there are algal blooms in the Arctic going on 
as well and so that is another opportunity for research 
funding.
    Mr. Crist. Thank you.
    The RAPIDS Program you mentioned, I'm curious, what is the 
level of funding that is available there presently?

                 RAPID RESPONSE RESEARCH (RAPID) AWARDS

    RAPID is a type of proposal used when there is a severe 
urgency with regard to availability of, or access to, data, 
facilities, or specialized equipment, including quick-response 
research on natural or anthropogenic disasters and similar 
unanticipated events. Principal Investigators must contact the 
NSF Program Officer(s) whose expertise is most germane to the 
proposal topic before submitting a RAPID proposal. This will 
facilitate determining whether the proposed work is appropriate 
for RAPID funding.
    A RAPID award may be for up to $200,000 and up to one year 
in duration. The award size, however, will be consistent with 
the project scope and of a size comparable to grants in similar 
areas. Only internal merit review is required for RAPID 
proposals. Under rare circumstances, Program Officers may elect 
to obtain external reviews to inform their decision. If 
external review is to be obtained, than the PI will be informed 
in the interest of maintaining the transparency of the review 
and recommendation process. The two standard NSB-approved merit 
review criteria will apply. No-cost extensions and requests for 
supplemental funding will be processed in accordance with 
standard NSF policies and procedures. Renewed funding of RAPID 
awards may be requested only through submission of a proposal 
that will be subject to full external merit review. Such 
proposals would be designated as ``RAPID renewals.''
    The number of RAPID awards and total funding levels vary 
each year due to the nature of the award mechanism.

                           NSF RAPID Mechanism
                        Awards and Funding Levels
------------------------------------------------------------------------
                               FY 2015    FY 2016    FY 2017    FY 2018
------------------------------------------------------------------------
Number of Awards............        199        158        134        265
Total Funding, in millions..     $19.62     $14.30     $10.48     $23.70
------------------------------------------------------------------------

    Dr. Cordova. I would have to get back to you on that; I 
don't know specifically what the level of funding is. But the 
unique thing about that program, Congressman Crist, is that it 
is--I can't say it is infinite, because it is not, but it is 
very open-ended, because any program officer--because they all 
have the capacity, the wherewithal to fund the RAPIDS Program, 
and they make those decisions internally, because they have to 
be made very quickly. Once in a while, if they really don't 
understand the science, then they can go out and get a quick 
assessment of it, but most of those, because of the urgency, 
are made internally, and they can be made by any of the 
different directorates.
    So, to my knowledge, but I will get back to you with the 
details, we don't have a specific budget, because one year we 
can have a Zika or an Ebola crisis, or a host of natural 
disasters and hurricanes, and the next year perhaps not so 
many. And so it would ebb and flow with the amount of proposals 
and the quality of the proposals that we get in to do them.
    Mr. Crist. How does that work? I mean, you can just put 
more money when bad things happen or reduce money when they 
don't?
    Dr. Cordova. Well, no. People have some flexibility within 
their budgets to fund these awards. It is all about what is the 
level of funding being proposed. Most of the RAPIDS proposals 
are--and, again, it is about the details--are on the order that 
a small team of people wants to go and be ready in the case of 
tornados or in the case of disease, and they are just not very 
big in a funding sense of proposals. These are not multi-
million-dollar proposals; they are more in the hundreds of 
thousands of dollars.
    Mr. Crist. I see.

                      HARMFUL ALGAE BLOOMS FUNDING

    And my last question. A Government Accountability report 
from 2016 that details agency expenditures on harmful algal 
blooms show that the NSF was at the time the agency with the 
second-highest algal bloom expenditures. I know the report is a 
little outdated at this juncture, but can you elaborate on some 
of the things the National Science Foundation has been doing to 
address the environmental, economic, and health impacts of 
harmful algal blooms, particularly Red Tide.

                   HARMFUL ALGAL BLOOMS AND RED TIDE

    NSF continues to fund research on Harmful Algal Blooms 
(HABs). In FY 2018, NSF supported 39 awards, totaling over $14 
million. NSF-funded HABs research spans several disciplines and 
includes basic research related to bloom initiation and demise; 
organismal and ecological research related to understanding the 
formation of HABs; infrastructure and technology development to 
sense and model HABs; and the development of ecofriendly 
technologies for controlling HABs.
    NSF funded research also addresses the environmental, 
economic, and health impacts of HABs through several programs, 
including the Ecosystem Studies program. One award, funded by 
this program, applies advanced, water quality sensing 
technology to measure spatial patterns and changes in real time 
to detect early warnings in lakes where HABs are expected to 
occur. The goal of this research is to develop a new approach 
for prediction of ecosystem changes pertaining to HABs that 
will aid in the management of resulting water quality and 
public health issues (NSF Award #1754712).
    As HAB events are temporally limited, NSF has supported 
researchers using the Rapid Response Research (RAPID) award 
mechanism. This mechanism is used when there is a severe 
urgency with regard to availability of, or access to, data, 
facilities, or specialized equipment. In FY 2018, two of the 39 
HAB awards were funded via the RAPID mechanism.
    Dr. Cordova. I don't know the details on the programs; we 
can get you that information. I know that we definitely have 
programs within the Geosciences Directorate and the Division of 
Ocean Sciences specifically, and also in the Arctic program to 
address algal blooms, and we can get you a list of the programs 
that we have funded there, but they are very, very much of 
concern to the agency and we do fund those programs.

                         FUNDING NSF'S MISSION

    Mr. Crist. And I misspoke. Finally, do you think that the 
proposed budget going forward that we are looking at today is 
sufficient for what your mission is?
    Dr. Cordova. In any given year, just based on our merit 
reviews of the rankings of proposals, we leave about $4 billion 
on the cutting room floor--that is proposals that are rated 
very good to excellent. About $2 billion of those proposals are 
rated above the average rating of the proposals that are 
funded.
    In a recent call for Mid-scale Research Infrastructure 
proposals, we received about 400 proposals, which totaled $4.7 
billion worth of funding. So there is great need out there. 
Whatever our budget is, we will fund the very best possible 
research using our merit review process.
    Mr. Crist. So do you believe it is sufficient or not?
    Dr. Cordova. I----
    Mr. Crist. I am not trying to be difficult.
    Dr. Cordova. I think that the capacity of this country to 
do amazing research is just tremendous, and all I can say is 
that we will try to meet the needs for doing great research, 
the needs of the country, and the curiosity and the imagination 
of our proposers with whatever funding Congress gives it. And 
thank you very much for our fiscal year 2019 budget also, which 
is giving us great capacity to fund excellent research.
    Mr. Crist. Thank you, Doctor.
    Thank you, Mr. Chairman.
    Mr. Serrano. Mr. Case.

                       INTERDISCIPLINARY RESEARCH

    Mr. Case. Good morning, Doctor. You are obviously very 
passionate about the National Science Foundation, as are many 
of us, a national institution, and I appreciate your own 
personal passion and work, but you are here representing our 
President and our Administration in presenting really his 
overall budget priorities, and that is what we are after here 
is priorities.
    And, you know, I read your testimony, I listen to your 
words, and it all sounds incredibly good. I look at your 
testimony and you talk about the importance of the National 
Science Foundation, the critical importance of basic research 
across the world, the contributions not only to science, but to 
the economy. And I read through your specific programs, the 
survey telescopes, the big ideas, I agree with all of it; I 
appreciate in particular the advancement of the Daniel K. 
Inouye Solar Telescope. And then I get to the one catch line, 
which is that NSF fiscal year 2020 budget request is 9.6 below 
fiscal year 2018 and 12.6 below fiscal year 2019.
    And I ask the basic question, which Mr. Cartwright and 
which Mr. Crist just asked, what is going on? Budgets reflect 
priorities. And the inescapable conclusion that I come to when 
I read the testimony and listen to your answer is that NSF in 
general is not prioritized within this President's and this 
Administration's budget. I cannot explain a reduction of over 
10 percent over the last fiscal year when you have thanked this 
committee a couple of times already for the increase in funding 
in fiscal year 2019, and of course a 10-percent increase, and 
then Mr. Cartwright's observation that we are now back to 
fiscal year 2012 levels.
    I just ask you the basic question, what am I to make of 
that?
    I look at your budget splits, I see reductions of almost 10 
percent in your basic programs, and then I do see of course an 
increase for major research equipment and facilities 
construction of almost 20 percent. I am not sure if that is 
related to your big ideas. I am wondering whether what is 
actually going on is you have shifted from kind of a broader, 
more inclusive research prioritization to really focusing in on 
a few to the exclusion of many.
    Dr. Cordova. We fund science and engineering across all 
disciplines, everything, except for biomedical science, and all 
of our directorates. When the budget goes up, they all take 
part in it, and, when it goes down, everything is decreased.
    We believe that all of the disciplines, that is what our 
whole convergence theme is about, need to work together to 
address major challenges and, in order to do that, we need to 
fund all aspects of science and engineering, because we never 
know where the next breakthrough is going to come from.
    And so the Ten Big Ideas specifically--well, six of them 
are research ideas and four are enabling ideas like convergence 
and all disciplines coming together, like inclusion and 
broadening participation--they are a strategic framework to 
look ahead and say where the country is going. And they are 
very, very broad, they came out of the core, and they will go 
back into it once they are funded for a few years and new 
strategic thrusts emerge.
    But I hope sincerely that we are funding all areas of 
science and engineering, because they are all very, very 
important for our mission.

                          NSF BUDGET PLANNING

    Mr. Case. Was there a direction at the National Science 
Foundation to cut 10 percent and find out how to cut it, or was 
there a more educated process to decide within each of your 
departments as to the prioritization there?
    I am looking, for example, at biological science, 9.7 
percent cut; computer information science and engineering, 8.1 
percent; basic engineering is 13.3-percent reduction; math and 
physical science, 16.5 percent; social behavior and analytic 
economic science, 5.6 percent; Polar programs, 19.6 percent.
    I mean, these are all reductions, they are all in some 
range. How were those reductions made? I mean, was this a 
bottom-up assessment of National Science priorities or was this 
a top-down direction to simply reduce the budget?
    Dr. Cordova. Well, first of all, the President's budget is 
a 5-percent reduction below the fiscal year 2019 request in 
non-defense spending, in order to shrink the deficit from 
nearly 5 percent of GDP in 2020 to under 1 percent of GDP in 
2029. And the President's budget reflects that steps we take 
today to reduce the deficit will help the Nation remain 
globally competitive and allow our children and grandchildren 
to remain unencumbered by today's spending. So that is the 
overall framework for the 5 percent.
    And beyond that, if you are asking for details, we at the 
National Science Foundation all work--when we have a target 
that we are working for, we work very closely together. It is a 
bottom-up and a top-down process where we decide what it is 
that are priorities of Congress, priorities of the 
Administration, and priorities of the scientific community 
through input like all the reports, studies of the National 
Academy of Sciences and our advisory committees--we put all of 
that together and we come out with a budget that reflects where 
we think we need to go.
    Mr. Case. Did you have a budget cut directive--back to my 
question--did you have a budget cut directive to get to 10 
percent or was there a more deliberate, thoughtful, generating 
bottom-up process that assessed that, for example, in the area 
of biological sciences, you know, we needed to cut by almost 10 
percent in that department to arrive at some kind of a merit-
based assessment?
    Dr. Cordova. I think, as I said, Congressman, that the 
overall framework is the President's initiative to get us back 
on course with a big deficit that our country is facing and 
that requires some pulling back on the funding that we have in 
non-defense spending and, within that framework, we made very 
conscious decisions about what to do internally.
    And I think if you look across the various directorates and 
you compare them with things that we did in the last couple of 
years, for example, in fiscal year 2018, we got the money late 
enough, an extra $300 million, that we gave it towards one-time 
funding of specialty facilities that were in great need of 
repair, Arecibo and others are included in that.
    And that pushed up certain units in fiscal year 2018. Once 
they had spent that one-time funding, then we had that money to 
apply across the board in fiscal year 2019. And so there are 
little puts and takes as we go along because of one-time needs.
    But in setting the 2020 budget, we had this overall 
framework of minus 5 percent below the 2019 cap level, and then 
we went about making conscious decisions about where to take 
that from. I think you will find that those, the puts and 
takes, are very fairly done within that framework.
    Mr. Case. Well, they are distributed fairly evenly, I will 
give you that, but still it is a big cut overall. And that is 
what I am trying to get at is what kind of prioritization am I 
supposed to make of that, not only within the scientific 
community, but kind of across the federal budget. And I 
understand you are not going to speak to the rest of the 
federal budget, you are here to talk about the National Science 
Foundation.
    But, again, I am asking you what is actually going on under 
the surface of this President's budget in the area of 
scientific research, which we all agree is critical to this 
country?
    Dr. Cordova. This is the President's budget. I think you 
can see that there are priorities of the Administration that 
are right in sync with NSF priorities in artificial 
intelligence, quantum research, wireless communications, 
advanced manufacturing and all. So we do have the priorities of 
the Administration in our budget.
    Mr. Case. OK. Thank you very much.
    Mr. Serrano. Thank you.

       ANTARCTIC INFRASTRUCTURE MODERNIZATION FOR SCIENCE (AIMS)

    Director Cordova, your budget request includes a request 
for $98 million in funding to continue work on the 
modernization of the McMurdo facility in Antarctica. Could you 
briefly walk us through this project?
    Dr. Cordova. Yes. So the----
    Mr. Serrano. When we are talking about Antarctica, I am 
telling staff, I get very nervous about asking you to walk us 
through just in case it is melting, you know, so----
    [Laughter.]
    Dr. Cordova. Well, the AIMS project really started 
conceptually with the blue ribbon panel that was conducted 
several years ago now, led by Norm Augustine, in which a panel 
of very distinguished scientists and engineers evaluated the 
situation at the McMurdo Station, which is one of three 
stations that make up the U.S. Antarctica program and that NSF 
runs on behalf of the country.
    And McMurdo is the first station that you arrive at there 
on the continental coast, and it is by far the largest station, 
and it is an important depot for logistics to the South Pole 
and logistics to all the camps where research is done around 
the McMurdo area.
    It is an aging facility. It is something like 40, 50 years 
old, and it looks like an old mining town that has been left 
unattended for decades. I first went there in 1996 when I was 
NASA's Chief Scientist as part of the team to evaluate the 
conditions at the South Pole station. As a consequence of the 
Senate's and Congress' look at that, the South Pole station was 
refurbished, but not McMurdo. And so McMurdo, in the 
intervening years, has just become more and more in need of 
refurbishment.
    So the AIMS project was our attempt to come up with a 
modernization for science program--it stands for Antarctica 
Infrastructure Modernization for Science--to address this. And 
it is a very ambitious program. It will address logistics, it 
will get rid of a lot of old, crumbling buildings there, and 
put things together in a much more streamlined, efficient plan 
in order to be able to handle logistics in a better, cheaper, 
faster way, eventually, but not without an initial cost in 
order to pay for it.
    So that cost has just been determined by a design review. A 
final design review was just completed a few months ago and 
presented to our National Science Board in February of this 
year, and they approved that cost, which is about $410 million, 
and it is starting right away. We are ready and doing 
procurements for the ships that will then take all the supplies 
down there on the next season, which starts in October.

                          ANTARCTIC OPERATIONS

    Mr. Serrano. You know, this question comes to mind, it is 
not a prepared question. So we are there doing some work, 
research and so on now, what other countries are in that 
continent?
    Dr. Cordova. There are many, many other countries that are 
there, and you can see the flags flying of more than a dozen, 
maybe close up to two dozen nations. I don't even know. At the 
last time I counted the flags, there were 17, but there may be 
more nations that are involved in Antarctica.
    Mr. Serrano. Thank you.
    As I understand it, due to the harsh weather and remote 
location, there are only certain times of the year this work 
can be done. How will the timing of appropriations impact the 
completion of the project?
    Dr. Cordova. The----
    Mr. Serrano. You know, we tend not to always be on time. 
[Laughter.]
    Dr. Cordova. Well, we kind of figured that out a few years 
ago when we had a shutdown that started on October 1st and I 
think in 2013, and so we now--for Antarctica operations in 
general, we forward-fund the operation, so that we don't get 
stuck with people and equipment and everything during the 
crucial season, which goes from October to February.
    For this project, we are fine for starting out for the 
coming year, because the Board did approve it and we have the 
funds--thank you, again, for fiscal year 2019 funds--to do the 
procurements. And so by the time the icebreaker goes and breaks 
the ice and the supply ships follow it to McMurdo, we will have 
it all ready.
    But, in general, your question is a very good one that 
appropriations are important on time, so that we can make the 
procurements, because, once you miss that deadline of when the 
icebreaker comes and breaks the ice there, then you have lost 
the entire season.
    Mr. Serrano. You know, I may be the only Member of Congress 
who ever so often makes a sound, like gridlock does not bother 
me, because gridlock is a result of democracy. There are 
countries where the budget is always on time, you know, because 
there are only a couple of people making the decision, and here 
we have a lot of people making the decision.

                   MID-SCALE RESEARCH INFRASTRUCTURE

    Your budget request includes $75 million for the new Mid-
scale Research Infrastructure program, which would invest in 
research facilities smaller than a telescope, for example, but 
larger than what can be funded within existing programs. Can 
you give us some examples of what sort of projects these would 
be?
    Dr. Cordova. Sure. As I mentioned earlier, we got a few 
hundred proposals for our first Mid-scale launch, and those 
just recently arrived, and they total about $4.7 billion in 
requests. I can't talk about those specific proposals, of 
course, because they are being evaluated, but I can give you 
several examples of projects that we are doing that are within 
that frame of a few million dollars to about $70 million.
    One is Advanced LIGO Plus. Advanced LIGO Plus was financed 
because of the augmentation we got in fiscal year 2018, and so 
we funded it over 2018 and continuing into 2019, and that 
project is within that budgetary amount. And that is going to 
open up a huge volume of the universe to be able to detect 
gravitational waves.
    We have funded upgrades to the Alvin submersible vehicle to 
study our oceans--that is also in the same monetary framework. 
We funded improvements to NHERI, which conducts earthquake 
research and has a shake table that needed refurbishment. We 
funded a refurbishment to the Palmer Pier. In Antarctica, 
Palmer is one of our three stations that desperately needed 
funding and that was also in that same money framework.
    And then, finally, we funded the two detectors for the 
Large Hadron Collider, which are done together under MREFC. Our 
upgrade is a $75 million contribution, so that would have fit 
within that area.
    So you can see then from Geoscience to Engineering, to Math 
and Physical Sciences, they all have very important projects 
that can be done as mid-scale projects. There is just 
tremendous demand out there.
    And, as technology improves, there are more and more 
projects that are going to be costing less money. And I guess I 
could mention Computer and Information Science and Engineering 
and their recent $60 million award for the Frontera system, a 
supercomputer, a high-performance supercomputer at the 
University of Texas Austin, that is also within that framework.
    So it doesn't matter what discipline you are in; there are 
a lot of important projects that can be done.

                        SEXUAL HARASSMENT POLICY

    Mr. Serrano. In September of 2018--this is my last 
question--NSF released a new policy on dealing with sexual 
harassment by foundation grantees, including the possibility of 
terminating grant funding because of harassment.
    Is it your sense that the policy is working and how many 
complaints have you received?
    Dr. Cordova. It is our sense that the policy is working for 
a couple of reasons. We have gotten tremendous feedback from 
the community over how important this is, and it will hold 
institutions accountable for the conduct of researchers. That 
in itself makes people feel more empowered in the work and the 
research they are doing. It was a real eyeopener to see how 
devastating harassment can be within the science and 
engineering communities.
    Universities are being very responsive and calling us at 
the first inkling that something is amiss just to get our 
advice, even as they are proceeding with their own inquiries 
and investigations. We have teams that have gone out, as you 
probably know, for a long time and have checked on Title IX 
compliance, and so those teams are continuing to be out there.
    But I think, as far as your question is concerned on how 
many, that is a question that is changing, as you can imagine, 
as we proceed and I would have to ask our Office of Diversity 
and Inclusion to get back to you with specific numbers.

                     NSF'S SEXUAL HARASSMENT POLICY

     There are three levels of reporting associated with NSF's 
Sexual Harassment Policy: (1) notifications--when NSF-funded 
awardee institutions submit notifications through a secure 
portal to ODI as required by the new harassment term and 
condition which became effective October 22, 2018; (2) 
complaints--when individuals who believe that NSF-funded 
awardee institutions violated Title IX and they elect to file 
allegation(s) of sexual harassment with ODI; and (3) 
communications--when anyone informs ODI of alleged instances of 
sexual harassment regarding NSF-funded awardee institutions 
that may lead to a complaint.
     Since NSF's release of Important Notice No. 144 on 
February 4, 2018, stating that NSF will not tolerate sexual 
harassment, we have received scores of communications 
pertaining to allegations of sexual harassment, which led to 
six formal complaints filed with ODI. Since the effective date 
of the harassment term and condition (October 22, 2018), NSF 
has received eight notifications from NSF-funded awardee 
institutions regarding their PIs or Co-PIs being subjected to 
administrative action because a harassment complaint was filed 
against them (i.e., administrative leave, barred from entering 
campus) or findings were made in harassment investigations 
conducted by the NSF-funded awardee institution. It is 
important to note that an NSF-funded awardee is required to 
make notification to ODI only if there is a finding/
determination, placement on administrative leave or the 
imposition of any administrative action by the NSF-funded 
awardee institution's against the PI or Co-PI regarding sexual 
harassment on an award made or supplemented after the effective 
date of October 22, 2018.
     Under the new term and condition, which became effective 
approximately six months ago, a few NSF-funded awardee 
institutions have elected to remove or replace a PI or Co-PI 
which was supported by NSF. In this short period of time, NSF 
hasn't required any NSF-funded awardee institutions to remove 
or replace a PI or Co-PI as a result of the new term and 
condition.
    You have to realize that we actually put this into force as 
of the end of October, I think it was October 26th of this past 
year, so there has been relatively little time for--and we had 
a shutdown in the middle of that--for universities, for things 
to happen since that time. So we can also expect that we really 
need to evaluate any rise in the number of such instances over 
the next couple of years; that will be the important marker 
here.
    Mr. Serrano. Have any investigators had their grant funding 
withdrawn?
    Dr. Cordova. Under this program that we just started, this 
new term and condition as of late October, not to my knowledge. 
But, again, our people that are doing that would have to get 
back to you.
    We are notified and we have been for a long time when 
investigators commit a transgression, and we have been on top 
of it and looked into it before this, using our Title IX 
wherewithal, and there universities have removed investigators. 
And then when the research is implicated, when they have NSF 
funding, then we work with the universities to see if that 
research should continue or not with a different principal 
investigator or whatever to make accommodations for the 
research itself without the investigators.
    But it is really, in the end, up to the institutions to do 
something and then--right now they are required to report to us 
when they have done something so that we don't get the 
information secondhand, as we had previously. But there have 
been people that have been removed from research by the 
universities in the past.
    Mr. Serrano. Thank you.
    Mr. Aderholt.
    Mr. Aderholt. Thank you.

                         AIMS ESTIMATE INCREASE

    Let me follow up with the AIMS project that you talked 
about a little earlier. Of course, the budget request includes 
$98 million to continue the construction and I understand the 
project is now, as you mentioned, $410 million. Why have the 
cost estimates increased?
    Dr. Cordova. So, as I mentioned, we just finished with the 
final design review and the independent cost estimate, and both 
of those came out together at the number that we proposed to 
the National Science Board for their approval of $410 million. 
So those were the numbers after very good studies were done.
    That is an increase from the original estimate, back in the 
first days of conceiving the project, those are increased for a 
couple of reasons. One is because commodities price markets 
have just changed, and things are more expensive now than they 
were in the past, and also the whole construction industry in 
this country has changed because of natural disasters like 
hurricanes, and so that has changed the market as well.
    So, assessing all those factors is why we have a design 
review and why we have independent cost estimates to get a 
really good number. So we will be held to that number as far as 
our no-cost-overrun policy is concerned.
    Mr. Aderholt. As it proceeds over the coming years, you 
don't expect there will be additional costs at this point?
    Dr. Cordova. We hope that our cost estimates are very good 
ones. There are always what we call unknown unknowns, things 
that you couldn't even imagine that would happen, and then we 
will have to deal with that, but that would apply not just to 
AIMS, that would apply to any facility that we have anywhere.

                     NSF'S ROLE IN VORTEX SOUTHEAST

    Mr. Aderholt. Of course, as you know, tornados are a real 
concern in my home state of Alabama, and of course other states 
in the Southeast as well, and we have had a lot of destructive, 
deadly tornados over the years. Just earlier this month, we had 
23 people that lost their lives when an EF-4 tornado tore 
through the eastern part of the state, and that is why research 
at VORTEX Southeast are so important. It brings the federal 
agencies together to better understand how environmental 
factors affect tornados, the formation of them, their 
intensity, and of course their path.
    Can you talk about NSF's role in the VORTEX Southeast and 
how NSF has worked with NOAA to build a research campaign to 
study the unique characteristics of tornados there in the 
Southeast.
    Dr. Cordova. First of all, Congressman Aderholt, our hearts 
go out from the National Science Foundation to those whose 
lives were lost or disrupted by those tornadoes. And, 
unfortunately, tornadoes, hurricanes, floods are events that we 
have had to live with. And our goal at NSF is to do the 
research that is needed to better predict those kinds of things 
and what their consequences could be to help people to get out 
of harm's way, and to also help with recovery. So prediction 
and resilience and recovery are what we fund research about.
    Now, with NOAA we do have a collaboration on the VORTEX 
program. As you know, it is run out of NOAA's National Severe 
Storms Laboratory in Oklahoma, and that began with a workshop 
in 2015 in Huntsville, Alabama, and that field work is ongoing 
and was in effect when those deadly tornados struck earlier 
this month.
    NSF has contributed a lot to tornado research. I mentioned 
in my oral remarks about the development of mobile Doppler 
radar. Kelvin Droegemeier, the new Director of OSTP and a 
former vice chairman of the National Science Board, which is 
the policy arm of the National Science Foundation, is a tornado 
researcher and we have funded a couple of the centers that he 
has headed up on this tornado research.
    So we stand ready to work with our partners at NOAA and 
NSSL to support scientists to conduct this vitally important 
research.
    Mr. Aderholt. Is--oh, you know, how would NOAA's proposal, 
as I understand it, to terminate funding for the VORTEX 
Southeast in fiscal year 2020 impact your work at NSF?
    Dr. Cordova. As I said, we are committed to research and 
that project has been a particularly good one. We will continue 
to fund through our PREEVENTS program in engineering and 
geosciences, we will continue to be funding the research that I 
mentioned on prediction and resilience and prevention. I don't 
know the details of NOAA's budget, of course, but our 
commitment there is to do this important research.

           ARTIFICIAL INTELLIGENCE AND GLOBAL COMPETITIVENESS

    Mr. Aderholt. And I know earlier there was a question about 
artificial intelligence, and you talked about that in your 
comments and I think you answered the question. Just to follow 
up on that, in your opinion, is the United States, do you think 
it has fallen behind competitors such as China when it comes to 
funding artificial intelligence research and other emerging 
technologies?
    Dr. Cordova. I don't. We continue to have very high 
standing among the top organizations and research institutions, 
universities that are doing this kind of research, we still are 
in the--whatever number you take, top 20, top 10--we still have 
the leading groups in this country that are doing that 
research.
    We have a tremendous amount of talent and innovation out 
there. We have a great plan. The White House in 2016 produced 
an artificial intelligence strategic plan, which is being 
evaluated by the present Administration. We have a select 
committee on artificial intelligence that I co-chair with the 
head of DARPA to work with all the agencies to put us ahead in 
artificial intelligence. And, very importantly, we have a 
remarkable industry that surrounds, that is involved, engaged 
with artificial intelligence, and that is a very creative force 
and that industry, working together with the government and 
with non-profits, that just can do amazing things.
    We have meetings continually with industry and the White 
House, and with all the other agencies, on where we need to be 
leading in artificial intelligence. And just NSF alone, I 
estimate by counting across all directorates, is spending 
something like $492 million on artificial intelligence even 
within this budget. That is really counting broadly over all 
the things we do in computer science and with high-performance 
computers to enable artificial intelligence, but it is all 
relevant, because artificial intelligence is really a 
collection of things, a collection of approaches.
    The basic research that we are doing on artificial 
intelligence I think is going to be the real game-changer. 
There is a lot of innovation in very selected areas of 
artificial intelligence that are coming out of industry and 
will continue to come out of industry. But if you think of 
something like the Internet or the World Wide Web, those came 
from government funding, and I believe that the real innovation 
that is going to come in artificial intelligence is also going 
to come from government funding and it is going to start with 
basic research.
    Mr. Aderholt. Are you collaborating with international 
partners in doing--to advance the research regarding artificial 
intelligence?
    Dr. Cordova. We are collaborating with selected 
international partners, yes. There is, as you know, a huge 
hunger to do all aspects of artificial intelligence and 
countries in Europe and Great Britain are among them. We fund 
investigators, they fund their own investigators, and we do 
partnerships together. You know, much of the research that is 
produced and the majority of publications have international 
teams of authors, and we have gained so much from other 
countries by working with their best people, their most 
talented people, and I think that is definitely the wave of the 
present and the future.
    Mr. Aderholt. Thank you.
    I yield back.
    Mr. Serrano. Well, we have no more questions. We want to 
just mention that we will have additional questions for the 
record.
    Dr. Cordova. Of course.
    Mr. Serrano. We want to thank you for your testimony today. 
We want to thank you for your advocacy on behalf of your 
agency. We are very supportive of NSF and we will continue to 
be as your process develops.
    So, thank you for your testimony today.
    Dr. Cordova. Thank you, Chairman Serrano.
    Mr. Aderholt. Thank you.
    Dr. Cordova. Ranking Member Aderholt, thank you.
    Mr. Serrano. And the hearing is adjourned.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                            Tuesday, March 26, 2019

                              MEMBERS' DAY

    Mr. Serrano. The hearing will come to order. This 
afternoon, we have a great opportunity to hear from our 
colleagues in Congress about the programs and agencies that 
they care about. The CJS bill covers a lot of territory, so it 
is important that as we move forward with the fiscal year 2020 
appropriations process, we try and put in priority what is 
important to those who serve with us.
    Last year, I noted to Chairman Culberson that it is 
interesting that every member who came before us asked for 
further investment in the areas covered by this subcommittee. 
No one comes here to tell us to reduce funding for our agencies 
or programs. It shows the importance of investing in our Nation 
and everything from scientific research to a fair and equitable 
justice system to economic development and beyond.
    I look forward to hearing from our witnesses. And with 
that, let me turn to my colleague, Mr. Aderholt.
    Mr. Aderholt. Thank you, Mr. Chairman. And thank you for 
yielding. And certainly, as you mentioned, this subcommittee 
covers a wide swath of issues, important federal funding from 
combating crime and terrorism, promoting trade, forecasting the 
weather, invest in basic research, and of course, space 
exploration.
    And so I also want to thank the chairman for holding this 
Member Day hearing and allowing members from the House to be 
able to come before our subcommittee and to talk about issues 
that are important to them. I think it is vital that members do 
have an opportunity to convey their priorities and to educate 
us on the issues that are important to them. We want every 
member to know that we are listening to you and we want to try 
to accommodate every way we can as we proceed through the 
appropriations process.
    So with that, thank you again, and I yield back.
    Mr. Serrano. Thank you, Mr. Aderholt. I just want to 
reinforce your comments. We may not keep you here a long time, 
but it doesn't mean we are not listening and we are not taking 
notes. Trust me.
    So our first witness, speaker, presenter is my colleague 
and brother from New York, chairman of our democratic caucus, 
Mr. Jeffries.

   STATEMENT OF HON. HAKEEM S. JEFFRIES, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Jeffries. Good afternoon, Chairman Serrano, Ranking 
Member Aderholt, and distinguished members of the subcommittee. 
Thank you for the opportunity to testify on funding priorities 
for the fiscal year 2020 Commerce, Justice, Science, and 
Related Agencies Appropriations Bill.
    Before I say anything further, let me just state on the 
record our gratitude. The people of New York are grateful for 
the 45 years of iconic, legendary, distinguished service that 
you, Chairman Serrano, have provided to the people of the south 
Bronx, who are much better off for you having taken this public 
service journey. And we look forward to continuing to work with 
you through the balance of the 116th Congress.
    I am here to request that the First Step Act receive the 
full funding amount authorized by law. The First Step Act 
became law on December 21st of last year, when it was signed 
into law by President Trump, after passing the House of 
Representatives and Senate with overwhelming bipartisan 
support, led in a significant fashion by Congressman Doug 
Collins.
    A key component of this important legislation was the 
authorization of $75 million per year for the Bureau of Prisons 
to expand and develop opportunities for incarcerated 
individuals to participate in programming and productive 
activities shows to reduce the risk of recidivism. This 
programming will provide returning citizens with the necessary 
tools for a successful and lasting transition back into their 
communities.
    It will also make our federal prisons more effective places 
of rehabilitation and eventually reduce overcrowding and save 
taxpayer dollars.
    Today, there are more than 180,000 inmates in the federal 
prison system. Almost every single one of them will be released 
at some point in time. However, high rates of recidivism 
suggests that we can do much better to prepare currently 
incarcerated individuals for reentry. Research has shown that 
programming, like the kind authorized by the First Step Act, 
will dramatically reduce recidivism and save taxpayer dollars.
    According to a recent study, inmates who participated in 
correctional education programs were 43 percent less likely to 
recidivate than inmates who did not. Congress passed the First 
Step Act to give individuals in the Bureau of Prisons' custody 
a better chance to return to a productive law abiding life. 
Funding for the law's implementation is critical to achieve 
this goal.
    We have seen many examples of educational, vocational, and 
faith based programming, making a real difference in the lives 
of incarcerated individuals. While the BOP currently offers 
literacy classes, English as a second language, parenting 
classes, wellness education, and adult continuing education, 
demand greatly exceeds supply.
    One study found that 70 percent of incarcerated individuals 
who wanted to take an education program in order to expand 
their knowledge or skills and to increase their chances of 
getting a job upon release, expressed an interest, but only 21 
percent were actually studying for a formal degree or 
certificate because of the lack of capacity.
    Further, BOP has reported long waiting lines for work and 
educational programs. It is critical that we provide everyone 
who wants to participate an opportunity to do so. While the 
expanded programming and associated earn time credits will lead 
to significant long term cost savings for taxpayers and 
improved public safety, the First Step Act must be fully funded 
at $75 million per year over a 5-year period to make these 
benefits possible.
    This is an opportunity to make a transformational 
investment in the lives of incarcerated and formerly 
incarcerated individuals, giving them a chance to be bigger 
than the mistakes that put them behind bars, and to continue 
the progress that we have made in a bipartisan way on criminal 
justice reform.
    Once again, I thank the distinguished chairman and ranking 
member for your time and consideration.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Serrano. Thank you, Mr. Jeffries. So we usually at 
these meetings don't ask many, if any, questions. But we want 
to first congratulate you on a bipartisan bill passing, which 
is unique every so often. And secondly, an important question, 
is there someone in the Senate asking for this amount also?
    Mr. Jeffries. It is my understanding that Chairman 
Grassley, who was the lead sponsor in the Senate, along with 
several other members on the Democratic side of the aisle are 
fully supportive of the $75 million and will work to carry the 
load on the Senate side as well, since that was a critical and 
important part of the legislation.
    Mr. Serrano. Great. Is that all? Thank you, Mr. Jeffries--
--
    Mr. Jefferies.. Thank you, Mr. Chairman.
    Mr. Serrano [continuing]. For your testimony. We will call 
you when we get the money.
    Mr. Jeffries. I hope so.
    Mr. Serrano. Don't call us. We will call you. Mr. Posey is 
next.
                              ----------                              


THE HONORABLE BILL POSEY, A REPRESENTATIVE IN CONGRESS FROM THE 
                        STATE OF FLORIDA

    Mr. Posey. Thank you----
    Mr. Serrano.  Welcome.
    Mr. Posey [continuing]. Mr. Serrano and Ranking Member 
Aderholt for holding this hearing today. You actually want to 
hear from members about what their priorities are, and thank 
you for the opportunity to come before you and talking about 
keeping America's Space Program first in the world.
    As you know, the United States is the only nation to have 
landed humans on the moon and return them safely to Earth. It 
is among the greatest achievements in the history of mankind 
and has significantly contributed to America's leadership in 
the world.
    The Apollo Missions opened the door to other significant 
accomplishments, like building space shuttles to test the 
limits of human space flight, prolonged, robotic exploration of 
Mars, launching a space-based telescope that can see far beyond 
our solar system, and conducting scientific research on the 
International Space Station that is benefitting those of us on 
Earth, as well as enabling us to understand and prepare for 
challenges of long-term space missions.
    In 2010, Congress authorized a construction of NASA's Space 
Launch System, that you will hear referred to as the SLS, as a 
successor to the space shuttle that will be capable of 
launching both cargo and human crews into space. The idea is to 
build a powerful rocket that will enable humans to return to 
the Moon and eventually travel to Mars and other deep space 
destinations. The SLS and its Orion crew capsule have received 
strong bipartisan funding support by Congress over the past 9 
years.
    Today, I ask you to continue that support in order to keep 
the SLS program on track and ready for its first mission next 
year. I respectfully urge you to consider a total funding level 
of $2.15 billion for the Space Launch System for fiscal year 
2020, which would preserve the fiscal year 2019 approved 
funding level and avoid the proposed $400 million reduction in 
the Administration's budget request. This funding is necessary 
to complete the rocket and build the necessary infrastructure 
on the ground to support the first launch.
    Specifically, no less than $200 million is needed for the 
exploration upper stage, which will make it possible to have 
both human crews and cargo on board the same flight. The Orion 
crew capsule will serve as the exploration vehicle that will 
carry astronauts to space atop the SLS. For 2020, 1.5 billion 
is needed to continue building this cutting edge Orion vehicle, 
the only capsule currently being designed and assembled which 
can protect our astronauts below Earth orbit, in Moon orbit, 
and around Mars.
    Lastly, we need to continue our efforts to build the 
infrastructure needed on the ground support for safe and 
successful launches. Exploration ground systems are critical to 
our space launch capability. Put simply, without strong launch 
systems on the ground, the rockets don't go anywhere.
    I am requesting that the committee keep this mission on 
track by providing $590 million for the exploration ground 
systems in fiscal year 2020 and an additional $50 million to 
continue the construction of the second mobile launcher, which, 
when completed, will give us a unique multiple launch 
capability and further protect our national security. This will 
also preserve the fiscal year 2019 approved funding levels.
    You can't help being impressed with the progress and 
development of the commercial space sector. I am excited about 
launching American astronauts from American soil, aboard both 
the Boeing Starliner Crew Vehicle and SpaceX Crew Dragon. These 
low Earth orbit missions are important for sustaining our 
research being conducted on the International Space Station, 
allowing NASA to plan bold, deep space exploratory missions.
    One final point, as I have often said, space is critical to 
our national security. It is the ultimate military high ground, 
and whoever controls space will control the destiny of the 
world. That is why it is so important that we maintain 
America's leadership in space.
    The Defense Intelligence Agency released a report in 
January entitled ``Challenges to Security in Space,'' which 
discusses plans by China and Russia to develop their own 
versions of super heavy lift space vehicles similar to our own 
SLS. Now is the time to double down on America's space program 
and commit the resources necessary to keeping America first in 
space. It would be foolish to relinquish this military high 
ground to Russia and China, who perhaps do not have America's 
best interest in mind.
    I want to again thank you, Chairman Serrano, and Ranking 
Member Aderholt, and the committee for your time today. Space 
has been one of the truly bipartisan issues in Congress. I very 
much enjoyed working across the aisle on issues. Our 
achievements in space have served to unify our Nation and the 
world.
    I ask my colleagues to join as we continue to build a 
foundation for the next decade to be defined by human 
exploration, scientific discovery, and American achievement. 
Thank you very much.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Serrano. Thank you, Mr. Posey. Just one point to make 
and that is in the change of ranking member and chairman in 
this committee, one thing did not change and it is our respect 
and our love for the work that NASA does. So your words are not 
falling on closed ears here.
    We can't tell you you can walk out with the money, but we 
can tell you that it is not just an exercise in making a 
statement.
    Mr. Posey. I have never felt that way in this committee.
    Mr. Serrano. Thank you.
    Mr. Posey. I thank you. Bless you, Mr. Chairman.
    Mr. Aderholt. I appreciate your comments on that, and I 
agree, and we appreciate your testimony. Thanks so much.
    Mr. Posey. Thank you.
    Mr. Serrano. Ms. Jackson Lee, please join us.
                              ----------                              


THE HONORABLE SHEILA JACKSON LEE, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Ms. Jackson Lee. Mr. Chairman, thank you, first of all, for 
giving me this opportunity, Mr. Aderholt. Both of you, I have 
had the opportunity in the years that I have served to work 
with, and I thank you very much for your very sincere and 
important work on committees that I have overlapping 
jurisdiction as a member of the Judiciary Committee.
    So these are very important issues before me. I would like 
to generally make a statement dealing with the work of the 
issues of commerce, the issues of justice, and the issue of 
science. Much of this are economic engines that are important. 
I have been on the Science Committee for a number of years in 
my early service to this Congress. It is an important 
committee. And I still remain on the Judiciary Committee.
    As it relates to commerce, one of the important 
responsibilities of commerce is a census. That is the lifeline 
of the American people in ensuring that the work of counting 
Americans, everybody that is here, is important. And I am a 
strong supporter of $8 billion and may need a little bit more 
for the census because I think we need to address concerns with 
our very diverse population.
    As I recall, in the Constitution, it is to count every 
single person. It doesn't ask them for any litmus test, or who 
they are, or what--but they are in this country and they need 
to be counted. So I hope that some of the extra attachments or 
extra restraints about asking questions on citizenship and 
otherwise, that we realize that the constitutional fathers 
intended that every single person be counted.
    Let me now indicate my concern on criminal justice reform, 
advancement of scientific knowledge and space exploration, and 
expanding the economic opportunity.
    I support $300 million for community oriented policing. I 
think we need to restore that. Remember that program came in 
under the 1990s with President Clinton. I will tell you, our 
law enforcement celebrate the opportunity to invest in good law 
enforcement, rebuilding the trust and confidence between the 
law enforcement and community. And I think the COPS program can 
help that.
    I support $75 million for the National Instant Background 
Check. As a member of the Judiciary Committee, we have just 
passed legislation regarding universal background check. But we 
also had the NICS fixed that individuals who were able to 
squeak through and get guns, like Dylann, like the gentleman 
who went into a South Carolina church in Charleston, South 
Carolina and killed nine worshipers. This money is very 
important.
    I support $450 million for the Byrne Justice Assistance 
Grant just passed on the floor of the House, a reauthorization 
of the juvenile block grant, and the bullying intervention and 
prevention. Talk to any parent in America's schools and 
neighborhoods. They are crying out for intervention programs 
dealing with bullying and cyber bullying. My legislation deals 
with that. Byrne grants can be very helpful in a number of 
issues from juvenile justice, crime prevention, education, and 
corrections.
    I support $255 million for the State Criminal Alien 
Assistance Program and support and recognize the critical role 
of this program, and particularly in Texas.
    I support $150 million for Second Chance Act. This is 
something that I worked on with Danny Davis. He was the lead. 
But it provides grants to government agencies and I would like 
to see us ensure $150 million. I would argue that there are so 
many people that are impacted by this that I would like and 
hope the committee could consider increasing that amount.
    I support $500 million for the Violence Against Women Act. 
I wrote the bill that is now headed towards the United States 
Congress floor of the House. We have passed it at a hearing in 
the subcommittee, marked it up in the full committee. It is an 
important initiative that has a large amount of funding for our 
law enforcement to be able to prosecute. And we realize that 
domestic violence is an epidemic, and the importance of 
providing law enforcement, and counseling, and all of that. And 
so this is a very important funding source.
    I support $35 million to prevent the trafficking of girls. 
Houston, Texas has been called the epicenter of trafficking. 
Trafficking is all around the world. And the one point that I 
would make about trafficking, again, I ask and encourage 
increased funding. The one thing about trafficking is it is 
recycling. These girls can be recycled and these boys can be 
recycled. You can use--drugs is one thing, but you can make 
money on cycling these children in the trafficking business and 
we need to stamp out trafficking. And so I would support 
increasing that.
    Two hundred fifty million dollars for the juvenile justice 
programs. I have mentioned earlier the importance of these 
programs. I am looking to reform the juvenile justice system. 
Many people don't realize, and I certainly would hope this 
could support best practices, that juveniles are not sentenced. 
They are sent to the juvenile system with no sentence. And 
literally, they can stay there until they are 21.
    I think credible adults and family members would want to 
see a better pathway for their young people for them not to be 
part of the recidivism of someone who stays in a system for 8 
years or more because they come in at 12 or 13 and they have 
infractions. And all of a sudden, they are there until they are 
21 years old.
    And so I am hoping that maybe language could suggest that 
states need to be more effective and creative with how they 
house juveniles.
    I support $125 million for the Debbie Smith DNA backlog. I 
have worked on this issue with a number of my colleagues. And 
this has to do with the DNA labs. And before we got our hands 
into it, DNA labs are dealing with rape kits across the Nation, 
it was appalling. We have made a great difference. I hope $125 
million is, in fact, sufficient, but I would encourage 
consideration on that one as well.
    Let me quickly say the Civil Rights Division, it is 
something that I hope we can look at in a bipartisan way. It is 
a very important set of agencies. It is $30 million--I just 
want to make sure that they are able to deal with the intrusion 
of outsiders, Russian adversaries and others, into our election 
process. I want them to be able to protect the voting rights, 
to protect civil rights, to be able to stand in the courts 
against hate crimes. And they really need to be assured with 
the resources, the investigatory resources that they need. I 
would encourage an increase in the $30 million, but I support 
it.
    Five hundred million dollars for Legal Services is a vital 
organization. Many times, they are the only lifeline--if you 
don't have a public defendant, only lifeline for the vulnerable 
in things like disabilities benefits, families.
    Finally, with science, I support 1.25 for NASA's Commercial 
Crew Program, but I also support ensuring that the Orion, which 
is our product, comes back online, which is our ``space 
shuttle'' that we can work on.
    I support $40 million for the National Space Grant College 
and Fellowship Program. Science has created such an energy of 
economic infusion and I enjoy being on the Science Committee 
because of the opportunities for protecting research and 
development. But I think with your leadership on these issues, 
you can know that this--these dollars create an economic 
engine.
    I support $35 million for the Hispanic-Serving Institutions 
Undergraduate Program at the National Science Foundation 
because we need to diversify science and make sure everyone has 
an opportunity.
    And I mentioned economic opportunity, so I support 32 
million for Minority Business Development and $275 million for 
the Economic Development.
    Let me conclude by saying this. The Justice Department is 
very important to all of us. It is the anchor of justice and 
the anchor of being the people's lawyer. And so I am just 
concerned that as you proceed with your review, I know there is 
an authorizing committee, that we can look to the Justice 
Department, not to file frivolous lawsuits, and that they hold 
up what the American people want. And I am a victim of that. I 
am a victim of that because I am from the State of Texas. And 
so now there is a lawsuit to completely dismantle the 
Affordable Care Act using the case in Texas, when Texas has 
been the largest state--someone said that some other states 
have been competing with them--the largest state of uninsured 
individuals.
    We can't afford to lose access to healthcare, preexisting 
condition. And my state is being used to abolish the Affordable 
Care Act with no replacement. I don't know who makes decisions. 
I assume, obviously, the President controls every--but there is 
a Department of Justice.
    So I would just offer to say you have the oversight over 
this committee and just know that we are suffering. And I don't 
know how this lawsuit is going to play out. Obviously, my state 
leaders were involved in it. But it is sad and I would just 
hope that we would look to do what is for the greater good of 
the American people.
    I thank you very much again for your leadership. And it is 
a lot of work. And I hope that my comments about supporting 
certain important elements of the work will play a role because 
I think it would benefit not only the 18th Congressional 
District in Texas, but the whole Nation.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Serrano. Well, thank you, Congresswoman Jackson Lee. I 
suspected when I saw you that you were going to cover a vast 
area because your advocacy has been that for so many years in 
Congress where you cover a lot. In fact, I think the only thing 
you left out was the Congressional pay raise. That is never 
going to happen, so forget it.
    I just want to tell you that so many of the things you 
mentioned are of great interest to both the ranking member and 
the chairman. I have a special interest in the census and 
everyone, in short, because the census really tells us who our 
country is, who we are, and how we can go forward.
    In fact, I would either--having been born in a territory of 
Puerto Rico, I would even want the territories to be included 
in the final count. They are not now, so there are American 
citizens who don't get counted in the population of the United 
States. And I know the Constitution says count the people 
amongst the states, but they didn't envision holding a colony 
for 120 years or so. So there is a lot, but there is so many 
other things you mentioned are things that we will be talking 
about.
    Thank you for your testimony.
    Ms. Jackson Lee. Thank you so very much.
    Mr. Aderholt. Thank you for your testimony.
    Ms. Jackson Lee. Thank you. Thank you for the time given. 
Thank you.
    Mr. Serrano. Mr. Brooks. Congressman Mo Brooks.
                              ----------                              


THE HONORABLE MO BROOKS, A REPRESENTATIVE IN CONGRESS FROM THE 
                        STATE OF ALABAMA

    Mr. Brooks. Thank you Subcommittee Chairman Serrano and 
Ranking Member Aderholt. It is a pleasure to be with you today.
    I come to emphasize the importance of the Space Launch 
System, commonly referred to as SLS, to achieve America's space 
goals. As a Nation, America must strive to inspire the next 
generation. The SLS is America's catalyst that inspires our 
next generation of engineers and explorers. Alabama's Marshal 
Space Flight Center has played a vital space role for NASA and 
America. In a way, America's space program was born in Alabama.
    By way of one example, we designed and engineered the 
Apollo 5 rocket that took American astronauts to the moon. 
Today, we play an integral role in the designing, engineering, 
and testing of the SLS. NASA and its suppliers great work is 
turning science fiction into reality.
    The SLS helps ensure America's continued dominance in 
space, a dominance that includes returning astronauts to the 
moon for long-term exploration and exploration to Mars and 
beyond.
    I support NASA's goals and believe the SLS is integral to 
achievement of those goals because it is the only vehicle that 
can generate the thrust and lift necessary to send the Orion 
spacecraft, astronauts, and a large cargo to the Moon on a 
single mission.
    The SLS will be the most powerful rocket that man has ever 
created. The lift capabilities of the SLS are unparalleled, 
with transformative capability. There is no other rocket built 
or in production with anywhere near the capability of the SLS.
    America's long-term space priorities will benefit from 
staying the course. The SLS will be the most powerful rocket 
ever built, and the only rocket powerful enough to carry the 
weight of the Orion spacecraft or the Deep Space Gateway to the 
moon, both of which are necessary to accomplish America's space 
policy goals.
    It is important that Congress stay the course, support 
existing law, and provide required funding so that America can 
once again achieve greatness in space exploration.
    America's space program has been and should remain a 
bipartisan area for Congressional support. I ask that this 
committee to continue the spirit of bipartisan cooperation in 
space policy by supporting SLS. Adequate funding for the SLS is 
critical to achieving our Nation's space policy.
    The Appropriations Committee has been consistent over the 
past several years in providing the funding needed for these 
programs, and I ask this committee and subcommittee to continue 
to support full SLS funding in the fiscal year 2020 Commerce, 
Justice, Science Appropriations bill.
    Thank you for the opportunity to be with you today.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Serrano. Thank you. As I said before, we take very 
seriously all of these programs that fall under this category, 
the NASA programs and so on. And this committee has always been 
very favorable to NASA and to these programs. So we will take 
that into consideration. And we welcome your thoughts as we 
have heard them, and we thank you for them.
    Mr. Brooks. Thank you, Mr. Chairman.
    Mr. Aderholt. I will just say you articulated, I think, the 
issues very well and I certainly look forward to working with 
you to help make our space program here in the United States 
second to none. So thanks for your testimony.
    Mr. Brooks. Thank you, Congressman Aderholt.
    Mr. Serrano. Congresswoman Haaland.
                              ----------                              


 THE HONORABLE DEBRA A. HAALAND, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Ms. Haaland. Good afternoon. Thank you for having me.
    Chairman Serrano, Ranking Member Aderholt, and members of 
the subcommittee, thank you for this opportunity to speak about 
some key priorities for the CJS bill. It is an honor to be 
here. I appreciate the hard work that all of you do. And 
Chairman Serrano, I thank you for the years of service to our 
country.
    I am going to first talk about the 2020 census. Many areas 
of my state of New Mexico are rural. In fact, there is more 
rural areas than there are urban areas, with little to no 
broadband access. This makes it a challenge to conduct the 
census. New Mexico has some of the worst poverty rates in the 
Nation. In fact, half of our population is Medicaid eligible. 
So it is essential to our state that we have a successful 2020 
census to ensure both proper representation in this body and 
the proper distribution of federal resources to our 
communities.
    The Census Bureau faces a number of challenges, including 
the present Administration efforts to add an inflammatory 
question about citizenship that put the success of the 2020 
census in jeopardy. I urge you to fund the Census Bureau at the 
level needed to get an accurate count, including establishing 
partnerships with hard to count communities and conducting the 
necessary outreach. And that would include Indian tribes, not 
just in New Mexico but across the country.
    Next, I would like to talk about gun violence. Every day, 
100 Americans die from gun violence and hundreds more are shot 
or injured. Last month, I joined students at Cleveland High 
School in Rio Rancho, New Mexico, who were victims of gun 
violence. They had a shooting at their school. Thankfully, no 
one was physically harmed in the incident that the students' 
experienced, but the emotional distress is very real.
    Students' greatest worry should be preparing for their next 
exam, not dodging the next bullet. Guns are the second leading 
cause of death for American children and teens. Our nation is 
facing a gun violence epidemic that needs solutions, not just 
thoughts and prayers.
    An important part of this solution is improving the 
background check process, to ensure that guns do not get in the 
wrong hands. I urge the committee to include $100 million for 
the National Instant Criminal Background Check System program, 
NICS.
    Next, I would like to address sexual assault. I also urge 
the committee to support survivors of sexual assault and law 
enforcement efforts by providing at least $49 million for the 
National Sexual Assault Kit Initiative, the level passed by the 
House in fiscal year 2018. My own state of New Mexico has seen 
the benefit of these grants; at the end of 2018, the state lab 
cleared its backlog. But there is still work to be done.
    Backlogs persist in many of the other labs across the 
state, and I imagine in the country. Every rape kit that 
remains untested represents a missed opportunity to bring 
closure and healing to a survivor, and compromises our public 
safety. Sexual assault survivors deserve better, and Congress 
should support any efforts that bring about more justice.
    And with respect to Indian country. Indigenous people face 
serious problems in our country. The U.S. Commission on Civil 
Rights' Broken Promises report that just came out a few months 
ago details the government's breach of the trust responsibility 
and neglect of federal obligations, causing a lack of funding 
for fundamental services for Native Americans.
    The chronic lack of funding has led to a severe lack of 
resources for tribal public safety and justice systems, 
resulting in Native Americans experiencing some of the Nation's 
highest rates of crime and victimization. The DOJ also reported 
more than four in five Native women have experienced violence 
within their lives, more than half enduring sexual violence.
    In urban areas, the silent crisis of missing and murdered 
indigenous women is increasing. To address this crisis in the 
Native American community, I urge the committee to provide 
robust funding for victim advocates in state courts, especially 
for indigenous people experiencing this more than normal, 
higher rate of sexual assault and domestic violence in urban 
locations.
    Thank you for this opportunity to address you. And if you 
need any other information, we would be happy to.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Serrano. Well, we thank you for your testimony today. 
The issues you bring up are very important issues that this 
committee will be looking at from the census to sexual assault, 
sexual violence. And all of them are issues that are very, very 
important. And it is good to have members that can give us 
first hand information on many issues. So we thank you for your 
testimony.
    Ms. Haaland. Thank you, Chairman.
    Mr. Serrano. Mr. Aderholt?
    Mr. Aderholt. Thank you for your testimony. We look forward 
to working with you. And thanks so much for being here today.
    Ms. Haaland. Thank you very much.
    Mr. Serrano. And now we have is our next witness, Chairman 
Visclosky. I am not going to make that mistake of calling you 
anything else.
                              ----------                              


THE HONORABLE PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Mr. Visclosky. Mr. Chairman, thank you very much and I look 
forward to continuing to sit with you on full committee for 
next year.
    Mr. Serrano. You are welcome, Mr. Chairman.
    Mr. Visclosky. You have my full statement for the record.
    Mr. Serrano. Yes.
    Mr. Visclosky. I would like to summarize it. I am here on 
behalf of two priorities. The first is the funding for the 
International Trade Commission and secondly, appropriate 
funding for the implementation of the Civil Rights Cold Case 
Records Collection Act of 2018.
    The ITC, the International Trade Commission, does very 
important work as far as enforcing our laws to protect American 
workers against illegally traded goods and services. The Office 
of Management and Budget just submitted a request for $91.1 
million under the law. The ITC submits an independent budget 
estimate, and their request is for $101 million. And that is 
the request I am here to support.
    In fiscal year 2020, the ITC will need additional resources 
to conduct analysis required by the American Manufacturing 
Competitiveness Act of 2016. This law requires the ITC to 
collect petitions to suspend or reduce certain tariffs in the 
forthcoming miscellaneous tariff bill.
    Further, section 232 and three stages of section 301 
tariffs have required the ITC to revise their harmonized tariff 
schedule of the United States 13 times this past year, as 
compared to 3 times in a typical year. And finally, the ITC 
does need to update and modernize their information and 
technology infrastructure, and manage an increasing and complex 
case load.
    Secondly, I am here to testify on behalf of the funding to 
fully implement the Civil Rights Cold Case Records Collection 
Act of 2018. I understand there are negotiations going on 
between your subcommittee, as well as the subcommittee on 
financial services and government general as to the appropriate 
venue to fund this effort.
    I do understand that thoughtful consideration will take 
place and a resolution will happen. I think for too long, 
families of lynching and other hate crime victims have gone 
without information regarding crimes against their ancestors. I 
remain deeply cognizant of the legacy of racial inequality that 
continues to be present today in the United States. And I 
believe that we should do everything in our power to confront 
and address the suffering caused by racial terror and violence.
    And with that, I do thank you for your time today.
    [The information follows:]
    
    
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Serrano. Well, we thank you and you know how the system 
works. And we add to that that we take very seriously your 
concerns, and we will take it and keep it in mind as we move 
along. Mr. Aderholt?
    Mr. Aderholt. I would just say thank you. Of course, you 
are not stranger to this subcommittee. So good to have you back 
today with us. So thanks for your testimony. There is a lot 
today.
    Mr. Serrano. Thank you, sir. Thank you. The meeting is 
adjourned.



                           W I T N E S S E S

                              ----------                              
                                                                   Page

Brandon, Thomas E., deputy director, Bureau of Alcohol, Tobacco, 
  Firearms and Explosives........................................   205
    Prepared statement...........................................   210

Brooks, Hon. Mo, a Representative in Congress from the State of 
  Alabama........................................................   330
    Prepared statement...........................................   332

Cordova, France A., director, National Science Foundation........   261
    Prepared statement...........................................   265

Dreiband, Eric, assistant attorney general, Civil Rights 
  Division, U.S. Department of Justice...........................   117
    Prepared statement...........................................   121
    Answers to submitted questions...............................   163

Freilich, Michael H, director, NASA, Earth Science Division......     1
    Prepared statement...........................................    12

Haaland, Hon. Debra A., a Representative in Congress from the 
  State of New Mexico............................................   335
    Prepared statement...........................................   337

Halverson, Christine, acting assistant director, Criminal Justice 
  Information Services, Federal Bureau of Investigation..........   205
    Prepared statement...........................................   218

Jackson Lee, Hon. Sheila, a Representative in Congress from the 
  State of Texas.................................................   321
    Prepared statement...........................................   325

Jacobs, Neil, assistant secretary of commerce, Environmental 
  Observation and Prediction.....................................     1
    Prepared statement...........................................     7

Jeffries, Hon. Hakeem S., a Representative in Congress from the 
  State of New York..............................................   311
    Prepared statement...........................................   314

McHenry, James, director, Executive Office for Immigration Review    63
    Prepared statement...........................................    67

Posey, Hon. Bill, a Representative in Congress from the State of 
  Florida........................................................   316
    Prepared statement...........................................   318

Visclosky, Hon. Peter J., a Representative in Congress from the 
  State of Indiana...............................................   339
    Prepared statement...........................................   341



                                <all>
</pre></body></html>
